No. 21-

IN THE

pìéêÉãÉ=`çìêí=çÑ=íÜÉ=råáíÉÇ=pí~íÉë=
_______________
DAKOTA ACCESS, LLC,
Petitioner,
v.
STANDING ROCK SIOUX TRIBE, ET AL.,
Respondents.
_______________
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The District Of Columbia Circuit
_______________
APPENDIX TO PETITION
FOR A WRIT OF CERTIORARI
VOLUME I OF III
_______________
MIGUEL A. ESTRADA
Counsel of Record
WILLIAM S. SCHERMAN
DAVID DEBOLD
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, N.W.
Washington, D.C. 20036
(202) 955-8500
mestrada@gibsondunn.com
Counsel for Dakota Access, LLC

i
TABLE OF APPENDICES
Page
VOLUME I
APPENDIX A:
Opinion of the U.S. Court of Appeals for
the District of Columbia Circuit, 985
F.3d 1032 (Jan. 26, 2021) .............................. 1a
APPENDIX B:
U.S. Army Corps of Engineers,
Environmental Assessment – Dakota
Access Pipeline Project Crossings for
Flowage Easements and Federal Lands
(July 2016) ................................................... 41a
APPENDIX C:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Remanding Environmental
Assessment, 255 F. Supp. 3d 101 (June
14, 2017) ..................................................... 359a
VOLUME II
APPENDIX D:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Ordering Remaind Without
Vacatur, 282 F. Supp. 3d 91 (Oct. 11,
2017) ........................................................... 466a
APPENDIX E:
U.S. Army Corps of Engineers,
Memorandum
for
Record
on
Consideration of Issues Remanded (Aug.
31, 2018) ..................................................... 500a

ii
APPENDIX F:
U.S. Army Corps of Engineers, Review
and Analysis of Tribes’ Submissions
(Aug. 31, 2018) (Redacted) ........................ 503a
APPENDIX G:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Granting Summary Judgment
in Favor of Plaintiffs, 440 F. Supp. 3d 1
(Mar. 25, 2020) ........................................... 776a
APPENDIX H:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Ordering Vacatur, 471 F.
Supp. 3d 71 (July 6, 2020) ......................... 826a
APPENDIX I:
Per Curiam Order of the U.S. Court of
Appeals for the District of Columbia
Circuit Granting in Part and Denying in
Part Defendants’ Motions for a Stay
Pending Appeal (Aug. 5, 2020) .................. 855a
APPENDIX J:
Memorandum Opinion of the U.S.
District Court for the District of
Columbia Denying Plaintiffs’ Motion for
Clarification
and
a
Permanent
Injunction, -- F. Supp. 3d -- (May 21,
2021) ........................................................... 858a
APPENDIX K:
Order of the U.S. Court of Appeals for
the District of Columbia Circuit Denying
Rehearing En Banc (Apr. 23, 2021) .......... 895a

iii
APPENDIX L:
Statutory Provisions and Regulations
Involved ...................................................... 897a
5 U.S.C. § 702 ....................................... 897a
5 U.S.C. § 706 ....................................... 898a
30 U.S.C. § 185 (a), (b), (f), (h) ............. 899a
42 U.S.C. § 4332(2)(C).......................... 901a
33 C.F.R. pt. 325, App. B (2019) .......... 903a
40 C.F.R. § 1501.4 (2019) ..................... 908a
40 C.F.R. § 1508.28 (2019) ................... 910a
VOLUME III (SEALED)
APPENDIX M:
U.S. Army Corp of Engineers, Analysis of
the Issues Remanded (Aug. 31, 2018) ....... 913a

1a
____________________
APPENDIX A
____________________
United States Court Of Appeals
For The District Of Columbia Circuit
_____________
Argued November 4, 2020 Decided January 26, 2021
No. 20-5197
STANDING ROCK SIOUX TRIBE, ET AL.,
APPELLEES
v.
UNITED STATES ARMY CORPS OF ENGINEERS,
APPELLANT
DAKOTA ACCESS LLC,
INTERVENOR
_____________
Consolidated with 20-5201
_____________
Appeals from the United States District Court
for the District of Columbia
(No. 1:16-cv-01534)
_____________
James A. Maysonett, Attorney, U.S. Department
of Justice, argued the cause for appellant United
States Army Corps of Engineers. With him on the
briefs were Jeffrey Bossert Clark, Assistant Attorney
General, Jonathan D. Brightbill, Principal Deputy Assistant Attorney General, Eric A. Grant, Deputy Assistant Attorney General, and Andrew C. Mergen and
Erica M .Zilioli, Attorneys.

2a
Miguel A. Estrada argued the cause for appellant
Dakota Access LLC. With him on the briefs were William S. Scherman and David J. Debold.
Wayne K. Steneljem, Attorney General, Office of
the Attorney General for the State of North Dakota,
and Matthew A. Sagsveen, Solicitor General, were on
the brief for amicus curiae the State of North Dakota.
Tim Fox, Attorney General, Office of the Attorney
General for the State of Montana, Curtis T Hill, Jr.,
Attorney General, Office of the Attorney General for
the State of Indiana, Thomas M. Fisher, Solicitor General, Tom Miller, Attorney General, Office of the Attorney General for the State of Iowa, Derek Schmidt,
Attorney General, Office of the Attorney General for
the State of Kansas, Daniel Cameron, Attorney General, Office of the Attorney General for the Commonwealth of Kentucky, Jeff Landry, Attorney General,
Office of the Attorney General for the State of Louisiana, Doug Peterson, Attorney General, Office of the
Attorney General for the State of Nebraska, Dave
Yost, Attorney General, Office of the Attorney General
for the State of Ohio, Jason Ravnsborg, Attorney General, Office of the Attorney General for the State of
South Dakota, Patrick Morrisey, Attorney General,
Office of the Attorney General for the State of West
Virginia, and Bridget Hall, Attorney General, Office
of the Attorney General for the State of Wyoming,
were on the brief for amici curiae the States of Indiana, Montana, and 9 other states in support of appellants.
David H. Coburn, Joshua H. Runyan, Richard S.
Moskowitz, Tyler J. Kubik, Stephen J. Obermeier,
Wesley E. Weeks, John P. Wagner, Steven M. Kramer,

3a
Steven P. Lehotsky, and Michael B. Schon, were on the
brief for amici curiae American Fuel & Petrochemical
Manufacturers, et al. in support of appellants.
Jared R. Wigginton and Kent Mayo were on the
brief for amici curiae North Dakota Farm Bureau, et
al.
Christopher O. Murray was on the brief for amicus
curiae for appellant North Dakota Water Users Association in support of appellants.
Jan Hasselman argued the cause for appellees
Standing Rock Sioux Tribe, et al. With him on the
brief were Patti A. Goldman, Nicole E. Ducheneaux,
Jennifer S. Baker, Rollie E. Wilson, Jeffrey Rasmussen, Michael L. Roy, Jennifer P. Hughes, and Elliott A.
Milhollin, Jeremy J. Patterson entered an appearance.
Joel West Williams was on the brief for amici curiae the Great Plains Tribal Chairmen’s Association,
et al. in support of appellees.
Maura Healey, Attorney General, Office of the Attorney General for the Commonwealth of Massachusetts, Seth G. Schofield, Senior Appellate Counsel, Xavier Becerra, Attorney General, Office of the Attorney
General for the State of California, Jamie B. Jefferson
and Joshua R. Purtle, Deputy Attorneys General,
Kathleen Jennings, Attorney General, Office of the Attorney General for the State of Delaware, Christian
Douglas Wright, Director of Impact Ligitation, Aaron
M. Frey, Attorney General, Office of the Attorney General for the State of Maine, William Tong, Attorney
General, Office of the Attorney General for the State
of Connecticut, Clare Kindall, Solicitor General,

4a
Kwame Raoul, Attorney General, Office of the Attorney General for the State of Illinois, Brian E. Frosh,
Attorney General, Office of the Attorney General for
the State of Maryland, Dana Nessel, Attorney General, Office of the Attorney General for the State of
Michigan, Elizabeth Morrisseau, Assistant Attorney
General, Gurbir S. Grewal, Attorney General, Office
of the Attorney General for the State of New Jersey,
Letitia James, Attorney General, Office of the Attorney General for the State of New York, Aaron Ford,
Attorney General, Office of the Attorney General for
the State of Nevada, Hector Balderas, Attorney General, Office of the Attorney General for the State of
New Mexico, Ellen Rosenblum, Attorney General, Office of the Attorney General for the State of Oregon,
Paul Garrahan, Attorney-in-Charge, Steven Novick,
Special Assistant Attorney General, Peter F. Neronha,
Attorney General, Office of the Attorney General for
the State of Rhode Island, Tricia K. Jedele, Special Assistant Attorney General, Robert W. Ferguson, Attorney General, Office of the Attorney General for the
State of Washington, Noah Guzzo Purcell, Solicitor
General, Leevin T Camacho, Attorney General, Office
of the Attorney General for the Territory of Guam,
Thomas J. Donovan, Jr., Attorney General, Office of
the Attorney General for the State of Vermont, Nicholas F. Persampieri, Assistant Attorney General, Karl
A. Racine, Attorney General, Office of the Attorney
General for the District of Columbia, Loren L.
AliKhan, Solicitor General, Jacqueline R. Bechara,
Appellant Litigation Fellow, and Sarah Utley were on
the brief for amici curiae States of Massachusetts, et
al. in support of appellees.

5a
Douglas P. Hayes was on the brief for amici curiae
Sierra Club, et al. in support of appellees.
Kenneth Rumelt and James G. Mui Thy were on
the brief for amicus curiae Members of Congress in
support of appellees.
Mary Kathryn Nagle was on the brief for amicus
curiae National Indigenous Women’s Resource Center, Inc. in support of appellees.
Before: TATEL and MILLETT, Circuit Judges, and
SENTELLE, Senior Circuit Judge.
Opinion for the Court filed by Circuit Judge
TATEL.
TATEL, Circuit Judge: Lake Oahe, created when
the United States Army Corps of Engineers flooded
thousands of acres of Sioux lands in the Dakotas by
constructing the Oahe Dam on the Missouri River,
provides several successor tribes of the Great Sioux
Nation with water for drinking, industry, and sacred
cultural practices. Passing beneath Lake Oahe’s waters, the Dakota Access Pipeline transports crude oil
from North Dakota to Illinois. Under the Mineral
Leasing Act, 30 U.S.C. § 185, the pipeline could not
traverse the federally owned land at the Oahe crossing site without an easement from the Corps. The
question presented here is whether the Corps violated
the National Environmental Policy Act, 42 U.S.C.
§ 4321, by issuing that easement without preparing
an environmental impact statement despite substantial criticisms from the Tribes and, if so, what should
be done about that failure. We agree with the district
court that the Corps acted unlawfully, and we affirm
the court’s order vacating the easement while the

6a
Corps prepares an environmental impact statement.
But we reverse the court’s order to the extent it directed that the pipeline be shut down and emptied of
oil.
I.
“In order to ‘create and maintain conditions under
which man and nature can exist in productive harmony,’ the National Environmental Protection Act
(NEPA), 42 U.S.C. § 4331(a), requires any federal
agency issuing a construction permit, opening new
lands to drilling, or undertaking any other ‘major’ project to take a hard look at the project’s environmental
consequences, id. § 4332(2)(C) . . . .” National Parks
Conservation Association v. Semonite, 916 F.3d 1075,
1077 (D.C. Cir. 2019). “To this end, the agency must
develop an environmental impact statement (EIS)
that identifies and rigorously appraises the project’s
environmental effects, unless it finds that the project
will have ‘no significant impact.’” Id. (quoting 40
C.F.R. § 1508.9(a)(1)). “If any ‘significant’ environmental impacts might result from the proposed
agency action[,] then an EIS must be prepared before
agency action is taken.” Grand Canyon Trust v. FAA,
290 F.3d 339, 340 (D.C. Cir. 2002) (quoting Sierra
Club v. Peterson, 717 F.2d 1409, 1415 (D.C. Cir.
1983)). Preparing an EIS is a significant undertaking,
requiring the agency to “consult with and obtain the
comments of” other relevant agencies and publish a
“detailed statement” about the action’s environmental
effects. 42 U.S.C. § 4332(2)(C).
“Whether a project has significant environmental
impacts, thus triggering the need to produce an EIS,

7a
depends on its ‘context’ (regional, locality) and ‘intensity’ (‘severity of impact’).” National Parks, 916 F.3d
at 1082 (quoting 40 C.F.R. § 1508.27 (2018)). The operative regulations (since amended, Update to the
Regulations Implementing the Procedural Provisions
of the National Environmental Policy Act, 85 Fed.
Reg. 43,304 (July 16, 2020)) enumerate ten factors
that “should be considered” in assessing NEPA’s “intensity” element. 40 C.F.R. § 1508.27(b) (2019). “Implicating any one of the factors may be sufficient to
require development of an EIS.” National Parks, 916
F.3d at 1082. This case concerns the fourth factor—
”[t]he degree to which the effects on the quality of the
human environment are likely to be highly controversial.” 40 C.F.R. § 1508.27(b)(4) (2019).
The Dakota Access Pipeline (DAPL), nearly 1,200
miles long, is designed to move more than half a million gallons of crude oil from North Dakota to Illinois
each day. Standing Rock Sioux Tribe v. U.S. Army
Corps of Engineers (Standing Rock III), 255 F. Supp.
3d 101, 114 (D.D.C. 2017). DAPL crosses many waterways, including Lake Oahe, an artificial reservoir
in the Missouri River created when the Corps constructed a dam in 1958. The dam’s construction and
Lake Oahe’s creation flooded 56,000 acres of the
Standing Rock Reservation and 104,420 acres of the
Cheyenne River Sioux Tribe’s trust lands. Id. The
Tribes now rely on Lake Oahe’s water for drinking,
agriculture, industry, and sacred religious and medicinal practices. Id. As the Standing Rock Sioux Tribe
explained:
Lake Oahe is the source of life for the Tribe.
It provides drinking water for over 4,200 peo-

8a
ple on the Reservation. It is the source of water for irrigation and other economic pursuits
central to the Tribal economy. And it provides the habitat for fish and wildlife on the
Reservation upon which tribal members rely
for subsistence, cultural, and recreational
purposes. Moreover, the Tribe’s traditions
provide that water is more than just a resource, it is sacred—as water connects all of
nature and sustains life.
Letter from Dave Archambault II, Chairman, Standing Rock Sioux Tribe, to Lowry A. Crook, Principal
Deputy Assistant Secretary for Civil Works, Office of
the Assistant Secretary for the Army, and Col. John
Henderson, P.E., District Commander, U.S. Army
Corps of Engineers—Omaha District (Mar. 24, 2016),
Appendix (A.) 318.
Oil pipelines crossing federally regulated waters
like Lake Oahe require federal approval. See Standing Rock III, 255 F. Supp. 3d at 114. In June 2014,
Dakota Access, formed to construct and own DAPL,
notified the Corps that it intended to construct a portion of DAPL under Lake Oahe, just half a mile north
of the Standing Rock Reservation. Id. To do so, Dakota Access needed, among other things, a real-estate
easement from the Corps under the Mineral Leasing
Act (MLA), 30 U. S. C. § 185.
In December 2015, the Corps published and
sought public comment on a Draft Environmental Assessment (EA) finding that the construction would
have no significant environmental impact. Standing
Rock III, 255 F. Supp. 3d at 114-15. The Tribes sub-

9a
mitted comments voicing a range of concerns. Relevant here, the Tribes contended that the Corps had
insufficiently analyzed the risks and consequences of
an oil spill.
Two federal agencies also raised concerns. The
Department of the Interior requested that the Corps
prepare an EIS given the pipeline’s potential impact
on trust resources, criticizing the Corps for “not adequately justify[ing] or otherwise support[ing] its conclusion that there would be no significant impacts
upon the surrounding environment and community.”
Letter from Lawrence S. Roberts, Acting Assistant
Secretary—Indian Affairs, U.S. Department of the Interior, to Brent Cossette, U.S. Army Corps of Engineers, Omaha District (Mar. 29, 2016), A. 385-86. The
Environmental Protection Agency (EPA) registered
its concern that the Draft EA “lack[ed] sufficient analysis of direct and indirect impacts to water resources,”
though it requested additional information and mitigation in the EA rather than preparation of an EIS.
Letter from Philip S. Strobel, Director, NEPA Compliance and Review Program Office of Ecosystems Protection and Remediation, EPA, to Brent Cossette, U.S.
Army Corps of Engineers, Omaha District (Jan. 8,
2016), Reply Supplemental Appendix 1. But after becoming aware of the pipeline’s proximity to the Standing Rock reservation, EPA supplemented its comments to note that, while it agreed with the Corps that
there was “minimal risk of an oil spill,” it worried,
based on its “experience in spill response,” that a
break or leak could nonetheless significantly affect
water resources. Letter from Philip S. Strobel, Director, NEPA Compliance and Review Program, Office of
Ecosystems Protection and Remediation, EPA, to

10a
Brent Cossette, U.S. Army Corps of Engineers,
Omaha District (Mar. 11, 2016), A. 389-90.
On July 25, 2016, the Corps published its Final
EA and a “Mitigated Finding of No Significant Impact” (Mitigated FONSI). The Mitigated FONSI explained that, given the Corps’s adoption of various
mitigation measures, including horizontal directional
drilling, the Lake Oahe crossing would not “significantly affect the quality of the human environment”
and that an EIS was therefore unnecessary.
Shortly after the Final EA’s release, Standing
Rock sued the Corps for declaratory and injunctive relief under NEPA (and several other federal laws not
at issue in this appeal). Standing Rock III, 255 F.
Supp. 3d at 116-17. Dakota Access and the Cheyenne
River Sioux Tribe intervened on opposing sides, and
Cheyenne River filed a separate complaint adding additional claims. Id. at 117. Though the district court
denied the Tribes’ request for a preliminary injunction
on September 9, 2016, the Departments of Justice, Interior, and the Army immediately issued a joint statement explaining that the Corps would not issue an
MLA easement and that construction would not move
forward until the Army could determine whether reconsideration of any of its previous decisions was necessary. Id.
Following that statement, Standing Rock submitted several letters to the Assistant Secretary of the
Army for Civil Works, who oversees the portion of the
Corps’s mission that includes issuing permits for pipelines like DAPL. Those letters raised concerns about
the EA’s spill risk analysis. The tribe also submitted

11a
an expert review of the EA from an experienced pipeline consultant who concluded that the assessment
was “seriously deficient and [could not] support the
finding of no significant impact, even with the proposed mitigations.” Accufacts Review of the U.S.
Army Corps of Engineers Environmental Assessment
for the Dakota Access Pipeline (Oct. 28, 2016), A. 83746. Following the Corps’s internal review, the Assistant Secretary stood by her prior decision, but nonetheless concluded that the historical relationship between the affected tribes and the federal government
“merit[ed] additional analysis, more rigorous exploration and evaluation of reasonable siting alternatives,
and greater public and tribal participation and comments.” Memorandum from Jo-Ellen Darcy, Assistant
Secretary of the Army (Civil Works) (Dec. 4, 2016), A.
260; see Standing Rock III, 255 F. Supp. 3d at 117-18.
During the ensuing review, both Standing Rock
and the Oglala Sioux Tribe submitted additional comments and analysis. The Corps solicited Interior’s
opinion on the pipeline, Interior’s Solicitor responded
with a recommendation that the Corps prepare an
EIS, and the Secretary of the Army for Civil Works
issued a memorandum directing the Army not to
grant an easement prior to preparation of an EIS. See
Standing Rock III, 255 F. Supp. 3d at 118-19. On January 18, 2017, the Assistant Secretary of the Army for
Civil Works published in the Federal Register a notice
of intent to prepare an EIS. See Notice of Intent to
Prepare an EIS in Connection with Dakota Access,
LLC’s Request for an Easement to Cross Lake Oahe,
North Dakota, 82 Fed. Reg. 5,543 (Jan. 18, 2017).
Two days later, a new administration took office,
and the government’s position changed significantly.

12a
In a January 24 memorandum, the President directed
the Secretary of the Army to instruct the Corps and
the Assistant Secretary for Civil Works to expedite
DAPL approvals and consider whether to rescind or
modify the Notice of Intent to Prepare an EIS. Memorandum of January 24, 2017, Construction of the Dakota Access Pipeline, 82 Fed. Reg. 8,661 (Jan. 30,
2017). The Army in turn concluded that the record
supported granting an easement and that no EIS or
further supplementation was necessary.
The Corps granted the easement on February 8,
2017, and after the district court denied Cheyenne
River’s motion for a preliminary injunction and temporary restraining order, both the Tribes and the
Corps moved for partial summary judgment on several claims. The district court concluded that the
Corps’s decision not to issue an EIS violated NEPA by
failing to adequately consider three issues: whether
the project’s effects were likely to be “highly controversial,” the impact of a hypothetical oil spill on the
Tribes’ fishing and hunting rights, and the environmental-justice effects of the project. Standing Rock
III, 255 F. Supp. 3d at 111-12. It accordingly remanded the matter to the agency to address those
three issues. Id. at 160-61.
After the Corps completed its remand analysis in
February 2019, the parties again moved for summary
judgment, with the Tribes arguing that the Corps
failed to remedy its NEPA violations and pressing several other non-NEPA claims. Standing Rock Sioux
Tribe v. U.S. Army Corps of Engineers (Standing Rock
V), 440 F. Supp. 3d 1, 11 (D.D.C. 2020). Based on its
examination of four topics of criticism out of “many . . .
to choose from,” id. at 17, the district court concluded

13a
that “many commenters in this case pointed to serious
gaps in crucial parts of the Corps’ [s] analysis,”
demonstrating that the easement’s effects were “likely
to be highly controversial,” id. at 26 (internal quotation marks omitted). It therefore remanded to the
agency for it to complete an EIS but reserved the question whether the easement should be vacated during
the remand. Id. at 29-30. Following additional briefing, the court concluded that vacatur was warranted,
Standing Rock Sioux Tribe v. U.S. Army Corps of Engineers (Standing Rock VII), 471 F. Supp. 3d 71, 87
(D.D.C. 2020), and ordered that “Dakota Access shall
shut down the pipeline and empty it of oil by August
5, 2020,” Order, Standing Rock Sioux Tribe v. U.S.
Army Corps of Engineers, No. 16-cv-01534-JEB, at 2
(D.D.C. July 6, 2020), ECF No. 545.
The Corps and Dakota Access now appeal the district court’s order remanding for preparation of an
EIS, as well as its separate order granting vacatur of
the pipeline’s MLA easement and ordering that the
pipeline be shut down. While this appeal was pending, a motions panel denied the Corps’s request to stay
the vacatur of the easement but granted its request to
stay the district court’s order to the extent it enjoined
the pipeline’s use. Order, Standing Rock Sioux Tribe
v. U.S. Army Corps of Engineers, No. 20-5197, at 1
(D.C. Cir. Aug. 5, 2020) (August 5 Order).
II.
The Corps, together with Dakota Access, challenges the district court’s conclusion that the effects of
the Corps’s easement decision were “likely to be
highly controversial” under NEPA. A decision is
“highly controversial,” we explained in National Parks

14a
Conservation Association v. Semonite, if a “substantial
dispute exists as to the size, nature, or effect of the
major federal action.” 916 F.3 d at 1083 (internal quotation marks omitted). But not just any criticism renders the effects of agency action “highly controversial.” Rather, “something more is required for a highly
controversial finding besides the fact that some people
may be highly agitated and be willing to go to court
over the matter.” Id. (internal quotation marks omitted).
In National Parks, we clarified what more is required. There, we considered the Corps’s decision to
forgo an EIS before approving a permit authorizing an
electrical infrastructure project in a historically significant area. “[T]he Corps’s assessment of the scope
of the Project’s effects ha[d] drawn consistent and
strenuous opposition, often in the form of concrete objections to the Corps’s analytical process and findings,
from agencies entrusted with preserving historical resources and organizations with subject-matter expertise.” Id. at 1086. Because those criticisms reflected
“the considered responses . . . of highly specialized
governmental agencies and organizations” rather
than “the hyperbolic cries of . . . not-in-my-backyard
neighbors,” we found the effects of the Corps’s decision
“highly controversial.” Id. at 1085-86. “[R]epeated
criticism from many agencies who serve as stewards
of the exact resources at issue, not to mention consultants and organizations with on-point expertise, surely
rises to more than mere passion.” Id. at 1085. And
while the Corps “did acknowledge and try to address
[those] concerns,” that was not enough to put the controversy to rest. Id. at 1085-86. “The question is not

15a
whether the Corps attempted to resolve the controversy, but whether it succeeded.” Id. Indeed, an EIS
is perhaps especially warranted where an agency explanation confronts but fails to resolve serious outside
criticism, leaving a project’s effects uncertain. “Congress created the EIS process to provide robust information in situations . . . where, following an environmental assessment, the scope of a project’s impacts remains both uncertain and controversial.” Id. at 108788.
The Corps and Dakota Access advance two arguments: that, in relying on National Parks, the “district
court applied the wrong legal standard,” Appellant’s
Br. 14, and that the Corps adequately addressed the
four specific disputes on which the district court relied
in finding the effects of the Corps’s easement decision
likely to be highly controversial. We disagree as to
both.
The Corps offers two bases for distinguishing this
case from National Parks. First, it argues that here,
in contrast to in National Parks, “the Corps’ [s] efforts
to respond to the Tribes’ criticisms were not ‘superficial.” Appellant’s Br. 19. That distinction, however,
rests on an inaccurate description of National Parks.
Contrary to the Corps’s claim that we deemed “superficial and inadequate” the Corps’s response to criticisms, we pointedly explained that we took “no position on the adequacy of the Corps’s alternatives analyses.” National Parks, 916 F.3d at 1088. Instead, we
noted only that other agencies had expressed concerns
about the superficiality and inadequacy of the Corps’s
efforts. Id. Furthermore, the Corps’s position that a
response to criticism suffices so long as it is not “su-

16a
perficial” is hard to square with our statement in National Parks that “[t]he question is not whether the
Corps attempted to resolve the controversy, but
whether it succeeded.” Id. at 1085-86. The decisive
factor is not the volume of ink spilled in response to
criticism, but whether the agency has, through the
strength of its response, convinced the court that it
has materially addressed and resolved serious objections to its analysis, a matter requiring us to delve
into the details of the Tribes’ criticisms—to which we
shall turn momentarily.
As a second basis for distinguishing National
Parks, the Corps emphasizes that the “opposition here
has come from the Tribes and their consultants, not
from disinterested public officials.” Appellant’s Br.
20. But the Tribes are not, as Dakota Access suggested at oral argument, “quintessential . . . not-inmy-backyard neighbors.” Oral Arg. Tr. 97:17-18.
They are sovereign nations with at least some stewardship responsibility over the precise natural resources implicated by the Corps’s analysis. “Indian
tribes within Indian country are,” the Supreme Court
has declared, “a good deal more than private, voluntary organizations.” Merrion v. Jicarilla Apache
Tribe, 455 U.S. 130, 140 (1982) (internal quotation
marks omitted). Rather, they are “domestic dependent nations that exercise inherent sovereign authority
over their members and territories” and the resources
therein. Oklahoma Tax Commission v. Citizen Band
Potawatomi Indian Tribe of Oklahoma, 498 U.S. 505,
509 (1991) (internal quotation marks omitted); see
also New Mexico v. Mescalero Apache Tribe, 462 U.S.
324, 335 (1983) (“We have held that tribes have the

17a
power to manage the use of [their] territory and resources by both members and nonmembers . . . .”);
Merrion, 455 U.S. at 140 (“Indian tribes . . . are unique
aggregations possessing attributes of sovereignty over
both their members and their territory.” (internal
quotation marks omitted)).
The Tribes’ unique role and their government-togovernment relationship with the United States demand that their criticisms be treated with appropriate
solicitude. Of course, as the Corps points out, the
Tribes are not the federal government. But in National Parks, we emphasized the important role
played by entities other than the federal government.
There, criticism came from “highly specialized governmental agencies and organizations,” including the
Virginia Department of Historic Resources and several conservation groups. National Parks, 916 F.3 d
at 1084-85; see also North Carolina v. Federal Aviation Administration, 957 F.2d 1125, 1131-33 (4th Cir.
1992) (finding “legitimate controversy” present where
“[s]tate, local and federal officials, interested individuals,” and a federal agency “expressed concern”);
Foundation for North American Wild Sheep v. U.S.
Department of Agriculture, 681 F.2d 1172, 1182 (9th
Cir. 1982) (finding that criticism from “conservationists, biologists,” two state agencies, and “other knowledgeable individuals” demonstrated the existence of
“precisely the type of ‘controversial’ action for which
an EIS must be prepared”); Friends of the Earth, Inc.
v. U.S. Army Corps of Engineers, 109 F. Supp. 2d 30,
43 (D.D.C. 2000) (finding that a project was “genuinely and extremely controversial” where “three federal agencies,” “one state agency,” and the public “all

18a
disputed the Corps[‘s] evaluation”). The Tribes are of
at least equivalent status.
With the proper legal framework in mind, we turn
to the four disputed facets of the Corps’s analysis that
the district court found involved unresolved scientific
controversies for purposes of NEPA’s “highly controversial” factor.
DAPL’s Leak Detection System
The district court found that serious unresolved
controversy existed concerning the effectiveness of
DAPL’s leak detection system. Specifically, it found
that the 2012 Pipeline and Hazardous Materials
Safety Administration (PHMSA) study submitted
with Standing Rock’s expert report “indicated an 80%
failure rate in the type of leak-detection system employed by DAPL.” Standing Rock V, 440 F. Supp. 3d
at 18. The court went on to note that “the system was
not even designed to detect leaks that constituted 1%
or less of the pipe’s flow rate,” which could amount to
6,000 barrels a day. Id. Because the Corps “failed entirely to respond to” those deficiencies, the court found
that the Corps had not succeeded in resolving the controversy presented by the study. Id. at 17-18.
On appeal, the Corps correctly points out that the
2012 PHMSA study does not reflect an 80% “failure
rate.” Rather, the study indicates that in 80% of all
incidents where it was in use and “functional,” the
“computational pipeline monitoring” (CPM) system
used by DAPL was not the first system to detect a
leak. That the CPM system was commonly eclipsed
by visual identification, however, casts serious, unaddressed doubt on the Corps’s statement that the
system will “detect the pressure drop from a pipeline

19a
rupture within seconds.” Appellant’s Br. 21 (internal
quotation marks omitted). As the PHMSA study explains, “CPM systems by themselves did not appear to
respond more often than personnel . . . or members of
the public passing by the release incident.” U.S. Department of Transportation, Pipeline and Hazardous
Materials Safety Administration, Final Report Leak
Detection Study 2-11 (Dec. 10, 2012). The Corps has
failed to address the apparent disconnect, suggested
by the PHMSA study, between the CPM system’s historic performance and the agency’s representations
about its future utility. Indeed, the Corps acknowledges that it “did not explicitly discuss the 2012
PHMSA report” in its review. Appellant’s Br. 22. The
consequences of that oversight are especially significant since DAPL is buried deep underground and visual identification is therefore unlikely to make up for
deficiencies in the CPM system, as it apparently has
in the incidents included in the PHMSA study.
Attempting to discount the significance of the
Corps’s failure to consider the 2012 PHMSA study,
the Corps and Dakota Access observe that the study
included older pipelines and that the type of pinhole
leaks the study suggests the CPM system might initially miss are rare. But as the district court noted,
the Tribes’ expert observed that “more recent investigations” corroborated the study’s leak detection data.
Standing Rock V, 440 F. Supp. 3d at 17 (internal quotation marks omitted). The Corps’s failure to address
the study cannot be justified by the mere fact that the
study’s data set includes some older pipelines.
As for the rarity of pinhole leaks, the Tribes
pointed to “numerous examples of pipelines that

20a
leaked for hours or days after similar detection systems failed.” Appellees’ Br. 27. In one such instance,
DAPL’s own operator spilled 8,600 barrels of oil during a 12-day-long slow leak in 2016, even though the
monitoring system in use there showed the exact
same type of “detectable meter imbalance” that the
Corps here claims will quickly alert DAPL’s operators
to a slow leak. See Supplemental Appendix (S.A.) 31718. That same year, at another pipeline buried deep
underground in North Dakota, an operator’s leak detection system “registered an imbalance” and “notified
the control room”—but the control room “misinterpreted its own data[.]” PHMSA, Post-Hearing Decision Confirming Corrective Action Order, Belle
Fourche Pipeline Co. 5 (Mar. 24, 2017), https://primis
.phmsa.dot.gov/comm/reports/enforce/docments
/520165013H/520165013H_HQ%20Post%20Hearing
%20Decision%20Confirming%20CAO_03242017.pdf.
That led to a slow release of more than 12,600 barrels
of oil into a nearby creek over at least a two-day period, until it was discovered by a rancher at the release site. Id. at 1-2; S.A. 711. So there is ample reason to believe that the magnitude of harm from such
a leak could be substantial.
Appearing to acknowledge those troubling examples, the Corps discounts their significance by asserting that leaks will eventually be found. But how rapidly such leaks would be detected and their potential
severity are key factors underlying the Corps’s EA
and precisely the issues called into question by the
Tribes’ unaddressed criticism. We also note that the
volume of a one percent spill from a pinhole leak
would double if the volume of oil placed in the pipeline

21a
were itself to double. And DAPL’s operator has represented to its investors that it intends to double the
amount of oil it places in the pipeline as early as this
coming summer. See Illinois approves expansion of
Dakota Access oil pipeline, Reuters, Oct. 15, 2020,
https://www.reuters.com/article/us-energy-transferoil-pipeline-illinois-idUSKBN2702DL. In any event,
when asked why the EA did not evaluate the potential
consequences of an undetected slow pinhole leak, the
Corps responded that “there was no particular reason”
it did not do so. Oral Arg. Tr. 12:8-9, Standing Rock
Sioux Tribe v. U.S. Army Corps of Engineers, No. 16cv-01534-JEB (D.D.C. Mar. 18,2020), ECF No. 498.
The Tribes’ criticisms therefore present an unresolved
controversy requiring the Corps to prepare an EIS.
DAPL’s Operator Safety Record
The district court found that the Corps’s decision
to rely in its risk analysis on general pipeline safety
data, rather than DAPL’s operator’s specific safety
record, rendered the effects of the Corps’s decision
highly controversial. We agree.
To analyze the Corps’s risk assessment, Standing
Rock retained as an expert “an attorney, investigator,
and process safety practitioner with many decades of
experience.” Holmstrom Decl. ¶ 1, S.A. 79-80. The
expert explained that “PHMSA data shows Sunoco,”
DAPL’s operator, “has experienced 276 incidents in
2006-2016,” which the expert described as “one of the
lower performing safety records of any pipeline operator in the industry for spills and releases.” Id. ¶ 9.
Here, as in the district court, “[t]he Corps focuse[s]
its responses on defending the operator’s performance
record itself rather than on justifying its decision to

22a
not incorporate that record into its analysis.” Standing Rock V, 440 F. Supp. 3d at 19. In so doing, the
Corps and Dakota Access make two arguments.
First, the Corps emphasizes that “70% of [DAPL’s]
operator’s reported accidents on other pipelines were
minor and limited to the operator’s property.” Appellant’s Br. 31. But that does nothing to address the
“[t]wo central concerns” on which the district court
based its decision: “(1) the 30% of spills—about 80 of
them—that were not limited to operator property; and
(2) the criticism that the spill analysis should have incorporated the operator’s record.” Standing Rock V,
440 F. Supp. 3d at 20. For its part, Dakota Access
argues that while Sunoco’s number of leaks is high, its
number of spills per mile of pipeline operated “is in
line with industry averages.” Intervenor’s Br. 22. Not
only has Dakota Access failed to identify record evidence supporting that assertion, the relevant evidence
that does exist suggests a serious risk that Sunoco’s
record is worse than the industry average. The
Corps’s own analysis concluded that, industry-wide,
there were 0.953 onshore crude oil accidents per 1,000
miles of pipeline in 2016 and 0.848 in 2017. U.S.
Army Corps of Engineers, Analysis of the Issues Remanded by the U.S. District Court for the District of
Columbia Related to the Dakota Access Pipeline
Crossing at Lake Oahe 13 (Aug. 31, 2018). By contrast, Dakota Access’s expert explained that Energy
Transfer, Sunoco’s parent company following a merger, experienced 1.42 “reportable incidents per 1,000
miles of pipeline”—after a 50% decline in incidents on
Sunoco lines since 2017. Second Godfrey Decl. ¶ 7, A.
1612. If anything, comparing that figure to the industry-wide average understates the safety gap between

23a
Sunoco and other operators because, as Dakota Access
and its expert observe, Sunoco is “one of the largest
pipeline operators,” Intervenor’s Br. 22, and its own
incidents are included in the average. See Appellant’s
Br. 32 (“The Corps also considered PHMSA’s historical data on oil spills, which necessarily includes this
operator’s safety record.”).
Nor are we persuaded by the Corps’s second argument, that it had no need at all to address the operator
safety controversy. Though the Corps may have considered “other objective measures of the operator’s
safety practices,” Appellant’s Br. 31, the cited materials—industry-wide spill data and a questionnaire
about Sunoco’s safety practices—fall short of resolving
the controversy. The Corps contends that its “decision
to use all data on oil spills, and not just the operator’s
safety record, is the kind of technical judgment that is
entrusted to the agency and entitled to deference from
the Court.” Appellant’s Br. 32. That is not at all clear.
For example, it would be strange indeed if we were to
defer to the Federal Aviation Administration’s decision to renew the operating certificate of an airline
with an extremely poor safety record on the basis that
the airline industry, on average, is safe. The Supreme
Court, moreover, has “frequently reiterated that an
agency must cogently explain why it has exercised its
discretion in a given manner,” Motor Vehicle Manufacturers Ass’n of the United States, Inc. v. State Farm
Mutual Automobile Insurance Co., 463 U.S. 29, 48
(1983), and the Corps has made no effort to do so here.
To treat the Corps’s unadorned plea for deference as a
sufficient basis for ignoring well-reasoned expert criticism would vitiate National Parks.

24a
Winter Conditions
The district court found the Corps’s response insufficient to resolve criticism of the agency’s “failure
to consider the impact of harsh North Dakota winters
on response efforts in the event of a spill.” Standing
Rock V, 440 F. Supp. 3d at 20. In particular, the
Tribes’ experts explained that shut-off valves might
be more prone to failure and response efforts hindered
by freezing conditions. Elaborating, Oglala’s expert
explained that “winter conditions create significant
difficulties” because, among other things, “workers require more breaks and move slower due to the bundling of clothing,” “daylight hours are shorter,” and
“slip-trip-fall risk increases significantly.” Earthfax
Report at 7, A. 830.
The Corps argues that it had no need to engage in
a quantitative evaluation of a winter spill scenario because its non-quantitative response was adequate.
Appellant’s Br. 29-30. In the Corps’s view, it adequately considered winter conditions by noting that
ice coverage could “have a mixed effect on efforts to
contain an oil spill” and by ordering DAPL’s operator
to conduct winter spill response training exercises at
Lake Oahe as a condition of the easement. Appellant’s
Br. 29. But the Corps’s passing reference to winter
conditions’ “mixed” effects, without more, provides little comfort. The Corps’s point might have been more
forceful had the agency estimated just how much time
during a spill would be saved by the oil-containing
properties of ice and compared that to the additional
time required to identify oil pockets and adjust work
methods to extreme conditions. Indeed, it seems that
such an analysis is precisely what the Tribes believe
the Corps ought to have done, and such a reasoned

25a
weighing of the evidence would have been entitled to
substantial deference. But instead, faced with serious
expert criticism, the Corps simply declared the evidence “mixed” and offered no attempt at explaining its
apparent conclusion that winter’s countervailing effects measured out to zero. Moreover, we agree with
the district court that while winter response training
may be “prudent and perhaps a good avenue for producing data as to how exactly winter conditions would
delay response efforts,” such exercises do “not get to
the point of addressing the concern that the spill
model does not currently take that kind of data into
account.” Standing Rock V, 440 F. Supp. 3d at 21.
The Corps next argues that the Tribes failed to
present a “specific alternative methodology” for incorporating winter conditions into its spill response modeling. Appellant’s Br. 30. But the fact that an established methodology for assessing the consequences of
a unique type of risk is not readily apparent to commenters hardly means an agency can discount relevant, serious criticism of its method of analysis. Although the Corps emphasizes in its brief that “no one
has identified any way to calculate exactly how much
more difficult” a clean-up would be during winter, Appellant’s Br. 30, our review “is limited to the grounds
that the agency invoked when it took the action,” Department of Homeland Security v. Regents of the University California, 140 S. Ct. 1891, 1907 (2020) (internal quotation marks omitted), and the Corps does not
suggest that, during its environmental review process, it actually applied its technical expertise to consider whether it was possible to identify such a
method. Had the Corps considered the problem and

26a
concluded that no comprehensive analysis was possible, that might have amounted to “successfully” resolving the controversy. But the Corps cannot foist its
duty to consider such technical matters onto commenters who point out valid deficiencies.
Worst Case Discharge
The district court considered the “largest area of
scientific controversy” to be “the worst-case-discharge
estimate for DAPL used in the spill-impact analysis.”
Standing Rock V, 440 F. Supp 3d at 21. The regulations set forth a detailed formula for calculating the
worst-case discharge, 49 C.F.R. § 194.105(b)(1), but
we need not delve into its specifics here. “The idea,”
the district court succinctly explained, “is to calculate
the maximum amount of oil that could possibly leak
from the pipeline before a spill is detected and
stopped.” Standing Rock V, 440 F. Supp. 3d at 21.
According to the Corps, we need not consider the
Tribes’ criticisms because “an accident leading to a
full-bore rupture of the pipeline is extremely unlikely”
and, in any event, no statute or regulation required
the Corps to calculate the worst-case discharge at all.
Appellant’s Br. 26. The thrust of both arguments is
that because the Corps need not have calculated a
worst-case discharge in the first place, it is unimportant whether it did so in a reasonable manner. But
we agree with the district court that because the
Corps chose to perform such a calculation and then
relied on it throughout its analysis, it cannot dispel
serious doubts about its methods by explaining that it
could have forgone such a calculation in the first
place. See Sierra Club v. Sigler, 695 F.2d 957, 966
(5th Cir. 1983) (“The purpose of judicial review under

27a
NEPA is to ensure the procedural integrity of the
agency’s consideration of environmental factors in the
EIS and in its decision to issue permits. If the agency
follows a particular procedure, it is only logical to review the agency’s adherence to that procedure, not to
some altogether different one that was not used.”).
We therefore turn to the Tribes’ criticisms of the
Corps’s calculations.
The Corps estimated that, for purposes of a worstcase discharge, it would take 9 minutes to detect a
leak and 3.9 minutes to close the shut-down valves.
Appellant’s Br. 26-27. Before the district court, the
Corps suggested that its nine-minute figure included
one minute of detection time, with the remaining
eight minutes devoted to shutting down the mainline
pumps. Standing Rock V, 440 F. Supp. 3d at 23. But
as the district court observed, the Tribes pointed to
“many experts who commented that hours, rather
than minutes, were more accurate figures for the
[worst-case discharge].” Id. The Tribes’ expert explained that “[m]ajor spill incidents typically occur
with multiple system causes, when people, or equipment, or systems do not function exactly as they are
expected to.” Holmstrom Decl. ¶ 11, S.A. 83. The
Corps’s explanation that its response time estimates
were mildly conservative does not begin to explain its
choice to ignore the real-world possibility of significant human errors or technical malfunctions, see supra at 18-19, in calculating what it claimed was a
worst-case estimate. Although the PHMSA formula
did not require the Corps to model a complete doomsday scenario in which every possible human error and
technical malfunction occurs simultaneously, we
agree with the district court that the Corps’s failure to

28a
explain why it declined to consider any such eventualities leaves unresolved a substantial dispute as to
its worst-case discharge calculation.
The Corps also argues that, even if, as the Tribes
claim, some aspects of the model are unduly optimistic, the model is nonetheless sufficiently conservative
because it assumes the pipeline lies directly on top of
the water rather than beneath ninety-two feet of overburden. Appellant’s Br. 25-26. In effect, the Corps
tries to defend its decision to develop a model that assumes away significant risks by explaining that, despite those omissions, it analyzed an imaginary pipeline of roughly equivalent risk to DAPL—one laying
directly on top of Lake Oahe, but with superior leak
detection and shut-down valve systems. The Corps,
however, never explains why its one conservative assumption accurately counterbalances the particular
risks the Tribes identify. Accordingly, the model’s assumption that DAPL lies directly on the water fails to
resolve the controversies raised by the Tribes’ criticisms.
*

*

*

Having determined that several serious scientific
disputes mean that the effects of the Corps’s easement
decision are likely to be “highly controversial,” we
turn to one other issue before considering the appropriate remedy. The Corps and Dakota Access repeatedly urge that, whatever the merits of the Tribes’ criticisms, the Corps’s easement decision cannot be
highly controversial because the risk of a spill is exceedingly low and because the pipeline’s location deep

29a
underground provides protection against the consequences of any spill. That argument faces two major
hurdles.
First, the claimed low risk of a spill rests, in part,
on the Corps’s use of generalized industry safety data
and its optimism concerning its ability to respond to
small leaks before they worsen—precisely what the
Tribes’ unresolved criticisms address. Second, as our
court made clear in New York v. Nuclear Regulatory
Commission, 681 F.3d 471,478-79 (D.C. Cir. 2012),
“[u]nder NEPA, an agency must look at both the probabilities of potentially harmful events and the consequences if those events come to pass.” Id. at 148. A
finding of no significant impact is appropriate only if
a grave harm’s “probability is so low as to be remote
and speculative, or if the combination of probability
and harm is sufficiently minimal.” Id. at 147-48 (internal quotation marks omitted). Doing away with
the obligation to prepare an EIS whenever a project
presents a low-probability risk of very significant consequences would wall off a vast category of major projects from NEPA’s EIS requirement. After all, the
government is not in the business of approving pipelines, offshore oil wells, nuclear power plants, or spent
fuel rod storage facilities that have any material prospect of catastrophic failure. In this case, although
the risk of a pipeline leak may be low, that risk is sufficient “‘that a person of ordinary prudence would take
it into account in reaching a decision’” to approve the
pipeline’s placement, and its potential consequences
are therefore properly considered here. Sierra Club v.
FERC, 827 F.3d 36, 47 (D.C. Cir. 2016) (quoting City
of Shoreacres v. Waterworth, 420 F.3d 440,453 (5th
Cir. 2005)).

30a
III.
This brings us to the Corps’s challenge to the district court’s remedy, and specifically to its orders
(1) requiring that the Corps prepare an EIS, (2) vacating the easement pending preparation of an EIS, and
(3) ordering that the pipeline be shut down and emptied of oil.
As already explained, “[i]mplicating any one of the
[intensity] factors may be sufficient to require development of an EIS.” National Parks, 916 F.3d at 1082.
Dakota Access argues that because implicating the
“highly controversial” factor does not itself mandate
preparation of an EIS, the district court erred in ordering the Corps to prepare one. In National Parks,
however, we ordered the Corps to prepare an EIS
where, as here, it “failed to make a ‘convincing case’
that an EIS is unnecessary.” Id. at 1087 (quoting Myersville Citizens for a Rural Community, Inc. v. FERC,
783 F.3d 1301, 1322 (D.C. Cir. 2015)). National Parks
thus forecloses the idea that we must ordinarily remand to the agency to weigh the intensity factors
anew whenever we find that it improperly analyzed
one of them.
That National Parks involved multiple intensity
factors is at most a superficial distinction between
this case and National Parks. For one thing, as explained above, the effects of the Corps’s easement decision are “highly controversial” in four distinct respects, and we see no good reason for treating differently a decision that implicates multiple significance
factors and a decision that implicates a single factor
in several important ways. Moreover, both National

31a
Parks and this case present “precisely” the circumstances in which Congress intended to require an EIS,
namely “where, following an environmental assessment, the scope of a project’s impacts remains both
uncertain and controversial.” Id. at 1087-88. Finally,
as in National Parks, the “context” of this case—”a
place of extraordinary importance to the Tribes, a
landscape of profound cultural importance, and the
water supply for the Tribes and millions of others”—
weighs in favor of requiring an EIS. Appellees’ Br. 4041. And in at least one sense, the case for ordering
production of an EIS is stronger here than in National
Parks or the cases on which Dakota Access relies, Intervenor’s Br. 29-30, given that, unlike in those cases,
the district court has already given the Corps an opportunity to resolve the Tribes’ serious criticisms and
it failed to do so.
The Corps and Dakota Access next argue that,
even if the district court properly ordered the Corps to
prepare an EIS, the court abused its discretion by vacating the pipeline’s easement in the interim. “The
ordinary practice,” however, “is to vacate unlawful
agency action,” United Steel v. Mine Safety & Health
Administration, 925 F.3d 1279, 1287 (D.C. Cir. 2019)
(citing 5 U.S.C. § 706(2)), and district courts in this
circuit routinely vacate agency actions taken in violation of NEPA. See, e.g., Humane Society of the United
States v. Johanns, 520 F. Supp. 2d 8, 37 (D.D.C. 2007)
(observing that vacatur is the “standard remedy” for
an “action promulgated in violation of NEPA”);
Greater Yellowstone Coalition v. Bosworth, 209 F.
Supp. 2d 156, 163 (D.D.C. 2002) (“[P]laintiffs . . . seek
a vacatur of the permit . . . until the [agency] complies
with NEPA. As a general matter, an agency action

32a
that violates the APA must be set aside. . . . Based on
this authority, I shall vacate the permit . . . .”).
“While unsupported agency action normally warrants vacatur, [a] court is not without discretion” to
leave agency action in place while the decision is remanded for further explanation. Advocates for Highway and Auto Safety v. Federal Motor Carrier Safety
Administration, 429 F.3d 1136, 1151 (D.C. Cir. 2005)
(citation omitted). In Allied-Signal, Inc. v. U.S. Nuclear Regulatory Commission, 988 F.2d 146 (D.C. Cir.
1993), our court set forth the two factors governing
that exercise of discretion: “The decision whether to
vacate depends on the seriousness of the order’s deficiencies (and thus the extent of doubt whether the
agency chose correctly) and the disruptive consequences of an interim change that may itself be
changed.” Id. at 150-51 (internal quotation marks
omitted). The “seriousness” of a deficiency, we have
explained, is determined at least in part by whether
there is “a significant possibility that the [agency]
may find an adequate explanation for its actions” on
remand. Williston Basin Interstate Pipeline Co. v.
FERC, 519 F.3d 497, 504 (D.C. Cir. 2008). “We review
the district court’s decision to vacate . . . for abuse of
discretion.” Nebraska Department of Health & Human Services v. Department of Health & Human Services, 435 F.3d 326, 330 (D.C. Cir. 2006).
As to the first factor, the district court concluded
that the Corps was unlikely to resolve the controversies on remand because the court had previously remanded without vacatur for just that purpose and the
Corps had nonetheless failed to resolve them. Standing Rock VII, 471 F. Supp. 3d at 79-80. The court also

33a
explained that the Corps focused on the wrong question: whether, on remand, it would be able to justify
its easement decision rather than its decision to forgo
an EIS. Id. at 81. (“Looking at the first Allied-Signal
factor, the Court does not assess the deficiency of the
ultimate decision itself—the choice to issue the permit—but rather the deficiency of the determination
that an EIS was not warranted.” (internal quotation
marks omitted)).
With respect to the disruptive consequences of vacatur, the district court understood that shutting
down pipeline operations would cause Dakota Access
and other entities significant economic harm. But for
four reasons it concluded that those effects did not justify remanding without vacatur. First, the Corps’s expedited timeline for preparing an EIS “would cabin
the economic disruption of a shutdown.” Id. at 84.
Second, though economic disruption is properly considered, it is not commonly a basis, standing alone, for
declining to vacate agency action. Id. at 84-85. Third,
Dakota Access’s approach would subvert NEPA’s objectives. “[I]f you can build first and consider environmental consequences later, NEPA’ s action-forcing
purpose loses its bite.” Id. at 85. And finally, the
countervailing risk of a spill—difficult to quantify in
part because of the Corps’s failure to prepare an EIS—
counseled in favor of vacatur. Id. at 85-86. The district court discounted as “inconclusive” Dakota Access’s evidence that if DAPL were inoperative, more
oil would be transported by rail, a riskier alternative.
Id. at 87.
On appeal, Dakota Access takes primary responsibility for arguing against vacatur. It contends first
that the Corps can “easily substantiate its easement

34a
decision on remand even if it must prepare an EIS.”
Intervenor’s Br. 33. But that is not the question. As
the district court explained, the question is whether
the Corps is likely to justify its issuance of a FONSI
and refusal to prepare an EIS. Dakota Access argues
that Heartland Regional Medical Center v. Sebelins,
566 F.3d 193 (D.C. Cir. 2009), supports its contrary
view that the Allied-Signal factors look to whether an
agency can justify the action the court is considering
whether to vacate, rather than the challenged procedural decision. There, we sought to determine
whether an earlier district court decision had, by declaring a regulatory requirement invalid for failing to
consider certain public comments, necessarily vacated
the regulation. In making that determination, we
concluded that the Allied-Signal factors would have
directed remand without vacatur. Id. at 197-98. But
because the agency had not elected to forgo a procedural requirement (in that case, notice and comment),
only one agency action—the decision to promulgate
the challenged rule—was implicated at all. Heartland
Regional therefore says nothing one way or the other
about the proper focus of the Allied-Signal inquiry in
cases, like this one, where we confront a distinct challenge to an agency’s decision to forgo a major procedural step in its path to its ultimate action. Cf. id. at
199 (“Failure to provide the required notice and to invite public comment—in contrast to the agency’s failure here adequately to explain why it chose one approach rather than another for one aspect of an otherwise permissible rule—is a fundamental flaw that
normally requires vacatur of the rule.” (internal quotation marks omitted)). Besides, the district court’s
view is more sensible.

35a
Consider the consequences of Dakota Access’s contrary approach. If, when an agency declined to prepare an EIS before approving a project, courts considered only whether the agency was likely to ultimately
justify the approval, it would subvert NEPA’s purpose
by giving substantial ammunition to agencies seeking
to build first and conduct comprehensive reviews
later. If an agency were reasonably confident that its
EIS would ultimately counsel in favor of approval,
there would be little reason to bear the economic consequences of additional delay. For similar reasons, an
agency that bypassed required notice and comment
rulemaking obviously could not ordinarily keep in
place a regulation while it completed that fundamental procedural prerequisite. See Daimler Trucks
North America LLC v. EPA, 737 F.3d 95, 103 (D.C.
Cir. 2013) (“[T]he court typically vacates rules when
an agency ‘entirely fail[s]’ to provide notice and comment . . . .” (quoting Shell Oil Co. v. EPA, 950 F.2d
741, 752 (D.C. Cir. 1991))). When an agency bypasses
a fundamental procedural step, the vacatur inquiry
asks not whether the ultimate action could be justified, but whether the agency could, with further explanation, justify its decision to skip that procedural
step. Otherwise, our cases explaining that vacatur is
the default response to a fundamental procedural failure would make little sense.
Even were we to consider the Corps’s odds of ultimately approving the easement, our case law still instructs that a failure to prepare a required EIS should
lead us to doubt that the ultimate action will be approved. In Oglala Sioux Tribe v. U.S. Nuclear Regulatory Commission, 896 F.3d 520 (D.C. Cir. 2018), we
explained that because NEPA is a “purely procedural

36a
statute,” where an agency’s NEPA review suffers from
“a significant deficiency,” refusing to vacate the corresponding agency action would “vitiate” the statute.
Id. at 536 (internal quotation marks omitted). As we
made clear, “[p]art of the harm NEPA attempts to prevent in requiring an EIS is that, without one, there
may be little if any information about prospective environmental harms and potential mitigating
measures.” Id. (internal quotation marks omitted).
Put another way, Oglala strongly suggests that where
an EIS was required but not prepared, courts should
harbor substantial doubt that ‘the agency chose correctly’ regarding the substantive action at issue—in
this case, granting the easement. Id. at 538 (quoting
Allied-Signal, 988 F.2d at 150-51). The Corps resists
the proposition that Oglala cautions against applying
Allied-Signal in NEPA cases, but that is not the point.
The point is that Oglala’s application of those factors
suggests that NEPA violations are serious notwithstanding an agency’s argument that it might ultimately be able to justify the challenged action.
As for vacatur’s consequences, Dakota Access contends that while the district court “acknowledged the
severe economic disruption that vacatur would cause,”
it “wrongly discounted those severe consequences”
and “credit[ed] remote, unsubstantiated harms.” Intervenor’s Br. 35. But in reviewing for abuse of discretion, we “consider whether the decision maker
failed to consider a relevant factor, whether he [or she]
relied on an improper factor, and whether the reasons
given reasonably support the conclusion.” Kickapoo
Tribe of Indians of Kickapoo Reservation in Kansas v.
Babbitt, 43 F.3d 1491, 1497 (D.C. Cir. 1995) (alteration in original) (internal quotation marks omitted).

37a
In doing so, we may not “substitute our judgment for
that of the trial court, so we cannot decide the issue
by determining whether we would have reached the
same conclusion.” United States v. Mathis—Gardner,
783 F.3d 1286, 1288 (D.C. Cir. 2015) (citation omitted)
(internal quotation marks omitted). Dakota Access
believes that the district court’s assessment of a shutdown’s economic impacts was far too rosy and that the
court “ignored” a shutdown’s environmental consequences. But the court considered all important aspects of the issue and reasonably concluded that the
harms were less severe than the Corps and Dakota
Access suggested. In view of the discretion owed the
district court and the seriousness of the NEPA violation, Dakota Access has given us no basis for concluding that the district court abused its discretion in applying the Allied-Signal factors. See National Parks
Conservation Association v. Semonite, 925 F.3d 500,
502 (D.C. Cir. 2019) (“[The district] court is best positioned to . . . make factual findings[] and determine
the remedies necessary to protect the purpose and integrity of the EIS process.”); Stand Up for California!
v. U.S. Department of Interior, 879 F.3d 1177, 1190
(D.C. Cir. 2018) (“[T]he district court acted well within
its discretion in finding vacatur unnecessary to address any harm the defect had caused.”).
In any event, Dakota Access’s assessment of vacatur’s consequences is undercut significantly by the
fact that we agree that the district court’s shutdown
order cannot stand.
On August 5, 2020, a motions panel of this court
ordered that “to the extent the district court issued an
injunction by ordering Dakota Access LLC to shut
down the Dakota Access Pipeline and empty it of oil

38a
by August 5, 2020, the injunction be stayed.” August
5 Order at 1. Relying on the Supreme Court’s decision
in Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139
(2010), the panel explained that “[t]he district court
did not make the findings necessary for injunctive relief.” August 5 Order at 1 (“[B]efore issuing an injunction in a [NEPA] case, ‘a court must determine that
an injunction should issue under the traditional fourfactor test.’” (quoting Monsanto, 561 U.S. at 158)).
The Tribes argue that an injunction was unnecessary because vacatur itself “invalidat[ed] the underlying easement,” thus requiring the “suspension of pipeline operations pending compliance with NEPA.” Appellees’ Br. 73-74. That is the view the district court
appeared to adopt, Standing Rock VII, 471 F. Supp.
3d at 88 (requiring, after vacating the pipeline’s easement, “the oil to stop flowing and the pipeline to be
emptied within 30 days”), and that approach finds
some support in our case law. For instance, in Sierra
Club v. FERC, 867 F.3d 1357, 1379 (D.C. Cir. 2017),
we vacated a pipeline authorization due to a NEPA
violation and appeared to assume that vacatur encompassed an end to construction. Likewise in National
Parks, we appeared to accept the parties’ assumption
that vacating Corps-issued construction permits
would require ceasing construction of the challenged
electrical towers or tearing them down. See National
Parks, 925 F.3d at 502.
The Tribes’ approach, however, cannot be squared
with Monsanto, which should caution against reading
too far into our tacit approval of shutdown orders in
prior cases. If a district court could, in every case, effectively enjoin agency action simply by recharacter-

39a
izing its injunction as a necessary consequence of vacatur, that would circumvent the Supreme Court’s instruction in Monsanto that “a court must determine
that an injunction should issue under the traditional
four-factor test.” 561 U.S. at 158. In fact, the Tribes
have already moved for a permanent injunction in the
district court during the pendency of this appeal, and
that motion is fully briefed.
Furthermore, Sierra Club and National Parks differ from this case in a subtle but important way.
Those cases involved challenges to agency authorizations of the very activities the court assumed would
end. Vacating a construction permit in National
Parks, for instance, naturally implied an end to construction. Here, in contrast, we affirm the vacatur of
an easement authorizing the pipeline to cross federal
lands. With or without oil flowing, the pipeline will
remain an encroachment, leaving the precise consequences of vacatur uncertain. In fact, the parties have
identified no other instance—and we have found
none—in which the sole issue before a court was
whether an easement already in use (rather than a
construction or operating permit) must be vacated on
NEPA grounds. That makes this case quite unusual
and cabins our decision to the facts before us.
It may well be—though we have no occasion to
consider the matter here—that the law or the Corps’s
regulations oblige the Corps to vindicate its property
rights by requiring the pipeline to cease operation and
that the Tribes or others could seek judicial relief under the APA should the Corps fail to do so. But how
and on what terms the Corps will enforce its property
rights is, absent a properly issued injunction, a matter
for the Corps to consider in the first instance, though

40a
we would expect it to decide promptly. To do otherwise would be to issue a de facto outgrant without engaging in the NEPA analysis that the Corps concedes
such an action requires. See Oral Arg. Tr. 36:14-15
(“The Corps’[s] regulations contemplate that an outgrant would require a NEPA analysis.”). Although
the district court was attuned to the discretion owed
the Corps, see Standing Rock VII, 471 F. Supp. 3d at
88 (“Not wishing to micromanage the shutdown, [the
court] will not prescribe the method by which DAPL
must [make the flow of oil cease].”), we nonetheless
conclude that it could not order the pipeline to be shut
down without, as required by Monsanto, making the
findings necessary for injunctive relief.
IV.
For the foregoing reasons, we affirm the district
court’s order vacating DAPL’s easement and directing
the Corps to prepare an EIS. We reverse to the extent
the court’s order directs that the pipeline be shut
down and emptied of oil.
So ordered.

41a
____________________
APPENDIX B
____________________
ENVIRONMENTAL ASSESSMENT
Dakota Access Pipeline Project
Crossings of Flowage Easements
and Federal Lands

Prepared on behalf of:
U.S. Army Corps of Engineers — Omaha District
1616 Capitol Avenue, Suite 9000
Omaha, NE 68102
July 2016

42a
*

*

*

EXECUTIVE SUMMARY
In accordance with the National Environmental
Policy Act (NEPA) and implementing regulations, the
following Environmental Assessment (EA) has been
prepared to evaluate the effects of the United States
Army Corps of Engineers (USACE), Omaha District
(District) granting permission to Dakota Access, LLC
(Dakota Access) to place a portion of the Dakota Access Pipeline Project (DAPL Project) on federal real
property interests acquired and managed for the Garrison Dam/Lake Sakakawea and Oahe Dam/Lake
Oahe Projects in North Dakota. Section 14 of the Rivers and Harbors Act of 1899, codified 33 U.S.C. Section 408 (Section 408), authorizes the Corps to grant
permission to Dakota Access to modify federal flood
control and navigation projects, provided the modifications are not injurious to the public interest and will
not impair the usefulness of the projects. The EA addresses the purpose and need of the pipeline, as well
as the location and method of installation of the pipeline, but the analysis is limited to the effects of allowing the pipeline to cross federal flowage easements
near Lake Sakakawea and federally owned lands at
Lake Oahe in North Dakota, to determine whether the
placement of the pipeline on federal real property interests is injurious to the public interest or will impair
the usefulness of the federal projects.
This EA was prepared by Dakota Access on behalf
of the Corps in compliance with the NEPA Act of 1969;
the Council on Environmental Quality (CEO) Regulations (40 CFR 1500-1508); Corps of Engineers Regula-

43a
tion ER 200-2-2 (33 CFR Part 230), and related environmental compliance requirements, including the
Section 106 of the National Historic Preservation Act
(Section 106). Tribes, Tribal Historic Preservation Offices, State Historic Preservation Offices, the Advisory
Council on Historic Preservation, and interested parties were consulted by representatives from Dakota
Access and the Corps Omaha District as required by
the Programmatic Agreement and the National Historic Preservation Act.
This EA was prepared in accordance with CEO
regulations in Section 1506.5(a) and 1506.5(b), which
allow an applicant to prepare an EA for federal actions. The Corps has independently evaluated and
verified the information and analysis undertaken in
this EA and takes full responsibility for the scope and
content contained herein.
The Corps published a draft EA on December 8,
2015, on the U.S. Army Corps of Engineers (USACE)
Omaha District website (http://www.nwo.usace.army.mil
/Missions/CivilWorks/Planning/ProjectReports.aspx)
and hard copies were made available at public libraries in Bismarck, Williston, and Pierre. Additionally,
notifications where made to cooperating agencies,
other federal, state and local agencies, and signatory
and non-signatory Tribes to the Omaha Corps District
Programmatic Agreement.
The Corps received comments from 20 reviewers
in response to the Draft EA, primarily from individuals believed to be members of the Standing Rock Sioux
Tribe, and two sets of comments from EPA. These
comments relate to topics in the EA. The Corps fully
considered and responded to these comments. There

44a
is no new, significant information on environmental
effects as a result of these comments. As such, neither
a supplemental nor a revised EA will be published for
further public review nor are additional NEPA compliance actions required prior to the Corps making a
decision on the proposed action.
Impacts on the environment resulting from the
placement of the pipeline on federal real property interests is anticipated to be temporary and not significant as a result of Dakota Access’s efforts to avoid,
minimize, and mitigate potential impacts. Dakota Access will comply with all applicable local, state, and
federal regulations and permits associated with the
construction and operation of the pipeline, which is
not expected to have any significant direct, indirect,
or cumulative impacts on the environment.
1.0 INTRODUCTION
Dakota Access is proposing to construct a new
crude oil pipeline that would provide transportation
service from the Bakken and Three Forks plays in
North Dakota through portions of South Dakota and
Iowa to a terminus in Patoka, Illinois (Figure 1). In
coordination with the U.S. Army Corps of Engineers,
the Applicant, Dakota Access, LLC (Dakota Access),
as the non-federal representative for compliance with
the NEPA of 1969, the CEO Regulations (40 CFR
1500-1508), Corps of Engineers Regulation ER 200-22 (33 CFR Part 230), and related environmental compliance requirements, prepared this Environmental
Assessment to analyze whether the Corps could grant
Section 408 permissions for the placement of Dakota
Access Pipeline Project (DAPL Project) on federal

45a
flowage easements near the upper end of Lake Sakakawea, and federally owned lands at Lake Oahe in
North Dakota (“the Requester’s Preferred Alternative” or “Proposed Action”). Areas that are potentially
impacted by construction and/or operation of the Proposed Action are referred to herein as the Project
Area.
1.1 DAPL Project
The DAPL Project is an approximately 1,100-mile
long crude oil pipeline project beginning near Stanley,
North Dakota, and ending at Patoka, Illinois. The
DAPL project, as proposed and being evaluated
herein, would cross federal flowage easements near
the upper end of Lake Sakakawea north of the Missouri River in Williams County, North Dakota, and
federally owned lands at Lake Oahe in Morton and
Emmons counties, North Dakota. The EA analysis is
limited to these portions of the pipeline only.
1.2 Purpose and Need
The purpose and need of the federal action is to
determine whether USACE may grant permission for
Dakota Access to place the pipeline on federal real
property interests acquired and managed by USACE
for the Garrison Dam/Lake Sakakawea and Oahe
Dam/Lake Oahe projects. Section 408 authorizes the
Corps to grant permission to Dakota Access to modify
federal flood control and navigation projects, provided
the modifications are not injurious to the public interest and will not impair the usefulness of the projects.
The EA addresses the purpose and need of the pipeline, as well as the location and method of installation
of the pipeline, but the analysis is limited to the effects

46a
of allowing the pipeline to cross federal flowage easements near the upper end of Lake Sakakawea and federally owned lands at Lake Oahe in North Dakota.
1.3 Authority and Scope of the EA
The proposed crossings of Corps-owned lands and
easements would require the Corps to grant the Section 408 permissions as well as real estate outgrants.
Therefore, the scope of this EA is limited to the crossings of Corps-owned lands and flowage easements. As
noted below, separate Corps authorizations are being
sought for Section 404, Section 10, and Section 408
crossings on other portions of the DAPL route. Those
actions are not discussed in the EA.
The Proposed Action does not qualify for a Categorical Exclusion from NEPA documentation as defined by ER 200-2-2, 4 March 1998 paragraph 9.
Thus, this EA has been prepared as required under
NEPA to determine potential impacts that may occur
as result of implementing the Proposed Action. If it is
determined that no significant impacts would be incurred after implementing the mitigation measures
described within this document, the USACE would issue a finding of no significant impact (FONSI). If it is
determined that significant impacts would be incurred as a result of construction and/or operations of
the Proposed Action, an environmental impact statement (EIS) would be prepared to further evaluate the
Proposed Action under NEPA.
This effect analysis is being completed in accordance with CEO regulations in Section CFR 1506.5(b),
which allow an applicant to prepare an EA for a federal action in coordination with the lead federal

47a
agency (i.e., Corps). The Corps will use the information in the EA to make a final determination
whether to grant the required Section 408 permissions using the information contained herein. The
Corps independently evaluated and verified the information and analysis undertaken in this EA and takes
full responsibility for its scope and content.
2.0 ALTERNATIVES
Dakota Access proposes the DAPL Project to efficiently and safely transport at least 570,000 barrels of
crude oil per day (bpd) from the Bakken and Three
Forks production region in North Dakota to a crude
oil market hub located near Patoka, Illinois, and ultimately to refineries located in the Midwest and the
Gulf Coast, where 80% of the U.S. refining capabilities
exist. Because the Corps can only grant permission
for the modification of a federal project if it would not
be injurious to the public interest, the EA evaluated
alternatives to the construction of the pipeline as a
whole, as well as the alignment of the pipeline and
method for installation on federal property. The alternatives were compared using the proposed purpose
of the DAPL project. The EA also analyzed the potential for the pipeline to impair the usefulness of the federal projects.
2.1 Alternatives Considered but Eliminated
from Detailed Analysis
2.1.1 Alternative 1—Modification of Existing
Infrastructure
There are no other major interstate pipelines that
would meet the purpose and need of the Project. The

48a
DAPL Project would be Energy Transfer’s (Company’s) first asset in the state. For this reason, the
manipulation of operating pressures or additional of
pump stations to increase transport capacity in pipelines or altering existing infrastructure to increase
storage and transport capacity are not viable options
to meet the purpose and need of the Project.
2.1.2 Alternative 2 — Trucking Transportation
Alternative
While trucking is instrumental in the gathering
and distribution of crude on a limited scale, trucking
as an alternative for transporting volume of crude oil
the distances planned for the DAPL Project is not viable. Based on data recorded by the North Dakota
Pipeline Authority as recently as November of 2015,
approximately 1% of the crude oil in the Williston Basin is transported via truck out of the Williston Basin
due to a lack of transport capacity (Kringstad, 2016).
Factors such as road safety, roadway capacity, and a
lack of reliability due to seasonal constraints, in addition to other logistical issues involving availability of
labor force, trailer truck capacity, and economics, all
contribute to truck transportation not being a realistic
alternative.
A sharp increase in traffic on North Dakota roads
as a result of the rapid expansion in the number of
commercial trucks linked to the oil industry speaks to
the issues associated with road safety. In 2012, the
Federal Motor Carrier Safety Administration reported a traffic fatality rate in North Dakota of 0.48
per million vehicle miles traveled, with 48 deaths involving a bus or large truck, far surpassing any other
state (U.S. Department of Transportation [DOT],

49a
2014). In the pre-boom years of 2001 to 2005, there
was an average of only 13 annual deaths involving
commercial trucks. Furthermore, the economic cost of
severe truck crashes has more than doubled between
2008 and 2012. Much of the increase in the fatality
rate can be attributed to the energy production boom,
along with the fact that the state’s infrastructure still
consists of single-lane, rural, and unpaved roads in
many areas (Bachman, 2014). Harsh winter weather
and seasonal road restrictions compromise the reliability of truck transportation even further. Based on
the above, a pipeline is a safer and more economical
alternative than trucking for the volumes transported
and distances covered by the DAPL Project.
Assuming the average oil tanker truck is capable
of holding about 220 barrels of oil, the transportation
of the initial capacity of the proposed Project (450,000
bpd), would require a total of 2,045 (450,000/220) full
trucks to depart the proposed tank terminals daily,
and more than 85 (2,045/24) trucks would have to be
filled every hour with a 24-hour/day operation. Time
spent in transit, loading/offloading, and additional
time for maintenance would add to the number of
trucks needed to offset for the DAPL Project. For a
trucking mode, an increase in daily truck traffic would
lead to an increase in the degradation of public roads
as well as contribute to the noise pollution adjacent to
the roads. For both truck and rail modes, an increase
in exhaust would be anticipated due to truck and locomotive combustion. An increase in air pollution
would also be anticipated from potential releases during the filling operations for trucks or rail cars.
Analysis of infrastructure considerations (the burden of thousands of additional trucks on county, state,

50a
and interstate highways, as well as the loading and
offloading facilities that would have to be constructed
which would incur their own environmental impacts),
economic considerations (e.g., labor costs, purchase
and maintenance of hauling equipment, fuel, public
infrastructure, etc.), and reliability considerations
(e.g., weather, mechanical, manpower, road closures)
all contribute to making the truck transportation alternative unviable.
2.1.3 Alternative 3 — Rail Transportation
Alternative
Reliance on rail as a transportation method in the
Williston Basin has drastically increased in recent
years, carrying a negligible percentage of the overall
market share as recently as 2010 to nearly 60% of the
overall market share by mid-2014 (Nixon, 2014). The
rise in the use of rail as a primary transportation
method has been driven in large part by the rapid increase in production of crude oil coupled with a lack of
pipeline capacity to account for additional supplies.
Negative impacts from the growth in popularity of
rail as a method of long-distance transportation of
crude oil include delays that disrupt the agricultural
sector, reductions in coal-fired power plant inventories, and significant production issues in the food production industry. In August 2014, reports filed with
the federal government indicated that the Burlington
Northern Santa Fe Railway had a backlog of 1,336 rail
cars waiting to ship grain and other products, while
Canadian Pacific Railway had a backlog of nearly
1,000 cars (Nixon, 2014). For industries, such as those
listed, in which the use of pipelines is not an option,

51a
the only viable alternative would be increased reliance on trucking, which would exacerbate some of the
issues listed in the section above.
Assuming a carrying capacity of 600 barrels per
car, a total of 750 rail cars would be required to depart
the tank terminal daily to transport 450,000 barrels
of crude oil to its final destination. Loading and offloading 750 rail cars in a day would require servicing
more than 31 rail cars per hour. With an assumption
of 125 rail cars per train, six trains would have to depart the tank terminal every day. With 10 to 12 trains
currently leaving the state per day carrying Bakken
crude, the DAPL Project would represent a 50 to 60%
increase in the number of trains transporting crude
oil out of the state, likely exacerbating issues with delays (Horwath and Owings, 2014).
Rail operations on the scale of the DAPL Project
do not exist in the U.S. An oil-by-rail facility designed
to handle an average of 360,000 bpd has been proposed in the Port of Vancouver, Washington. Known
as the Vancouver Energy proposal, the project would
be the largest rail terminal in the country (Florip,
2014).
A rail transportation alternative to handle the volumes of the DAPL Project would require the design
and construction of 125 to 158% of that of the Vancouver Energy proposal. A facility of this size would incur
its own environmental consequences.
From a safety standpoint, railroad transport consistently reports a substantially higher number of
transportation accidents than pipelines (DOT, 2005).
A series of major accidents taking place in 2013 to
2014 in Canada and the U.S. has heightened concern

52a
about the risks involved in shipping crude by rail (Fritelli, 2014).
Increases in rail traffic necessary to transport the
volume of crude oil proposed by the DAPL project
would increase the emissions of combustion products
due the use of diesel engines which could have an adverse impact on air quality in the region. This alternative would also directly affect communities along
utilized rail lines by increasing noise and creating
transportation delays due to the substantial increasing rail traffic across railroad crossings of roads.
While rail tanker cars are a vital part of the shorthaul distribution network for crude oil, pipelines are
a more reliable, safer, and more economical alternative for the large volumes transported and long distances covered by the DAPL Project. This alternative
would create delays on the rail lines due to the substantial increase in rail traffic, resulting in shipping
delays in other industries such as agriculture that
cannot rely on pipeline transportation. Furthermore,
the purpose and need of the Project would not be attainable with the current oil-by-rail infrastructure in
the country because rail loading facilities of sufficient
size do not exist. As such, rail transportation is not
considered a viable alternative.
2.1.4 Alternative 4 — Route Alternatives
Although this EA is limited to the pipeline placement on federal real property interests administered
by the Corps, major route alternatives were evaluated
for the pipeline route as a whole. During the DAPL
Project fatal flaw analysis and early routing process,
Dakota Access utilized a sophisticated and proprietary Geographic Information System (GIS)-based

53a
routing program to determine the pipeline route
based on multiple publicly available and purchased
datasets. Datasets utilized during the Project routing
analysis included engineering (e.g., existing pipelines,
railroads, karst, powerlines, etc.), environmental (e.g.,
critical habitat, fault lines, state parks, national forests, brownfields, national registry of historic places,
etc.), and land (e.g., fee owned federal lands, federal
easements, dams, airports, cemeteries, schools, mining, tribal lands, and military installations, etc.).
Each of these datasets was weighted based on the
risk (e.g., low, moderate, or high based on a scale of
1,000) associated with crossing or following certain
features. In general, the route for the pipeline would
follow features identified as low risk, avoid or minimize crossing features identified as moderate risk,
and exclude features identified as high risk. For example, the existing pipelines dataset was weighted as
a low risk feature, so that the routing tool followed existing pipelines to the extent possible to minimize potential impacts. An example of a high risk feature is
the national park dataset. Since national parks were
weighted for the DAPL Project as high risk, the GIS
routing program excluded any national parks from
the pipeline route to avoid impacts on these federal
lands. In addition, the routing program established a
buffer between the proposed route and certain types
of land, such as maintaining a 0.5-mile buffer from
tribal lands.
Route Alternative for the Crossing of Flowage
Easements at the Missouri River
Early in the routing process Dakota Access performed a cursory route evaluation to attempt crossing

54a
the Missouri River at a location that does not contain
flowage easements. This would dictate moving the
centerline west of the flowage easements in Williams
County. This alternative was not carried forward
through the environmental consequences analysis,
given that this would require approximately eight additional miles of pipe, an exceedance of an additional
130 acres of workspace, and another major river crossing (Yellowstone River) in addition to the Missouri
River. Furthermore, other state and federal properties are located along the river west of the confluence
of Missouri and Yellowstone Rivers.
Route Alternative for the Crossing of Federal
Lands at Lake Oahe
Early in the routing phase of the DAPL Project,
Dakota Access considered but eliminated an alternative centerline that originated in Stanley, North Dakota, within Mountrail County, where it connected to
customer receipt points and headed southwest
through Williams County and crossed the Missouri
River approximately 8.5 miles east of the Yellowstone
River and Missouri River confluence (Figure 12).
The centerline then headed southeast across the state
and crossed Lake Oahe approximately 10 miles north
of Bismarck (Figure 13), where it then headed south
again and entered South Dakota approximately 35
miles east of Lake Oahe in McIntosh County. In addition to other evaluation criteria listed in Table 2.1,
the route alternative was in proximity to and/or crossing multiple conservation easements, habitat management areas, National Wildlife Refuges, state trust
lands, waterfowl production areas, and private tribal
lands.

55a
As a result of public input and comment during
this EA process, additional desktop evaluation of the
North Bismarck alternative portion of the early route
(Figure 13) was undertaken. The comparison of this
alternative to the preferred route is included in Tables 2-1 and 2-2 contained herein. As illustrated in
the tables, the data substantiates eliminating this
route as a viable alternative. While the alternative
does avoid Corps fee owned land at Lake Oahe; therefore, would not require a Corps real estate outgrant or
Corps EA review, approximately 11-miles of length
would be added to the pipeline route, consisting of
roughly 165 additional acres of impact, multiple additional road crossings, waterbody and wetland crossings, etc. In addition to the criteria shown in the tables, due to the proximity to Bismarck, the North Bismarck route alternative crossed through or in close
proximity to several wellhead source water protection
areas that are identified and avoided in order to protect areas that contribute water to municipal water
supply wells. The route was also severely constrained
by the North Dakota Public Service Commission’s
500-ft residential buffer requirement at multiple locations. Furthermore, this route alternative crossed
other populated PHMSA high consequence areas
(HCAs), that are not present on the preferred route.
Pipeline safety regulations use the concept of HCAs to
identify specific locales where a release from a pipeline could have the most significant adverse consequences.

56a

57a

58a

59a

60a

61a

62a

63a
A negative number indicates that the value for the
proposed action is less than the value for the population that the proposed action is being compared to.
2.1.5 Alternative 5 — Major Waterbody
Crossing Method Alternatives
Once an optimal route was selected based on the
evaluation of impacts discussed in Section 2.1.3, Dakota Access then identified the preferred major waterbody crossing construction method that would meet
the purpose and need while minimizing impacts to resources. Pipeline construction methods utilized at
waterbody crossings are highly dependent on the
characteristics of the waterbody encountered. A variety of waterbody crossing techniques were considered
during the DAPL Project planning stages for the
crossings of major waterbodies, including Dam and
Pump, Flume, Open-Cut, and Horizontal Directional
Drill.
Dry Crossings Methods
Two different techniques, including dam and
pump and flume crossing methods, are typically used
on waterbody crossings well under 100 feet in width
and require a temporary diversion of flow within the
waterbody. Because of the large volume of water
within the Missouri River system, it is not feasible to
temporarily divert the water either by pump or flume,
and these methods were ruled out of consideration for
the crossing of the Missouri River and Lake Oahe.
Wet Open-Cut Crossing Method
Aside from trenchless or HDD crossing techniques, the only feasible crossing method from a con-

64a
structability standpoint for the major waterbodies associated with the Proposed Action is the wet open-cut
crossing method, in which flow would be maintained
throughout installation of the pipeline. This method
of construction would require the construction rightof-way (ROW) to extend right up to the waterbody itself, allowing equipment to operate from the banks of
the waterbody to excavate a trench. The sensitive
habitat adjacent to the banks of the waterbodies
would be cleared of vegetation and graded to create a
safe and level workspace that could accommodate excavation equipment and spoil storage for the duration
of the open-cut installation (approximately 6 months).
Since the widths of the Missouri River and Lake Oahe
at the crossing locations is such that operating trenching equipment entirely from the banks would not be
possible, trench excavation in the waterbodies would
require equipment operating from barges. Furthermore, the depth of the waterbodies crossed (15 to 25
feet) exceeds the reach of a backhoe, and the use of
mechanical dragline dredgers would be necessary.
Spoil dredged from the bottom of the waterbody would
be stored on a spoil barge or otherwise temporarily
stockpiled in the waterbody itself. This method of excavation would greatly influence the overall sediment
load generated in the waterbody for the duration of
the installation. The generation of a downstream turbidity plume would have a direct effect on the aquatic
habitat of the waterbody. In addition, the operation
of equipment within and on the banks of the waterbody has the potential for adverse effects on surface
water quality (i.e., potential contamination of surface
water resources from fuel or leaks from the equipment). Compared to trenchless technology, the open-

65a
cut method would incur far greater impacts on sensitive habitat located on both the banks of the waterbodies and within the waterbodies. Therefore, this
method of construction was eliminated from consideration.
The trenchless construction method known as
HDD was selected as the preferred construction
method of the Proposed Action, because this method
of construction involves far less impacts on resources.
In addition, the Garrison Project — Lake Sakakawea
Oil and Gas Management Plan explicitly states that:
Oil and gas pipelines should use directional drilling
technology to traverse beneath sensitive habitat areas. Further information regarding the HDD construction method is provided in Section 2.3.2.6 below.
2.2 No Action Alternative
Under the “no action” alternative, Dakota Access
would not construct the DAPL Project. The “no action” alternative would not provide the infrastructure
necessary to transport light sweet crude oil to refining
facilities. In northwest North Dakota, exploration
and production of oil is a major economic activity, with
crude oil production being the primary mineral resource of interest. Although the “no action” alternative itself would not incur direct environmental impacts, it would also not address the existing demand
to transport crude oil to refining facilities. Market demands would likely compel shippers to rely on alternative methods of crude oil transport such as truck or
rail. Although, both the truck and rail alternatives
are not sufficient to meet the purpose and need of the
Project due to the lack of available infrastructure and
other limitations described in Sections 2.1.3 and 2.1.4,

66a
it is reasonable to assume that truck and rail traffic
would increase if the “no action” alternative were implemented.
These alternative shipping methods
would adversely affect resources as described in Sections 2.1.3 and 2.1.4 and throughout this EA.
It is purely speculative to predict the resulting effects and actions that could be taken by another company or Dakota Access’ shippers and any associated
direct or indirect environmental impacts in response
to the “no action” alternative. However, if this alternative is implemented, it is likely that other methods
of transporting crude oil to the marketplace would be
implemented and anticipated effects of the “no action”
alternative has been carried forward in the environmental analysis of this EA to provide a comparison between it and the impacts of implementing the Preferred Alternative.
2.3 The Proposed Action (Preferred
Alternative)
2.3.1 location and Detailed Description of the
Proposed Action
The DAPL Project originates near Stanley, North
Dakota, traversing westerly northwest of Williston
then turning south, crossing the Missouri River and
traverses southeasterly across the state, exiting
through the central portion of the southern border.
Dakota Access proposes to construct the pipeline,
ranging in size from 12 to 30 inches in diameter, so
that the majority of lands crossed would be privatelyowned lands. The locations for collecting product into
the proposed system were largely fixed based on the
location of existing terminals. The first of the six fixed
input locations is located at the pipeline’s origin near

67a
the town of Stanley in Mountrail County. Three other
input locations exist near the towns of Ramberg, Epping, and Trenton in Williams County. Two additional collection points are located south of the proposed Missouri River crossing on the flowage easements in McKenzie County near the towns of Waterford City and Johnson’s Corner. Connecting the input
locations was largely a matter of minimizing length
and maximizing the avoidance of sensitive features,
developments, public lands, and constructability issues (e.g., steep terrain, potholes, excessive bedrock,
etc.), as discussed above in Section 2.1.4 Route Alternatives. Based on the location of the collection points,
crossing the Missouri River (Lake Sakakawea) was
unavoidable. The selected crossing location of the
Proposed Action avoids federally owned lands to the
extent practical, is at a narrow width of the river upstream of the wider Lake Sakakawea, and minimizes
impacts on sensitive resources (e.g., piping plover critical habitat, eagle nests, etc.). The pipeline is 24
inches in diameter where it crosses approximately
14,942 feet (2.83 miles) of the Corps flowage easements at the Missouri River and is 30 inches in diameter where it crosses approximately 1,109 feet (0.21
mile) of the Corps-owned federal lands at Lake Oahe.
Within North Dakota, the proposed Supply pipeline crosses seven tracts of flowage easement retained
by the Corps located north of the Missouri River in
Williams County (Figure 2). The proposed DAPL
Project Mainline route travels through land owned
and managed by the Corps on both sides of the Lake
Oahe crossing at the border between Morton and Emmons counties, approximately 0.55 mile north of the

68a
northern boundary of the Standing Rock Sioux Reservation (Figure 3).
The following narrative relates to Figures 1
through 3 in Section 12.0 and is provided to assist the
reader in identifying the Project Area under consideration in this analysis. Purple polygons indicate real
estate interests; either the flowage easements that the
Corps has with private landowners upstream of Lake
Sakakawea, or the fee title lands that the Corps has
on the upper end of Lake Oahe. The red hyphenated
line shows the DAPL Project centerline as it approaches Federal property at the Lake Oahe crossing
and temporary workspace areas. The straight solid
redline indicates the HDD pipeline that will go beneath Corps managed federal surfaces and is the Project Area being considered as part of the Federal action to issue a real estate easement. The yellow polygon indicates workspace where temporary work is
proposed to be completed that directly supports the
HDD installation of the pipeline underneath the
river/reservoir. Temporary activities that would occur
in this workspace include: welding together pipe, inspecting and testing the pipeline to ensure no leaks
are present prior to preparing to install beneath the
river/reservoir at both locations.
Potential impacts have to be evaluated in temporary workspace, as actions completed here are directly
connected to the ability for the applicant to complete
the proposed project (both the purple and yellow
polygons). Further, these actions are directly connected to the federal decision to allow an easement for
the pipeline to cross federal lands in this area. Notice
that the Corps is not analyzing the effects of the red

69a
hyphenated line (DAPL centerline) at the Lake
Oahe crossing as it is outside the EA review area.
This is an important difference compared to the flowage easement location where temporary work happens to coincide with the orientation of the flowage
easements perpendicular to the Missouri River.
Therefore, temporary workspace required for portions
of the pipeline installed via conventional (non-HDD)
methods on the flowage easements is included in the
EA review area.
The flowage easements and Corps owned lands associated with the Proposed Action, and the associated
Project impact acreages, expressed as construction
workspace, are identified in Table 2-3 below.
Table 2-3
Flowage Easements and Federal Land Crossings
County

Construction
Workspace

LL3440E

Williams

9.4

LL3483E-1

Williams

10.8

LL3453E

Williams

10.7

LL3430E

Williams

5.0

LL3450E-2

Williams

5.2

LL3431E

Williams

14.7

LL3426E-2

Williams

3.4

--

59.2

Federal Land

Morton

0.4

Federal Land

Emmons

0.8

Grant of Easement
Document Number
Flowage Easements

Flowage Easements

Total Acres
Federally-Owned Lands

70a
Table 2-3
Flowage Easements and Federal Land Crossings
Grant of Easement
Document Number
Total Acres

County

Construction
Workspace

--

1.2

The EA review area includes areas within the
Corps flowage easements and federal lands that are
potentially impacted by construction and/or operation
of the DAPL Project. The EA review area is hereafter
referred to as the Project Area(s). Actions that occur
outside of the flowage easements and the federal
lands at the Lake Oahe crossing are considered Connected Actions. Connected Actions are those actions
that are “closely related” and “should be discussed” in
the same NEPA document (40 CFR § 1508.25 (a)(i)).
Actions are connected if they automatically trigger
other actions that may require an EA, cannot or will
not proceed unless other actions are taken previously
or simultaneously or if the actions are interdependent
parts of a larger action and depend upon the large action for their justification (40 CFR § 1508.25 (a)(i, ii,
iii)). Connected Actions are limited to actions that are
currently proposed (ripe for decision). Actions that
are not yet proposed are not Connected Actions, but
may need to be analyzed in the cumulative effects
analysis if they are reasonably foreseeable. The only
Connected Actions at each individual crossing location associated with the Proposed Action are those
that relate to the HDD workspace at the Missouri
River crossing and the HDD workspace, HDD stringing area, and the permanent easement on private
lands in the vicinity of the Lake Oahe crossing. The
two federal permissions are not connected actions because the locations of each crossing are independent

71a
of one another and the location of the first does not
dictate the location of the second.
Dakota Access initially proposed an isolation
valve to be located within the flowage easements
(easement LL3453E); however, the Omaha District
has assessed the potential for open water and ice jam
flooding within the vicinity of the Project Area in the
“Reconnaissance Report, Missouri River, BufordTrenton Irrigation District, North Dakota” and based
on the findings the valve would be located within an
area that has the potential to be submerged or damaged by ice jam flooding. Therefore, the valve has
been removed from the Project Area.
The Project Area and Connected Actions analyzed
within this EA for both crossings are outlined in Table 2-4, which identifies land status (private, Federal
or Easement) and provides associated acreages.

72a

73a

74a
2.3.1.1 Flowage Easements
The Missouri River HDD is located just upstream
of Lake Sakakawea and downstream of the confluence
of the Yellowstone and Missouri rivers. The proposed
crossing of flowage easements near upper Lake Sakakawea (flowage easements) is located in Sections 7,
18, 19, and 30, Township 152 North, Range 103 West,
in Williams County, North Dakota (Figure 2). The
proposed pipeline is routed parallel to an existing buried natural gas pipeline and associated valve sites,
which cross the Missouri River and flowage easements just west of the proposed Dakota Access pipeline.
The HDD exit workspace would be located on a
flowage easement tract. Access to the Project Area on
the flowage easements would be via the construction
ROW from an existing road (38th Street NW). No additional temporary access roads would be required.
The Connected Action at the flowage easements includes the HDD entry workspace, located on the south
side of the Missouri River on private lands in McKenzie County. Access to the HDD entry workspace will
be via the existing access road located adjacent to the
HDD entry workspace. No additional temporary access roads would be required.
2.3.1.2 Federal Lands
The proposed crossing of federally-owned tracts at
Lake Oahe (federal lands) is located in Section 10,
Township 134 North, Range 79 West in Morton
County, North Dakota, and Section 11, Township 134
North, Range 79 West in Emmons County, North Dakota (Figure 3). The proposed pipeline is routed to
parallel existing linear infrastructure (an overhead

75a
powerline and a buried natural gas pipeline) in this
area. The HDD entry and exit point workspaces and
stringing area would be located on private land outside of the federal lands and are considered Connected
Actions in this analysis. HDD design reflects a crossing length of approximately 7,500 feet, of which approximately 5,420 feet occurs beneath the bed of Lake
Oahe.
2.3.2 Description of Construction Techniques
and Construction Mitigation Measures
All facilities associated with the Proposed Action
would be designed, constructed, tested, operated, and
maintained in accordance with the U.S. DOT regulations in Title 49 CFR Part 195. Dakota Access is currently developing project-specific plans and would implement best management practices (BMPs) to mitigate for potential construction-related impacts associated with stormwater runoff. This includes implementation of their Stormwater Pollution Prevention
Plan (SWPPP; see Appendix A), which includes the
Spill Prevention Control and Countermeasure Plan
(SPCC Plan) as an appendix. Additionally, Dakota
Access would implement their HDD Construction
Plan and HDD Contingency Plan (HDD Construction/Contingency Plan; see Appendix B) for inadvertent release of drilling mud during HDD construction work at wetland and waterbody crossings to protect sensitive resources from such releases. The Proposed Action would be constructed via a combination
of conventional and specialized construction procedures, as described below.

76a
2.3.2.1 Clearing and Grading
Prior to commencement of ground-disturbing activities, a standard survey and stakeout would be conducted to identify ROW and workspace boundaries
and to locate existing foreign utility lines within the
construction ROW. Following completion of the surveys, the construction ROW would be cleared of vegetation and debris. Clearing of wetlands is limited to
removal of woody debris in the forested wetlands
above the HDD profile on the north bank of the Missouri River within the flowage easements. Stumps
would be cut flush with the ground and left in place,
as described in Section 3.2.3. Cleared vegetation and
debris along the ROW would be disposed of in accordance with federal, state, and local regulations either
by burning, chipping and spreading, or transportation
to a commercial disposal facility. Where necessary, to
contain disturbed soils during clearing and grading in
upland areas, and to minimize potential erosion and
sedimentation of wetlands and waterbodies, temporary erosion control devices (ECDs) would be installed
prior to initial ground disturbance and maintained
throughout construction. Vegetative buffers would be
left where practical at all waterbody crossings to limit
the exposure and impact to these features. Final
clearing would take place immediately prior to crossing the feature rather than advance.
2.3.2.2 Trenching
Trenching involves excavation of a ditch for pipeline placement and is accomplished through the use of
a trenching machine, backhoe, or similar equipment.
Trench spoil would be deposited adjacent to each

77a
trench within the construction work areas, with topsoil segregation utilized where necessary based on
land use (see the typical ROW configuration drawings
in Appendix C). In standard conditions, the trench
would be excavated to an appropriate depth to allow
for a minimum of 36 inches of cover over the pipe.
Ground disturbance associated with conventional
pipeline construction is generally limited to approximately 6 to 10 feet below the existing ground surface.
Typically the bottom of the trench would be cut at
least 12 inches greater than the width of the pipe. The
width at the top of the trench would vary to allow the
side slopes to adapt to local conditions at the time of
construction.
2.3.2.3 Pipe Stringing, Bending, and
Welding
Following preparation of the trench, the new pipe
would be strung and distributed along the ROW parallel to the trench. Depending on available workspace, some pipe may be fabricated off-site and transported to the ROW in differing lengths or configurations. Pipe would be bent by hydraulic bending machines, as necessary, to conform the pipe to the trench.
Once in place along the ROW, pipe lengths would be
aligned, bends fabricated, and joints welded together
on skids (i.e., temporary supports). Welding would be
performed in accordance with the American Petroleum Institute Standards, PHMSA pipeline safety
regulations, and Company welding specifications. All
welds would be coated for corrosion protection and visually and radiographically inspected to ensure there
are no defects. Segments of completed pipeline would
undergo hydrostatic pressure testing as described in
Sections 3.2.1.2 and 3.11.

78a
2.3.2.4 Pipeline Installation and Trench
Backfilling
Completed sections of pipe would be lifted off the
temporary supports by side boom tractors or similar
equipment and placed into the trench. Prior to lowering-in, the trench would be visually inspected to ensure that it is free of rock and other debris that could
damage the pipe or the coating. Additionally, the pipe
and the trench would be inspected to ensure that the
configurations are compatible. Tie-in welding and
pipeline coating would occur within the trench to join
the newly lowered-in section with the previously installed sections of pipe. Following this activity, the
trench would be backfilled with the previously excavated material and crowned to approximately 6 inches
above its original elevation to compensate for subsequent settling.
2.3.2.5 Clean-up and Restoration
Following pipeline installation and backfilling,
disturbed areas would be restored and graded to preconstruction contours as closely as practicable. Construction debris and organic refuse unsuitable for distribution over the construction ROW would be disposed of at appropriate facilities in accordance with
applicable regulations. Permanent ECDs would be installed as appropriate, and revegetation measures
would be applied in accordance with the Environmental Construction Plan (ECP; see Appendix G),
SWPPP, and requirements of applicable state and federal permits.

79a
2.3.2.6 Major Waterbody Crossing Method
As previously discussed, the preferred waterbody
crossing technique for the Proposed Action is the HDD
method. The HDD method allows for construction
across a feature without the excavation of a trench by
drilling a hole significantly below conventional pipeline depth and pulling the pipeline through the predrilled hole. As described in subsequent sections of
this document and in greater detail in the HDD Construction Plan (Appendix B), by utilizing the trenchless technology, Dakota Access would minimize impacts to resources within and adjacent to the waterbodies crossed and reduce the anticipated duration of
the crossing. The HDD equipment would be staged
well outside of the riparian area, avoiding impacts on
the steep banks, cultural resources, and sensitive habitat immediately adjacent to the waterbody. Cross
sections of the Missouri River and Lake Oahe HDDs
are provided in Figure 14 and Figure 15.
Depending on the HDD equipment utilized, to
help guide the drill bit along the pipeline ROW, electric-grid guide wires may be laid along the predetermined HDD route. In thickly vegetated areas, a small
path may be cut to accommodate laying the electricgrid guide wires. Once the electric-grid guide wires
are installed, the directional drilling rig would drill a
small diameter pilot hole along the prescribed profile.
Following the completion of the pilot hole, reaming
tools would be utilized to enlarge the hole to accommodate the pipeline diameter. The reaming tools
would be attached to the drill string at the exit point
and would then be rotated and drawn back to incrementally enlarge the pilot hole. During this process,
drilling fluid consisting of primarily bentonite clay

80a
and water would be continuously pumped into the pilot hole to remove cuttings and maintain the integrity
of the hole. When the hole has been sufficiently enlarged, a prefabricated segment of pipe would be attached behind the reaming tool on the exit side of the
crossing and pulled back through the drill hole towards the drill rig.
Fluid pressures can build up within the borehole
during HDD operations. In some instances, this can
result in hydraulic fracturing of the substrate and
subsequent migration of drilling fluids either into the
waterway or to the land surface—this is known as a
“frac-out.” The depth of the proposed HDD profiles below the beds of the surface waters to be crossed would
minimize the potential for frac-outs to occur. Additionally, precautions would be taken during all phases
of the drilling operation. A high quality drilling fluid
would be used to maintain and protect the integrity of
the borehole during the entire HDD operation until
the final pipe pull is completed. The HDD Construction Plan (Appendix B) includes more details regarding HDD construction technology and methods. The
work would be performed by an experienced drilling
contractor, Michels Directional Crossings, a Division
of Michels Corporation, that is knowledgeable in effective HDD practices, including maintaining proper
drilling rate, drilling fluid composition, pumping rate
of the drilling fluid, pull-back rate, and pumping rate
on the back ream, and adjusting these as appropriate
for the conditions.
The potential for river channel changes associated
with water erosion and scour were considered when
selecting the major waterbody crossing methods and
locations. Dakota Access has coordinated with the

81a
North Dakota Office of the State Engineer as part of
the Sovereign Lands Permitting Process to verify adequate depths for the pipe to be buried relative to geomorphological movements for the Lake Oahe and the
Missouri River crossings. Accordingly, the professional engineering firm evaluating HDD depths for
the Proposed Action, GeoEngineers, has performed a
scour analysis in order to evaluate the scour risk to
the proposed pipeline during 100- and 500-year discharge events for the Lake Oahe and the Missouri
River crossings.
The proposed HDD profile under Lake Oahe is designed to provide 92 feet of cover below the bottom of
the lake. Because of the depth of the pipe below the
waterbody, and the ponded condition of Lake Oahe,
this crossing is at a low risk to geomorphologic movements at the proposed crossing. The North Dakota
Office of the State Engineer has issued Sovereign
Lands Permit for the Lake Oahe crossing. A copy of
the permit is included in Appendix M.
The Missouri River HDD profile is designed to
provide a minimum of 36 feet of cover at the crossing
location beneath the lowest point of the Missouri
River. This crossing has less proposed cover between
the bottom of the waterbody and the top of the buried
pipe and it is an active channel. As part of the Sovereign Lands Permitting Process with the Office of the
State Engineer, conservative assumptions were utilized in the analysis of the Missouri River HDD design
profile as a factor of safety. For example, the proposed
crossing is not located at a bend in the channel and is
located over 3,000 feet downstream of the nearest upstream channel bend. An analysis of historic photo-

82a
graphs of the proposed crossing show that the upstream bend has been stable and in the same location
and that the potential downstream migration of this
bend is highly unlikely. However, although bend
scour is not likely to propagate downstream to the proposed crossing, to be conservative in their evaluation
GeoEngineers assumed that the bend could migrate
downstream and negatively influence the crossing.
GeoEngineers estimated the maximum bend
scour at the proposed pipeline to be 23 to 25 feet for
the 100- and 500-year peak flow events, respectively.
The bend scour at the crossing location would not be
additive for successive storms as long-term degradation is assumed to be zero. Historic aerial imagery
and recent Google Earth imagery indicates bar building and deposition of sediments in the Project Area,
representing a dynamic sediment environment. This
equates to a high likelihood that there is an adequate
upstream sediment supply and likely minimal long
term degradation at the proposed crossing location.
In general terms, if the area over the pipeline was to
experience a large scour event from one large storm
event (up to 23 feet of scour during the 500-year peak
flow event following the conservative assumptions),
this area would be filled in/covered after the storm
event by deposition of sediments from upstream and
potential exposure of the pipeline would be negligible.
In addition to bend scour, there is potential for
contraction scour that occurs when channel width varies within a short reach of the river. There is a small
contraction upstream of the proposed crossing at the
downstream end of the bend approximately 3,000 feet
upstream. The DAPL proposed crossing is not located
in a contraction, but actually a small expansion and

83a
the contraction point is not likely to migrate downstream to the proposed crossing. However, to be conservative in their analysis as an additional factor of
safety, GeoEngineers assumed that the contraction
scour upstream of the proposed crossing could migrate
downstream to the proposed crossing location. Based
on this conservative assumption, contraction scour estimates for the 100-year discharge event are approximately 9 feet. This 100-year contraction scour depth
is greater than what would occur during the 500-year
event as flood waters spreading across the floodplain
actually reduce contraction and therefore reduce the
contraction scour depth.
Combining the conservative assumptions from
above, the maximum estimated total potential scour
depth at the proposed Missouri River HDD site would
occur during a 100-year flood event. This conservatively assumes “worst case” that both the bend scour
and the contraction scour migrate downstream and
are both realized directly over the pipeline crossing at
the same time. Under this scenario, the bend scour
would create a scour of 23 feet and the contraction
scour would contribute another 9 feet creating the
maximum estimated total potential scour depth of 32
feet below the existing channel elevation during a
100-year flood event. To assess the factor of safety applied using these assumptions, GeoEngineers utilized
general scour equations that take into account bend
and contraction scour and compared them to the total
scour estimated using the Maynord equation for bend
scour and Laursen’s live-bed contraction scour equation. Utilizing the Blodgett equation, Lacey equation,
and Blench equation forgeneral scour, the estimated
general scour at the proposed pipeline crossing ranges

84a
between 14 to 23 feet for the 100- and 500-year peak
flow events. This results in a total factor of safety of
1.4 to 2.3 for total scour at the proposed crossing.
Based upon their calculated worst-case scenario
scour estimate, GeoEngineers considers the risk of
scour occurring down to the level of the proposed pipeline to be low and the proposed Missouri River HDD
design profile to be appropriate. The North Dakota
Office of the State Engineer has issued Sovereign
Lands Permit for the Missouri River crossing. A copy
of the permit is included in Appendix M.
2.3.2.7 Minor Waterbody Crossing
Methods
There are no minor waterbodies crossed by the
pipeline on Corps Fee Lands. All minor waterbodies
encountered on the flowage easements have been
identified as falling under the jurisdiction of the
Buford/Trenton Irrigation District (BTID) and, in
compliance with their regulations, would be crossed
via trenchless pipeline construction methods (bores).
Dakota Access is working through the BTID permitting and approval process separately. One intermittent waterbody has been identified on the south side
of the Missouri River crossing, within the connected
action area but outside of the flowage easements, and
within the HDD workspace. Temporary impacts to
this waterbody would be mitigated during construction with a customized HDD equipment configuration,
including the placement of temporary matting/bridging over the feature as necessary to maintain natural
water flow during construction, and installation of appropriate ECDs. Therefore, impacts on surface wa-

85a
ters and adjacent sensitive habitat would be minimized by eliminating open-cut pipeline installations
and in-stream work for all crossed waterbodies.
2.3.2.8 Wetland Crossings
As discussed in Section 3.2.3 below, the only wetlands that would be crossed by the Proposed Action
are located within the permanent easement between
HDD workspace and the Missouri River on the flowage easements. As such, no wetlands would be impacted by construction or operation of the facilities
within the Project Area/Connected Actions of the federal lands, and no trenching within wetlands would
occur within the Project Area on the flowage easements. A temporary waterline would be laid aboveground, across the wetlands located between the HDD
workspace and the north bank of the Missouri River
on flowage easement LL3440E (Figure 6-13). No
ground disturbing activity would be required for installation of the temporary waterline. A more detailed
discussion regarding wetlands is provided in Section
3.2.3.
2.3.2.9 Operation and Maintenance
Following completion of construction, a 50-footwide permanent easement that is generally centered
on the pipeline (25 feet on either side of the centerline)
would be retained along the pipeline route. The 50foot-wide easement would be maintained by the Operator in an herbaceous state (cleared of large diameter
woody vegetation) to facilitate inspection of the pipeline, operational maintenance, and compliance with
the federal pipeline safety regulations. This 50-footwide maintained corridor would be reduced to a 30foot-wide corridor centered on the proposed pipeline

86a
within the wetland area north of the Missouri River
in Corps Flowage Easement LL3440E (Figure 6-13).
Maintenance of the permanent ROW would entail
periodic vegetation clearing measures, in accordance
with PHMSA regulation for pipeline inspection. This
may involve selective tree cutting and periodic mowing. The use of herbicides would not occur on Corps
Fee Lands without obtaining prior approval from the
Corps. Vegetation maintenance of the ROW in areas
of active cropland is not expected to occur due to agricultural practices.
3.0 THE AFFECTED ENVIRONMENT AND
POTENTIAL ENVIRONMENTAL IMPACTS OF
THE PROPOSED ACTION AND NO ACTION
ALTERNATIVE
3.1 Geology and Soils
Under the “no action” alternative, Dakota Access
would not construct the DAPL Project and no impacts
on geology and soils would occur. However, if the objectives of the DAPL Project are to be met under the
“no action” alternative, other projects and activities
would be required and these projects would result in
their own impacts on geology and soils, which would
likely be similar to or greater than the DAPL Project.
If the Project is not constructed, less reliable shipping
methods such as truck or rail could result in an adverse effect on geology and soils due to increases in
transportation accidents and future construction of
infrastructure necessary to support these methods
(i.e. additional loading/offloading facilities, rail spurs,
etc.).

87a
3.1.1 Geology
3.1.1.1 Affected Environment
The Corps flowage easements to be crossed extend
approximately 2.83 miles north of the Missouri River
in Williams County (Figure 2). Conventional open
trench construction methods would be used to install
the pipeline on approximately 13,553 feet of the
14,953 feet of flowage easements. The remaining
1,400 feet would be installed via HDD for the adjacent
Missouri River crossing. The easements and Connected Action lie within the Missouri River valley and
floodplain on top of the Quaternary Oahe Formation
(Clayton, 1980). The Oahe Formation is comprised of
unconsolidated sediments, including clay, sand, silt,
and gravel, with some dispersed organic material. Geotechnical borings placed on both sides of the river,
ranging in depth from 75 to 95 feet below ground surface, confirm the presence of unconsolidated sand,
gravel, and clay to at least these depths. At this location, the Oahe Formation unconformably overlies the
Paleocene Bullion Creek Formation, which is made up
of silt, sand, clay, sandstone, and lignite, and is the
uppermost part of a thick sequence of early Tertiary
and late Mesozoic sedimentary formations. Well borehole data from McKenzie County indicates that this
sequence occurs in excess of 15,000 feet thick in certain locations (Freers, 1970). No soil borings were obtained below the Missouri River crossing because the
banks of the Missouri River the length of the crossing
is sufficiently short (930 feet) to allow for a comprehensive geotechnical analysis without testing directly
beneath the river itself.

88a
The flowage easements crossed by the Proposed
Action and area crossed by the Connected Action occur
within the Great Plains Physiographic Province,
which is characterized by a broad expanse of flat land
in the central portion of the U.S. The easements and
the Missouri River Project Area lie within an area
where physiography is characterized by low-relief alluvial and floodplain deposits and range in elevation
from 1,856 to 1,879 feet above mean sea level (MSL).
The bedrock geology of the Lake Oahe crossing
area is characterized by Cretaceous sedimentary formations (Clayton, 1980). The Fox Hills Formation
(sandstone and shale) overlies the Pierre Formation
(shale), which has been exposed through erosion along
the axis of the Lake Oahe reservoir of the Missouri
River. The surficial geology is characterized by alluvium within the valley and dune deposits moving in
an eastward direction. This was corroborated by geotechnical soil borings that were placed on private
lands on both sides of Lake Oahe that indicate the
presence of sands and clays to depths ranging from at
least 150 to 235 feet below ground surface (Appendix
D).
The Lake Oahe crossing area also lies within the
Great Plains Physiographic Province. On the west
side of Lake Oahe, the federal land tracts range in elevation from 1,609 to 1,712 feet above MSL. The HDD
exit point workspace ranges from 1,699 to 1,711 feet
MSL, and the stringing area ranges from 1,671 to
1,766 feet MSL. On the east side of Lake Oahe, the
federal lands range in elevation from 1,613 to 1,664
feet MSL, and the HDD entry point workspace ranges
from 1,636 to 1,644 feet MSL.

89a
3.1.1.2 Impacts and Mitigation
To protect the terrain of the Project Area and Connected Actions, Dakota Access would, to the extent
feasible, restore the areas affected by pipeline construction to pre-construction contours and similar
vegetation (excepting trees within approximately 15
feet of the centerline). Pre-construction and as-built
surveys would be completed and provided to the Garrison Project.
Construction of the pipeline on the flowage easements and Connected Action at the Missouri River
crossing would result in minor impacts on topography
and geology, and no unique geologic features that
have received state or federal protection would be impacted within the Corps flowage easements or Connected Action.
The impacts attributable to the HDD would not be
significant. Vibrations produced during the HDD process are not of a magnitude that would cause any impacts to geologic features or other resources. Any vibrations associated with the drilling process would be
limited to the immediate vicinity of the drilling equipment on the surface and downhole. The vibrations
produced from the downhole tooling are of a very low
magnitude and are attenuated very quickly by the formation such that vibrations are not felt at the surface.
A vibration monitoring analysis conducted by GeoEngineers in 2009 found that peak particle velocities
were less than 0.07 inches/second within approximately 50 feet of HDD operations. These velocities
are well below that which would cause any structural
impacts and moreover, the recorded vibrations were,

90a
in fact, imperceptible to human senses (GeoEngineers, 2009). Primary impacts of open trench installation within the Corps flowage easements or Connected Action would be limited to construction activities and consist of temporary alteration due to grading
and trenching operations.
Construction of the pipeline at the Lake Oahe
crossing would not result in adverse impacts on topography or geology on federal lands of the Project Area.
Similarly, construction impacts on topography and geology from the Connected Actions would be low to nonexistent. No unique geologic features would be impacted by any aspect of the HDD installation.
No impacts on topography or geology would occur
during operations.
Based on recently obtained geotechnical analysis,
no blasting would be expected to occur in association
with pipeline installation on the Project Area or Connected Actions, given that the HDD would be conducted in unconsolidated or loosely indurated sediments, as described in Section 3.1.1.1. Although not
anticipated, if blasting is found to be necessary, Dakota Access would follow procedures specified in its
Blasting Plan (Appendix E).
3.1.2 Mineral Resources
3.1.2.1 Affected Environment
Williams and McKenzie counties have numerous
mineral resources that include petroleum, lignite, halite, sand and gravel, and scoria. Scoria, sediments
baked from the in situ combustion of lignite (Carlson,
1985), is commonly used to surface roads. Although
lignite occurs throughout Williams and McKenzie

91a
Counties, there are no lignite beds in the vicinity of
the Corps flowage easement crossings (Murphy, 2006;
2007). A review of aerial photographic and USGS
1:24K topographic coverage indicates that there are
no sand, gravel, or scoria pits within 1.5 miles of the
Corps flowage easement crossing areas.
Two oil/gas wells are located within the Corps flowage easements (LL3440E), but neither occur within 150
feet of the proposed HDD workspace. In addition, no
oil/gas wells are located within 150 feet of the Connected Action at the Missouri River (North Dakota Department of Mineral Resources, 2015). Impacts within
150 feet of the Project was used following the Federal
Energy Regulatory Commission (FERC) guidelines for
the evaluation of construction impacts to well integrity.
Although the Project is not under the jurisdiction of the
FERC, FERC guidance was deemed to be an appropriate distance for this evaluation.
The primary mineral resources of Morton and Emmons counties are sand and gravel aggregates. The
older Cretaceous sediments in the vicinity of the Lake
Oahe crossing (i.e., scoria) do not contain economical
deposits of fossil fuels. Although lignite occurs in Morton County, no lignite beds were identified in the vicinity of the Lake Oahe crossing. A review of aerial
photographic and USGS 1:24K topographic coverage
indicates that there are no sand, gravel, or scoria pits
within 1.5 miles of the Lake Oahe crossing.
Since Morton and Emmons Counties are located
outside the areal extent of the Bakken Formation,
there is little to no development of oil/gas resources.
This is reflected in the fact that no oil/gas wells were
located within 150 feet of the federal lands or HDD

92a
workspace and stringing area. However, the proposed
pipeline would be co-located with an existing buried
natural gas pipeline and an overhead electric transmission line across the lake.
3.1.2.2 Impacts and Mitigation
As noted previously, mineral resources, including
lignite, halite, sand and gravel, and scoria occur
within the region around the Corps flowage easements and Connected Action; however, the only commercially exploited mineral resources in the direct vicinity of the route are oil and gas, as evidenced by the
two wells found within the Corps flowage easements.
These wells would not be impacted by the Proposed
Action due to proposed conventional construction
methods and distance from the wells. No impacts on
any mineral resources are expected as a result of the
proposed flowage easement crossings or Connected
Action.
The Proposed Action does not cross active mining
areas nor any oil or gas wells and facilities in the vicinity of Lake Oahe. No impacts to any mineral resources are expected as a result of the proposed Lake
Oahe crossing.
Dakota Access, in accordance with North Dakota
One Call, would require that the construction contractor, prior to initiating any ground disturbance activities, identify all underground utilities to minimize the
potential for encountering buried utility structures.
Accordingly, the Proposed Action is not expected to
have any impact on mineral resources, because there
would be no additional surface disturbance required
beyond that used for construction.

93a
3.1.3 Geologic Hazards
3.1.3.1 Affected Environment
Earthquakes and Seismic Hazards
The Project Area, traverses terrain that overall is
geologically stable. The potential seismic hazard was
assessed by evaluating the USGS 2014 Seismic Hazard Map. According to the Seismic Hazard Map, an
earthquake that has a 2% chance of being exceeded in
a 50-year period would result in peak ground accelerations (PGAs) of 2 to 4 percent gravity (g) in the Project Area and Connected Actions (USGS, 2014a).
Ground movement from an earthquake of this
magnitude may cause a light perceived shaking but is
not expected to cause any structural damage. The low
seismic hazard of the Project Area is further corroborated by the relatively low number of earthquakes
that have historically occurred in North Dakota
(North Dakota GIS Hub Data Portal, 2010).
Landslides
Landslides refer to the gravity-induced downward
and outward movement of slope-forming materials
and pose the greatest risk to facilities on or near steep
slopes or on soil materials that are susceptible to failure particularly in response to earthquakes or heavy
precipitation. A map developed by the USGS that illustrates the regional potential for the occurrence of
landslides was used to evaluate the Project Area for
landslide incidence and susceptibility (Radbruch et
al., 1982).
Portions of the Project Area within the Corps flowage easements are moderately susceptible to landslides. This includes 59.2 acres (100%) of construction

94a
workspace, of which 17.0 acres lies within the 50-footwide permanent easement, and 0.55 acre occurs
within the 30-foot-wide maintained corridor above the
HDD profile within the Corps flowage easement
(which would not have surface disturbance aside from
selective tree cutting and roots would remain in
place). The HDD entry point on the south side of the
Missouri River outside of the flowage easements is
considered the Connected Action. The HDD entry
workspace is approximately 2.0 acres and is also moderately susceptible to landslides.
As designed, the Proposed Action does not require
any surface impacts to the federally owned lands at
Lake Oahe, although, 0.4 acre of the permanent easement through the federal property on the west side of
the Lake Oahe (Morton County) is classified as having
a high incidence of landslides. Slopes greater than
25% in the Project Area within federal lands are not
found on the east side of Lake Oahe (Emmons County)
and comprise less than 0.02 acre on the west side. Activities related to the HDD crossing outside of the federal lands at the Lake Oahe crossing are considered
Connected Actions. On the west side of Lake Oahe,
1.2 acres of the HDD workspace (exit point) and 13.1
acres of the pipe stringing area are designated as having a high incidence for landslides. Additionally, the
stringing area encompasses approximately 1.8 acres
of land that is classified as highly susceptible to landslides. Approximately 0.9 acre within the stringing
area has slopes exceeding 25%. Approximately 1.2
acres of the HDD entry point workspace on the east
side of Lake Oahe is designated as having a high inci-

95a
dence of landslides, but there are no slopes within either the east or west HDD workspace that exceed
25%.
Karst and Subsidence
Geologic terrane beneath the flowage easements
as well as the Connected Actions has potential for
karst development owing to the presence of evaporite
deposits, consisting of gypsum, salt, anhydrite, and/or
potash (Weary and Doctor, 2014). These deposits
range in age from Devonian to Jurassic and occur at
depths ranging from 900 to 3,700 meters (3,000 to
12,000 feet). Fresh water must be present for the necessary dissolution to occur for karst development.
However, since fresh water is not likely to be found at
these depths, dissolution and karst development are
not likely to occur (Ackerman, 1980). Even if karst
conditions were to develop, any physiographic expression at the ground surface would be negligible given
the great depth of these formations.
Geologic terrane beneath the federal lands crossings as well as the HDD workspaces at Lake Oahe
area may have potential for karst development due to
deposits of gypsum and other evaporates (Weary and
Doctor, 2014). However, a review of topographic and
aerial photographic coverages as well as geotechnical
testing gave no indication of karst feature development, and no documentation was found to indicate
that karst features have actually developed in this
area. Furthermore, an existing buried pipeline and
overhead electric transmission line also cross in this
location, and no information was found indicating
those utilities have been impacted by karst.

96a
Land subsidence may be caused by mining, underlying karst features, and extraction of fluids, such as
oil or groundwater. No surface subsidence effects are
expected to be incurred in the Project Area since no
mines, oil/gas wells, water wells, or karst development have been identified in the Project Area. Moreover, despite the fact that oil and gas production has
occurred for decades in the Williston Basin, no surface
subsidence effects have been documented in that area
and, therefore, are not expected to impact the Project
Areas within or near the margin of the Williston Basin.
3.1.3.2 Impacts and Mitigation
Although landslides can represent a significant
geologic hazard during construction and operation of
the pipeline, the pipeline would be installed via the
HDD to significantly reduce ground disturbing activities in areas with steep slopes (greater than 25%), effectively mitigating the risk.
As previously discussed, no ground disturbing activities would occur within the Project Area on the federal lands. Ground disturbing activities associated
with the HDD workspace and pipe stringing area would
be required as part of the Connected Action; however,
these activities would consist of clearing and grading
only and would occur, at the closest distance, 1,040 feet
from the bank of Lake Oahe. As such, no trenching or
excavation activities would occur within the Project
Area or Connected Action of the federal lands, thereby
reducing the potential for erosion and off-site sedimentation which could otherwise occur as a result of sideslope trench excavation methods and accumulation of
water within the trench.

97a
To further mitigate impacts during construction,
Dakota Access would utilize erosion and sediment
control devices in accordance with the ECP and
SWPPP, and in compliance with the National Pollutant Discharge Elimination System (NPDES) program, during construction in these areas with slopes
greater than 25%. Dakota Access would install sediment barriers (e.g., silt fence) at the base of slopes and
along the sides of slopes, as necessary, to prevent potential siltation downslope of the construction area
from entering waterbodies.
Temporary ECDs would be maintained until the
areas disturbed by construction have been successfully revegetated or are replaced with permanent
ECDs. Following the completion of construction activities, disturbed areas would be restored and graded to
pre-construction contours as closely as practical. In
order to minimize the potential for future slip or landslide events during operation of the Proposed Action,
Dakota Access may install permanent ECDs in addition to performing regular restoration and revegetation activities. Permanent ECDs would be installed
in accordance with revegetation measures outlined in
the ECP, SWPPP, and specific landowner requests.
The effectiveness of revegetation and permanent
ECDs would be monitored by Dakota Access’ operating personnel during the long-term operation and
maintenance of the Proposed Action facilities. Therefore, construction and operation of the Proposed Action facilities on the Project Area and Connected Action of the federal lands would not be expected to increase the potential for significant landslide or slip
events or result in adverse impacts on aquatic life resources within Lake Oahe.

98a
Dakota Access has completed a geotechnical analysis of the flowage easement and federal land crossing
sites to facilitate engineering and design, including
selection of appropriate materials and construction
methods to limit any environmental impacts attributable to landslides. Results of the geotechnical analysis are included in Appendix D.
The strength and ductility of a properly designed
pipeline would allow it to span a considerable distance
without compromising its integrity in the event of a
landslide or other ground movement, such as subsidence. Arc-welded steel pipelines are the most resistant
type of piping, vulnerable only to very large and abrupt
ground displacement (e.g., earthquakes, severe landslides) and are generally highly resistant to moderate
amounts of permanent deformation. This strength and
ductility effectively mitigates the effects of fault movement, landslides, and subsidence. Therefore, by implementing the mitigation measures presented here, impacts on the pipeline from geologic hazards are expected to be minimal.
No impacts associated with seismic activity
within the Project Area are anticipated. Due to the
limited potential for large, seismically induced ground
movements, there is minimal risk of earthquake-related impacts on the pipeline. Therefore, no mitigation beyond designing the proposed pipeline to currently accepted industry specifications is necessary.
3.1.4 Paleontology
3.1.4.1 Affected Environment
The surficial geology at the Missouri River crossing is dominated by Quaternary glacial drift materials

99a
within the floodplain overlying the Bullion Creek and
Sentinel Butte Formations. These bedrock formations
have been known to contain wide variety of fossils, including fossilized wood and tree stumps, mollusks,
leaves, and insects (Hoganson and Campbell, 2002).
Additionally, vertebrate fossils have been found, including turtles, crocodile-like champosaurs, and bearlike titanoides.
The surficial geology at the Lake Oahe crossing is
also characterized by Quaternary glacial drift materials; however, it is underlain by the Fox Hills and
Pierre Formations. These formations could contain
diverse fossils, including marine reptiles (e.g., mosasaurs, plesiosaurs, sea turtles), fish (e.g., sharks and
rays), birds, and invertebrates (Hoganson, 2006).
While there is potential for the bedrock formations underlying the Missouri River and Lake
Oahe crossings to contain fossils, all activities, including HDDs, would only penetrate the surficial geology
that is dominated by unconsolidated sediments, as evidenced in the geotechnical report provided in Appendix D. The potential for encountering fossils in these
unconsolidated sediments at the Missouri River and
Lake Oahe crossings is low, as fossils are primarily
found in sedimentary rock.
3.1.4.2 Impacts and Mitigation
Activities associated with pipeline construction
that have the potential to impact paleontological resources are clearing, grading, and trenching, as well
as site preparation for HDD operations. The paleontological resources of concern pertaining to construction of the Proposed Action are vertebrate fossils that
may be present in the Paleocene bedrock sediments,

100a
and to a lesser degree, in Quaternary alluvium since
this type of deposit only rarely contains vertebrate fossils.
In the event paleontological resources are discovered during construction, Dakota Access would implement measures outlined in its Unanticipated Discoveries Plan Cultural Resources, Human Remains, Paleontological Resources and Contaminated Media
(UDP) (Appendix F) to avoid further impacts on
these resources.
Invertebrate fossils are considered to be insignificant, and mitigation measures would not be required,
should they be encountered. However, if vertebrate
fossils are found during pipeline construction, Dakota
Access would immediately cease construction activities and notify appropriate agency personnel, including the North Dakota state paleontologist as well as
the Corps archaeologist. The appropriate authorities
would determine the significance of the find and prescribe the mitigation procedures to be completed prior
to resuming pipeline construction.
Operation of the pipeline would not disturb paleontological resources.
3.1.5 Soils
3.1.5.1 Affected Environment
Dakota Access identified and assessed soil characteristics in the Project Area and Connected Actions
using the Soil Survey Geographic Database, which is
a digital version of the original county soil surveys developed by the Natural Resources Conservation Service (NRCS) for use with GIS (NRCS, 2015). The areas are located within the Rolling Soft Shale Plain of

101a
North Dakota, South Dakota, and Montana. The
dominant soil orders in the Rolling Soft Shale Plain
are Mollisols and Entisols, which are shallow to very
deep, generally somewhat excessively drained and
loamy or clayey (NRCS, 2006).
The flowage easements and Connected Action are
within Zone A of the Missouri River floodplain. Soils
within the Project Area are formed out of alluvium deposited by the river over time. Slopes throughout this
Project Area are very flat, ranging from 0-2%. Approximately 94% of the flowage easement Project Area
and Connected Action would be located within either
Scorio silty clay or Lohler silty clay (Table 3-1, Figure 4). The Scorio and Lohler silty clay soils are moderately well drained and formed in clayey alluvium.
In the case of the Scorio silty clay, the clay alluvium
is deposited over a loam alluvium. The Scorio and
Lohler soils are identified as Hydrologic Soil Group C,
which have slow infiltration rates when thoroughly
wet and a slow rate of water transmission. The average depth to the water table across the majority of this
Project Area is 4.25 feet. The soils within the flowage
easements experience occasional flooding but are not
generally ponded. Soil boring data is provided in (Appendix D).

102a

103a

104a
The predominant soil type at the federal lands at
Lake Oahe is the Flasher-Vebar-Parshall complex.
This complex would comprise 7.5 acres (34%) of the
Project Area and Connected Action (Table 3-2, Figure 5). The Flasher-Vebar-Parshall complex contains
36% Flasher or similar soils, 22% Vebar or similar
soils, 15% Parshall or similar soils, and 27% minor
components. The Flasher-Vebar-Parshall complex is
formed from sandy residuum weathered from sandstone and is steep within the Project Area and Connected Action, with slopes ranging from 9 to 35%
(NRCS, 2015). The Flasher-Vebar-Parshall complex
is Hydrologic Soil Group D, which has very slow infiltration (high runoff potential) when thoroughly wet.
The depth to the water table is greater than 6.5 feet.
A majority of the soils within the Project Area and
Connected Action are neither frequently flooded nor
frequently ponded.

105a

106a

107a

108a
Prime Farmland
Prime farmland has the best combination of physical and chemical characteristics for producing food,
feed, forage, fiber, and oilseed crops and is available
for these uses. Other soils that do not meet the criteria for prime farmland may be considered farmland of
statewide importance. These soils may produce high
yields of crops when managed appropriately (NRCS,
2013). Climate is the primary limiting factor preventing farmland of statewide importance in North Dakota from being considered prime farmland; therefore,
specific management techniques or other soil amendments cannot elevate farmland of statewide importance to a prime farmland designation (Sieler,
2015).
Within the flowage easements and Connected Action, 95% of soils are considered farmland of statewide
importance, and none of the soils are considered prime
farmland. Approximately 9.5% of the soils on the federal lands, consisting only of Grassna silt loams, are
considered prime farmland. Additionally, LintonMandan silt loam and Armo-Sambo loam, which comprise 25% of the soils on federal lands, are designated
as farmland of statewide importance. The remaining
soils do not have a farmland designation.
3.1.5.2 Impacts and Mitigation
Pipeline construction activities such as clearing,
grading, trench excavation, and backfilling, as well as
the movement of construction equipment along the
ROW may result in temporary impacts on soil resources. Clearing removes protective cover and exposes soil to the effects of wind and precipitation,
which may increase the potential for soil erosion and

109a
movement of sediments into sensitive environmental
areas. Grading and equipment traffic may compact
soil, reducing porosity and percolation rates, which
could result in increased runoff potential and decreased soil productivity. Trench excavation and
backfilling could lead to a mixing of topsoil and subsoil
and may introduce rocks to the soil surface from
deeper soil horizons.
Dakota Access would minimize or avoid these impacts on soils by implementing the mitigation
measures described in the DAPL Project’s SPCC,
SWPPP, and ECP as well as requirements of applicable state and federal permits. These documents would
be included as contract documents and enforced as
such throughout the DAPL Project. As a result, impacts on soils as a result of the Proposed Action are
expected to be insignificant.
Temporary erosion and sedimentation control
measures may include installation of silt fence, straw
bales, slope breakers, trench breakers, erosion control
fabric, and mulch.
To minimize potential impacts on soil productivity,
topsoil would be separated during trench excavation in
agricultural land, and if applicable, other areas where
soil productivity is an important consideration. Unless
otherwise requested by the landowner, topsoil in
cropland would be removed to a maximum depth of 12
inches from the trench and spoil storage area and
stored separately from the trench spoil. After the
trench is backfilled, topsoil would be returned to its approximate original location in the soil horizon.

110a
Compaction of agricultural soils would be minimized by restricting construction activities during periods of prolonged rainfall. Where unacceptable levels
of compaction occur in agricultural lands, a chisel
plow or other deep tillage equipment would be utilized
to loosen the soil.
Dakota Access would retain environmental inspectors (Els) to monitor the contractor’s compliance
with applicable requirements to protect soil resources
during construction of the DAPL Project. The Garrison Project would be notified if the Els document noncompliant activities by the contractor(s) on the Project
Area or Connected Action Areas.
Soils would be temporarily disturbed within HDD
workspaces during construction at the Missouri River
and Lake Oahe crossings. Primary impacts attributable through open trench installation within the
Corps flowage easements and Connected Action would
be limited to construction activities and consist of
temporary alteration of the construction ROW due to
grading and trenching operations. Tables 3-3 and 34 present the soil types that would be impacted by construction and maintenance activities. By implementing BMPs and recognized construction methods identified in the ECP (Appendix G), impacts to soils
should be limited.
Additionally, temporary workspace used for staging HDD operations would impact soils, particularly in
association with the HDD entry excavation pit (approximately 5 feet to 15 feet across). The pits would contain
the drilling fluid that would be circulated through the
borehole during drilling operations and the cuttings
that are removed from the borehole. All drilling mud

111a
and cuttings would be disposed at an approved location
on non-federal lands, which may include land farming
on private property or disposal at a licensed disposal
facility. Drilling fluid pits at the HDD entry and exit
workspaces would be backfilled and the area returned
as closely as practical to pre-construction conditions.
Dakota Access would implement the erosion control
measures described in the SWPPP (Appendix A). The
HDD workspace sites would be cleared, graded and
matted as needed to avoid rutting and minimize compaction.
There would be no soil disturbance outside of the
construction workspace. Permanent impacts on soils
would be avoided through the implementation of
BMPs during construction, restoration, and post-construction revegetation management. A more complete
description of BMPs and recognized construction
methods can be found in the ECP (Appendix G).
There would be no conversion of prime farmland
soils to non-agricultural use.

112a

113a

114a
3.2 Water Resources
Under the “no action” alternative, Dakota Access
would not construct the DAPL Project, and no impacts
on water resources would occur. However, if the objectives of the DAPL Project are to be met under the
“no action” alternative, other projects and activities
would be required and these projects would result in
their own impacts on water resources, which would
likely be similar to or greater than the DAPL Project.
Less reliable shipping methods such as truck or rail
could result in an adverse effect on water resources
due to increases in transportation accidents and future construction of infrastructure necessary to support these methods (i.e. additional loading/offloading
facilities, rail spurs, etc.).
3.2.1 Surface Waters
3.2.1.1 Affected Environment
The Missouri River is a large perennial river and
forms the border between Williams and McKenzie
counties. The flowage easements are located on the
north side of Lake Sakakawea in the Lake Sakakawea
sub-basin (HUC 11010101) within the Upper Missouri
River Basin. All drainage patterns from the flowage
easements flow east and south towards and into the
Missouri River/Lake Sakakawea ending at the Garrison Dam. Once released from the dam, water flows
south into the Missouri River (NRCS, 2008).
Lake Oahe is a large reservoir formed behind the
Oahe Dam on the Missouri River. Lake Oahe forms
the border between Morton and Emmons counties.
The northern boundary of the Standing Rock Sioux
Reservation is located in Sioux County, North Dakota

115a
approximately 0.55 mile south of the DAPL Project
Area. The Project Area is located in the Upper Lake
Oahe Watershed (HUC 10130102) within the Missouri River Basin and adjoins both sides of Lake Oahe
at the crossing.
The Oahe Dam/Lake Oahe project is part of the
chain of Missouri River main stem lakes authorized in
the Flood Control Act of 1944. The Oahe Dam is located 6 miles north of Pierre, South Dakota and was
placed into operation in 1962. The dam and associated reservoir (Lake Oahe) are congressionally authorized to provide flood control, hydroelectric power,
navigation, irrigation, fish and wildlife enhancement,
municipal water supply, water quality, and recreational opportunities to the residents of both South Dakota and North Dakota. At maximum normal operating pool level (1,617 feet MSL), Lake Oahe extends
roughly 231 miles from the Oahe Dam in South Dakota to near Bismarck, North Dakota. At this level,
the lake covers approximately 360,000 acres. At elevation 1,607.5 feet MSL base flood control elevation,
the lake has over 2,250 miles of shoreline.
Lake Oahe can be divided into three segments
based on the character of the lake. The Project Area is
located within the northern segment. The northern
segment extends north from the North Dakota/South
Dakota state line to the upstream Oahe Dam/Lake
Oahe project boundary near Bismarck, North Dakota.
This segment is more river-like in appearance and is
characterized by both submerged and emergent snags,
sandbars, many shallow areas, and a definite current
(USACE, 2010a).

116a
Dakota Access conducted field and desktop delineations of the Project Area/Connected Action on the flowage easements and the Project Area/Connected Action
of the federal lands. Field surveys took place upon permission to access the properties in order to verify desktop delineations and ensure that the most accurate, upto-date data is used for Section 404 of the CWA and/or
Section 10 of the RHA permit filings.
There are four waterbodies (one perennial stream
and three ephemeral ditches) within the Project Area
on the flowage easements and one intermittent waterbody within the Connected Action (Figure 6). The
Project Area and Connected Action of the federal
lands encompass two waterbodies (one lake [Lake
Oahe] and one ephemeral stream) (Figure 7). Waterbody ID, type, surface water classification, and approximate milepost (MP) are summarized in Table 35 and Table 3-6.
3.2.1.2 Impacts and Mitigation
Direct and indirect impacts on Lake Oahe and the
Missouri River would be minimized by using HDD
construction methods to install the proposed pipeline
underneath the Missouri River and Lake Oahe. At
the Missouri River crossing, a 24-inch pipeline would
be installed at least 36 feet below the bottom of the
Missouri River. At Lake Oahe, a 30-inch pipeline
would be installed approximately 140 to 210 feet below the ground surface of federal lands and approximately 92 feet below the bottom of Lake Oahe (Appendix H). Additional documentation elaborating on
the rationale used to determine suitable HDD depth
is provided in Appendix D. Appendix M includes the

117a
Sovereign Lands Permits issued by the North Dakota
Office of the State Engineer.
The primary impact that could occur as a result of
an HDD is an inadvertent release of drilling fluid directly or indirectly into the waterbody. Drilling fluid
(also referred to as drilling mud) is primarily comprised of water. However, bentonite clay is added to
the water to enhance lubricating, spoil transport and
caking properties of the drilling fluid. Bentonite is a
naturally occurring, non-toxic, inert substance that
meets National Science Foundation (NSF)/American
National Standards Institute (ANSI) Standard 60
Drinking Water Additives Standards and is frequently used for drilling potable water wells. The potential exists for drilling fluid to leak through previously unidentified fractures in the material underlying the river bed. Potential release sources of the
drilling fluid include the drilling fluid entry/exit pit(s)
and the directional borehole itself, which is maintained under pressure to keep it open. The probability
of an inadvertent release is greatest when the drill bit
is working near the surface (i.e., near the entry and
exit points). To alleviate this concern, the HDD Contractor plans to install steel surface casing at both the
entry and exit locations of the Lake Oahe crossing.
Because the HDD entry and exit points would be set
back from the banks of the Missouri River (approximately 1,400 feet north and 300 feet south) and Lake
Oahe (approximately 900 feet east and 1,100 feet
west) the potential for an inadvertent release to occur
in the water would be minimized. Additionally, geotechnical investigations conducted by Dakota Access
indicated that the drill path is not located in materials

118a
where there is a high probability of an inadvertent release of drilling fluids that would reach ground surface or enter Lake Oahe. Therefore, the potential for
inadvertently released drilling fluids to enter any waterbody from below or from the shoreline is low. No
downstream impacts to Sovereign Nations from inadvertent release of drilling fluid are anticipated.
The drilling mud and cuttings would be disposed
of in accordance with applicable laws and regulations,
likely in an existing landfill or by land farming. Final
disposition would be negotiated with the facility or
private landowner prior to disposal. Dakota Access
would conduct all HDD work according to the HDD
Construction Plan (Appendix B), and would implement the HDD Contingency Plan (Appendix B) in
the event of an inadvertent release. The HDD Construction Plan establishes a 24-hour a day monitoring
program for monitoring and detection of inadvertent
releases, including monitoring for loss of drilling fluids. The HDD Contingency Plan describes monitoring
and mitigation procedures for any inadvertent release
of drilling mud into the waterbody or areas adjacent
to the waterbody and includes procedures to contain
and clean up inadvertent releases.
Dakota Access plans to hydrostatically test the
HDD pipeline segments prior to installation at the
Lake Oahe and Missouri River crossings. Hydrostatic
testing involves filling the new pipeline segments
with water acquired in accordance with applicable
permits, raising the internal pressure level, and holding that pressure for a specific period of time per U.S.
DOT requirements.

119a
Dakota Access is requesting permission to withdraw water from the Missouri River that would be required for installation of the HDD and hydrostatic
testing of the pipeline at the Missouri River crossing.
Approximately 470,000 gallons of water would be required for activities associated with the installation of
HDD and the hydrostatic testing of HDD pipeline segment. Dakota Access intends to submit an application
to the North Dakota State Water Commission, Water
Appropriations Department for a Temporary Water
Permit. The exact number and size of the withdrawal
pumps would be determined as a result of the limits
imposed by the Temporary Water Permit. The withdrawal activity would comply with all applicable permit conditions and regulations, including the specifications on permitted intake structures outlined in the
Corps’ Regional Conditions for North Dakota applicable to NWP 12 (Utility Line Activities) (Corps, 2012).
This regional condition requires that the applicant 1)
utilize an intake screen with a maximum mesh opening of 1/4-inch; 2) wire, Johnson-like screens must have
a maximum distance between wires of 1/8-inch; 3) water velocity at the intake screen shall not exceed 1Afoot per second; 4) intake structure shall be floating;
and 5) at the beginning of pumping, the intake shall
be placed over water with a minimum depth of 20 feet.
The Acquisition point would coincide with the proposed pipeline crossing of the Missouri River. An 8”x
8” Power Associates 2500 Single Stage Pump would be
set on a barge or float anchored just offshore at the
proposed permanent easement. The barge/float would
be approximately 12 feet wide by 14 feet long and fitted with a secondary containment structure (an Eagle

120a
4Drum Flexible Containment SpillNest-T8103 or similar). The pump, capable of withdrawing 2,400 gallons
per minute withdrawal and 120 feet of head pressure,
would be placed within the secondary containment on
the barge/float.
The pump’s flexible intake hose would be 8 inches
in diameter and connect the screened intake to the
pump. The screened intake (approximately the size of
a 55 gallon drum) would be suspended by floats (approximately the size of a tire) within the water column
and would be screened to prevent impingement entrainment of foreign objects and aquatic life. A hard
8-inch diameter take-way pipe extending from the
pump would push the water to the top of bank then to
the HDD equipment or pipeline section. This temporary waterline would be laid by hand on top of the
ground surface within the permanent ROW, and thus
would not require any ground disturbance or trench
excavation. The waterline, barge, pump, and associated equipment would be removed following completion of construction activities. A depiction of the layout of the barge, pump, and waterline is provided in
Figure 6-6.
Water needed for HDD construction and hydrostatic testing at the Lake Oahe Crossing in Emmons
and Morton counties, North Dakota would not be obtained from Lake Oahe. Required water would instead be obtained from an alternate surface water,
groundwater, or commercial source and transported
to the Project Area via water trucks. Water trucks
would not be required to cross Corps Fee Lands. Prior
to construction, Dakota Access would identify a water
source for construction activities at the Lake Oahe

121a
crossing in accordance with all applicable permits and
regulations.
Water discharges associated with hydrostatic
testing on Corps flowage easements would be conducted in accordance with applicable permits. Hydrostatic test water discharges would not occur on Corps
fee property. Dakota Access would conduct trench dewatering and hydrostatic test discharges in a manner
consistent with the North Dakota Pollutant Discharge
Elimination System (NDPDES) General Permit NDG070000. Discharged hydrostatic test water would not
contain additives unless written approval is received
from Dakota Access and applicable permits authorize
such additives. [Is would monitor permit compliance.
Where appropriate, water would be discharged into an
energy dissipation and/or filtering device, as described
in Dakota Access’ SWPPP (Appendix A) to remove
sediment and to reduce the erosive energy of the discharge.
Of the five waterbodies located within the flowage
easements Project Area and Connected Action, one
ephemeral ditch (d-k8-wi-011) is located within the
portion of the Project Area that would be crossed via
the Missouri River HDD; therefore, no trenching
would occur within this feature. However, a temporary waterline would be installed across this feature
to transport surface water from the Missouri River to
the HDD equipment. The temporary waterline would
be laid on top of the ground surface, and no grading or
ground disturbance in the vicinity of the waterbody
crossed by the waterline would be required. The hard
pipe segments would be hand-carried down the slope
and assembled by hand. No tracked or wheeled equipment would be necessary for construction or removal

122a
of the temporary aboveground waterline. Four waterbodies would be temporarily impacted by pipeline construction. However, impacts on waterbodies would be
minimized by conducting pipeline construction activities in accordance with applicable regulatory requirements and implementing trenchless waterbody construction procedures, as described in sections 2.3.2.6
and 2.3.2.7 and the ECP.
No waterbody would be permanently drained or
filled as part of the DAPL Project, and effects on waterbodies are expected to be short-term and minor.
Dakota Access would restore the area as close to its
previous state and naturally functioning condition as
practicable. Additionally, Dakota Access would take
measures described in Dakota Access’ SPCC, SWPPP
(Appendix A), and ECP (Appendix G) to minimize the
potential for surface water contamination from an inadvertent spill of fuel or hazardous liquids during refueling or maintenance of construction equipment or
during operation of aboveground facilities. Fuel and
all other hazardous materials would be stored in accordance with the requirements of Dakota Access’
SPCC, SWPPP, and ECP. These documents also describe response, containment, and cleanup measures.
Drinking water intakes located downstream from
the Missouri River and Lake Oahe crossings could be
at risk if there was a release that reached these bodies
of water in the vicinity of the intake structures. The
Standing Rock Sioux Reservation is located south of
the Lake Oahe Project Area and the majority of reservation residents depend on wells for water supply
(Standing Rock Sioux Tribe, 2016). However, the
Standing Rock Sioux also have intake structures

123a
within the river downstream of the Lake Oahe Project
Area.
In order to maintain the integrity of the pipeline,
prevent Project losses, and protect the general public
and the environment, the operator will inspect, exercise, and deploy Company-owned protective and response equipment in accordance with the National
Preparedness for Response Exercise Program (PREP)
guidelines. However, in the unlikely event of a pipeline leak, response measures to protect the users of
downstream intakes will be implemented to minimize
risks to water supplies. Dakota Access would be responsible party for implementing the response actions
in accordance with Geographical Response Plan
(GRP) and the Facility Response Plan (FRP). The potential for a spill to compromise a potable water supply intake would be continually evaluated as part of
the response action. Alternative sources would be included as part of the contingency planning. Shutting
down certain intakes and utilizing others or different
drinking water sources or bottled water will be evaluated as part of this process. The Federal On-Scene
Incident Commander (USEPA) would be responsible
for assimilating and approving the response actions
under the Unified Command. Dakota Access maintains financial responsibility for the duration of the
response actions. The Dakota Access has prepared a
FRP that includes measures such as notifications to
surrounding communities, affected governments, and
utilities in the event of an inadvertent pipeline release.
The FRP complies with the applicable requirements of the Oil Pollution Act of 1990 (OPA 90), and
has been prepared in accordance with the National Oil

124a
and Hazardous Substances Pollution Contingency
Plan (NCP) and the Mid-Missouri Sub-Area Contingency Plan (SACP). Specifically, this Plan is intended
to satisfy the applicable requirements of:
 Pipeline and Hazardous Materials Safety Administration, U.S. Department of Transportation requirements for an OPA 90 plan (49 CFR
194)
 South Dakota Environmental Protection Oil
Pipeline Plan Requirements (34A-18).
 American Petroleum Industry (API) RP 1174 Recommended Practice for Pipeline Emergency Preparedness and Response.
 North Dakota Administrative Code 69-09-0302
The operator has contractually secured personnel
and equipment necessary to respond, to the maximum
extent practicable, to a worst case discharge or a substantial threat of such discharge. The operator requires an annual certification from each Oil Spill Response Organization (OSRO) to assure compliance
with the National PREP guidelines. Each listed
OSRO has its own response equipment, including containment booms, absorbents, boats, and vacuum
trucks.
Sub-freezing temperatures during the winter
months could cause ice to form on the surface of Lake
Oahe and the Missouri River. This layer of ice could
impede the deployment of traditional containment
booms. However, the ice itself often serves as a natural barrier to the spread of oil (Dickens 2011). Pockets
of oil naturally contained by the ice can be drilled to

125a
and removed using vacuum trucks. Dakota Access’s
contracted professional emergency responders are
prepared to respond under winter conditions so that
response procedures can be carried out in accordance
PHMSA operational regulations. Therefore, a release
during winter conditions is anticipated to have lesser
impacts to water resources, particularly with respect
to area of extent, as compared to a release during the
warmer months.
A copy of the Draft FRP for the Dakota Access
Pipeline North Response Zone is included in Appendix
L. Dakota Access anticipates submitting this plan to
PHMSA for review and approval in the third quarter
of 2016 and will provide a copy of the updated draft to
the Corps concurrent with the submittal to PHMSA.
The FRP would be in place prior to operating the
DAPL Project in accordance with PHMSA and federal
regulations.

126a

127a

128a
The only surface waterbody identified on the federal lands Project Area is Lake Oahe (s-kc4-em-001/skc4-mo-002), which would be avoided via HDD. The
pipe stringing corridor (Connected Action) at Lake
Oahe crosses two drainageways that are indicated on
the National Hydrography Dataset. Field delineations carried out by Dakota Access identified one
ephemeral stream (s-kc-4-mo-004) associated with
these two drainageways that intersect the pipe stringing corridor of the Connected Action. Impacts on the
delineated waterbody would be entirely within the
pipe stringing additional temporary workspace
(ATWS) and are expected to be avoided by bridging
the waterways for equipment and vehicle traffic during pipe stringing, fabrication and pullback. No
trenching would occur within the pipe stringing
ATWS. While limited grading may be necessary
within the pipe stringing ATWS, no grading would be
expected to occur within the waterbody itself. Vegetation may be mowed/brush-hogged, however, no root
masses are anticipated to be removed. Revegetation
of these areas would be in accordance with the North
Dakota tree and shrub regulations and would not be
impacted during operation of the Proposed Action. No
trees are expected to be cleared on Corps fee-owned
lands.

129a

130a
Environmental Inspectors would monitor compliance with applicable waterbody protection requirements during construction of the facilities. The ECP
(Appendix G) and SWPPP (Appendix A) describe
additional mitigation measures and contain illustrations of how sediment control devices are typically installed at waterbody crossings. Additionally, Dakota
Access would maintain a vegetative buffer until the
actual crossing of the waterbody takes place. Temporary sediment control measures, such as silt fence installed at each crossing, would minimize the introduction of sediment into waterbodies during construction
and minimize the movement of spoil and sediment
from surface runoff during and after construction.
Permanent erosion control measures, such as vegetation and installation of slope breakers, would effectively stabilize riparian zones. Dakota Access would
stabilize stream banks disturbed during construction
using methods as directed by applicable state and/or
federal permits. Trenching and dewatering activities
used in construction of the proposed pipeline could
temporarily alter surface drainage patterns. However, these impacts are expected to be localized and
temporary, since the contours and vegetation would
be returned as closely as practical to pre-construction
conditions. Dewatering activities would be conducted
in accordance with applicable permits and Dakota Access’ SWPPP and ECP.
All construction equipment utilized on or in waters of the state would be subject to inspection by the
Department in accordance with the North Dakota Administrative Code (Title 30, Article 3, Chapter 6-01).
Further, Dakota Access would implement required

131a
measures including the removal of all aquatic vegetation from vessels, motors, trailers, or construction
equipment. All water would be drained from bilges or
confined spaces. All Aquatic Nuisance Species will be
removed from equipment in accordance with the
North Dakota Administrative Code (Title 30, Article
3, Chapter 6). The contractor or his agents or subcontractors must provide the North Dakota Game and
Fish Department a reasonable opportunity to inspect
any and all vehicles, vessels, pumps and equipment
that will be used in the project in or on the waters of
the state prior to those items being launched or placed
in the waters of the state.
Water Intake Mitigation
Measures In the unlikely event of a release during
pipeline operations, drinking and irrigation water intakes located downstream from the Missouri River
and Lake Oahe crossings could be at risk if hydrocarbons were to reach these bodies of water in the vicinity
of the intake structures. In order to minimize the risk
of a pipeline leak and protect the users of downstream
intakes, Dakota Access will implement the design and
operation measures summarized below as well as all
other measures described throughout this EA and in
the FRP.
 Pipe specifications that meet or exceed applicable regulations, with a quality assurance
program for pipe manufacturers
 Use of the highest quality external pipe coatings (fusion bond epoxy or FBE) to reduce the
risk of corrosion, and stress corrosion cracking.

132a
 Active Cathodic Protection applied to the pipeline and facilities
 Four feet of soil cover will be provided over the
buried pipeline on either side of the HDD
crossings. The proposed HDD profiles under
the Missouri River and Lake Oahe are designed to provide a minimum of 36 feet and 92
feet of cover below the water bodies, respectively.
 Pipeline system inspection and testing programs will be implemented prior to operation
to ensure the pipeline is built in accordance
with the standards and specifications.
 Non-destructive testing of 100 percent of girth
welds
 Hydrostatic testing of the pipeline to 125%
percent of the Maximum Operating Pressure
(MOP).
 A continuous SCADA pipeline monitoring that
remotely measures changes in pressure and
volume on a continual basis at all valve and
pump stations, is immediately analyzed to determine potential product releases anywhere
on the pipeline system.
o Pipeline variables are the parameters pertaining to SCADA systems, instrumentation, fluid properties, physical attributes of
pipelines, pressure, temperature, and
flowrate
o Includes pressure transmitters to monitor
flowing pressure in real-time and alarm in

133a
the event of adverse pressure changes due
to potential leaks / releases
o Includes custody transfer quality meters to
monitor pipeline Receipts / Deliveries in
real-time and alarm in the event of flowrate
discrepancies due to potential leaks / releases
 Leak Detection System - LeakWarn - A Computational Pipeline Monitoring System (CPM)
to monitor the pipeline for leaks via computational algorithms performed on a continual basis.
o

Includes separate ultrasonic meters at each
pump station to continuously verify and
compare flowrates along the pipeline in
real-time as part of a leak detection system.

o

This measurement data is immediately analyzed to determine potential product releases anywhere on the pipeline system.

o

The mathematical algorithms are based on
physics and abide by the conservation principles of mass, momentum and energy.

 Periodic pipeline integrity inspection programs using internal inspection tools to detect
pipeline diameter anomalies indicating excavation damage, and loss of wall thickness from
corrosion.
 Periodic above-ground Close Interval Surveys
(CIS) conducted along the pipeline.
 Aerial surveillance inspections will be conducted 26 times per year (not to exceed 3

134a
weeks apart) to detect leaks and spills as early
as possible, and to identify potential thirdparty activities that could damage the pipeline.
 Mainline valves are installed along the pipeline route to reduce or avoid spill effects to
PHMSA-defined HCAs.
 Periodic landowner outreach and the implementation of a Public Awareness program
 Participation in “One-Call” and “Before You
Dig” notification systems.
Immediately upon discovery of a release of oil that
could impact the Missouri River or Lake Oahe, Dakota
Access will initiate emergency response efforts, including containment and recovery.
Site-specific GRPs have been developed for the
Missouri River and Lake Oahe crossings. These security sensitive documents, submitted to the USACE as
Privileged and Confidential, identify site-specific resources and response measures for an immediate,
safe, and effective response to a release of crude oil
from the Dakota Access Pipeline with the potential to
impact the Missouri River near these two crossings.
Response measures include, but are not limited to, the
deployment of containment or diversionary booms at
predetermined locations and oil collection/recovery activities to prevent further migration of crude oil.
Emergency response notifications will be made to
Federal, State, and Local agencies and tribal officials
as outlined in the FRP. Dakota Access and its contractors will work with Federal, State, local and
Tribal officials to protect downstream water intakes.

135a
To minimize potential impacts to intakes, protection
and mitigation measures will be implemented in cooperation with intake operators.
Dakota Access will identify an all-weather access
and collection point downstream of both the Missouri
River crossing and Lake Oahe crossing. At each location, Dakota Access will provide an equipment storage
facility that includes a permanent storage area for
winter and open water spill response equipment. Dakota Access would coordinate with the USACE and
any other applicable stakeholders to obtain all necessary permits and approvals prior to construction for
any ground disturbing activities associated with these
facilities.
Dakota Access will conduct emergency response
drills/exercises at both the Missouri River crossing
near Williston and the crossing at Lake Oahe. These
exercises will include both open water and ice response activities. Regulatory and stakeholder participation will be encouraged and solicited for the exercises. Section 3.2.2.2 Impacts and Mitigation Remediation, Section 3.11 Reliability and Safety and the
FRP (Appendix L) contain more detail regarding spill
prevention, detection and response measures. The
emergency response drills/exercises are further discussed in Section 3.11.
3.2.2 Groundwater
3.2.2.1 Affected Environment
Groundwater occurs within the Project Area of the
Corps flowage easements and federal lands in both
glacial drift and bedrock aquifers. Although bedrock
aquifers tend to have a greater distribution and be

136a
more continuous than Quaternary aquifers, Quaternary aquifers typically provide higher yields to wells.
Groundwater in the bedrock aquifers flows towards the Missouri River and Lake Oahe, a regional
groundwater discharge zone. The water table within
phreatic aquifers, which may include both Quaternary and bedrock formations, is typically a subdued
replica of the surface topography. Although groundwater flow directions may vary widely particularly
within localized flow regimes, overall regional flow of
groundwater in the phreatic aquifer would be to the
Missouri River and Lake Oahe.
The most economically important aquifers in the
vicinity of the Corps flowage easements are the Cretaceous Dakota Group, the Tertiary Fort Union Group
(which includes the Sentinel Butte and Bullion/Tongue River Formations), and glacial drift aquifers of the Quaternary Period (Armstrong, 1969). The
glacial drift aquifers are relatively thin at the Project
Area, except where they occur in buried or presentday bedrock valleys. In the absence of Quaternary aquifers, members of the Paleocene Fort Union Group
commonly serve as the shallowest aquifer. Individual
aquifer members of the Fort Union Group include, in
descending order, the Sentinel Butte, Tongue River,
Cannonball, and Ludlow Formations (Croft, 1985).
Other bedrock aquifers of economic importance in the
flowage easement region are the late Cretaceous
Hell’s Creek and Fox Hills Aquifer system and the
Cretaceous Dakota Group.
Three domestic wells and six observation wells
(one of which has been destroyed) are located on the
flowage easements, but occur outside of the Project

137a
Area. The closest well to the proposed pipeline centerline is a domestic well located approximately 430
feet from the centerline. The flowage easements or
Connected Action do not overlie any source water protection areas.
The most economically important aquifers in Morton and Emmons counties, where the federal lands
along Lake Oahe are located, include aquifers within
the Cretaceous Fox Hills and Hell Creek Formations;
the Tertiary Fort Union Group, which includes the
Cannonball and Ludlow Formations, Tongue River
Formation, and Sentinel Butte Formation (northwest
part of the county only); and alluvial and glacial drift
aquifers of the Quaternary Period (Ackerman, 1980;
Armstrong, 1978). The Pierre Formation is considered the base of the active near-surface aquifers, because it is thick and relatively impervious.
No water wells are located within 150 feet of the
federal lands or Connected Actions at the Lake Oahe
crossing. Impacts within 150 feet of the Project was
used following the Federal Energy Regulatory Commission (FERC) guidelines for the evaluation of construction impacts to water wells and springs. Although the Project is not under the jurisdiction of the
FERC, FERC guidance was deemed to be an appropriate distance for this evaluation. Additionally, none of
the Project Area or Connected Action overlie any
source water protection areas.
3.2.2.2 Impacts and Mitigation
Ground disturbance associated with conventional
pipeline construction is generally limited to approximately 6 to 10 feet below the existing ground surface.

138a
Where excavation penetrates the water table, potential groundwater impacts from pipeline construction
are primarily limited to the radius of influence around
the excavation profile.
Construction activities, such as trenching, dewatering, and backfilling that encounter shallow aquifers would cause minor direct and indirect impacts
via fluctuations in groundwater levels and/or increased turbidity within the aquifer adjacent to the
activity due to dewatering activities. Dewatering
would consist of a single or series of submersible
pumps that would be lowered into the pipe trench to
review excess water to facilitate pipe installation. In
cases of greater water infiltration, well pointing (a series of dewatering points along the outside of the
trench connected in series to a pump to enable effective dewatering of the trench) may be used. These impacts are temporary (only while the trench is open)
and highly localized as the infiltration of the dewatered groundwater is in the immediate vicinity of
the dewatering activity.
Construction and dewatering activities are not expected to have a significant direct or indirect effect on
regional groundwater flow patterns. Shallow aquifers
would quickly reestablish equilibrium if disturbed,
and turbidity levels would rapidly subside. Consequently, the effects of construction would be minor
and short-term. Impacts on deeper aquifers are not
anticipated.
The introduction of contaminants to groundwater
due to accidental spills of construction-related chemicals, fuels, or hydraulic fluid could have an adverse
effect on groundwater quality. Spill-related impacts

139a
from construction activities are typically associated
with improper fuel storage, equipment refueling, and
equipment maintenance. Dakota Access’ SPCC Plan
outlines measures that would be implemented to
avoid, minimize, prevent, and respond to releases of
fuels and other hazardous substances during construction and includes measures for cleanup, documentation, and reporting of spills (Appendix A).
Project-specific SPCCs would be developed by the selected contractor and implemented throughout construction. By implementing the protective measures
set forth in these plans, groundwater contamination
due to construction activities is not anticipated. The
draft SPCC is included as Appendix B of Appendix A
(SWPPP); the project-specific plan to be developed by
the Contractor would meet or exceed all conditions
presented in the draft plan.
Accidental releases from the pipeline system during operations could potentially affect groundwater.
Although most components of crude oil are relatively
insoluble (Neff and Anderson, 1981), crude oil released into soil can migrate toward water where certain constituents can dissolve into groundwater or
surface water in limited amounts. As a liquid, the
product would travel along the path of least resistance
both laterally and vertically at a rate determined by a
number of factors including volume released, soil conditions (permeability, porosity, moisture, etc.), depth
to groundwater, and the speed and effectiveness of response and remediation measures.
The DAPL Project would transport light sweet
crude oil from the middle Bakken and upper Three
Forks formations (Bakken). The Energy Information
Administration (HA) categorizes light sweet crude oil

140a
as having an API gravity between 35° and 50° and less
than 0.3 wt % sulfur. API gravity is a measure of how
heavy or light liquid oil is compared to water: if its
API gravity is greater than 10, it is lighter and floats
on water. The oil extracted from the Bakken has an
API gravity generally between 40° and 43° and a sulfur content of less than 0.2 weight percentage (wt %)
(Turner, Mason and Company, 2014). Therefore, the
Bakken oil has properties that fall within the midrange of light sweet crude.
Most crude oil constituents are not very soluble in
water. The dissolved concentration of water soluble
compounds (e.g., benzene) is not controlled by the
amount of oil in contact with the water, but by the
concentration of the specific constituent in the oil
(Charbeneau et al., 2000; Charbeneau, 2003; Freeze
and Cherry, 1979). Studies of 69 crude oils found that
benzene was the only aromatic or polycyclic aromatic
hydrocarbon compound tested that is capable of exceeding the 0.005 ppm groundwater protection
threshold values for drinking water (i.e., maximum
contaminant levels (MCLs) or Water Health Based
Limits) (Kerr et al., 1999 as cited in O’Reilly et al.,
2001).
In aquatic environments, crude oil’s toxicity is a
function of the concentration of its constituent compounds and their toxic effects, along with their solubility (and bioavailability) in water. Based on the
combination of toxicity, solubility, and bioavailability,
benzene is commonly considered to pose the greatest
toxicity threat from crude oil spills (Muller, 1987).
The lowest acute toxicity threshold for aquatic organisms for benzene is 7.4 ppm based on standardized
toxicity tests (USEPA, 2016). .

141a
Accordingly, theoretical concentrations of benzene
in river water for a range of potential DAPL Project
spills at the two pipeline river crossings are presented
in Table 3-7. An assumption of a 1-hour release period for the entire spill volume at each location was
used. The following additional conservative assumptions were developed to estimate potential spill effects
for planning purposes:
 The entire volume of a crude oil spill was released due to a catastrophic failure of the pipeline and reached the waterbody;
 Complete, instantaneous mixing occurred;
 The entire benzene content of the crude oil
was solubilized into the water column; and
 The receptor is located at the immediate site
of the crude oil spill and there is no loss due to
evaporation or degradation.
The conservative analysis presented in Table 3-7
includes a range of values from 4 barrels to 10,000
barrels spilled. However, examination of the PH MSA
dataset from 2002 to 2015 (PHMSA, 2016) indicates
that the majority of actual pipeline spills are relatively small and fifty percent of the spills consist of 4
bbls or less. The spill volume would be likely small
due to a number of factors including:
 Most releases are not caused by full ruptures
of the pipeline;
 The overburden on the HDD section of the
pipeline or the compacted back-fill over a buried pipeline restricts the volume that could be
released during a spill and restricts the affected area; and

142a
 Due to anti-siphoning effects, a full gravity
drain-down between valve locations on either
side of the river crossings rarely occurs.
As indicated in Table 3-7, the acute toxicity
threshold for aquatic organisms for benzene of 7.4
ppm is not exceeded under any of the hypothetical
spill volume scenarios. The most probable spill volume (4 barrels
or less) does not yield benzene concentrations that
exceed the drinking water criteria even with the ultra
conservative mixing assumptions. It should be noted
that under real life conditions, the spill and mixing
events outlined by the assumptions are beyond physical actualities. Therefore the use of the upper ranges
of spill volumes and the concentrations in the table is
limited and is not recommended beyond this NEPA
analysis.

143a

144a
Sub-freezing temperatures during the winter
months could cause ice to form on the surface of Lake
Oahe and the Missouri River. This layer of ice will
trap oil released below the lake’s surface and prevent
benzene evaporation from occurring. Therefore, during the winter, evaporative loss will be negligible, and
will allow a longer contact between the crude oil and
the water column. Additionally, natural undulations
in the bottom of the ice will trap the material and reduce horizontal spreading, potentially causing very localized impacts to organisms in prolonged contact
with the near-surface water (e.g., phytoplankton)
(Dickens 2011). Exposure to fish deeper in the water
column would not likely experience adverse impacts.
The natural containment of winter releases facilitates
cleanup efforts as the pockets of oil can be drilled to
and removed using vacuum trucks. Thus, winter releases are predicted to have lower impacts, particularly with respect to area of extent, as compared to releases occurring during the warmer seasons.
If no active ground water remediation activities
were undertaken (see discussion below), dispersion,
evaporation, dissolution, sorption, photodegradation,
biodegradation, and natural attenuation ultimately
would allow a return to preexisting conditions in both
soil and groundwater.
Remediation
As part of the pipeline operation, which is regulated by the PHMSA, Dakota Access has an ongoing
maintenance, inspection, and integrity testing program to monitor the safety of the pipeline system.
Monitoring activities include constant remote oversight of the entire system 24/7/365 from the control

145a
center, routine inspection of the cathodic protection
system, and the use of inspection tools that travel
through the inside of the pipeline to check pipe integrity (see Section 3.11 for additional information regarding reliability and safety and the proposed methods for monitoring the Proposed Action facilities). Dakota Access also performs regular aerial flyovers to inspect the pipeline ROW. In the event of a leak, Dakota
Access would work aggressively to isolate the source
through the use of remote-controlled shutoff valves,
initiate cleanup activities, and contact the appropriate federal and state authorities to coordinate leak
containment and cleanup. To prevent pipeline failures resulting in inadvertent releases, Dakota Access
would construct and maintain the pipeline to meet or
exceed industry and governmental requirements and
standards. Specifically, the steel pipe would meet
PHMSA specifications under 49 CFR § 195, follow
standards issued by the American Society of Mechanical Engineers, National Association for Corrosion Engineers and API. Once installed, the pipeline would
be subjected to testing to verify its integrity and compliance with specifications, including hydrostatic
pressure testing at the crossings, checking coating integrity, and X-ray inspection of the welds. The pipeline would be placed into service only after inspection
to verify compliance with all construction standards
and requirements. Dakota Access would maintain
and inspect the pipeline in accordance with PHMSA
regulations, industry codes and prudent pipeline operating protocols and techniques. The pipeline ROW
would be patrolled and inspected by air every 10 days,
weather permitting, but at least every three weeks

146a
and not less than 26 times per year, to check for abnormal conditions or dangerous activities, such as unauthorized excavation along the pipeline route.
While a release of crude oil into groundwater or a
surface waterbody has the potential to cause environmental impacts, the likelihood of such an event is very
low. Dakota Access has detailed provisions for protecting and mitigating potential impacts to water resources in Section 3.11 Reliability and Safety. Emergency response and remediation efforts have the potential for dramatically reducing the appreciable adverse environmental effects.
In the unlikely event of a spill during operations
of the pipeline, impacts to water resources would be
further mitigated by following the cleanup procedures
and remediation activities described in the Dakota Access’ FRP (Appendix L).
Specific clean-up procedures and remediation activities would be determined by groundwater remediation specialists within Dakota Access and contracted
professional consultants. Each groundwater mitigation situation is unique and will be treated according
to the actual circumstances present.
The first step in the mitigation process consists of
the delineation of the plume to define the nature and
extent of the release. If appropriate, Dakota Access
would recover product as soon as practical to prevent
the spread of contamination using excavators to remove the impacted soils, oil skimmers installed within
collection wells, pumps, and storage containers or vacuum trucks at collection areas or some other method
appropriate for the site conditions.

147a
Dakota Access would develop a groundwater remediation plan in coordination with the North Dakota
Department of Health and other responsible federal,
state or other governmental authorities. The proposed groundwater remediation system would be designed to treat the impacted groundwater by removing the released oil, converting it into harmless products, monitoring natural attenuation, etc.
Released product can often be physically removed
from groundwater by several methodologies. The
pump and treat method is one of the most widely used
physical methods of ground water remediation and
consists of pumping the groundwater to surface and
then using either biological or chemical treatments to
remove the oil. Another common method of removing
floating hydrocarbon contaminants is the use of a
monitoring-well oil skimmer. This method utilized a
belt material with a strong affinity for hydrocarbons
to bring the oil to the surface where it can be removed.
A dual-phase vacuum extraction removes both contaminated groundwater and soil vapor. A high-vacuum extraction well is installed with its screened section in the zone of contaminated soils and groundwater to remove contaminants from above and below the
water table. Released product can also be removed
from groundwater by applying various chemical methodologies including ozone and oxygen gas injection,
surfactant enhanced recovery, Biological treatment
techniques can also be utilized including bioventing
and bioaugmentation.
The ground water treatment remediation plan
would be selected in coordination with the North Da-

148a
kota Department of Health and other responsible governmental authorities and may utilize a combination
of technologies.
A preliminary evaluation of geology indicates that
groundwater within the floodplain throughout most of
the Corps flowage easements is less than 6.5 feet deep
(GeoEngineers, 2014). The pipeline would be installed in saturated sediments as part of the HDD
crossing of Lake Oahe. Due to the nature of HDD
methodology, this construction method is inherently
not a risk to groundwater resources and uses benign
substances (bentonite and water) to penetrate
through soil, rock, and groundwater. Construction of
the Project Area and Connected Action would not be
expected to result in significant negative direct or indirect impacts on groundwater resources.
3.2.3 Wetlands
3.2.3.1 Affected Environment
Wetland data for the Project Areas was derived
from desktop analyses along the entire route and verified by field delineations. Using data from the U.S.
Fish & Wildlife Service’s (USFWS) National Wetlands
Inventory (NWI) dataset, aerial imagery, and topography, an experienced biologist applied professional
judgment to create polygon coverage in GIS to define
the areal extent of wetlands. These areas have been
field-verified to ensure that the most accurate, up-todate data is being used for permit filings.
The field wetland investigations were conducted
using the on-site methodology set forth in the 1987
Corps of Engineers Wetland Delineation Manual and

149a
the 2010 Regional Supplement to the Corps of Engineers Wetland Delineation Manual: Great Plains Region (USACE, 1987; 2010b). In addition to the 1987
Manual and the Regional Supplement, wetland areas
were examined through analysis of the vegetation,
soils, and hydrology, as described in the Classification
of Wetland and Deepwater Habitats of the U.S. and
The National Wetland Plant List (Cowardin et al.,
1979; Lichvar et al., 2014).
3.2.3.2 Impacts and Mitigation
The routing analysis utilized to determine the
crossing locations was designed to avoid impacts to
sensitive environmental resources including wetlands. Construction workspace on the flowage easements has been selected based on an absence of wetlands within the Project Area and, as confirmed by
field verification in 2015, no wetlands would be impacted by trench excavation within the construction
ROW, ATWS, HDD workspace, or HDD stringing corridor on the flowage easements or Connected Action.
The field wetland investigations conducted by Dakota Access results identified four wetlands located
within the permanent easement on the flowage easements (w-m10-wi-001_PSS, w-m10-wi-001_PEM, wm10-wi-001_PFO, and w-m10-wi-002_PSS). These
wetlands occur in the portion of the Project Area on
the flowage easements that would be constructed via
HDD; therefore, no trenching would occur within
these wetlands. However, following construction, a
30-foot-wide corridor centered on the proposed pipeline would be maintained in non-forested state to facilitate inspections of the pipeline, operational

150a
maintenance, and compliance with the federal pipeline safety regulations. The 30 foot permanent ROW
would encompass a total of approximately 0.30 acre of
the four wetlands. One of these wetlands (w-m10-wi001_PF0), approximately 0.05 acre, is classified as a
palustrine forested (PEO) wetland and would be converted to shrub-scrub or herbaceous wetland as a result of the Proposed Action since trees would be routinely removed for the life of the pipeline. The remaining palustrine emergent (PEM) wetland (w-m10-wi001_PEM) and two palustrine scrub-shrub (PSS) wetlands (w-m10-wi-001_PSS and w-m10-wi-002_PSS),
comprising a total of 0.25 acres of the permanent pipeline easement, may require infrequent vegetation
clearing of encroaching woody vegetation but would
otherwise remain in their natural state. Dakota Access is in the process of obtaining verification for use
of NWP 12 for the crossings of wetlands and waterbodies associated with DAPL Project.
Pending approval and receipt of applicable permits and easement permission, a temporary waterline
would be installed between the shoreline and the
HDD workspace on the flowage easements within the
permanent ROW (Figure 6-6), in order to supply the
HDD equipment with water needed for drilling fluid
preparation and hydrostatic testing. The temporary
waterline would be laid on top of the surface, and no
ground disturbance of the four wetland features along
the permanent easement is anticipated. The hard
pipe segments would be hand-carried down the slope
and assembled by hand. No tracked or wheeled equipment would be necessary for construction or removal

151a
of the temporary aboveground pipeline. No excavation or disturbance of wetlands or the river bank is
anticipated.
Table 3-8 summarizes wetlands within the flowage easements that occur within the permanent ROW,
which is 30-feet-wide centered on the centerline over
the HDD profile and 50-feet-wide elsewhere.
No wetlands would be impacted by the HDD workspace on private land and the permanent ROW on federal land at the crossing of Lake Oahe, because no
wetlands exist within the Project Area and Connected
Action Area at the Lake Oahe Crossing.
The ECP and SWPPP specify several measures to
protect wetlands and waterbodies from becoming polluted with fuels or other hazardous materials during
construction. These plans prohibit the storage of fuel
or other hazardous materials within 100 feet of a wetland or waterbody. The ECP also specifies that equipment must be refueled at least 100 feet from waterbodies unless, due to site-specific conditions, there is
no practical alternative such as the proposed pumping
intake structure located on the barge at the Missouri
River Crossing. In that case, the contractor must implement site-specific protective measures and containment procedures described in the ECP. Contractors would be required to provide trained personnel,
appropriate equipment, and materials to contain and
clean up releases of fuel, lubricating oil, or hydraulic
fluid that result from equipment failure or other circumstances in accordance with containment plans as
described above.

152a

153a
3.2.4 Floodplain
3.2.4.1 Affected Environment
Floodplains refer to the 100-year floodplain, as defined by Federal Emergency Management Agency
(FEMA), and as shown on Flood Insurance Rate Maps
(FIRM) or Flood Hazard Boundary Maps for all communities participating in the National Flood Insurance Program (NFIP). The 100-year floodplain is an
area subjected to inundation by the 1% chance of an
annual flood event. Executive Order (EO) 11988
(Floodplain Management) requires federal agencies to
avoid direct or indirect support of development within
the 100-year floodplain whenever there is a practical
alternative.
According to the FEMA FIRM map, the seven
flowage easements are located within Zone A (the 100year floodplain) of the Missouri River in Williams
County. A FEMA flood map is not available for the
Connected Action within McKenzie County. The Lake
Oahe crossing in Emmons County is located in Zone
D, which is an area of undetermined, but possible
flood hazards (FEMA, 1987). FEMA has not completed a study to determine flood hazards for Morton
County; therefore, a flood map has not been published
at this time.
3.2.4.2 Impacts and Mitigation
The Proposed Action has been designed in accordance with accepted floodplain management practices;
therefore, no impacts on floodplain elevations or velocities are anticipated. Following construction, disturbed areas would be restored to pre-construction
grades and contours, as practical. If necessary, soil

154a
displaced by installation of the 24-inch pipeline on the
flowage easements would be removed from the floodplain and hauled to an upland location in order to ensure original floodplain elevations are restored
The Corps Omaha District Flood Risk and Floodplain Management Section (FRFM) is responsible for
coordinating compliance with the requirements of EO
11988. The FRFM reviewed the proposed pipeline
plans for the portion of the DAPL Project that crosses
the flowage easements for compliance with Appendix
A (Typical Cut and Fill Volumes for Land Development Proposals) of NWDR 1110-2-5, Land Development Guidance at Corps Reservoir Projects, and found
that the lowest elevation of the Proposed Action on the
flowage easements (1872.25 feet MSL) would be above
the Garrison flood control pool maximum operation elevation (1854.0 feet MSL). Therefore, there would be
no adverse impacts on the operation of the Garrison
flood control pool. Provided that the site topography
is left at its natural ground elevation after construction and all excess material is hauled off site, the
FRFM concluded that there are no flood risk and
floodplain management concerns associated with the
Proposed Action. On April 7, 2015 the FRFM provided
Dakota Access with a memorandum verifying compliance under EO 1198 and recommending approval of
the Proposed Action (Krause, 2015).
3.2.5 Levees
Based on a search of the Corps National Levee Database and FEMA FIRM maps, no levees are located
within 10 miles of the Lake Oahe or flowage easement
crossings (Corps, 2014). Because no levees are located

155a
within 10 miles of either crossing, construction of the
Proposed Action is not expected to impact levees.
3.3 Vegetation, Agriculture, and Range Resources
Under the “no action” alternative, Dakota Access
would not construct the proposed DAPL Project and
no impacts on vegetation, agriculture, and range resources would occur. However, if the objectives of the
DAPL Project are to be met under the “no action” alternative, other projects and activities would be required and these projects would result in their own
impacts on vegetation, agriculture, and range resources, which would likely be similar to or greater
than the DAPL Project. Impacts associated with a future project developed in response to the “no action”
alternative are unknown, while only temporary and
minor impacts or insignificant permanent impacts on
vegetation, agriculture, and range resources would occur as a result of the Proposed Action, as described in
the sections below.
3.3.1 Vegetation
3.3.1.1 Affected Environment
Land cover was analyzed for the flowage easements and federal lands and associated Connected Actions based on the 2011 USGS National Land Cover
Dataset (NLCD) and was field-verified where access
was available. Land cover on the flowage easements
is comprised mostly of cultivated crops, which include
corn, sugar beets, alfalfa, soybeans, and spring wheat.
Other present land cover types include developed areas, which are primarily roads, pasture/hay/grassland
areas that are interspersed with the cultivated crops,

156a
emergent wetlands, woody wetlands, mixed forest and
deciduous forest associated with the Missouri River.
Land cover on the federal lands is comprised of
cultivated crops, emergent herbaceous wetlands,
grassland/herbaceous, and open water. Over half of
the area of the tracts is characterized as grassland/herbaceous, which primarily occurs on the west
side of Lake Oahe. Cultivated cropland consists
mainly of oats and canola on the east side of the Lake.
A description of each land cover type encountered
at both crossing areas is provided below.
Cultivated Crop
The cultivated cropland community is characterized by land used for the production of annual crops,
such as corn and soybeans. This class includes all
land being actively tilled.
Deciduous Forest
Deciduous forest typically includes trees that are
greater than 16 feet tall. More than 75% of the tree
species in this land cover class shed foliage simultaneously in response to seasonal change.
Mixed Forest
Mixed forest are generally areas dominated by
trees generally greater than 5 meters tall, and greater
than 20% of total vegetation cover. The vegetation
cover within mixed forest typically does not have either deciduous or evergreen species greater than 75%
of the total tree cover.

157a
Developed/Open Space
The developed/open space community type is dominated by lawn grasses and may include some developed areas and roads. Impervious surfaces account
for less than 20% of the total cover. This class would
typically include minor roads and associated ditches.
Developed/Low Intensity
The developed/low intensity community includes
areas with a mixture of constructed material and vegetation. These areas most commonly include singlefamily housing units. Developed/low intensity in the
Project Area is associated with impervious surfaces of
larger roads.
Emergent Herbaceous Wetland
Refer to Section 3.2.3, which provides a description of data obtained during delineations of the wetlands that would be impacted by the Proposed Action.
Woody Wetlands
Refer to Section 4.2.3, which provides a description of data obtained during delineations of the wetlands that would be impacted by the Proposed Action.
Grassland/Herbaceous
The grassland/herbaceous community is dominated by graminoid or herbaceous vegetation. These
areas are not subject to intensive management such
as tilling but can be utilized for grazing.
Pasture/Hay
The pasture/hay community type consists of areas
of grasses, legumes, or grass-legume mixtures planted

158a
for livestock grazing or the production of seed or hay
crops, typically on a perennial cycle.
Open Water
The open water cover type includes areas of open
water. This land cover type is associated with Lake
Oahe and the Missouri River.
3.3.1.2 Impacts and Mitigation
Temporary impacts on land cover would occur in
essentially all areas within the construction footprint
of the Project Area and Connected Actions, the vast
majority of which would return to pre-construction
land cover upon completion of construction. One exception is at the flowage easement Project Area in forested areas along the permanent easement Impacts
on cultivated crops make up the majority of temporary
impacts and would return to cultivated crops post-construction.
Tables 3-9 and 3-10 show land cover types impacted by construction and maintenance activities. A
description of each category is provided below.

159a

160a
Permanent impacts on land cover in the federal
lands would be limited to the permanent ROW and involve limited tree removal within the permanent easement. Impacts on land cover as part of the Connected
Action would occur on private lands and include the
HDD workspaces, stringing area, and the permanent
easements between the HDD workspaces and federal
lands.

161a

162a
Measures to Protect Vegetation
Dakota Access would clear the ROW to the extent
necessary to assure suitable access for construction,
safe operation, and maintenance of the DAPL Project.
Clearing of herbaceous vegetation during construction
is anticipated to result in short-term impacts. Within
areas disturbed by construction in the flowage easements Project Area and Connected Actions, Dakota
Access would implement active revegetation
measures and rapid colonization by annual and perennial herbaceous species to restore most vegetative
cover within the first growing season. In areas that
require permanent revegetation, Dakota Access
would utilize an NRCS native seed mix that has been
selected for the Proposed Action based on the North
Dakota State University Extension Service Publication, Successful Reclamation of Lands Disturbed by
Oil and Gas Development and Infrastructure Construction. . Ground disturbing activities would not occur on Corps fee-owned lands; therefore, reseeding is
not anticipated in these areas. However, if reseeding
were to become necessary on Corps fee-owned lands,
all activities would be conducted in accordance with
applicable Lake Oahe or Garrison Project revegetation guidelines.
In non-agricultural areas, vegetation cleared from
ATWS would be allowed to revegetate after construction depending on arrangements with the landowner.
Consequently, significant changes in cover types are
not anticipated. Revegetation would allow wildlife
species to return to the area after construction is completed. Temporary revegetation measures may also
be implemented to quickly establish ground cover to
minimize the potential for soil erosion and noxious

163a
weeds to establish. A temporary seed mix may be applied in these situations. Revegetation of trees and
shrubs would take place in accordance with the North
Dakota tree and shrub regulations. The ECP (Appendix G) contains more details regarding temporary revegetation.
After completion of waterbody crossings, Dakota
Access would revegetate disturbed stream banks in
accordance with the ECP, SWPPP, and requirements
of applicable state and federal permits. When constructing in agricultural areas, up to 1 foot of topsoil
(organic layer) would be stripped from the trench line
and stockpiled separately from trench spoil to preserve the native seed stock. The ECP contains additional details regarding topsoil segregation.
At stream approaches, the Contractor would leave
a 20-foot buffer of undisturbed herbaceous vegetation
on all stream banks during initial clearing, except
where grading is needed for bridge installation or
where restricted by applicable regulations and/or permit conditions.
3.3.2 Invasive and Noxious Weeds
3.3.2.1 Affected Environment
The state of North Dakota has 11 state-listed noxious and invasive weeds (“invasive species”). The species listed are: Russian knapweed (Acroptilon repens),
absinth wormwood (Artemisia absinthium), musk
thistle (Carduus nutans), diffuse knapweed (Centaurea diffusa), yellow toadflax (Linaria vulgaris), spotted knapweed (Centaurea maculosa), Canada thistle
(Cirsium arvense), leafy spurge (Euphorbia esula),

164a
dalmatian toadflax (Linaria dalmatica), purple loosestrife (Lythrum salicaria), and saltcedar (Tamarix
chinensis). These state invasive species are controlled
and regulated under North Dakota Law (NDCC § 4.147-02) (North Dakota Department of Agriculture,
2014a).
Each county in North Dakota has a County Weed
Board, which consists of a regulation committee to
manage noxious and invasive weeds. Each of these
county boards is responsible for the addition of
county-specific invasive species to the state-listed species. Additional noxious weeds are listed in McKenzie
County including field bindweed (Convolvulus arvensis), burdock (Arctium sp.), black hendane (Hyoscyamus niger), houndstongue (Cynoglossum officinale),
and yellow starthistle (Centaurea solstitialis). No additional invasive species have been identified for listing in Williams, Morton, and Emmons counties.
3.3.2.2 Environmental Impact and
Mitigation
Dakota Access sent notifications to the McKenzie,
Williams, Morton, and Emmons counties weed boards
describing the Proposed Action and requesting any
guidance regarding the known locations of noxious
and invasive weeds pertaining to that county. Dakota
Access would work with the county weed boards to ensure the ECP contains relevant and necessary mitigation measures that would be implemented to prevent
the spread of noxious weed species during construction and operation of the Proposed Action.

165a
3.3.3 Threatened, Endangered, Candidate, and
Proposed Plant Species
3.3.3.1 Affected Environment
There is one federally-listed plant species in
North Dakota, the threatened western prairie fringed
orchid. This plant species is associated with high
quality moist, tall grass prairie. Most of the orchids
in North Dakota are located in the Sheyenne National
Grasslands in Ransom and Richland counties in the
southeastern corner of the state. The population at
Sheyenne National Grasslands is the largest population left in the world, with over 7,000 orchids
(USFWS, 2013a).
North Dakota does not have a state threatened
and endangered species program or track plant species that are not federally listed.
3.3.3.2 Impacts and Mitigation
There are no known records of western prairie
fringed orchids in the Project Area counties, and no
suitable habitat was documented; therefore, no effect
on the western prairie fringed orchid is expected as a
result of the proposed undertaking. In the unlikely
event that any are observed during construction on
federal lands, work would stop and the Corps would
be contacted.
3.4 Wildlife Resources
Under the “no action” alternative, Dakota Access
would not construct the DAPL Project, and no impacts
on wildlife resources would occur. However, if the objectives of the DAPL Project are to be met under the
“no action” alternative, other projects and activities

166a
would be required and these projects would result in
their own impacts on wildlife resources, which would
likely be similar to or greater than the DAPL Project.
Impacts associated with a future project developed in
response to the “no action” alternative are unknown,
while only temporary and minor impacts, if any, on
wildlife resources would occur as a result of the Proposed Action, as described in the sections below.
3.4.1 Recreationally and Economically Important Species and Nongame Wildlife
3.4.1.1 Affected Environment
The Proposed Action region is home to a large
number of mammal and bird species. Big game species that occur in the Proposed Action region include
pronghorn and white-tailed deer. Game birds potentially using the types of wildlife habitat in the Project
Area include the ruffed grouse, sharp-tailed grouse,
pheasant, woodcock, snipe, and doves. Furbearers
and predators potentially occurring within the Project
Area include coyote, beaver, badger, red fox, raccoon,
bobcat, fisher, mink, weasel, and muskrat. Potential
small mammal species occurring within the habitat
types associated with the Project Area include pocket
gopher, skunk, and white-tailed jackrabbit.
Waterfowl and shorebird species potentially occurring within the Project Area include mallards, pintails, American wigeon, blue-winged teal, western
grebe, California gull, Canada goose, common tern,
killdeer, Wilson’s phalarope, and lesser yellowlegs.
Numerous songbirds, including the American goldfinch, black-capped chickadee, cedar waxwing, claycolored sparrow, lark bunting, song sparrow, tree
swallow, western kingbird, western meadowlark, and

167a
yellow warbler can be expected to occur in the Project
Area.
Numerous species of reptiles and amphibians may
also occur within the Project Area. Some amphibian
species that may be expected to occur in the Project
Area include the northern leopard frog, tiger salamander, and western chorus frog. Reptile species that
may be expected to occur within the Project Area include common snapping turtle, western painted turtle, common garter snake, and racer (Hoberg and
Gause, 1992).
3.4.1.2 Impacts and Mitigation
Temporary impacts on wildlife could occur during
construction due to clearing of vegetation and movement of construction equipment along the ROW. The
ROW and ATWS would remain relatively clear of vegetation until restoration is completed. Most wildlife,
including the larger and more mobile animals, would
disperse from the Project Area as construction activities approach. Displaced species may recolonize in adjacent, undisturbed areas, or reestablish in their previously occupied habitats after construction has been
completed and suitable habitat is restored. Some
smaller, less mobile wildlife species such as amphibians, reptiles, and small mammals have the potential
to be directly impacted during clearing and grading
activities, but given the limited extent of the proposed
crossing, measurable impacts are not anticipated. No
impacts to treaty fishing and hunting rights are anticipated due to construction within the Project Area or
Connected Actions.
Herbaceous cover would be seeded on disturbed
upland areas during restoration, and it is expected

168a
that pre-existing herbaceous and shrub habitats
would quickly reestablish themselves. Consequently,
it is expected that the wildlife species that use these
habitats would also return within one growing season
of construction completion. Routine clearing of the
permanent easement to improve visibility and remove
encroaching trees would be performed in compliance
with PHMSA requirements. The lack of trees reestablishing would be the only potential long-term impact
to wildlife that depends on forested communities.
This impact is expected to be negligible, as it only pertains to extremely small portions of the permanent
easement and very little forested habitat is present
within the Project Area and Connected Actions.
3.4.2 Threatened, Endangered, Candidate, and
Proposed Wildlife Species
The Endangered Species Act (ESA) directs all federal agencies to work to conserve endangered and
threatened species. Crossing the Corps flowage easements and federal lands triggers the consultation procedures of section 7 of the ESA. This section serves as
the Biological Evaluation or written analysis documenting the Corps’ conclusions and the rationale to
support those conclusions regarding the effects of the
Proposed Action on protected wildlife resources. The
Bald Eagle (Haliaeetus leucocephalus) was removed
from the federal list of threatened and endangered
species on August 9, 2007 and is no longer protected
under the ESA. However, the bald eagle is provided
protection under the Bald and Golden Eagle Protection Act (BGEPA) and the Migratory Bird Treaty Act
(MBTA), which prohibits disturbance of eagles and
other raptors. In order to ensure compliance with
these acts, Dakota Access obtained USFWS and state

169a
agency data regarding known eagle nests in the vicinity of the Missouri River and Lake Oahe crossings
from the North Dakota Game and Fish Department,
who houses the eagle location database. The Proposed
Action and Connected action will be over 1,000 feet
from known or historic eagle nesting areas.
Based on the known nest data, there are no eagle
nests within the USFWS National Bald Eagle Management Guidelines recommend nest buffers of 660
feet for linear construction activities if the activity will
be visible from the nest and 330 feet if the activity will
not be visible from the nest (USFWS, 2007). These
guidelines are intended to help the public minimize
impacts to bald eagles, particularly where they may
constitute “disturbance”, which is prohibited by the
BGEPA. Given the distance from known eagle nesting areas, and the mitigation of use of the HDD
method for both the Missouri and Lake Oahe crossings, the Proposed Action is not anticipated to have
any effect on Bald or Golden eagles
3.4.2.1 Affected Environment
Nine federally listed species have been identified
in Williams, McKenzie, Morton, and Emmons counties. Designated critical habitat for the piping plover
also occurs in each of the four counties. The USFWS
concurred with the Corps effect determinations included below in Section 3.4.2.2 for all listed species
within the EA review area.
Interior Least Tern
In North Dakota, the interior least tern (Sterna
antillarum) utilizes sparsely vegetated sandbars on
the Missouri River. Birds nest, raise young, and relax

170a
on barren river sandbars. In North Dakota, the least
tern is found mainly on the Missouri River from Garrison Dam south to Lake Oahe and on the Missouri
and Yellowstone Rivers upstream of Lake Sakakawea. Approximately 100 pairs breed in North
Dakota during the summer before flying to coastal areas of Central and South American and the Caribbean
Islands (USFWS, 2013b).
Whooping Crane
Whooping cranes (Grus Americana) embark on a
bi-annual migration from summer nesting and breeding grounds in Wood Buffalo National Park in northern Alberta to the barrier islands and coastal marshes
of the Aransas National Wildlife Refuge on the Gulf
Coast of Texas. Twice yearly in the spring and fall,
whooping cranes migrate along the Central Flyway, a
migratory corridor approximately 220 miles wide and
2,400 miles in length. The Central Flyway includes
eastern Montana and portions of North Dakota, South
Dakota, Nebraska, Kansas, Oklahoma, and eastern
Texas (USFWS, 2014a) (Figure 16). During the migration, cranes make numerous stops, roosting for
short durations in large shallow marshes, and feeding
in harvested grain fields. Approximately 75% of the
whooping crane sightings in North Dakota occur
within the Central Flyway. The primary threats to
whooping cranes are power lines, illegal hunting, and
habitat loss.
Black-footed Ferret
The black-footed ferret (Mustela nigripes) is a
small member of Mustelidae family native to North
American shortgrass and mixed grass prairie. Prairie
dogs make up approximately 90% of the black-footed

171a
ferret diet and as such, the species is associated almost exclusively with large complexes of prairie dog
towns (USFWS, 2013c; Black-footed Ferret Recovery
Implementation Team [BFFRIT], 2011). Black-footed
ferrets are fossorial, nocturnal predators, spending
the majority of their time underground in prairie dog
burrows, leaving only to hunt (BIFFRIT, 2011). Once
thought to be extirpated in the wild, captive-born individuals have been reintroduced to 21 sites in Wyoming, Montana, South Dakota, Colorado, Utah, Kansas, New Mexico, and Arizona since 1991 (USFWS,
2013c).
Gray Wolf
A habitat generalist, the gray wolf (Canis lupus)
historically occupied most habitat types in North
America. They show little preference for one cover
type over another and successfully utilize alpine, forest, grassland, shrubland, and woodland habitats
across their range (Mech, 1974). Once thought to require wilderness areas with little to no human disturbance, recent range expansions have demonstrated
the species’ ability to tolerate higher rates of anthropogenic development than previously thought. Given
abundant prey and low rates of human-caused mortality, wolves can survive in proximity to human-dominated environments (Fuller, 1989).
Northern Long-eared Bat
Northern long-eared bats (Myotis septentrionalis)
occur throughout the eastern and north-central U.S.
Eastern populations have declined significantly in recent years as a result of white-nose syndrome (WNS),
a contagious fungal infection. Although historically
less common in the western portion of its range than

172a
in the northern portion, northern long-eared bats occur throughout North Dakota. Habitat throughout its
range includes caves and abandoned mines during the
winter and hardwood or mixed forests for roosting and
foraging during the summer (USFWS, 2015).
Northern long-eared bats may roost singly or in
colonies in cavities, crevices, hollows, or beneath the
bark of live and dead trees and/or snags, regardless of
tree species. They prefer trees with a diameter at
breast height of at least 3 inches. Less frequently,
Northern long-eared bats have been observed roosting
in man-made structures such as sheds or barns.
Northern long-eared bats primarily forage at dusk on
insects in forests, but will occasionally forage over
small forest clearings and water (USFWS, 2015).
Piping Plover
Piping plovers (Charadrius melodus) are shore
birds that inhabit areas near water, preferring river
sandbars and alkali wetlands in the Great Plains for
nesting, foraging, sheltering, brood-rearing, and dispersal. Piping plovers winter along large coastal sand
or mudflats near a sandy beaches throughout the
southeastern U.S. Critical Habitat for the piping
plover is designated along the Missouri River system
throughout North Dakota (USFWS, 2012).
Dakota Skipper
The Dakota skipper (Hesperia dacotae) is a small
butterfly found in dry-mesic and wet-mesic tallgrass
and mesic mixed grass prairie remnants characterized by alkaline and composite soils. The Dakota skipper is a habitat specialist requiring high-quality prai-

173a
rie habitat (i.e., grasslands or discrete patches of habitat within grasslands that are predominantly native
and that have not been tilled). Only 146 populations
are documented in three states and two Canadian
provinces (McCabe, 1981; Royer and Marrone, 1992;
Cochrane and Delphey, 2002; USFWS, 2011; 2013d).
Remaining populations vary in size and density and
for the most part are not influenced by dispersal between populations (McCabe, 1981; Dana, 1991; Dana,
1997; Cochrane and Delphey, 2002). The species overwinters at the base of grasses in the soil of the site
which they inhabit. In North Dakota, the skipper typically occupies both wet-mesic and dry-mesic prairie
(Royer and Marrone, 1992; Cochrane and Delphey,
2002). The current status of the Dakota skipper in the
state is considered tenuous, and most populations are
considered vulnerable due to their extremely isolated
nature.
Rufa Red Knot
The rufa red knot (Calidris canutus rufa) is a
large sandpiper noted for its long-distance migration
between summer breeding grounds in the Arctic and
wintering areas at high latitudes in the Southern
Hemisphere (USFWS, 2014b). Some rufa red knots
wintering in the northwestern Gulf of Mexico migrate
through interior North America during both spring
and fall and use stopover sites in the Northern Great
Plains. During spring and fall migrations, rufa red
knots are typically found in marine habitats along the
Pacific and Atlantic coasts of North America, generally preferring sandy coastal habitats at or near tidal
inlets or the mouths of bays and estuaries. However,
some migrating rufa red knots use sandbars and
sandy shore and beach habitats along large rivers and

174a
reservoirs of the interior of North America. This area
contains the Atlantic, Mississippi, and Central Flyways (USFWS, 2014g). The species also heavily relies
on exposed substrate at wetland edges for stopover
habitat, and the suitability of a wetland for rufa red
knots depends on water levels and may vary annually
(Gratto-Trevor et al., 2001).
Pallid Sturgeon
Pallid sturgeon (Scaphirhynchus albus) prefer
benthic environments associated with swift waters of
large turbid, free-flowing rivers with braided channels, dynamic flow patterns, periodic flooding of terrestrial habitats, and extensive microhabitat diversity. Pallid sturgeon inhabit the Missouri and Mississippi Rivers from Montana to Louisiana and have
been documented in the Missouri River downstream
from the Fort Peck Dam in Montana to the headwaters of Lake Sakakawea, North Dakota, and downstream from Garrison Dam, North Dakota to the
headwaters of Lake Oahe, South Dakota (USFWS,
2014c). Pallid sturgeon populations are fragmented
by dams on the Missouri River and are very scarce in
the Lake Oahe portion of the Missouri River.
3.4.2.2 Impacts and Mitigation
Dakota Access conducted pedestrian surveys of
the workspace within the Project Area at the flowage
easements in September 2014 and July 2015 and at
the Lake Oahe crossing in April 2015 to assess suitable habitat for listed species. Given the limited scope
of the Proposed Action, minimization measures, and
the implementation of specialized construction techniques, the Corps has determined that the Proposed
Action would have no effect on the black-footed ferret,

175a
gray wolf, northern long-eared bat, and Dakota skipper within the Project Area. The Corps also determined that the Proposed Action may affect, but is not
likely to adversely affect the interior least tern,
whooping crane, piping plover, rufa red knot, and pallid sturgeon in the Project Area. The effect determination for these species that may be affected, but are
not likely to be adversely affected was concurred with
in a letter received from the USFWS on May 2, 2016.
A Biological Opinion (BO) associated with other portions of the DAPL Project, outside of the EA review
area, was issued by the USFWS on May 31, 2016 but
is not applicable to this document. Table 311 lists the
impact determinations of the protected species with
potential to occur within the Project Area and Connected Action. A summary of habitat evaluations and
the basis for the determination of impacts for each
listed species is provided below.

176a

177a

Interior Least Tern
Suitable habitat may exist for interior least terns
at the Missouri River and at the Lake Oahe crossing
depending on precipitation and seasonal flow variations as exposed sand/gravel bars suitable for nesting
may be present. Dakota Access proposes to cross the
Missouri River and Lake Oahe utilizing the HDD construction method. Pipeline installation via HDD will
avoid in-stream disturbance that would otherwise occur if the pipe was installed via the traditional opencut method, as described in Section 2.1.4.
Potential sources for indirect impacts on interior
least terns include the inadvertent release of nontoxic bentonite mud (used for lubricating the drill
path) into the waterbody or nesting habitat and noise
associated with the drilling equipment. Dakota Access conducted geotechnical analyses at each of the
proposed HDD crossings and designed the HDD to
minimize the likelihood that the drilling mud is inadvertently released. While the likelihood of an inadvertent release has been minimized to the maximum
extent practicable, were it to occur, implementation of
Dakota Access’ HDD Contingency Plan (Appendix
B) would minimize any potential impacts on interior
least terns by quickly and efficiently containing and
removing the released, non-toxic mud.
Operation of the HDD equipment will result in a
temporary increase in noise in the immediate vicinity
of the HDD activities. Although the HDD entry and
exit sites are located more than 960 feet from any suitable interior least tern habitat, it is possible that the
activities would be audible if interior least terns are

178a
nesting in the area. However, Atwood et al. (1977)
found that noise associated with human activities (an
airfield in the case of the referenced study) did not affect site fidelity or nesting success of least terns. Similarly, Hillman et al. (2015) found that noise from military and civilian overflights did not impact nest success and that restricting human disturbance to
greater than 50 meters (164 feet) from colony boundaries mitigated adverse impacts to nesting birds.
Noise associated with aircraft overflights at low altitudes in the Hillman et al. (2015) study were a minimum of 67.7 decibels (A-weighted) (dBA), greater
than the anticipated sound levels generated by HDD
equipment. Noise studies conducted at the proposed
HDD entry and exit locations indicate that sound levels would be less than 60 dBA at approximately 600
feet from the equipment. Therefore, noise associated
with the HDD crossings of the Missouri River and
Lake Oahe may affect, but are not likely to adversely
affect interior least terns potentially nesting in the
area.
Dakota Access plans to withdrawal water from
the Missouri River, which is required for activities associated with the installation of the HDD and the hydrostatic testing of the HDD segment. A temporary
waterline would be installed at the Missouri River between the shoreline and the HDD workspace on the
flowage easements within the permanent ROW (Figure 6-13). The temporary waterline would be laid by
hand on top of the surface, and no tracked or wheeled
equipment would be necessary for installation or removal of the temporary aboveground waterline. No
disturbance of the river banks is anticipated. Additionally, installation and removal of the waterline are

179a
anticipated to be complete prior to nesting season;
therefore, no impacts on the interior least tern are anticipated to occur at the Missouri River. If the water
withdrawal activities are not able to be completed
prior to nesting season, Dakota Access would conduct
surveys prior to placement of the waterline to confirm
the presence/absence of interior least terns within the
pipeline ROW. If interior least terns are nesting
within the pipeline ROW, Dakota Access would postpone water withdrawal activities and contact the
Corps and USFWS. Work would only resume when
the USFWS has given permission following a survey
to ensure interior least terns would no longer be affected. No water withdrawal from or access to Lake
Oahe is required to complete the Lake Oahe crossing.
As discussed in Section 2.3.2 above, Dakota Access would routinely maintain its 30 to 50-foot-wide
permanent easement, including periodic mowing and
removal of woody vegetation. Because suitable interior least tern nesting habitat is on unvegetated flats
within the Missouri River and Lake Oahe, routine
maintenance activities would not occur within suitable habitat. During operation of the pipeline, in the
unlikely event that a leak or spill were to occur and
reach interior least tern habitat, Dakota Access would
implement its FRP and strictly adhere to PHMSA regulations.
Based on the avoidance and minimization
measures, literature review, field investigations, and
habitat types present in the proposed Project Area,
USACE has determined that the Proposed Action may
affect, but is not likely to adversely affect the interior
least tern.

180a
Whooping Crane
In North Dakota, whooping cranes are only present during the twice-yearly migration between winter grounds and summer nesting sites. As the whooping crane is a migrant and does not breed in North
Dakota, the species cannot be confirmed as present in
or absent from the Project Area. The results of the
habitat assessment field surveys indicate that the
Project Area may contain suitable stopover habitat
(i.e., agricultural fields). It is anticipated that whooping cranes would avoid the Project Area during active
construction, as they tend to avoid areas with human
disturbance (Howe, 1989; USFWS, 1994; Lewis and
Slack, 2008). The noise and land disturbance from
construction activities during the migration periods
would likely cause birds to choose more suitable landing and overnight roosting locations away from construction activities given the abundance of similar
habitat throughout the migration corridor in North
Dakota and in the general vicinity of the Project Area.
While there is potential for individuals to land in
the Project Area during construction, work would halt
if a whooping crane is observed within the Project
Area and would not resume until the bird leaves the
area. Additionally, Dakota Access would notify the
Corps and USFWS of the observation. The presence
of construction activities within potentially suitable
stopover habitat during migration could disturb
whooping cranes in the area or cause flying whooping
cranes to avoid the area and select other suitable stopover habitat. Due to the abundance of available stopover habitat along the North Dakota migration corridor and in the vicinity of the Project Area (USFWS,
2009a), impacts would be negligible. As illustrated in

181a
Figure 16, the Project Area represents a minute fraction of the whooping crane migration corridor in North
Dakota.
As discussed in Section 2.3.2 above, Dakota Access would routinely maintain its 30 to 50-foot-wide
permanent easement, including periodic mowing and
removal of woody vegetation. As whooping cranes utilize open fields and emergent wetlands for stopover
habitat, affects from maintenance activities would be
minimal and would be similar to those described
above during construction activities. If whooping
cranes were observed in the area during maintenance
activities, maintenance personnel would suspend activities until the cranes leave the area. Similarly, if
maintenance activities are ongoing at the time of migration, whooping cranes would likely avoid the disturbance area.
In order for whooping cranes to be affected by a
spill or leak during operation, an individual would
have to be present when the leak or spill occurred or
land in the spill itself. Due to the strict adherence to
PHMSA regulations designed to prevent spills and
leaks during operation, the short timeframe that
whooping cranes are present during migration, and
the abundance of available stopover habitat along the
migration corridor in North Dakota (USFWS, 2009a),
the measures implemented by Dakota Access in the
event of a leak in accordance with the FRP, such occurrences are unlikely.
Based on the avoidance and minimization
measures, literature review, field investigations, and
habitat types present in the Project Area, USACE has

182a
determined that the Proposed Action may affect, but
is not likely to adversely affect the whooping crane.
Black-footed Ferret
No suitable black-footed ferret habitat is present
in the Project areas. The black-footed ferret has been
recorded in Morton County; however, based on occurrence data received from North Dakota Parks and
Recreation, there are no documented occurrences
within the vicinity of the Proposed Action. Further, it
is believed that black-footed ferrets have been extirpated from North Dakota, and no reintroductions
have occurred in the state (USFWS, 2013f; North Dakota Game and Fish Department, 2012). Due to the
lack of suitable habitat and the distance of the Project
areas from known black-footed ferret occurrences,
construction, operation, and maintenance activities
associated with the Proposed Action would have no effect on black-footed ferrets.
Gray Wolf
The gray wolf is listed as endangered in all three
counties of the Proposed Action areas in North Dakota
(south and west of the Missouri River upstream to
Lake Sakakawea and west of the centerline of Highway 83 from Lake Sakakawea to the Canadian border). Wolves in eastern North Dakota are part of the
Great Lakes Distinct Population Segment that was
delisted by the USFWS in January 2012 (USFWS,
2014e).
North Dakota does not currently have an established breeding population (North Dakota Department of Agriculture, 2014b). Observations of wolves
are sporadic, and it is believed that these individuals

183a
are dispersers from adjacent populations (i.e., from
Minnesota and Manitoba) (USFWS, 2006; Licht and
Fritts, 1994). Given the unlikely occurrence and high
mobility of this species, construction, operation and
maintenance activities associated with the Proposed
Action would have no effect on gray wolves.
Northern Long-eared Bat
The northern long-eared bat is currently listed by
the USFWS as threatened in North Dakota. On April
2, 2015, the USFWS published the final listing in the
Federal Registrar with an effective date of May 4,
2015. The USFWS listed the northern long-eared bat
as threatened and chose to exercise the option of issuing an interim 4(d) rule to allow for more flexible implementation of the ESA and “to tailor prohibitions to
those that make the most sense for protecting and
managing at-risk species.” In areas outside of the 150mile WNS buffer zone, incidental take from lawful activities is not prohibited. The State of North Dakota
currently falls outside of the WNS 150-mile buffer
zone. Per the exemptions of the interim 4(d) rule, construction, operation and maintenance activities associated with the Proposed Action would have no effect
on the northern long-eared bat (USFWS, 2015).
Piping Plover
Due to the similarity in life history and habitat
requirements, impacts on piping plovers would be
similar to those discussed in above for the interior
least tern. Suitable habitat may exist for piping
plover at the Missouri River and at the Lake Oahe
crossing, depending on precipitation and seasonal
flow variations, as exposed sand/gravel bars suitable

184a
for nesting may be present. These areas are also designated as critical habitat for this species under the
ESA. Dakota Access proposes to cross the Missouri
River and Lake Oahe utilizing the HDD construction
method. Pipeline installation via HDD will avoid instream disturbance that would otherwise occur if the
pipe was installed via the traditional open-cut
method, as described in Section 2.1.4.
Potential sources for indirect impacts on piping
plovers include the inadvertent release of non-toxic
bentonite mud (used for lubricating the drill path) into
the waterbody or nesting habitat and noise associated
with the drilling equipment. Dakota Access conducted geotechnical analyses at each of the proposed
HDD crossings and designed the HDD to minimize the
likelihood that the drilling mud is inadvertently released. While the likelihood of an inadvertent release
has been minimized to the maximum extent practicable, were it to occur, implementation of Dakota Access’
HDD Contingency Plan would minimize any potential
impacts on piping plovers by quickly and efficiently
containing and removing the released, non-toxic mud.
Operation of the HDD equipment will result in a
temporary increase in noise in the immediate vicinity
of the HDD activities. Although the HDD entry and
exit sites are located more than 960 feet from any suitable piping plover habitat, it is possible that the activities would be audible if piping plovers are nesting in
the area. However, piping plovers are frequently observed nesting in and around active sand and gravel
mines and do not appear to be deterred by elevated
noise levels associated with the operation of equipment (Marcus et al., 2008; Brown et al., 2013).

185a
As discussed for the interior least tern above, impacts associated with installation of the temporary
waterline at the Missouri River required for activities
associated with the installation of the HDD and the
hydrostatic testing of the HDD segment would be
avoided. If the water withdrawal activities are not
able to be completed prior to nesting season as expected, Dakota Access would conduct surveys prior to
placement of the waterline to confirm the presence/absence of piping plovers within the pipeline ROW. If
piping plovers are nesting within the pipeline ROW,
Dakota Access would postpone water withdrawal activities and contact the USFWS and the Corps. Work
would only resume when the USFWS has given permission following a survey to ensure piping plovers
would no longer be affected. No water withdrawal
from or access to Lake Oahe is required to complete
the Lake Oahe crossing.
As discussed in Section 2.3.2 above, Dakota Access would routinely maintain its 30 to 50-foot-wide
permanent easement, including periodic mowing and
removal of woody vegetation. Because suitable piping
plover nesting habitat is on unvegetated flats within
the Missouri River and Lake Oahe, routine maintenance activities would not occur in suitable piping
plover habitat. In the unlikely event that a leak or
spill occurs and reaches piping plover habitat during
operation of the pipeline, Dakota Access would implement its FRP and strictly adhere to PHMSA regulations.
Based on the avoidance and minimization
measures, literature review, field investigations, and
habitat types present in the Project Area, USACE has

186a
determined that the Proposed Action may affect, but
is not likely to adversely affect the piping plover.
Dakota Skipper
There is no suitable Dakota skipper habitat
within the Project Area based on species occurrence
and grassland analysis. As such, construction, operation and maintenance activities associated with the
Proposed Action would have no effect on this species.
Rufa Red Knot
Rufa red knots do not nest in the Project Area and
only occur as an occasional migrant. During spring
and fall migrations, the rufa red knot has the potential to occur in North Dakota. Migrating rufa red knot
would likely only occur at migratory stopover habitat
(suitable shoreline and sandy beach habitat along major rivers, streams, waterbodies, and wetlands) for a
brief amount of time (24 hours or less). The results of
the habitat assessment field surveys indicate that potentially suitable stopover habitat (sandbar and beach
habitats) for migrating rufa red knots is present at the
Lake Oahe crossing. Lake Oahe would be crossed using the HDD construction method, and thus would
avoid direct impacts on potentially suitable rufa red
knot stopover habitat. While direct impacts to the
rufa red knot migratory habitat would be avoided
through the HDD construction method at Lake Oahe,
indirect impacts could occur due to potential disturbance during construction (i.e., noise or an inadvertent
release of non-toxic drilling mud).
During construction, noise associated with the
HDD may act as deterrent to rufa red knots potentially migrating through the area. These individuals

187a
may have to travel to other suitable stopover habitat
in the area (e.g., upstream or downstream of the Proposed Action area). Similarly, if an inadvertent release of non-toxic drilling mud were to occur when
rufa red knots were present, it could cause individuals
to relocate to nearby habitat.
As discussed in Section 2.3.2 above, Dakota Access would routinely maintain its 30 to 50-foot-wide
permanent easement, including periodic mowing and
removal of woody vegetation. As rufa red knots utilize
suitable shoreline and sandy beach habitat along major rivers, streams, waterbodies, and wetlands for
stopover habitat, effects from maintenance activities
would be negligible and would be similar to those described above during construction activities. If rufa
red knots were present in the area during maintenance activities they would likely relocate to nearby
suitable habitat. Similarly, if maintenance activities
are ongoing at the time of migration, rufa red knots
would likely avoid the disturbance area.
In order for rufa red knots to be affected by a spill
or leak during operation, an individual would have to
be present when the leak or spill occurred or stop on
the spill or leak. Due to the strict adherence to
PHMSA regulations designed to prevent spills and
leaks during operation and the short timeframe that
rufa red knots are present during migration, such occurrences are unlikely.
Based on the avoidance and minimization
measures, literature review, field investigations, and
habitat types present in the Project Area, USACE has
determined that the Proposed Action may affect, but
is not likely to adversely affect the rufa red knot.

188a
Pallid Sturgeon
Suitable habitat for the pallid sturgeon occurs at
the Missouri River and Lake Oahe crossings. Impacts
on suitable habitat would be avoided by crossing these
waterbodies via HDD. As discussed in for the interior
least tern above, pipeline installation via HDD will
avoid in-stream disturbance that would otherwise occur if the pipe was installed via the traditional opencut method.
Dakota Access has also minimized the potential
for pallid sturgeon to be indirectly affected by the
HDD installation across the Missouri River and Lake
Oahe. The only potential source for indirect impacts
on pallid sturgeon associated with the HDDs is an inadvertent release of non-toxic bentonite mud (used for
lubricating the drill path) into the waterbody. Dakota
Access conducted geotechnical analyses at each of the
proposed HDD crossings and designed the HDD to
minimize the likelihood that the drilling mud is inadvertently released. While the likelihood of an inadvertent release has been minimized to the maximum
extent practicable, were it to occur, implementation of
Dakota Access’ HDD Contingency Plan would minimize any potential impacts on pallid sturgeon by
quickly and efficiently containing and removing the
released, non-toxic mud.
Dakota Access plans to withdraw water from the
Missouri River for installation activities and hydrostatic testing of the HDD segment for the Missouri
River. However, potential impacts on the pallid sturgeon or suitable habitat present within the Missouri
River would be avoided by implementing the conditions for permitted intake structures outlined in the

189a
Corps’ Regional Conditions for North Dakota applicable to NWP 12 Utility Line Activities (Corps, 2012)
(see Section 3.2.1.2) and as described in the USFWS
Recovery Plan for the Pallid Sturgeon (USFWS,
2014f). No water withdrawal from or access to Lake
Oahe is required to complete the Lake Oahe crossing.
The HDD construction method, application of the
HDD Contingency Plan, and implementation of the
Corps’ conditions for the intake structure within the
Missouri River would avoid and minimize potential
impacts to the pallid sturgeon.
Maintenance activities will not occur within the
Missouri River or Lake Oahe; therefore, no impacts on
pallid sturgeon would occur. The depth of the pipeline
below the respective rivers and the design and operation measures that meet or exceed the respective
PHMSA regulations make a release into either waterbody extremely unlikely. However, in the unlikely
event a leak or spill was to occur and reach the Missouri River or Lake Oahe, impacts would be localized.
If pallid sturgeon were present in the area where the
spill or leak occurred, they would likely relocate outside of the contaminated area. Further, oil floats and,
as pallid sturgeon are bottom dwellers primarily inhabiting the lower water column (USFWS, 2014c), impacts on pallid sturgeon in the event of a spill, would
be minimal.
Based on the avoidance and minimization
measures, literature review, field investigations, and
habitat types present in the Project Area, USACE has
determined that the Proposed Action may affect, but
is not likely to adversely affect the pallid sturgeon.

190a
3.5 Aquatic Resources
Under the “no action” alternative, Dakota Access
would not construct the DAPL Project, and no impacts
on aquatic resources would occur. However, if the objectives of the DAPL Project are to be met under the
“no action” alternative, other projects and activities
would be required and these projects would result in
their own impacts on aquatic resources, which would
likely be similar to or greater than the proposed DAPL
Project. Impacts associated with a future project developed in response to the “no action” alternative are
unknown, while only temporary and minor impacts, if
any, on aquatic resources would occur as a result of
the Proposed Action, as described in the sections below.
3.5.1 Habitat and Communities
3.5.1.1 Affected Environment
West of Williston, the Missouri River is a braided
channel varying in width from 800 feet to over 1,500
feet, with sand bars in many locations. The Yellowstone River confluence with the Missouri River is approximately 20 miles west of Williston and 3.5 river
miles upstream from the proposed Missouri crossing.
East of Williston, the Missouri River feeds into Lake
Sakakawea, the third largest man-made lake in the
U.S. formed by the Garrison Dam, several hundred
miles downstream. This portion of the Missouri River
is home to several fish species, including cutthroat
trout, rainbow trout, brown trout, walleye, northern,
and sauger. Amphibians are found along the shores
and nearby riparian areas of the Missouri River.
Common species found near the Missouri River crossing include Woodhouse’s toad, the northern leopard

191a
frog, and western chorus frog (Hoberg and Gause,
1992).
Lake Oahe is a 232-mile-long reservoir that extends upriver from the Oahe Dam on the Missouri
River from Pierre, South Dakota, to Bismarck, North
Dakota. Approximately three-quarters of a mile south
of the proposed pipeline crossing is the confluence of
the Cannonball River into the Missouri. This portion
of the Missouri River is home to several fish species,
including walleye, northern pike, and channel catfish.
Amphibians are found along the shores and nearby riparian areas of Missouri River. Common species
found near the Lake Oahe crossing include the Great
Plains toad, Woodhouse’s toad, northern leopard frog,
and tiger salamander (Hoberg and Gause, 1992).
3.5.1.2 Impacts and Mitigation
The Missouri River, including Lake Oahe, is the
only waterbody that would be crossed by the Proposed
Action with aquatic resources that have potential to
be impacted by the Proposed Action.
All subsurface disturbing activities would be set
back from the banks of Lake Oahe at the HDD entry
point. This provides a buffer of undisturbed land between active construction and the Lake. There is potential, although very low due to setbacks of approximately 1,100 feet on the west bank and 900 feet on the
east bank, for sediment to be transported from the
workspace into the river during precipitation events,
which could increase the local turbidity and sediment
load in the lake. These increased loads have potential
to temporarily affect sensitive fish eggs, fish fry, and
invertebrates inhabiting the river. However, sediment levels would quickly attenuate both over time

192a
and distance and would not adversely affect resident
fish populations or permanently alter existing habitat. By also implementing the erosion and sediment
control measures specified in the ECP (Appendix G)
and SWPPP (Appendix A), the potential for sediment transport is likely avoided or minimized. Following construction, the ROW would be restored, revegetated, maintained in an herbaceous or scrubshrub state, and monitored in accordance with applicable regulations and permit conditions.
A successfully completed HDD crossing would
minimize environmental impacts on Lake Oahe since
the pipeline would be installed without disturbing the
aquatic and benthic environments. However, crossings via HDD carry a low risk of an inadvertent release of drilling mud, composed primarily of bentonite
(a naturally occurring fine clay) slurry. Increased levels of sedimentation and turbidity from an inadvertent release could adversely affect fish eggs, juvenile
fish survival, benthic community diversity and health,
and spawning habitat. Dakota Access’ HDD Construction/Contingency Plan (Appendix B) establishes monitoring procedures and prescribes
measures to be implemented to minimize the impact
in the event it occurs. All HDD operations conducted
for crossing the Lake Oahe would adhere to the HDD
Contingency Plan and applicable permit conditions to
reduce the likelihood of an inadvertent release to minimize and mitigate environmental impacts. Dakota
Access’ construction contractor would ensure that the
appropriate response personnel and containment
equipment are available onsite to effectively implement the HDD Contingency Plan.

193a
In addition to the crossing of Lake Oahe, aquatic
resources could also be impacted during water withdrawal from the Missouri River, which is required for
activities associated with the installation of HDD and
the hydrostatic testing of HDD pipeline segment located on the flowage easements. However, water
withdrawal activities would be conducted in accordance with all applicable permit conditions and regulations and in a manner that would not reduce water
flow to a point that would impair flow or impact
aquatic life. Intake screens and floats would also be
utilized, as previously discussed in Section 3.2.1.2, to
prevent entrainment of aquatic life and avoid impacts
on aquatic resources. In addition, by placing the
pump within a secondary containment structure on
the barge, the potential for impacts on aquatic resources associated with accidental fuel spills or leaks
is likely avoided or minimized.
The primary issue related to impacts on the
aquatic environment from operation of the Proposed
Action would be related to a release from the pipeline.
For portions of the pipeline installed beneath the lake,
the depth of the pipeline profile, increased wall thickness of the pipe, installation of remotely operated
valves on both sides of the river crossing, and monitoring of the system 24/7 would further limit the potential for an inadvertent release into the waterbody.
As a result, operations activities are not anticipated
to impact aquatic resources or their habitat. Adherence to the Dakota Access FRP would minimize potential impacts on aquatic wildlife from potential spills
during the operation of the pipeline. In the event of a
leak, Dakota Access would work aggressively to contain the leak, initiate cleanup activities, and contact

194a
the appropriate authorities, including the Corps. The
FRP is discussed under Section 3.2.1.2 and a draft of
the FRP is included in Appendix L.
3.6 Land Use and Recreation
Under the “no action” alternative, Dakota Access
would not construct the DAPL Project, and no impacts
on land use and recreation would occur. However, if
the objectives of the DAPL Project are to be met under
the “no action” alternative, other projects and activities would be required and these projects would result
in their own impacts on land use and recreation,
which would likely be similar to or greater than the
DAPL Project. The impacts associated with a future
project developed in response to the “no action” alternative are unknown, while only temporary and minor
impacts or insignificant permanent impacts on land
use and recreation would occur as a result of the Proposed Action, as described in the sections below.
3.6.1 Land Ownership
The proposed 24-inch pipeline would cross seven
contiguous Corps flowage easements over eight privately-owned parcels (Figure 2) that are associated
with the Buford-Trenton-Irrigation District (Garrison
Dam). Based upon Corps-provided easement documents and mapping, the distance across the flowage
easements on the north side of the Missouri River in
Williams County is approximately 14,953 feet (2.83
miles).
The flowage easements allow the Government to
flood and saturate the land, surface, and subsurface of
these properties. Generally, these easements prohibit
the construction of structures for human habitation;

195a
provide that any other structures require written approval by the Corps; and provide that no mineral exploration, excavation or placement of fill material may
occur on the easement area without the prior approval
of the Corps.
The proposed pipeline route would also cross federal lands on the east and west banks of Lake Oahe in
Morton and Emmons counties. The distance from the
western boundary of federally-owned lands to the
eastern boundary of federally-owned lands on both
sides of the lake, including the width of the lake, at
the proposed crossing location is approximately 6,450
feet. The proposed pipeline would be routed to parallel existing linear infrastructure (an overhead power
line and a buried gas transmission pipeline) across
Lake Oahe in the same area. The HDD entry and exit
points, measuring approximately 200 by 250 feet,
would be located on private lands, as would the stringing corridor required to facilitate the installation. The
northern boundary of the Standing Rock Sioux Reservation is located approximately 0.55 mile south of the
Lake Oahe Project Area.
Dakota Access is securing a 50-foot-wide permanent easement that is generally centered on the pipeline (25 feet on either side of the centerline). Within
the 50-foot-wide easement, a 30-foot corridor free of
large woody vegetation, located within flowage easement LL3440E on the north bank of the Missouri
River, would be required to allow for a clear line of
sight once construction is completed to perform visual
inspections during operation of the pipeline. The corridor would be maintained in a vegetative state.

196a
3.6.2 Land Use
3.6.2.1 Affected Environment
Land use within the Project Area was assigned a
classification based on the principal land characteristic in a given area. Aerial photography, the National
Land Cover Database (Multi-Resolution Land Characteristics Consortium, 2011), the Morton County
Zoning Map (Morton County, 2014), and the Williams
County Comprehensive Plan were used to identify
and classify general land use for the Project Area
(Figures 10 and 11).
Agricultural Land
Agriculture is the primary land use within the
Project Area. These lands are primarily used for
ranching and cultivating crops. Agricultural lands allows for land uses such as farming, ranching, animal
feeding operations, grain storage, and related functions. Agricultural land within the flowage easements
are primarily pivot irrigated cropland (i.e., areas used
for production of annual crops such as corn and soybeans).
Developed Land
Developed land includes open space around structures such as homes, farmsteads, outbuildings, well
sites, and areas associated with roads and ditches.
Open Space
Open space includes all land that is not agriculture or developed; namely wetlands, open water,
grasslands, and scrub-shrub. Open space is found primarily along the river banks. See sections 3.2 and 3.3
for a discussion on water resources and vegetation.

197a
3.6.2.2 Impacts and Mitigation
The Proposed Action would result primarily in
temporary, short-term impacts on land use during
construction. Construction activities would require
the temporary and short-term removal of existing agricultural land from crop and forage production within
the construction footprint. During construction, temporary impacts such as soil compaction and crop damage are possible along the construction ROW. Mitigation measures to minimize impacts such as topsoil
segregation and decompaction practices would be fully
implemented in accordance with the ECP and
SWPPP. Upon the completion of construction activities, the Project Area would be restored and returned
to pre-construction land use.
As mentioned above, much of the cropland within
the Corps flowage easements uses pivot irrigation systems. Dakota Access would coordinate with all landowners on acceptable methods for construction and
restoration, including potential impacts to irrigated
fields. Compensatory damages would be paid accordingly.
The nearest residence to the Proposed Action on
the flowage easements is approximately 1,750 feet
east of the pipe centerline. Temporary impacts on
nearby residences could include inconvenience caused
by noise and dust generated from construction equipment and traffic congestion associated with the
transport of equipment, materials, and construction
workers. Impacts from noise and dust during construction would diminish with distance from these areas and would be limited to the time of construction
which would typically occur during daylight hours.

198a
The primary impact on family farms would be the
loss of standing crops and use of the land within the
work area for the seasons during which DAPL Projectrelated activities occur, as well as potential diminished yields for a few years following construction.
Dakota Access proposes to implement mitigation
measures to minimize these potential impacts as described in the ECP. Dakota Access would repair surface drains and drainage tiles disturbed during ROW
preparation, construction, and maintenance activities. Dakota Access would repair or replace fences and
gates removed or damaged as a result of ROW preparation, construction, or maintenance activities.
At Lake Oahe, primary impact on ranching operations would be temporary prohibition of livestock
grazing in the construction ROW, workspace areas,
and restrictions on livestock movement across the
construction ROW and workspace areas during construction. Given the narrow, linear nature of the
DAPL Project and the alignment of the pipeline along
property boundaries, livestock grazing reductions and
livestock movement restrictions would be minor.
Long-term or permanent impacts on family ranches
are not anticipated. Following construction and restoration, the work area would be restored and ranching would be allowed to continue over the operational
ROW. Landowners would be compensated for temporary loss of land and lower yields. Grazing activities
would return to normal after Revegetation of the disturbed areas.
Once in operation, a permanent 50-foot ROW
would be maintained except at segments of the ROW
above the HDD profile on the flowage easements (between the HDD workspace and the river shore) that

199a
would be maintained by clearing woody vegetation
over a 30 foot corridor (a 50 foot easement would still
be obtained). Maintenance would include the removal
of any large trees and shrubs; agricultural land use
would not be impacted by maintenance activities in
this area. Trees outside of the ROW would be protected by Dakota Access in a manner compatible with
the safe operation, maintenance, and inspection of the
pipeline. Applicable regulations would be adhered to
regarding tree and shrub removal from along the
route. Field surveys have confirmed that no shelter
belts would be impacted within the Project Area or
Connected Actions.
Tables 3-12 and 3-13 below detail the acreage of
land use impacts associated with the Proposed Action.
Table 3-12
Land Use Impacts on the Flowage Easements Project
Area and Connected Action
Construction
Permanent ROW
Workspace
Land Use
(acres)2
1
(acres)
Agricultural Land
Developed
Open Space
Total

54.0
1.6
6.0

15.1
0.8
2.0

61.3

17.9

1

Construction Workspace includes the permanent ROW.

2

Permanent ROW includes the 50-foot permanent easement
and the 30-foot maintenance easement.

200a
Table 3-13
Land Use Impacts on the Federal Lands Project Area
and Connected Action
Federal
Connected
Lands Action Construction
Permanent Permanent
Land Use
Workspace
ROW
ROW
(acres)
(acres)1
(acres)
Agricultural
0.0
0.0
0.1
Land
Open Space
15.5
1.1
1.0
Total
15.5
1.1
1.2
1

Land Use Impacts on federal lands are limited to the maintained 50 foot permanent easement and do not include approximately 6.3 acres of permanent easement beneath the
HDD profile within the banks of Lake Oahe.

Dakota Access would obtain and comply with applicable state regulations, county permits, and zoning
and land use regulations. Permits may include, but
are not limited to, grade and fill permits, ditch crossing permits, road and utility permits, and conditional
use permits. Dakota Access would retain one or more
Els to monitor compliance with environmental conditions of county permits.
3.6.3 Recreation and Special Interest Areas
3.6.3.1 Affected Environment
Generally, recreation and special interest areas
include federal, state, or county parks and forests;
conservation lands; wildlife habitat management areas; hunter management areas; natural landmarks;
scenic byways; designated trails; recreational rivers;
and campgrounds. Nearby recreational opportunities
in the vicinity of the Project Area and the Connected
Action include Wildlife Management Areas (WMAs),

201a
Lake Oahe, and the Missouri River, none of which are
being impacted by the construction, although the
HDD would cross under Lake Oahe itself.
The Missouri River and its shoreline are open to
the public and used for recreational activities such as
boating, swimming, and fishing. Because the flowage
easements are federally regulated and privately
owned, there is very limited, if any, recreational opportunities within the flowage easements. Additionally, there is little boating and open water angling on
the entire upper end of Lake Sakakawea because of
lack of access and extremely turbid water throughout
much of the recreational season (USACE, 2007).
Lake Oahe’s 2,250 mile shoreline is open to the
public and offers a variety of opportunities to outdoor
recreationists such as fishing, swimming, sightseeing,
camping, and picnicking. More than 1.5 million visitors enjoy Lake Oahe’s recreation facilities each year.
Fishing is the major recreational activity of visitors to
the Oahe project, with 44% of visitors engaging in this
activity (USACE, 2010c).
There are no public boat access sites, marinas, or
public swimming beaches within one mile of the flowage easements or federal lands crossings. There are
no designated state parks or recreation areas, historic
trails, scenic by-ways, designated wilderness or natural areas or other sensitive land uses that would be
affected by the crossings (North Dakota Parks and
Recreation Department, 2014).
At the flowage easement crossing, the closest Nationwide Rivers Inventory (NRI) segment is a one mile
stretch of the Missouri River within the Fort Union
Trading Post National Historic Site, which is about

202a
9.2 river miles upstream from the crossing. At the
federal lands crossing, the closest NRI segment is
Square Butte Creek to the Oliver/Mercer County Line,
which is about 50 river miles upstream from the Project Area (National Park Service, 2009).
North Dakota has approximately 54,373 miles of
river, but no designated wild & scenic rivers (USFWS
et al., 2014).
Wildlife Management Areas
The North Dakota Game and Fish Department
manages the Trenton and Overlook WMAs; neither of
which are crossed by the Proposed Action. The Trenton WMA encompasses 2,647 acres and is located
southwest of Williston near Trenton, along the Missouri River and Lake Sakakawea. About 13.55 acres
of the Trenton WMA extends into the eastern portion
of flowage easement LL3440E (Figure 6) but the closest edge is approximately 800 feet from the HDD
workspace. This area is largely primitive and the
landscape has been allowed to develop naturally. The
WMA provides recreational opportunities for fishing
and hunting waterfowl, deer, and pheasants. The
Overlook WMA encompasses 32 acres and is located
6.5 miles north of Cartwright, about 1,430 feet west of
the HDD entry point in McKenzie County. The Overlook WMA is only accessible by boat and is used for
hunting deer.
The Oahe WMA is located along Missouri River
and Oahe Reservoir, about 17 miles south of Bismarck
(USGS, 2014b). The proposed pipeline at the Lake
Oahe crossing is about 14.5 miles south of the Oahe
WMA.

203a
Water Quality and Recreation
Section 303(d) of the CWA requires states to submit their lists of water quality limited waterbodies.
This list has become known as the “TMDL list” or
“Section 303(d) list.” A TMDL is the amount of a particular pollutant a stream, lake, estuary, or other waterbody can “handle” without violating State water
quality standards. The final 2014 Section 303(d) list,
which was submitted to Environmental Protection
Agency (EPA) as part of the integrated Section 305(b)
water quality assessment report and Section 303(d)
TMDL list, includes a list of waterbodies not meeting
water quality standards and those for which a TMDL
is needed.
Lake Sakakawea is on the 2014 Section 303(d) list
of impaired waters as not supporting fish consumption because of high levels of methyl-mercury; however, Lake Sakakawea would not be crossed or otherwise impacted as a result of the Proposed Action on
the flowage easements. Lake Oahe is not listed as
needing a TMDL and fully supports recreational use
(North Dakota Department of Health, 2015). Because
Lake Oahe already meets the state water quality
standards, the Proposed and Connected Action Areas
are not anticipated to result in impacts that would
cause an impairment of water quality or the designated use of Lake Oahe.
Wilderness Areas
The Wilderness Act of 1964 defines wilderness as
lands that may contain ecological, geological, scientific, educational, scenic or historical value. There are
three designated wilderness areas within North Dakota: Chase Lake, Lostwood, and Theodore Roosevelt

204a
Wilderness Areas. There are no designated wilderness areas, and no designated Nature Preserves or
Natural Areas within one mile of either crossing (Wilderness Institute, 2014).
Standing Rock Sioux Reservation
The Standing Rock Sioux Reservation is situated
at the border of South Dakota and North Dakota, approximately 0.55 miles south of the Lake Oahe Project
Area. The Cannon Ball River is located along the
northern border of the Standing Rock Sioux Reservation in Sioux County, North Dakota. The western border of the reservation ends at the Perkins County,
South Dakota and Adams County, North Dakota
lines, while the Missouri River is the eastern border
of the reservation. The southern border of the reservation is located within Dewey and Ziebach counties
in South Dakota. The total land area of the Standing
Rock Sioux Reservation is 2.3 million acres and of
that, 1,408,061 million is tribally owned. The Standing Rock Sioux Tribal members are descendants of the
Teton and Yankton Bands of the Lakota/Dakota Nations (Standing Rock Sioux Tribe, 2016). Some of the
many attractions within the reservation include Sitting Bull Grave Site, Standing Rock Monument, Fort
Manuel, Lewis and Clark Legacy Trail, and the
Standing Rock Tribal Office (Standing Rock Tourism,
2016). The terrain of the reservation consists of river
valleys, lakes, woodlands, prairies, and rolling hills.
Big game on the reservation includes white tail deer,
mule deer and antelope, while small game includes
jackrabbit, cottontail, and squirrel (Standing Rock
Sioux Tribe and Standing Rock Sioux Tribe Game &
Fish Department, 2016).

205a
3.6.3.2 Impacts and Mitigation
The recreational enjoyment of wildlife (such as
hunting or bird watching) may be temporarily affected
by construction activities, depending on season and location. However, this effect would be short-term.
Recreationists may observe ROW clearing along
the river banks. Because the pipeline would cross underneath the river via the HDD method, there would
be no disruption to the course or cross-current of the
river, and would not impact lake/river recreationists.
3.7 Cultural and Historic Resources and Native
American Consultations
Section 106 of the National Historic Preservation
Act of 1966 (NHPA), as amended, and implemented by
36 CFR Part 800, requires Federal lead agencies to
assess the effects of permitted actions on historic
properties. Historic properties are defined in the
NHPA as prehistoric and historic archaeological sites,
standing structures, or other historic resources listed
in, or eligible for listing in the National Register of
Historic Places (NRHP).
Under the “no action” alternative, Dakota Access
would not construct the DAPL Project and no impacts
on cultural and historic resources would occur. However, If the objectives of the DAPL Project are to be
met under the “no action” alternative, other projects
and activities would be required and these projects
could result in their own impacts on cultural and historic resources, which would likely be similar to or
greater than the DAPL Project. The “no action” alternative would likely result in an increase in truck and

206a
rail traffic that could have an adverse effect on cultural, historic and Native American resources. Furthermore, impacts to resources associated with these
methods may not be identified and evaluated because
the protections afforded under Section 106 of the
NHPA would not apply unless a federal permit were
to be required.
3.7.1 Cultural Resources Studies
The scope of the cultural resource analysis was designed to be commensurate with the Proposed Action.
The Proposed Action is to authorize the crossing of
federal flowage easements near the upper end of Lake
Sakakawea north of the Missouri River in Williams
County, North Dakota and federally owned lands at
Lake Oahe in Morton and Emmons counties, North
Dakota.
The cultural resource information for the Project
Area, and for areas in the vicinity of the Proposed Action (to provide context) was obtained through a combination of cultural resources investigations commissioned by Dakota Access on private lands within a
400-foot-wide linear corridor as defined by the DAPL
centerline and previous cultural investigations conducted on private lands adjacent to the Proposed Action area, and previous cultural investigations conducted on federal lands. New cultural resources investigations were not conducted on federal lands as
part of the Proposed Action, as no impacts are anticipated to occur on federal lands.
Based on data compiled from previously executed
archaeological investigations, it is recognized that
much of the region has been inhabited by human populations for approximately 12,000 years. Throughout

207a
much of the state the recorded prehistoric occupations
range from Paleoindian Period encampments to Late
Prehistoric Period sites. Multiple sites have been explored that suggest the area was inhabited by societies adapted for lifestyles on the Plains and in the various geographical regions of the state dating back to
6000 BC. The current Project Area has a moderate to
high probability for archaeological deposits based on
proximity to permanent water sources, topography,
lack of significant ground disturbances, and depositional processes.
3.7.1.1 Affected Environment
Flowage Easements, Williams County, North
Dakota
The Missouri River is a large perennial river that
serves as the border between Williams and McKenzie
counties, North Dakota. The flowage easements consist of a series of expansive agricultural fields located
on the northern side of the River. While the individual tracts are privately owned, the USACE maintains
easement rights across these tracts to facilitate floodwater control throughout the region. The DAPL Project proposes to traverse certain sections of these easements, and install the pipeline via HDD under the
Missouri River. As these tracts are federally managed, cultural resources investigations were conducted in accordance with Section 106 of the NHPA,
and in compliance with the North Dakota State Historic Preservation Office (NDSHPO) Guidelines Manual for Cultural Resources Inventory Projects
(SHSND, 2012). Specifically, the cultural resources
investigations were confined to a 400-foot-wide linear

208a
corridor (survey corridor), as defined by the DAPL centerline. Prior to field investigations, a Class I literature and records search was conducted within an expanded study area corridor, which extended for a mile
on either side of the DAPL centerline. The Class I literature review determined that the DAPL survey corridor traverses one previously recorded site
(32WI1367), and that portions of the DAPL survey
corridor have been subject to previous surveys (Larson
et al. 1987). Site 32WI1367, also known as the
Buford-Trenton Irrigation System (BTIS), is a National Register nominated cultural resource consisting of a pumping plant, main canal, and associated irrigation components. The BTIS construction began in
1940 and continued through the 1950’s managed by
the Department of Interior, Work Progress Administration, and the Farm Security Administration. The
DAPL survey corridor traverses one of the extant irrigation canals listed as a contributing element of the
BTIS in the northeastern corner of Section 30 of
Township 152 North, Range 103 West.
The Class II/III inventory investigations within
the DAPL survey corridor across the flowage easements consisted of a combination of pedestrian surveys and shovel probing. Archaeologists walked along
fixed transects spaced 30 m (98 ft.) apart within the
survey corridor, and systematically excavated shovel
probes across high probability settings, or in areas
with low surface visibility. The Class II/III investigations resulted in the revisit of the portion of Site
32WI1367 within the survey corridor, and the documentation of a new prehistoric site (32MZ2874) located on the southern banks of the Missouri River

209a
(Appendix l). The assessment of site 32WI1367 consisted of mapping and documentation of the canal feature. No artifacts, evidence of features, or other undocumented components were noted. Dakota Access
has designed an HDD to install the pipeline below this
canal feature. Additionally, the HDD workspace
would be off-set a sufficient distance to ensure that no
components or associated features of this canal would
be adversely impacted.
As site 32MZ2874 is located on the southern
banks of the Missouri River, it is not located on
USACE-managed flowage easement tracts. However,
the site is referenced herein given its proximity to the
workspace associated with HDD of the Missouri
River. Site 32MZ2874 is a small prehistoric artifact
scatter that is recommended as unevaluated for listing in the NRHP pending further testing investigations. The HDD workspace on the southern banks of
the Missouri River has been designed to avoid impacting this site and is situated beyond the mapped site
boundary. Exclusionary fencing would be installed
along the eastern border of the HDD workspace during drilling activities to prevent inadvertent impacts
or trespassing.
Federal Lands — Lake Oahe Crossing: Morton
and Emmons Counties, North Dakota
The proposed crossing of federally-owned tracts at
Lake Oahe is located in Section 10, Township 134
North, Range 79 West in Morton County, North Dakota, and Section 11, Township 134 North, Range 79
West in Emmons County, North Dakota (see Figure
3). Dakota Access proposes to install the pipeline via
HDD below Lake Oahe, and the HDD entry and exit

210a
point workspaces and stringing area would be located
on private land beyond the boundary of the federal
lands. While no activities associated with the Proposed Action will occur on the surface of federal lands,
the HDD entry and exit point workspaces and stringing areas are considered Connected Actions, and as
such were subject to cultural resources investigations
in accordance with Section 106 of the NHPA, and in
compliance with the NDSHPO Guidelines (SHSND,
2012). No new cultural resources investigations of
any kind were conducted on federal lands in association with the DAPL project as no impacts are anticipated to occur between the HDD workspaces on either
side of Lake Oahe. However, previous cultural resource surveys of USACE managed lands are cited in
the report; Dakota Access Pipeline Project, Class II/III
Cultural Resources Inventory of the Crossings of
Flowage Easements and Federal Lands. Prepared collaboratively for Dakota Access, LLC in March of 2016
(Landt and McCord 2016). This report is contained in
Appendix I.
Prior to field investigations, a Class I literature
and records search was conducted within an expanded
study area corridor, which extended for a mile on either side of the DAPL centerline. The Class I literature review determined that no previously recorded
sites are located on the private lands within the Connected Action areas (i.e., HDD workspaces and stringing area). A total of 43 previously recorded cultural
resources are located within the study area corridor.
Of these, 18 are located in Morton County and the remaining 25 are located in Emmons County. These
consist of isolated finds and site leads (i.e., resources
reported to the SHSND without field verification),

211a
prehistoric artifact scatters, and historic resources. A
total of 10 of the previously recorded sites within the
study area corridor are located on federal lands directly adjacent to the banks of Lake Oahe and the
Cannonball River. Specifically, seven of these sites
(32M00001, 32M0x0004, 32M00054, 32M00060,
32M00061, 32M00064, and 32M00259) are located in
Morton County, on the western side of the Lake Oahe.
The remaining three sites (32EM0019, 32EM0021,
and 32EM0221) are located in Emmons County, on
the eastern side of Lake Oahe. A more comprehensive
discussion of these sites and associated mapping detail is provided in Appendix I.
The Class II/III inventory investigations at Lake
Oahe took place exclusively within the Connected Action areas located on private lands beyond the limits
federal lands (i.e., HDD workspaces and stringing
area). The Class II/III inventory investigations within
the Connected Action areas associated with the Lake
Oahe crossing consisted of a combination of pedestrian surveys and shovel probing. Archaeologists
walked along fixed transects spaced 30 m (98 ft.) apart
within the survey corridor, and systematically excavated shovel probes across high probability settings,
or in areas with low surface visibility. The Class II/III
investigations within the Connected Action areas resulted in the documentation of one new archaeological
site (32M0570). This site consists of a singular lithic
flake in isolated contexts and is recommended as not
eligible for listing in the NRHP and no further work
is warranted.

212a
3.7.1.2 Impacts and Mitigation
The impacts attributable to the HDD on cultural
resources would not be significant. The geotechnical
analysis performed to support the HDD crossings supports the lack of anticipated impacts due to vibrations
related to construction and HDD activities. Vibrations produced during the HDD process are not of a
magnitude that would cause any impacts to cultural
resources. Vibrations associated with the drilling process would be limited to the immediate vicinity of the
drilling equipment on the surface and downhole. The
vibrations produced from the downhole tooling are of
a very low magnitude and are attenuated very quickly
by the formation such that vibrations are never felt at
the surface. A vibration monitoring analysis conducted by GeoEngineers in 2009 found that peak particle velocities were less than 0.07 inches/second
within approximately 50 feet of HDD operations.
These velocities are well below that which would
cause any structural impacts and moreover, the recorded vibrations were, in fact, imperceptible to human
senses (GeoEngineers, 2009).
Flowage Easements
Dakota Access has conducted Class II/III inventory surveys within the 400-foot-wide survey corridor
across the flowage easements. The survey investigations resulted in the revisit of site 32WI1367 on the
northern side of the Missouri River, and the documentation of site 32MZ2874 on the southern banks of the
Missouri River. Impacts to site 32WI1367 would be
avoided via HDD to ensure the integrity of construction design for these historic-age features is preserved. Additionally, no impacts to site 32MZ2874 are

213a
anticipated to occur as the HDD workspace is located
beyond the site boundaries. These management recommendations have been included as viable avoidance options in the Class II/III report submitted to the
USACE regional archaeological staff. A more thorough discussion of the cultural setting, relevant previous studies, as well as geologic and geomorphic analysis of the region, and results of the current survey
with associated mapping detail can be referenced in
Appendix I.
Federal Lands
Dakota Access has conducted Class II/111 inventory surveys within the Connected Action areas on
private lands associated with the Lake Oahe crossing.
These investigations resulted in the documentation of
one prehistoric site consisting of a singular lithic artifact (32M0570). This site is recommended as not eligible for listing in the NRHP. No additional cultural
resources were documented within the Connected Action areas associated with the Lake Oahe crossing.
While the Class I background review determined that
eight previously recorded sites are located on federal
lands, no evidence of these sites was encountered
within the Connected Action areas on private lands.
Dakota Access’ UDP was developed (Appendix F)
for use during all DAPL Project construction activities
regardless of jurisdiction or landownership. The UDP
describes actions that would take place in the event
that an undocumented cultural resource site is discovered during construction activities. The UDP explicitly calls for work to stop until the correct authority or
agency can be contacted and the find can be properly
evaluated.

214a
3.7.2 Native American Consultations
The 2004 Programmatic Agreement for the Operation and Management of the Missouri River Main
Stem System for Compliance with the National Historic Preservation Act, as amended, (PA) was developed to address challenges associated with cultural
and historic resource impacts involved with the ongoing operation and maintenance of the Missouri River
system of main stem dams. This agreement outlines
the processes through which affected Tribes, agencies
and interested parties are consulted by the Corps on
issues that may affect important historic and cultural
resources. These processes are essential to fulfill the
Corps’ Tribal Trust Responsibilities and also comply
with Section 106 of the NHPA.
The United States Department of Defense recognizes its trust responsibilities to federally recognized
Indian Tribes and has established an American Indian and Native Alaskan Trust policy that directs its
agencies, including the Corps, to work with Tribes in
a manner that incorporates tribal needs, traditional
resources, stewardship practices, and the development of viable working relationships. In addition, EO
13175, Consultation and Coordination with Indian
Tribal Governments (EO 13175), outlines policy and
criteria regarding the establishment of “regular and
meaningful consultation and collaboration with tribal
officials in the development of Federal policies that
have tribal implications, and are responsible for
strengthening the government-to-government relationship between the United States and Indian tribes”
(https://www.whitehouse.gov/the-press-office/memorandum-tribal-consultation-signed-president).

215a
EO 13175 continues with the following; “History
has shown that failure to include the voices of tribal
officials in formulating policy affecting their communities has all too often led to undesirable and, at
times, devastating and tragic results. By contrast,
meaningful dialogue between Federal officials and
tribal officials has greatly improved Federal policy toward Indian tribes. Consultation is a critical ingredient of a sound and productive Federal-tribal relationship”. These concepts are reflected in the Omaha District’s PA/Section 106 coordination/consultation process.
Section 106 coordination/consultation was initiated for the Proposed Action beginning in October
2014, with an information letter regarding a preliminary geo-testing of the proposed Oahe crossing alignment. Per the Omaha District’s usual process, this
letter was sent to Tribes, THP0s, SHP0s, agencies and
interested parties, soliciting information relevant to
the Proposed Action. Subsequently, the same process
was utilized in circulating information and pertinent
data for the installation of the Oahe pipeline crossing,
in the form of a letter distributed in July 2015. The
USACE recommended a “No Historic Properties Subject to Effect” Determination to the North Dakota
SHPO and the SHPO concurred on April 22, 2016.
3.8 Social and Economic Conditions
Under the “no action” alternative, Dakota Access
would not construct the DAPL Project and no impacts
on social and economic conditions would occur. Although the impacts associated with a future project developed in response to the “no action” alternative are
unknown, if the objectives of the DAPL Project are to

216a
be met under the “no action” alternative, other projects and activities would likely be required (e.g.
transportation of oil by truck or rail). Alternative
shipping methods would likely result in their own impacts on social and economic conditions, such as increases in vehicular accidents and personal injury,
worsening traffic congestion, and increased infrastructure deterioration.
The overall DAPL Project is a $3.78 billion dollar
investment directly impacting the local, regional, and
national labor force by creating nearly 12,000 construction jobs. Dakota Access has publically committed to utilizing American labor to build the pipeline.
Dakota Access has teamed up with the various craft
and labor unions in the DAPL Project regions and nationally to ensure the DAPL Project is constructed by
highly qualified and experienced local and regional labor resources. These construction jobs would create
considerable labor income and state income tax revenue — including the generation of more than $13.4
million in ad valorem taxes. Upon authorization, the
DAPL Project would put welders, mechanics, electricians, pipefitters, heavy equipment operators, and
others within the heavy construction industry to
work.
3.8.1 Demographics, Employment, Income and
Economic Justice
3.8.1.1 Affected Environment
The Proposed Action at the flowage easements
and the Missouri River are in McKenzie County and
Williams County. The two census tracts (CT) crossed
are CT9625 and CT 9535, respectively. Demographic

217a
information including population, income, and employment statistics for these census tracts, counties in
the general geographic area, and the state of North
Dakota are provided in Table 3-14. The industries
employing the greatest number of persons in these
census tracts is agriculture followed by educational
services health care and social assistance fields; and
construction.
At the Lake Oahe crossing, two Census tracts are
crossed, CT9665 in Emmons County and CT204 in
Morton County. Demographic information including
population, income, and employment statistics for
these census tracts, counties, and the state of North
Dakota are provided in Table 3-15. The top three industries providing employment in Emmons County
are agriculture followed by educational services,
health care and social assistance fields, and then construction. Educational services, health care and social
assistance are the leading industry employers in
CT204 in Morton County followed by agriculture and
retail trade. Although not directly affected by the Proposed Action or Connected Action Areas, Sioux
County borders the Missouri River to the west and is
south of the Lake Oahe crossing point. Due to proximity of this county to the project, it has been incorporated as part of the geographical area for the county
baseline data for analysis purposes relating to the
Lake Oahe crossing.
3.8.1.2 Impacts and Mitigation
The Proposed Action is assumed to have a short
construction window with a small number of construction workers dedicated to these crossings. It is possible that counties within the general Project Area

218a
(McKenzie, Williams, Morton, Emmons, and Sioux)
could experience short-term temporary effects to the
local economy through induced spending from construction employees working on the crossing. No residential homes or farms would be relocated resulting
from the proposed action. Additionally, no demographic changes in the Census tracts affected or the
counties representing in the geographical area are anticipated because no permanent employment would be
created as a result of the Proposed Action.
The DAPL Project also has tremendous secondary
and sustainable economic benefits to the United
States by supporting energy independence, increasing
employment opportunities, and adding to demand in
many manufacturing sectors, which would be a boost
to the overall economy. When considering the economic impact and benefit, once U.S. workers are employed on the DAPL Project, consistent with most infrastructure projects, the workers would spend their
earnings in the communities where they work and
live, resulting in multiplied economic impacts that
would be nearly $5 billion just during the construction
phase. This economic impact would affect manufacturing in many domestic sectors such as the following
examples. It results in new vehicles being purchased,
which positively impacts the auto industry. It would
result in new homes being built, which improves and
increases the housing construction, resale, and lending business located in the region and across the U.S.
It impacts the food industry by requiring more food
services and products to be delivered and consumed in
the DAPL Project region. And it delivers abundant
American energy to U.S. markets, thereby enhancing
supply. The list could continue with a description of

219a
many secondary benefits, but in summary, the economic impact to the U.S. as well as the immediate region where the pipeline is located is considerable.

220a

221a

222a

223a

224a
3.9 Environmental Justice
EO 12898, Federal Actions to Address Environmental Justice in Minority Populations and Low-Income Populations, requires federal agencies to identify and address disproportionately high and adverse
human health or environmental of their programs and
policies on minority and low-income populations and
communities and Indian tribes. The CEO guidance
suggests that an environmental justice population
may be identified if “the minority population percentage of the affected area exceeds 50%, or if the minority population percentage of the affected area is meaningfully greater than the minority population in the
general population or other appropriate unit of geographic analysis” (CEO, 1997). The CEO defines lowincome populations based on an annual statistical
poverty threshold. In 2013, the poverty threshold for
the 48 contiguous states for an individual under the
age of 65 living alone was $12,119 (U.S. Census Bureau, 2014).
Under the “no action” alternative, Dakota Access
would not construct the proposed Project and no environmental justice impacts would occur. However, If
the objectives of the Project are to be met under the
“no action” alternative, other projects and activities
would be required and these projects could result in
their own environmental injustice impacts, which
would likely be similar to or greater than the proposed
Project. It is reasonable to assume that alternative
methods of crude oil transportation would be relied on
to meet market demands. Minority or low income
communities along utilized rail lines or truck routes
could be affected by increasing noise and creating

225a
transportation delays due to the substantial increasing truck traffic on county, state and interstate highways as well as rail traffic across railroad crossings.
3.9.1 Affected Environment
Transportation projects, such as under the Federal Transit Administration, and natural gas pipeline
projects under the Federal Energy Regulatory Commission (e.g. Docket Nos. CP12-507-000 and CP12508-000, DOE FE 12-97-LNG, and FERC/EIS-0252F),
typically use a 0.5 mile buffer area to examine Environmental Justice effects. The census tracts crossed
by the Proposed Action encompass an area greater
than 0.5 mile radius for the project; therefore additional census tracts were not evaluated.
Since two census tracts are within 0.5 mile of the
Flowage Easements at the Missouri River, and another two census tracts are located within 0.5 mile of
the federal lands at Lake Oahe, an average of the demographic data from two respective census tracts was
compared to the average demographic data of the
counties in the general vicinity of each crossing as well
as the state of North Dakota demographic data.
For the Flowage easements and Missouri River
crossing, which are generally centrally located within
McKenzie and Williams Counties, the averaged data
from those two counties was used to obtain the Baseline Area data set.
Lake Oahe crossing is generally centrally located
within Emmons County on the east side of the Lake,
however it is near the southern boundary of Morton
County. Therefore Sioux County (located greater
than 0.5 miles) was included in the geographical area

226a
of the Lake Oahe. Thus Morton, Emmons, and Sioux
county data was averaged to obtain the Baseline Area
data set.
3.9.2 Impacts and Mitigation
For analyzing impacts to the minority and low income populations at the Proposed Action Area at the
flowage easements and Missouri River Crossing, Census Tracts CT9625 and CT9535 were compared to the
averaged county baseline (McKenzie and Williams
Counties — “Baseline Area”) data and then to the
state data to determine if there were any siting concerns relative to Environmental Justice.
The minority population of the Proposed Action
Area at the Missouri River is greater than the state as
a whole (3% greater) but lower than surrounding
county geographical area (1% lower). Neither of these
differences is considered meaningful.
The percentage of the population below the poverty level for the Proposed Action Area at the Missouri
River is 5% lower than the state as a whole and also
5% lower than surrounding county geographical area.
These differences are not considered meaningful.
For analyzing impacts to the minority and low income populations at the Lake Oahe Crossings, data
for the averaged Census Tracts (CT204 and CT9665)
was compared to the averaged county baseline (Morton, Emmons and Sioux — “Baseline Area”) for the
county geographical area (Morton, Emmons, and
Sioux Counties — “Baseline Area”) data and then to
the state to determine if there were any siting concerns relative to Environmental Justice.

227a
Based on this analysis, the minority population of
the Proposed Action Area at Lake Oahe is lower than
the state as a whole (9% lower). Although the average
minority population of the counties geographical baseline is greater than the state as a whole, the minority
population in the averaged census tract of the Proposed Action Area at Lake Oahe is much lower than
surrounding county geographical area. In this case,
the census tracts associated with the Proposed Action
Area at Lake Oahe have a meaningfully lower minority percentage (29% lower) than the Baseline Area
consisting of the three county area.
No appreciable minority or low-income populations exist within the Census tracts directly affected
by the Proposed Action at either crossing (Tables 314 and 3-15). No local community with appreciable
minority or low-income populations exists at either
the crossing of federal lands or flowage easements
(Tables 314 and 3-15). Based on this analysis, there
is no concern regarding environmental justice to minority populations at the Proposed Action Area at the
Missouri River Crossing or at Lake Oahe.
3.9.2.1 Standing Rock Sioux Reservation
It is recognized that the Standing Rock Sioux
Tribe is downstream of the Lake Oahe Crossing,
which has a high population of minorities and low-income residents. Dakota Access and the Corps sought
to engage Tribal representatives in the vicinity of the
Proposed Action, and especially the Standing Rock
Sioux Tribe, in discussion as to the nature of the Project, cultural resource concerns and the Lake Oahe
crossing. The initial contact by Dakota Access with
the Standing Rock Sioux Tribe was in October of 2014

228a
with additional contacts and subsequent meetings occurring through March 2016. Direct and Indirect impacts from the Proposed and Connected Actions will
not affect members of the Standing Rock Sioux Tribe
or the Tribal reservation. The Lake Oahe crossing
will be installed via HDD beneath the river from private lands adjacent to Corps owned lands to avoid impacts to environmental resources (e.g. water, soil, cultural resources, vegetation, etc.). The HDD drilling
process is an expensive technique that itself is a mitigation measure with no anticipated effects to the environment including vibration or frac-out within or
outside of the Proposed Action for the short duration
of the construction project (see sections 2.3.2.6 and
3.1.1.2 for additional information).
As discussed in more detail in sections of this Environmental Assessment (i.e. Section 2.3.1), Dakota
Access utilized a complex routing model to examine
alignment options for the Project and an array of environmentally protective criteria were used to cite the
Project. Perhaps most important for purposes of this
analysis, are the citing criteria that require the avoidance of Tribal reservations and federal lands. Since
the route must cross the Missouri River, it was not
practicable to fully avoid federal land (see discussion
in Section 2.1.3), and hence the necessity for this EA.
However, maintaining a minimum distance of 0.5 mile
from Tribal land, consistent with other federal citing
criteria, avoided tribal land as a mitigation and routing measure. Furthermore, the Proposed Action, and
hence the route and installation methods, is at a distance sufficient such that there are no direct or indirect impacts to Tribal lands, members or protected
cultural resources.

229a
Another primary consideration in routing included a preference for co-locating the route with existing infrastructure. The Proposed Action is co-located with existing power and pipe lines across Lake
Oahe and partially co-located with a gas line at the
flowage easements and Missouri River. As examples,
the routing model affirmatively excludes such locations as Tribal lands, National Registry Historic
Places, wilderness, parks, landmarks and an array of
other special needs areas.
As a result of this routing criteria, the nature of
the action (construction associated with laying an underground oil pipeline), the short term duration of effects, construction and operation on private lands, the
concurrent reclamation activities, state of the art construction techniques, use of high quality materials
and standards that meet or exceed federal standards,
there will be no direct or indirect effects to the Standing Rock Sioux tribe. This includes a lack of impact to
its lands, cultural artifacts, water quality or quantity,
treaty hunting and fishing rights, environmental
quality, or socio-economic status. Therefore, there is
no resulting adverse or disproportionate impacts of
the Proposed Action with respect to Environmental
Justice considerations.
The Standing Rock Sioux Reservation boundary is
over 0.5 miles south of the Lake Oahe Project Area
crossing. Based on aerial imagery, the closest residence on the Standing Rock Sioux Reservation is a rural residence located greater than 1.5 miles from the
Lake Oahe Project Area Crossing. This distance is
well beyond any federal or state siting criteria. The
North Dakota Energy Conversion and Transmission
Facility Siting Act Exclusion and Avoidance Areas

230a
Criteria (49-22-05.1) establishes an avoidance setback
requirement of 500 feet from inhabited rural residences.
The pipeline route expressly and intentionally
does not cross the Standing Rock Sioux Reservation
and is not considered an Environmental Justice issue.
If it were it determined that there would be some effects to the Standing Rock Sioux Tribe as a low income, minority population, it would not disproportionately or predominately bear impacts from the Proposed Actions (the impacts will actually disproportionately affect private lands, non-low income populations and non-minority populations). The impacts
along the Missouri River and the Lake Oahe crossing
are not disproportionate to the tribe. The Missouri
River crossing is on private lands with private lands
and US federal lands downstream; the nearest reservation is Fort Berthold approximately 50 miles due
east and Standing Rock Reservation is approximately
160 miles southeast. The Lake Oahe HDD crosses under US Federal lands from lands that are privately
owned; private lands continue downstream of the
crossing on the east side of the Lake and Standing
Rock Reservation (0.55 miles). Thus, the impacts at
best can be said to be equivalent between tribal lands
and private landowners at the Lake Oahe crossing.
As stated above, linear projects typically use a 0.5
mile buffer area to examine Environmental Justice effects. There are no low-income, minority or tribal
lands within 0.5 mile of the Proposed Action.
Concerns have been expressed regarding an inadvertent release reaching intake structures on Lake
Oahe. Given the engineering design, proposed instal-

231a
lation methodology, quality of material selected, operations measures and response plans the risk of an inadvertent release in, or reaching, Lake Oahe is extremely low. While the locations of water intakes is
not public information for disclosure in this document,
there are private and/or non-tribal intakes closer to
the Lake Oahe crossing than any intakes owned by
the tribe; further demonstrating the lack of disproportionate impacts of an inadvertent release to the Tribe
and the reservation. We understand that due to the
rural nature of this area, tribal drinking water supplies are obtained from a combination of wells and
surface water. The siting and construction of oil pipelines upstream of drinking water intakes is not uncommon throughout the United States and is not considered an Environmental Justice issue. In the unlikely event of a release, sufficient time exists to close
the nearest intake valve to avoid human impact.
Dakota Access has committed to plan for the protection of this and other water crossings and associated water intakes as part of its emergency preparedness protocol and in accordance with PHMSA requirements outlined in 49 CFR §§ 194 and 195 (see section
3.11 for further detail). Tribal representatives have
been identified for early contact along with other federal, state and local governments by the Corps as well
as independently by the applicant.
Based on the above sections, it has been determined that there are no environmental justice issues
or concerns resulting from the Proposed Action.
3.10 Hazardous Waste
The EPA (2015) defines hazardous waste as waste
that is dangerous or potentially harmful to human

232a
health or the environment, occurring as liquids, solids, gases, or sludges. They can be generated through
the disposal of commercial products, such as cleaning
fluids or pesticides, or manufacturing processes. Improper management and disposal of hazardous substances can lead to pollution of groundwater or other
drinking water supplies and the contamination of surface water and soil. The primary federal regulations
for the management and disposal of hazardous substances are the Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
and the Resource Conservation and Recovery Act
(RCRA).
A review of regulated facilities for hazardous materials along the Proposed Action corridor was conducted by searching online records maintained by the
EPA (2014). Presently, there are no recognized Radiation Information Database, Brownfields, Superfund,
Toxic Release Inventory, or air emission sites within
one mile of the flowage easements and Lake Oahe
crossings. No operating sensitive receptors, such as
schools or hospitals, are reported within at least one
mile. Additionally, there are no NPDES discharge
sites within one mile of the Project Areas.
With the Proposed Action, there is potential for
temporary impacts to public safety from hazardous
material use. Other hazards to worker safety may
also exist along the Proposed Action corridor, but do
not pose a significant impact. Because there were no
regulated sites found within the one-mile search radius of the Project Area, no impacts to the Proposed
Action, Proposed Action media, or worker safety are
expected. In the unlikely event contamination is encountered during construction, the UDP (Appendix

233a
F) would be implemented to protect people and the
environment and avoid or minimize any effects from
unearthing the material.
Any hazardous materials discovered, generated,
or used during construction would be managed and
disposed of in accordance with applicable local, tribal,
state, and federal regulations. Should emergency response be required during construction, the contractor
would have some of their own trained or contracted
responders, and local response teams would be expected to assist.
Dakota Access would comply with any laws, regulations, conditions, or instructions issued by the EPA,
or any Federal, state, or local governmental agency
having jurisdiction to abate or prevent pollution, such
as the RCRA, and State hazardous waste management rules.
3.11 Reliability and Safety
The PHMSA, a federal agency within the U.S.
DOT is the primary federal regulatory agency responsible for ensuring the safety of America’s energy pipelines, including crude oil pipeline systems. As a part
of that responsibility, PHMSA established regulatory
requirements for the construction, operation, maintenance, monitoring, inspection, and repair of liquid
pipeline systems.
Construction activities could present safety risks
to those performing the activities, residents and other
pedestrians in the neighborhood. Given the low population density of the area, risks would be limited to
workers involved with the Proposed Action. All activ-

234a
ities would be conducted in a safe manner in accordance with the standards specified in the Occupational
Safety and Health Administration (OSHA) regulations.
To prevent pipeline failures resulting in inadvertent releases, Dakota Access would construct and
maintain the pipeline to meet or exceed industry and
governmental requirements and standards. Specifically, the steel pipe would meet PHMSA specifications
under 49 CFR § 195, follow standards issued by the
American Society of Mechanical Engineers, National
Association for Corrosion Engineers and API. Once
installed, the pipeline would be subjected to testing to
verify its integrity and compliance with specifications,
including hydrostatic pressure testing at the crossings, checking coating integrity, and X-ray inspection
of the welds. The pipeline would be placed into service
only after inspection to verify compliance with all construction standards and requirements. Dakota Access
would maintain and inspect the pipeline in accordance with PHMSA regulations, industry codes and
prudent pipeline operating protocols and techniques.
The pipeline ROW would be patrolled and inspected
by air every 10 days, weather permitting, but at least
every three weeks and not less than 26 times per year,
to check for abnormal conditions or dangerous activities, such as unauthorized excavation along the pipeline route.
As discussed in Section 3.2.1.2, Dakota Access has
drafted a FRP, in accordance with 49 CFR 194, which
details the procedures to be implemented in the event
of an inadvertent pipeline release and would be in
place prior to commencing transportation of crude oil.

235a
The FRP is discussed under Section 3.2.1.2 and a draft
of the FRP is included in Appendix L.
Following completion of construction and
throughout operation of the Proposed Action facilities,
the Operator and qualified contractors would maintain emergency response equipment and personnel at
strategic points along the pipeline route. These personnel would be trained to respond to pipeline emergencies as well as in the National Incident Management System (NIMS) Incident Command System
(ICS). Additionally, contracts would be in place with
oil spill response companies that have the capability
to mobilize to support cleanup and remediation efforts
in the event of a pipeline release. The Operator would
also coordinate with local emergency responders in
preventing and responding to any pipeline related
problems. These activities would include conducting
and hosting, over a period of time, emergency response drills with both Dakota Access employees and
local emergency responders along the pipeline route.
Dakota Access will conduct emergency response
drills/exercises in accordance with PREP, which is
recognized, and approved, by the EPA, US Coast
Guard, and PHMSA. These emergency response exercises will consist of annual table top exercises and
equipment deployment drills. Dakota Access is committed to conducting a worst case discharge full scale
exercise at either the Missouri River crossing near
Williston or the crossing at Lake Oahe once every 6
years and will include both open water and ice response. Dakota Access will alternate the location and
type of exercise. Regulatory and stakeholder participation will be encouraged and solicited for the exercises.

236a
In addition to the testing and inspection measures
listed above, Dakota Access would utilize a supervisory control and data acquisition (SCADA) system to
provide constant remote oversight of the pipeline facilities. Power for the SCADA system would be provided from an existing power grid. In the event of a
power outage, a 500 watt Uninterruptable Power Supply would supply low voltage power to the Programmable Logic Controller and communication equipment. Communication with the SCADA system would
be accomplished via satellite (Hughes Global Network) and telephone (4G cellular [ATT] or landline depending on availability/coverage). Both forms of communication are continually engaged to poll information from these sites for 100% reliable remote monitoring / operation of these sites through the SCADA
system to the Operations Control Center (OCC) in
Sugarland, Texas (a backup control room is located in
Bryan, Texas), and are proven to have the least potential for interruption during pipeline operations.
If an alarm criteria threshold is met, the SCADA
system would alert Dakota Access’ OCC Operators, located in Sugarland and Bryan, Texas, of rapid drops
in pressure, who would then activate the controls as
necessary and initiate procedures for an appropriate
response. The OCC prioritizes and responds to all
alarms in accordance with the control room management regulations referenced in PHMSA CFR 195.446
(e). This regulation requires that the OCC Operator
have a SCADA system alarm management plan; in
general, the plan must include review of the SCADA
alarm operations to ensure alarms support safe pipeline operations, identify any required maintenance
that may affect safety at least once every calendar

237a
month, verify correct safety-related alarm values and
descriptions at least once every calendar year when
associated field equipment are changed or calibrated,
determine effectiveness of the alarm management
plan through a yearly review, and monitor content
and volume of activity at least once a calendar year to
assure controllers have adequate time to review incoming alarms. Leak Warn, a leading software program for monitoring pipelines, is being tailored to the
pipeline facilities, in accordance with Pipeline and
Hazardous Materials Safety Administration requirements. The Operator would utilize a Computational
Pipeline Monitoring System (CPM) to monitor the
pipeline for leaks. The CPM is a state-of-the-art pipeline monitoring tool and features a real-time transient
model that is based on pipeline pressure, flow, and
temperature data, which is polled from various field
instruments every 6 seconds and updates the model
calculations to detect pipeline system variations every
30 seconds. After the system is tuned, this state-ofthe-art CPM system is capable of detecting leaks
down to 1 percent or better of the pipeline flow rate
within a time span of approximately 1 hour or less and
capable of providing rupture detection within Ito 3
minutes. State-of-the-art leak detection equipment
and software utilized during operations or the pipeline will be updated per federal standards in accordance with PHMSA requirements. In the event that a
leak is confirmed through verification, pump station
shutdown would be initiated within a predetermined
amount of time to effectuate. Next, the remotely controlled isolation valves (mainline valve sites would be
installed on both sides of large waterbody crossings
for isolation in the event of an emergency shutdown),

238a
which are operable from the OCC, would be closed.
These valves have a closure time of no greater than
three (3) minutes. Monitoring of the pipeline segments installed via HDD would be accomplished in
the same manner as those segments installed by conventional methods (i.e., SCADA, internal inspection
devices, and aerial patrols). Typically, repairs are not
made on any section of pipe greater than 10 to 20 feet
below the ground surface depending on the repair
needed. If a material impact was on the pipeline below the 10-foot depth, operation of the system would
be modified accordingly (e.g., reduce operating pressure) or the line would be re-drilled. If inspections
identify an anomaly, requirements would be followed
to comply with U.S. DOT requirements.
In the unlikely event of a leak during operations
of the pipeline, the Operator would implement the response measures described in the FRP. Below is a list
of typical response activities. However, each spill mitigation situation is unique and will be treated according to the actual spill circumstances present at the
time of release.
Notification: The Operator will conduct notifications in accordance with federal and state guidelines.
These guidelines, along with additional notification
forms/procedures are presented in Appendix B of the
FRP. Local government response agencies would be
notified first followed by federal and state agencies as
well as surrounding communities, and governments
(including tribal governments and utilities) in accordance with the relevant provisions of the FRP and relevant law. Response notification to such entities as
the National Response Center, PHMSA, EPA,
USACE, and affected state regulatory entities will be

239a
made in accordance with the requirements dictated by
the incident type. A complete list of required notifications is included in the FRP. In accordance with
PHMSA policy, the FRP will be updated every five
years or sooner if there are material changes to the
Plan.
Mobilize Response Equipment: Emergency equipment would be available to allow personnel to respond
safely and quickly to emergency situations. Company-owned equipment will be inspected and exercised in accordance with PREP guidelines and would
be mobilized and deployed by the Operator from strategic staging locations along the pipeline. Additionally, the operator will contractually secure OSROs to
provide trained personnel and equipment necessary to
respond, to the maximum extent practicable, to a
worst case discharge or substantial threat of such discharge. At a minimum, each OSRO will have a containment booms, absorbents, boats, and vacuum
trucks available. A complete list of equipment and list
of trained personnel necessary to continue operations
of the equipment and staff the oil spill removal organization for each of the OSRO contractors is included in
the FRP.
Response Activities: Following incident command
protocols, the Operator would work in unison to cooperate with and assist fire, police and other first responders when implementing actions to protect personnel, public safety and the environment. The FRP
includes a spill response checklist which lists activities that could be conducted during a spill which
would be modified to best address the specific circumstances of a spill event. Incident response activities
may include: initiating spill assessment procedures

240a
including surveillance operations, trajectory calculations, and spill volume estimating; berming or deployment of containment and/or sorbent booms; lining
shorelines with sorbent or diversion booms to reduce
impacts; and recovering contained product as soon as
possible to prevent the spread of contamination using
appropriate hoses, skimmers, pumps, and storage
containers or vacuum trucks at collection areas. The
response activities would continue until an appropriate level of cleanup is obtained as provided by the responsible federal, state or other governmental authorities. The nature and location of the incident will affect the regulatory and notification requirements, for
which more detail is provided in the FRP. Incidents
involving discharges to navigable waters are governed
the Oil Pollution Act of 1990.
Dakota Access will implement numerous
measures to minimize the risk of a pipeline leak and
protect the users of downstream intakes:
1) Spill Prevention, Leak Detection and Spill Response Measures:
Based on a worst case discharge (WCD) scenario
specific to Lake Sakakawea and Lake Oahe, calculated by guidance in 49 CFR § 194.105, a largest possible release volume was determined specific to the
segment of the pipeline that would cross Corps-managed lands. This calculation was based on environmental assumptions such as air temperature, wind direction/probability and wind speeds that were averaged from data over a one-year period derived from
the U.S. Geological Survey National Hydrological Dataset (NHD, version 2). This information was extrapolated into a 24-hour model. The WCD, at the end of

241a
the 24-hour period, produced a surface oil slick attenuation distance, volume remaining in the water column, volume that would be ashore and the volume
would evaporate within this timeframe. It is important to note, this WCD scenario is also calculated
on the assumption that the pipeline is on top of the
river verses HDD. Because the proposed pipeline
would be installed at a minimum depth of 36 feet below the Missouri River above Lake Sakakawea and 92
feet below the lakebed of Lake Oahe, there is a greater
response time combined with the use of the automated
SCADA system.
While the potential risk for a WCD scenario is low,
such a spill would result in high consequences. Review and approval of the overall regional FRP, which
encompasses the regional DAPL Pipeline response
strategies in the event of an oil spill, is the responsibility and jurisdiction of PHMSA. Federal regulations
49 CFR 194 specify minimum requirements of such an
FRP. For the proposed project, the DAPL Pipeline
FRP will be required to align with the content and directions identified in the Mid-Missouri Sub-Area Contingency Plan. A tactical GRP specific to a response
strategy for Lake Sakakawea and Lake Oahe was provided by the applicant and includes specific response
strategies and equipment for all affected water. Both
the FRP and GRP will be finalized after construction
and be submitted to the USACE for review and the
incorporation of USACE comments prior to submittal
to PHMSA.
Within these response plans, DAPL training exercise program would be consistent with the exercise requirements as outlined in the PREP Guidelines that

242a
were developed by the U.S. Coast Guard in conjunction with PHMSA and EPA. Training exercises include quarterly notification exercise, annual tabletop
exercises to include a WCD scenario every three years,
annual facility-owned equipment deployment exercises annual contractor exercises and unannounced
exercises by government agencies.
The applicant has committed to additional full
scale open water and full scale winter/ice exercises
that will be conducted at Lake Sakakawea and Lake
Oahe. A full scale exercise will occur once every 3
years (triennial cycle) with the location and type of exercise occurring on alternating schedules (e.g. open
water exercise at Oahe the first triennial cycle, followed by winter exercise at Sakakawea the following
triennial cycle, followed by a winter exercise at Oahe
the following triennial cycle, etc.). Stakeholder (federal, state, local, and Tribal) involvement will be solicited for each exercise. The first exercise will occur
within the first 3 years after the pipeline becomes operational.
2) Risk Analysis
While an oil spill is considered unlikely and a high
precaution to minimize the chances has been taken, it
is still considered a low risk/high consequence event.
A risk analysis conducted by DAPL addressed nine industry-recognized pipeline integrity threat categories
in combination with public and environmental impact
that could occur in the event of a release into Lake
Sakakawea and Lake Oahe. These threat categories
include the following: 1) third-party damage, 2) external corrosion, 3) internal corrosion, 4) pipe manufac-

243a
turing defects, 5) construction related defects 6) incorrect operations, 7) equipment failure, 8) stress corrosion cracking and 9) natural forces. DAPL derived the
following analysis risk process from the W. Kent
Muhlbauer Relative Index Methodology (2004), in accordance with 49 CFR 195.452 “Hazardous Liquid
Pipelines in High Consequence Area”, API RP 1160
“Managing System Integrity for Hazardous Liquid
Pipelines”, and ASME B31.8S “Managing System Integrity of Gas Pipelines”.
1 - Third Party Damage
Pipeline failure due to third party damage is
ranked low for the Missouri River above Lake Sakakawea and Lake Oahe (36 and 92 feet below the
river and lakebed, respectively). The only third party
damage that would threaten this portion of the pipeline would be another HDD in the same location of the
DAPL Pipeline. Due to tracking technological advances such as submeter accuracy, a permanent and
accurate record of the proposed pipeline would be documented so no such possibility of another pipeline being placed via HDD in the same location would occur.
2 - External Corrosion
Pipeline failure for the portion of the proposed
project that crosses Lake Sakakawea is classified as
low. The potential is ranked low due to the high performance external coating system that is being used
(heavy epoxy-concrete abrasion resistant layer over
fusion bonded epoxy) and deep well cathodic protection. This portion of the pipeline is constructed with
a thicker wall pipe compared to segments of the pipeline in upland-classified areas. A conservative corro-

244a
sion growth rate was determined to take 70 years before a through-wall metal loss could occur. Because
in-line inspection metal loss detection tools run every
five years, external corrosion activity would be detected and mitigated prior to it becoming an integrity
threat.
3 - Internal Corrosion
Pipeline failure due to the internal corrosion
threat for the portion of the proposed project that
would cross Lake Sakakawea is ranked low. Causes
of internal corrosion would be due to accumulation of
water and solids in low spots of the pipeline. However,
DAPL internal corrosion mitigation program for the
entire DAPL pipeline include chemical analysis of the
crude product stream, pipeline operations (maintenance of minimum flow rates that keep entrained water and solids moving through the system), a maintenance pigging program, wall pipe design and in-line
inspection performed every five years. The potential
does exist, but successful implementation and continual monitoring of the effectiveness of the above programs will mitigate the risk. As with the external corrosion threat, the internal corrosion would be detected
and mitigated prior to it becoming an integrity threat.
4 - Pipe Manufacturing
Defects Pipeline failure due to manufacturing defects is considered low for the portion of the pipeline
that crosses Lake Sakakawea and Lake Oahe. Upon
completion of construction and prior to the commissioning of the pipeline, the segment of the pipeline
crossing Corps-managed lands would be hydrostatically strength-tested for eight hours at 1,800 psig
which would be 1.25 times greater than the 1,440

245a
MAOP. Should any strength-related defects be found
in the pipe as a result of the hydrostatic test, this segment of the pipeline would have been over-pressured
by more than two-times to have a potential effect on
those defects. An over-pressure event of this magnitude is not likely with the equipment installed.
5 - Construction Related
Defects Pipeline failure for the segment that
crosses under Lake Sakakawea due to construction related defects is categorized as low. All pipe joints
would be welded by qualified welders and the required
100% girth weld radiography would provide a two-dimensional grayscale image of the weld. After construction and prior to commissioning of the pipeline,
the hydrostatic testing would be performed. After the
drill string is installed and prior to the line being put
into service, an in-line inspection tool would be ran to
identify an injurious mechanical damage that may
have gone undetected during construction.
6 - Incorrect Operations
Pipeline failure due to incorrect operations (e.g.
overpressure event caused by human error) is ranked
low for the section of the pipeline that crosses Lake
Sakakawea and Lake Oahe. This section of the DAPL
pipeline has a design factor nearly 2-times greater
than the maximum allowable operating pressure
(1440 psig) of the pipeline. In addition, the system is
controlled and monitored 24 hours a day, 365 days a
year by experienced controllers in the control center
in Sugarland, Texas. The system is designed with instruments and pressure relief systems to minimize
the opportunity for overpressure.

246a
7 - Equipment Failure
Pipeline failure due to equipment failure for the
section of the pipeline that crosses the Missouri River
above Lake Sakakawea and Lake Oahe are categorized as low. The only equipment located in this section of the pipeline are the shut-off valves on either
side of the Missouri River above Lake Sakakawea and
Lake Oahe which are remotely operated. These
valves are secured in perimeter fencing.
8 - Stress Corrosion Cracking
The potential for pipeline failure due to stress corrosion cracking for the portion of the pipe that crosses
the Missouri River above Lake Sakakawea and Lake
Oahe is ranked as low because this section will operate at a low stress and is externally coated with a fusion bond epoxy coating.
9 - Natural Forces
The potential for pipeline failure due to natural
forces is ranked low for the segment of the pipeline
that crosses Lake Sakakawea and Lake Oahe. The
National Pipeline Mapping System, maintained by
PHMSA, rates this geographic location for natural
hazards as the following: Hurricane- Low; Earthquake- Low; Flood- High and; Landslide-High. Erosion of cover/ exposure of the pipeline to debris during
flood conditions is highly unlikely due to the depth of
cover at the Missouri River and Lake Oahe crossings
(36 feet and 92 feet below the river and lakebed, respectively). In addition, landslide/ creep of the pipeline is highly unlikely as the pipe is at a depth below
that which would be affected by land movement.

247a
10 – Consequences
In the event that a pipeline failure occurs and
product is released into the Missouri River at either
crossing, the worst case consequence scenario is
ranked high because several drinking water intake
High Consequence Areas (HCAs) and multiple ecologically sensitive HCAs could be impacted. To minimize
the impact of a release (e.g. size and spread) the pipeline will continuously be monitored by a real-time
monitoring and leak detection system , which is considered to be the best available technology; motor operated isolation and/or check valves are installed on
either side of the Missouri River above Lake Sakakawea and Lake Oahe which can be actuated to
close as soon as a leak is detected; PHMSA-approved
FRP will be in place, all weather access and collection
points will be staged strategically downstream of each
lake crossing, and DAPL has committed to additional
full scale open water and full scale winter/ice exercises
that will be conducted at Lake Sakakawea and Lake
Oahe. A full scale exercise will occur once every 3
years (triennial cycle) with the location and type of exercise occurring on alternating schedules (e.g. open
water exercise at Oahe the first triennial cycle, followed by winter exercise at Sakakawea the following
triennial cycle, followed by a winter exercise at Oahe
the following triennial cycle, etc.). Stakeholder (federal, state, local, and Tribal) involvement will be solicited for each exercise. The first exercise will occur
within the first 3 years after the pipeline becomes operational.

248a
3.12 Air Quality and Noise
Under the “no action” alternative, Dakota Access
would not construct the DAPL Project and no impacts
on air quality and noise would occur. However, If the
objectives of the DAPL Project are to be met under the
“no action” alternative, other projects and activities
would be required and these projects would result in
their own impacts on air quality and noise, which
would likely be similar to or greater than the DAPL
Project. If the “no action” alternative is implemented
and the Project is not constructed, shippers will likely
rely on truck or rail to transport crude oil. Additional
road and rail traffic necessary to transport the volume
of crude oil proposed by the DAPL project would increase the emissions of combustion products due to
the potential releases during the filling operations of
trucks or rail cars and the use of diesel engines. These
would be recurring inputs into the environment which
could have an adverse impact on air quality in the region. Similarly, an increase in noise from truck and
rail traffic would be widespread and long term as opposed to the noise impacts of the preferred action
which are temporary and primarily limited to the vicinity of the construction workspace.
3.12.1 Air Quality
3.12.1.1 Affected Environment
The Clean Air Act (CAA) of 1970 requires that
states adopt ambient air quality standards. The CAA
(42 USC 7401 et seq.) establishes ambient air quality
standards, permit requirements for both stationary
and mobile sources, and standards for acid deposition
and stratospheric ozone (03) protection. The stand-

249a
ards have been established in order to protect the public from potentially harmful amounts of pollutants.
Under the CAA, the EPA establishes primary and secondary air quality standards. Primary air quality
standards protect public health, including the health
of “sensitive populations, such as people with asthma,
children, and older adults.” Secondary air quality
standards protect public welfare by promoting ecosystem health, and preventing decreased visibility and
damage to crops and buildings.
According to the EPA, North Dakota has no nonattainment areas for criteria pollutants. The Bismarck air quality monitoring station in Burleigh
County is located approximately 23 miles northnorthwest of the Lake Oahe crossing. The Bismarck
air quality monitoring station measures sulfur dioxide, nitrogen dioxide, particulate matter, ground-level
ozone, and meteorological data (North Dakota Department of Health, 2013). The Williston air quality monitoring station in Williams County is located approximately 18 miles northeast of the flowage easement
crossing. The Williston air quality monitoring station
measures particulate matter, ground-level ozone, and
meteorological data. The monitoring objective of both
stations is to measure population exposure to air quality parameters.
Monitoring data for these stations from 2003-2013
show pollutant levels for sulfur dioxide, nitrogen dioxide, ozone, and particulate matter did not exceed state
or deferral ambient air quality standards at any of the
state-operated monitoring sites (North Dakota Department of Health, 2013).

250a
3.12.1.2 Impacts and Mitigation
With the Proposed Action, no long-term impacts
to air quality would occur; the proposed pipeline
would not emit any criteria air pollutants. Short-term
impacts to air quality may occur during construction
phase of the Proposed Action. The contribution of the
Proposed Action to greenhouse gas emissions during
construction would be considered a minor indirect impact to climate change.
During construction, emissions from fuel-burning
internal combustion engines (e.g., transportation
trucks, heavy equipment, drill rigs, etc.) would temporarily increase the levels of some criteria pollutants,
including carbon monoxide, nitrogen dioxide, ozone,
particulate matter, and non-criteria pollutants such
as volatile organic compounds. Construction of the
Lake Oahe crossing is likely to take six to eight weeks
to complete.
Conventional pipeline construction
across the flowage easements would take approximately two weeks and activities at the HDD exit point
for crossing the Missouri River on the flowage easement LL3440E would likely operate for four to six
weeks. To reduce the emission of criteria pollutants,
fuel-burning equipment running times would be kept
to a minimum and engines would be properly maintained. This temporary increase in emissions is not
expected to impact air quality or visibility in the region long-term.
3.12.2 Noise
3.12.2.1 Affected Environment
Sound is a sequence of waves of pressure that
propagates through compressible media such as air or

251a
water. When sound becomes excessive, annoying, or
unwanted it is referred to as noise.
Decibels (dB) are the units of measurement used
to quantify the intensity of noise. To account for the
human ear’s sensitivity to low level noises, the decibel
values are corrected for human hearing to weighted
values known as decibels of the A-weighted scale
(dBA; see Table 3-16). The EPA has set values that
should not be exceeded. While the primary responsibility of regulating noise was transferred from the
EPA to state and local governments in 1981, the Noise
Control Act of 1972 and the Quiet Communities Act of
1978 are still in effect.
Table 3-16
Noise Values
Area
Noise Level
Leq (24) < 70
All areas
dBA
Outdoors in residential areas and farms where people
spend varying amounts of
Ldn < 55 dBA
time in which quiet is a basis for use
Outdoor areas where people spend limited time
Leq (24) < 55
such as school yards, play- dBA
grounds, etc.
Indoor residential areas

Ldn < 45 dBA

Indoor areas with human
activities such as schools,
etc.

Leq (24) < 45
dBA

Source: (The Engineering ToolBox, 2015)
Leq: 24-hr equivalent sound level
Ldn: day-night average sound level

Effect
Hearing
Outdoor activity interference
and annoyance
Outdoor activity interference
and annoyance
Indoor activity
interference
and annoyance
Indoor activity
interference
and annoyance

252a
The dominant land use in the proposed Project
Area is agricultural. The Day-Night Average Sound
(Ldn) level for agricultural crop land is 44 dBA, and
rural residential is 39 dBA (The Engineering ToolBox,
2015).
3.12.2.2 Impacts and Mitigation
Construction of the Proposed Action would temporarily affect the noise levels on and around the flowage easement and federal lands crossing areas. Construction would cause temporary increases in the ambient sound environment in the areas immediately
surrounding active construction. The use of heavy
equipment or trucks would be the primary noise
source during construction and excavation. The level
of impact would vary by equipment type, duration of
construction activity and the distance between the
noise source and the receptor. Construction activities
would typically be limited only to daytime hours. Potential exceptions include work determined necessary
based on weather conditions, safety considerations,
and/or critical stages of the HDD [e.g. if pausing for
the night would put the drill at risk of closing or jamming].
Once constructed and in-service, normal pipeline
operations are not audible and noise impacts would be
limited to the short-term construction window. Dakota Access would mitigate noise impacts by limiting
equipment running times and the duration of Proposed Action construction to the minimum amount
necessary to complete the Proposed Action. Noisy construction activities would typically be limited to the
least noise-sensitive times of day (daytime only).

253a
It is not anticipated that the temporary increase
in ambient sound levels associated with construction
would result in a significant noise impact.
4.0 CUMULATIVE IMPACTS
Cumulative impacts to the environment result
from the incremental impact of the action when added
to other past, present, and reasonably foreseeable future actions regardless of what agency (Federal or
non-Federal) or person undertakes such other actions.
Cumulative impacts may result from individually minor but collectively significant actions taking place
over a period of time 40 CFR Part 1508.
Consultation with the North Dakota Public Service Commission (NDPSC) personnel, and subsequent
evaluation of its online resources, provided a systematic source of information that was useful for evaluating cumulative impacts. Although the NDPSC does
not maintain a centralized repository for energy infrastructure development projects, it provides a summary of siting applications, which offers one metric of
energy project development (excluding gathering
lines), particularly over time (NDPSC, 2012a). The
siting application summary (NDPSC, 2012b) contains
records starting in 1996. The number of statewide siting applications increases markedly starting in 2007,
coinciding with development of the Bakken Formation
oil field. Prior to that, only three to four applications
would typically be submitted on an annual basis
(NDPSC, 2012a).
Past actions in the vicinity of the Proposed Action
include oil and gas development and associated infrastructure, utility installation, and agriculture. These
past activities most likely have had effects on soils,

254a
water resources, vegetation, wildlife, land use, visual
resources, paleontological resources, and cultural resources. The DAPL Project route was sited to minimize green-space impacts by co-locating with existing
utility corridors over much of its length. As a result,
the flowage easement crossing, as designed, would be
co-located with a Oneok/TransCanada natural gas
pipeline and the Lake Oahe HDD would be co-located
with a natural gas pipeline and a 345 kV power line.
At both of these locations, the predominant land use
is agriculture. In addition to ongoing agricultural
practices and the expansion of regional oil and gas development activities, cumulative impacts associated
with the DAPL Project as whole were also considered.
If the Corps approval of the Proposed Action
markedly changed the rate at which the oil and gas
industry grows, or facilitated a rapid increase in production, then the changes in the industry’s rate of
growth and the associated environmental consequences could be considered along with the effects of
the Proposed Action as a cumulative impact and
would need to be quantified in this EA. However, according to Bruce Hicks, North Dakota Industrial Commission’s Department of Mineral Resources Oil and
Gas Division, the critical factors limiting the rate at
which the industry grows within North Dakota is the
availability of drill rigs and hydrofracing crews (U.S.
Army Corps of Engineers, 2011). Because the availability of rigs and crews is the critical factor affecting
the growth of the industry in the region, approval of
the Proposed Action is not anticipated to have a cumulative impact of increasing production or reliance
upon nonrenewable resources.

255a
Cumulative impacts were evaluated for the following resources and were determined to be negligible
or nonexistent based on past and foreseeable future
actions in the Project Area and the minor and temporary contribution of the Proposed Action to effects on
these resources:


Geology and Soils

Section 4.1



Water and Aquatic Life
Resources

Section 4.2

Vegetation, Agriculture,
and Range Resources

Section 4.3

Threatened, Endangered,
Candidate, and Proposed
Species

Section 4.4



Wildlife Resources

Section 4.5



Land Use and Recreation

Section 4.6



Cultural and Historic
Resources and Native
American Consultations

Section 4.7

Social and Economic
Conditions

Section 4.8



Transportation and Traffic

Section 4.9



Environmental Justice

Section 4.10



Air Quality and Noise

Section 4.11






4.1 Geology and Soils
The continued development of oil and gas exploration and production in the region at its current level
increases the potential for adverse cumulative im-

256a
pacts to geologic and soil resources. Cumulative impacts could occur when future utilities seek to be colocated within existing corridors or alternatively
when greenfield development occurs in landslide
prone or highly erodible areas. However, with the
proper implementation of reclamation and restoration
BMPs these impacts can be reduced.
Another potential cumulative impact to geologic
resources is the continued development of the mineral
resource, which could lead to its depletion. The mineral resource is understood to be finite. The effect
would be primarily economic to the various entities
with financial interests; secondarily there could be indirect impacts, potentially beneficial, associated with
technological advances within the industry that would
facilitate the recovery of mineral resources that cannot be recovered currently.
Agricultural practices throughout the region as
well as the thousands of miles of gathering pipelines
that may be built in the region could contribute to cumulative impacts on soils. Agricultural practices can
result in increased erosion and runoff when soils are
exposed for long periods such as when fields are fallow
or prior to seeding. Impacts to soils as a result of pipeline installation are temporary and typically associated with excavation activities which may result in
compaction and erosion when soils are exposed prior
to revegetation. Impacts to soils as a result of the Proposed Action would be mitigated through the implementation of BMPs which may include topsoil segregation, erosion controls, and decompaction. Furthermore, adherence to NPDES stormwater permits
would require adequate design, grading, and use of
BMPs to ensure that erosion and sediment control

257a
measures are properly utilized. Generally, because of
the utilization of top soil segregation and erosion controls, as well as the minimal workspace requirements
and minimum duration of exposed excavations during
construction of the Proposed Action, the cumulative
impacts on soils when combined with agricultural
practices and other pipeline installations would not be
significant.
No impacts on mineral extraction, mining, or
other deeper geologic resources would be cumulative,
since these uses of geologic resources (i.e., mining) do
not occur in the Project Area. Clearing and grading
associated with construction of the Proposed Action
and other projects in the vicinity could increase soil
erosion in the area. The introduction of contaminants
to groundwater due to accidental spills of construction-related chemicals, fuels, or hydraulic fluid could
have an adverse effect on groundwater quality. Because the direct effects would be localized and limited
primarily to the period of construction, cumulative impacts on geology, soils, and sediments would only occur if other projects were constructed at the same time
and place as the Proposed Action facilities.
There are smaller diameter, unregulated, crude
oil gathering lines that have leaked and affected soil
and ground/surface water. These pre-existing lines
have limited cathodic protection (external corrosion
protection) and as such they are not routinely monitored. The Proposed Action is the construction of a
regulated large diameter crude oil transmission line
and, as discussed throughout this document, is highly
regulated and monitored. The cumulative impacts of
this pipeline are minimized by the regulatory criteria,

258a
the monitoring, protections and response implemented by Dakota Access during the operation of the
pipeline.
4.2 Water and Aquatic Life Resources
Cumulative impacts on water resources (i.e.,
groundwater, surface waters, wetlands) associated
with the Proposed Action would be avoided, temporary, and/or minor, as all surface waterbodies would
be crossed via trenchless methods (i.e., HDD or bore),
no permanent fill or loss of wetlands are anticipated,
and potential spill-related impacts would be avoided
or greatly reduced by regulating fuel storage and refueling activities and by requiring immediate cleanup
should a spill or leak occur. Spill response and remediation measures associated with construction activities are discussed in detail in Dakota Access’ SWPP,
SPCC and ECP.
Recently completed construction or current construction within the vicinity of the Project Area could
extend the period of exposure of soils as a result of incomplete revegetation. These exposed soils may increase the potential for soil erosion or sediment
transport via overland flow during precipitation
events resulting in sedimentation in surface waterbodies. These increased loads could have the potential
to temporarily impact water quality, wetlands, and
sensitive fish eggs, fish fry, and invertebrates inhabiting waterbodies in the Project Area watersheds.
However, all projects, including the DAPL Project as
a whole, are subject to regulation by the USACE under the CWA. By installing the pipeline using the
HDD technique at the Missouri River and Lake Oahe
crossings, as well as other crossings associated with

259a
the DAPL Project as a whole, and implementing the
erosion and sediment control measures specified in
the ECP (Appendix G) and SWPPP (Appendix A),
the potential for increased sediment loading from terrestrial sources is minimized and the cumulative effect is considered to be negligible.
In addition to water quality impacts associated
with sediment loading from erosion and run-off, an inadvertent release of non-hazardous drilling mud could
occur during HDD activities, including those at Lake
Oahe and the Missouri River. The likelihood of inadvertent releases of drilling mud is greatly minimized
through thorough geotechnical analysis and detailed
design/mitigation plans at each crossing and careful
monitoring of drilling mud returns and pressure during HDD activities. If an inadvertent release were to
occur within a waterbody during HDD activities, such
as those at the Missouri River and Lake Oahe crossings, impacts on water quality and aquatic resources
would be minor. Drilling mud is nonhazardous and
impacts on water quality and aquatic resources would
be akin to those associated with sediment loading.
Due to the quantity of drilling mud used in relation to
the size of waterbodies typically crossed via HDD, impacts would be temporary and mitigated through implementation of an HDD Contingency Plan (Appendix B) Impacts on all waterbodies crossed by the
DAPL Project in its entirety would be minimized or
avoided via HDD and/or use of erosion and sediment
control measures; thereby minimizing the potential
for cumulative impacts on water and aquatic life resources.

260a
Impacts on water and aquatic life resources associated with sediment loading, including potential inadvertent releases of non-hazardous drilling mud, as
a result of the Proposed Action and the DAPL Project
as a whole would be temporary and short-term.
Therefore, these impacts, when evaluated with other
oil and gas development and infrastructure projects in
the region and agricultural practices, would result in
minor cumulative impacts on water and aquatic life
resources.
Spills or leaks of hazardous liquids during construction and operation of the Proposed Action, or
other projects in the vicinity, have the potential to result in long-term impacts on surface and groundwater
resources as well as aquatic life resources. However,
construction impacts would be mitigated by the
proper design and implementation of BMPs would ensure avoidance, minimization, and/or mitigation of potential impacts on water resources and aquatic resources, as required by the various regulating agencies that have jurisdiction over the DAPL Project. Operational risks are being mitigated by DAPL Project
design to meet or exceed the applicable federal regulations as detailed in Sec 3.11- Reliability and Safety.
In the unlikely event of an unanticipated release during operations of the pipeline, the effects would be remediated following the cleanup procedures and remediation activities described in Section 3.2.2.2.Therefore, the potential cumulative impacts from the Proposed Action on water resources and aquatic resources resulting from spills would be minor.
In addition, while construction and operation of
the Proposed Action along with the other potential

261a
projects and activities could result in cumulative impacts on existing wetlands in the Project Area watersheds, regulation of activities under the CWA by the
Corps requires permitting and mitigation for wetland
impacts so that there would be no net loss in the regional wetland resources. Therefore, cumulative impacts on wetland resources in the Project Area would
be minimal.
4.3 Vegetation, Agriculture, and Range
Resources
As described within Section 3.3.1, all vegetation
disturbed by construction within the flowage easements and the Project Area/Connected Actions of the
federal lands would be restored to pre-construction
conditions following the completion of construction activities, with the exception of one PEO wetland located within the permanent ROW on the flowage easements that would be converted to shrub-scrub or herbaceous wetlands.
No forest fragmentation would occur as a result of
construction and operation of the Proposed Action. No
interior (core) forest habitat is crossed by the Proposed Action, and the only wooded area that would be
permanently impacted by the Proposed Action include
one PEO wetland (0.05 acre) located within the permanent ROW on the flowage easements between
HDD boxes. However, much of the forest and PEO
wetlands in the vicinity of the Project Area have already been fragmented by agricultural activities,
roads, and other commercial or industrial developments. Further, construction of the Proposed Action
facilities would not result in the permanent loss of

262a
wetland features. Although trees within a 30-foot corridor centered on the pipeline that could compromise
the integrity of the pipeline coating would be selectively removed throughout the operational life of the
Proposed Action, this portion of the PEO wetland impacted by the Proposed Action would be converted to
PEM or PSS and allowed to revegetate with scrubshrub or herbaceous species. Therefore, further fragmentation of wetlands or creation of new forest-edge
habitat as a result of the Proposed Action would be
negligible.
Generally, the greatest impact to the native vegetative community is associated with past and current
agricultural practices. Pipeline projects impact a relatively small area in relation to the total landscape,
as these impacts are typically short in duration and
temporary in nature. Examples of impacts to vegetation, agriculture, and range resources could include
introduction of non-native plants and/or noxious
weeds, habitat fragmentation, altered vegetative
structure, reduced population sizes below critical
threshold levels, sedimentation or degradation of surface waters, erosion, and siltation. However, the implementation of BMPs outlined in the SWPPP (Appendix A) and ECP (Appendix G) and reclamation
of disturbed areas with native vegetation would reduce the chances of adverse individual or cumulative
impacts. In addition, while other project pipeline corridors may require clearing of forested areas and potential habitat fragmentation, temporary workspace
areas would be revegetated upon completion of construction. Further, these projects would be located in
a region of North Dakota that is dominated by open or
agricultural land, thereby minimizing the potential

263a
for permanent habitat fragmentation. Regionally,
there have been releases of hazardous material from
unregulated, smaller diameter gathering pipelines
that have had an adverse effect on vegetation, agriculture and range resources. In the unlikely event of an
unanticipated release during operations of the pipeline, the effects would be remediated following the
cleanup procedures and remediation activities described in Section 3.11. Therefore, the potential cumulative impacts from the Proposed Action on vegetation, agriculture and range resources would be minor.
4.4 Threatened, Endangered, Candidate, and
Proposed Species
As required by the ESA, the status of each species
listed as threatened or endangered is evaluated every
5 years by USFWS to assess its recovery and determine if a change in its listing status is warranted.
Where available, these documents were utilized to
identify the potential for ongoing regional oil and gas
development to significantly threaten the species
listed in the Project area. For species in which a 5Year Review was not available, Dakota Access utilized
the species Recovery Plan and/or Final Rule to evaluate potential threats on the species resulting from regional oil and gas development.
Species for which no suitable habitat is present in
the Project Area or Connected Action Area, such as
the black-footed ferret, Dakota skipper, and gray wolf,
were not evaluated, as the Proposed Action would not
contribute to cumulative impacts on these species.
Further, the northern long-eared bat was not evaluated since the species is not provided federal protec-

264a
tion in the Project Area or Connected Action Area under the Interim 4(d) Rule; this area is well outside of
the published White-Nose Syndrome Buffer Zone.
Habitat loss and modification are the primary
threats to the continued existence of interior least
tern, whooping crane, piping plover, rufa red knot,
and pallid sturgeon. The potential cumulative impacts from oil and gas activities in the region on the
current listing or potential elevated future listing of
these five species are discussed in detail below.
4.4.1 Interior Least Tern
The USFWS does not address oil and gas activities, including potential spills, as a potential or ongoing threat to the interior least tern in either the 5-year
review, or the recovery plan (USFWS, 2013e). The
primary threat to interior least terns and the cause of
the initial population declines resulted from river
channelization, impoundments, and changes in river
flow resulting in loss of suitable habitat throughout
their range.
4.4.2 Whooping Crane
According to the USFWS (2007) International Recovery Plan for the Whooping Crane (Grus Americana) the USFWS considers oil and gas activities as a
secondary threat, especially within the wintering
range in the southeast United States. Potential
threats on whooping cranes along the Central Flyway
migratory route in the region of the Proposed Action
include loss of stopover habitat from conversion of natural wetlands (e.g., prairie potholes) to croplands, as
well as development activities associated with natural
gas and oil production. The Proposed Action would

265a
not result in any loss of stopover habitat for the
whooping crane; therefore, it would not contribute to
cumulative impacts on the species.
4.4.3 Piping Plover
The USFWS (2009b) 5-Year Review for the piping
plover does specifically address threats from oil and
gas activities in North Dakota. However, impacts
from oil and gas activities that are threatening piping
plover are associated with the development of oil and
gas exploration wells located near the alkali lakes
habitat, which accounts for 83% of the U.S. Northern
Great Plains piping plover breeding habitat. The Proposed Action is not located within the vicinity of any
of these areas and would therefore not contribute to
cumulative impacts on piping plovers.
4.4.4 Rufa Red Knot
According to the Final Rule (79 FR 73706) for the
rufa red knot (USFWS, 2014b), the USFWS considers
oil and gas activities as a secondary threat, especially
near the coast (primarily in southeast Texas in the
wintering range). Potential threats to these species
along the Central Flyway migratory route in the region of the Proposed Action include loss of stopover
habitat from conversion of natural wetlands (e.g.,
prairie potholes) to croplands and development (including oil and gas exploration). The Proposed Action
would not result in any loss of stopover habitat for the
rufa red knot; therefore, it would not contribute to cumulative impacts on the species.

266a
4.4.5 Pallid Sturgeon
The USFWS (2014c) Revised Recovery Plan for
the Pallid Sturgeon (Scaphirhynchus albus) specifically addresses the potential effects of energy development such as oil and gas pipelines on pallid sturgeon.
It states that while a rupture of a pipeline within sturgeon habitat could pose a threat, the impacts would be
localized and the magnitude of the impact would be
dependent on the quantity and timing of the material
released. It is highly unlikely that a cumulative impact resulting from a spill or leak would occur, as it
would require multiple pipelines in the same general
area to experience anomalous events simultaneously.
Even if this were to occur, these impacts would be localized and temporary and would likely not result in
a significant impact on the recovery of pallid sturgeon,
as a whole, as it is found in other waterbodies and in
other regions throughout its range (USFWS, 2014c).
4.4.6 Conclusion
The collocation of utilities in established corridors; the proper implementation of erosion control devices; compliance with permits issued for regulated
activities; and rapid, thorough, environmentally appropriate reclamation efforts, and design and operation of projects to meet or exceed regulatory requirements are industry standards that, when applied consistently, on a regional basis, would minimize cumulative impacts now and in the future. Based on the
pipeline route, and the utilization of HDDs, the Proposed Action is not likely to have any permanent adverse impacts to habitat utilized by listed species, including aquatic species as discussed in Section 3.4.

267a
Therefore, the Proposed Action will not have a cumulative effect on listed species.
4.5 Wildlife Resources
Regionally, the greatest impacts to wildlife (past,
present or future) can be associated with agricultural
development. Agricultural land use replaced the existing natural diversity with the monoculture row
crops. The practice also introduced noxious weeds,
soil pests, and other exotics, which all had significant
cumulative impacts on regional wildlife. Relative to
the habitat and land use impacts associated with past
agricultural activities, the Proposed Action impacts,
as well as those associated with the oil and gas industry on a regional basis and Connected Actions would
be nominal. This is due to the short duration and
small scale of the Proposed Action relative to the regional landscape and the large scale of agricultural activities in the region.
The Proposed Action would not permanently alter
the character of the majority of available habitats as
most impacts are expected to be temporary (see Section 4.3 for a discussion of vegetation impacts associated with the Proposed Action and the DAPL Project
as a whole). Possible temporary, short-term impacts
on wildlife include the temporary displacement of
some mobile individuals to similar, adjacent habitats
during construction activities. Further, while other
oil and gas projects’ pipeline corridors may require
clearing of forested habitat (if present), once construction is complete, temporary workspace areas would be
able to revegetate. In addition, the permanent easement would be allowed to revegetate with herbaceous
species, which provides habitat to a variety of species

268a
that utilize herbaceous and edge habitats. When analyzed on a regional basis, these impacts do not
change significantly in magnitude when compared to
the current and historic impacts previously imposed
upon the regional wildlife by agricultural development. Therefore, further habitat fragmentation as a
result of the Proposed Action or other oil and gas developments in the region would be negligible and is
not anticipated to significantly contribute to cumulative effects on wildlife.
4.6 Land Use and Recreation
Regional oil and gas development and related activities could cause an impact to land use and recreation in the Project Area. However, increased impacts
are not anticipated based on the design of the DAPL
Project and BMPs that would be implemented to restore the impacted area. Temporary impacts to land
use would potentially occur during the period of active
construction but areas would revert to preconstruction use following restoration. Because construction
would be short term and land use conversion would be
minimal, the cumulative impact on land use as a result of the Proposed Action would be temporary and
minor.
The flowage easement crossing would be located
in an area with a greater density of prior development,
while the Lake Oahe crossing would be located in an
area with relatively little surface development. That
said, since the Proposed Action has been co-located
with existing pipelines the additional impact incurred
by the Proposed Action would be negligible if restored
as proposed.

269a
The potential cumulative impacts from the Proposed Action on land use and recreation resources resulting from spills would be minor. Although there
have been releases of hazardous material from small
diameter, unregulated gathering pipelines that have
had an adverse effect on land use and recreation resources, it is highly unlikely for an unanticipated release to occur within the EA review area during operations of the DAPL pipeline, which is subject to DOT
construction regulations and pipeline leak detection
monitoring guidelines.
In the event of an unanticipated release during
operations of the pipeline, the effects would be remediated following the cleanup procedures and remediation activities described in Section 3.11. Cumulatively, the impacts associated with land use and recreation resources would be minimal.
4.7 Cultural and Historic Resources and
Native American Consultations
Dakota Access would implement measures to
avoid or mitigate adverse effects to cultural resources
that have been determined, in consultation with the
federal land managing agencies, NDSHPO, and Native American tribes, to be eligible for listing in the
NRHP. At the one potential NRHP-eligible site
mapped adjacent to the workspace within the EA review area, Dakota Access would install exclusionary
fencing along the outer workspace boundary during
construction to prevent inadvertent trespassing by
construction staff or vehicles. This area would be classified generically as sensitive environmental areas,
and would be closely monitored by El staff. If an un-

270a
anticipated discovery occurs during construction, Dakota Access would follow the measures described in its
UDP (Appendix F).
Although the possibility of an unanticipated discovery is low based on the negative findings of the
field survey efforts in the Project Area, the measures
outlined in the UDP includes a thorough notification
protocol which would ensure that the necessary cultural resources specialists and agency personnel are
involved to appropriately address the nature and significance and of the find. The Proposed Action is not
anticipated to impact cultural resources; therefore,
cumulative impacts associated with the Proposed Action would not occur.
4.8 Social and Economic Conditions
Construction of the overall DAPL Project would
contribute more than $1 billion in direct spending just
for materials - the majority of which would be purchased in the U.S. Fifty-seven percent of the pipe; the
majority of the valves, fittings, valve actuators; and
the majority of the remaining materials would be
manufactured in the U.S., creating significant opportunities for regional and national manufacturing. In
addition to manufactured goods and services, the
DAPL Project would provide $195 million in easement
payments to the landowners whose property is crossed
by the DAPL Project.
The Proposed Action would have a relatively short
construction window with a small number of construction workers dedicated to the crossings. It is possible
that nearby towns could experience short-term temporary increases to the local economy through induced
spending from construction employees working on the

271a
Proposed Action. No residential homes or farms
would be relocated as a result of the Proposed Action.
Additionally, no demographic changes in the Census
tracts affected within the Project Area counties are
anticipated because no permanent employees would
be created as a result of the Proposed Action. Therefore, the only indirect socioeconomic impacts from the
Proposed Action are likely to be related to the temporary influx of workers, such as increased demand for
short term housing and the secondary economic benefits discussed in Section 4.10.
The regional population has dramatically increased over the last seven year period due to oil and
gas development; concentrated in the Project Area.
The majority of the current available and transient labor force in the region is involved in the exploration
and production of the resources, or construction of related infrastructure, both of which are labor intensive
efforts though temporary in nature. Well rigs are mobile and the number of available drilling leases is limited as well as the mineral resource itself. For these
reasons the labor pool effects associated with the exploration and production of the resource are considered to be a temporary impact.
Regarding cumulative impacts to socioeconomic
resources, the Proposed Action would provide a benefit to local merchants and vendors as well as providing
potential temporary employment opportunities to the
local workforce. As such, no substantive negative direct, indirect, or cumulative impacts to socioeconomic
resources would result from the Proposed Action.

272a
4.9 Transportation and Traffic
As discussed in Section 3.3, roads throughout
North Dakota have received a sharp increase in truck
traffic due to increased oil and gas activity. The
greater amount of traffic has led to a decline in the
transportation infrastructure and a decrease in road
safety throughout the state. Additional oil and gas
development and production may continue to contribute to cumulative effects on roads in the vicinity of the
Project Area requiring a higher frequency of road
maintenance and repair on public roadways.
Cumulative impacts from construction of the Proposed Action would temporarily increase traffic in the
immediate vicinity of the Project Area. This increase
in traffic would be temporary and is not expected to
result in significant impacts to North Dakota’s transportation infrastructure. Road improvements such as
grading would be made as necessary and any impacts
resulting from Dakota Access’s use would be repaired
in accordance with applicable local permits. Traffic
interruptions would be minimized to the extent practical and would result in insignificant, temporary cumulative impacts on regional transportation resources as it would be localized to the immediate vicinity of the Project Area and major delivery routes.
During operations of the Proposed Action, there is
expected to be a positive effect on traffic resources in
North Dakota. Once in operation, Dakota Access
plans to transport 450,000 bpd of crude oil via pipeline
which would significantly reduce the demand for the
commercial trucking of crude oil on county, state and
interstate highways. It is anticipated that the cumulative effects of the DAPL Project and other future

273a
pipeline projects would be beneficial to the transportation infrastructure in North Dakota by decreasing
oil hauled by truck traffic and therefore reducing wear
and tear on roads and highways.
4.10 Environmental Justice
The Proposed Action and Connected Actions and
associated cumulative effects where practicable have
been co-located with existing utilities and across
USACE easements and fee owned property. The
DAPL Project avoids crossing Tribal reservation lands
across its entire length. There are no reasonable past,
present or reasonably foreseeable actions that together with these Proposed Actions will have a cumulative significant adverse effect on the environment or
a disproportionate impact on low income or minority
populations, including the Standing Rock Sioux or
other tribes in or around the Project.
Additionally, the holders of the mineral rights and
landowners in the region, including particular tribes
and tribal members, have witnessed a recent windfall
from oil and gas development. Oil and gas development generally occurs on private land with permission of the landowner. Given this ascent, there is no
disproportionate impact to low income, minority or
tribal populations benefited by the Environmental
Justice policy. The DAPL Project was routed to avoid
sensitive lands and populations, including tribal
lands, and areas and does not have a disproportionate
impact on any low income, minority or tribal population benefited by Environmental Justice policy, as discussed in section 3.9, above. For these reasons, the
Proposed Action and its associated cumulative actions

274a
and effects have no significant cumulative impact to
low-income, minority or tribal populations.
4.11 Air Quality and Noise
No operation emissions are associated with the
Proposed Action, as no major aboveground facilities
would be constructed in the Project Area. Potential
cumulative impacts on air quality would result from
concurrent construction of the Project and other development projects in the region. Cumulative impacts
on air quality associated with construction of the Proposed Action would be temporary and short-term;
therefore, even if construction of other projects were
concurrent with the Proposed Action, cumulative construction-related air quality impacts would be negligible.
Construction of the Proposed Action would affect
ambient noise levels at some nearby residences during
active construction. The noise impact of the pipeline
construction would primarily originate from the HDD
equipment and would be highly localized to the HDD
entry and exit sites. However, because the duration
of construction would be short-term, the contribution
of the Proposed Action to cumulative impacts on noise
would be negligible.
5.0 IRREVERSIBLE AND IRRETRIEVABLE
COMMITMENT OF RESOURCES
As required by NEPA, irreversible and irretrievable commitments of resources involved in the Proposed Action should it be implemented, must be addressed in the EA. Irreversible commitments of resources result in a loss of future options. Commit-

275a
ments of resources which are irreversible are those resources which are destroyed or consumed and are neither renewable nor recoverable for use by future generations. Examples of irreversible commitments of resources include consumption of petroleum-based fuels
or minerals and destruction cultural resources. Irretrievable commitments of resources result in a loss of
productivity. Commitments of resources which are irretrievable occur when the productive use or value of
a renewable resource is lost for a period of time. For
example, timber or soil productivity may be lost for a
period of time resulting in an irretrievable loss of production, but the action is reversible.
Construction activities associated with the Proposed Action would result in the consumption of materials such as aluminum, steel, other metals, wood,
gravel, sand, plastics, and various forms of petroleumbased fuels, the use of which would constitute an irreversible commitment of resources. Most of these materials are nonrenewable and would be irreversibly
committed if not recycled or reused during maintenance or at the end of the life of the Proposed Action.
Areas of vegetation removal or conversion along
the permanent right-of-way, such as areas where
trees or shrubs were established prior to construction
but would be maintained in an herbaceous state during operation, would represent an irretrievable commitment of resources. Additionally, erosion, compaction, or an overall loss of soil productivity could occur
if these impacts are not properly mitigated. Use of
water for dust control and hydrostatic testing would
also be irretrievable. Other irretrievable commitments of resources could occur if areas temporarily
impacted by construction were not restored.

276a
Overall, there would be a very minimal commitment of irreversible and/or irretrievable resources as
a result of the Proposed Action since the majority of
impacts would be temporary and would occur within
agricultural land. Additionally, irreversible and/or irretrievable commitments of resources would be minimized through the mitigation measures for the affected environments identified throughout this EA.
6.0 MITIGATION SUMMARY
Dakota Access has selected the Proposed Action to
minimize impacts to natural/cultural resources as
summarized in Table 8-2. System and routing alternatives were considered for the entire DAPL Project
in order to meet purpose and need, design criteria and
construction requirements, while minimizing potential impacts to the existing environment and socioeconomic setting. Impacts to the environment would be
temporary and not significant as a result of avoiding,
minimizing and mitigation any potential impacts.
The majority of potential impacts would be mitigated
by HDD technology which would bore beneath resources and allow pipeline construction to proceed
with the least amount of impacts possible. Dakota Access has would also implement general mitigation
measures such as those described in the ECP (Appendix G). The ECP has been developed based on decades of experience implementing BMPs during construction in accordance with generally accepted industry practices for linear infrastructure and crosscounty pipelines. It is intended to meet or exceed federal, state, and local environmental protection and
erosion control requirements, specifications and practices. The ECP describes current construction tech-

277a
niques and mitigation measures that would be employed to minimize the effects of construction on environmental resources. Some of the basic procedures
identified in the ECP are listed below:
 BMPs designed to minimize the effects of construction on environmental resources;
 Temporary and permanent erosion and sediment control measures;
 Soil handling procedures designed to preserve
the integrity of the soil (e.g., topsoil segregation, decompaction, etc.);
 Wetland and waterbody crossing and stabilization procedures
 Wildlife and livestock mitigation measures
 Restoration and revegetation procedures
 Refueling and waste management procedures
 Weed management procedures
 Winter construction practices
 Stormwater management procedures
Dakota Access incorporates environmental requirements into all construction specifications and the
ECP would be included in contract documents and enforced as such throughout the proposed action. The
construction contractor(s) must comply with all applicable permits and plans during all phases of construction. In addition to the ECP, the Proposed Action
would be constructed in accordance to the measures
detailed in Dakota Access’ SWPPP, SPCC, HD Construction Plan, HDD Contingency Plan, and UDP.

278a
To further ensure compliance with permits, plans,
obligations, and commitments, Dakota Access would
have full-time Els to monitor construction and compliance. The Els would be responsible for observing construction activities to verify that work is carried out
in accordance with environmental permit requirements and ensure that designed avoidance and mitigation measures are properly executed during construction.
No additional mitigation measures were identified for geology and soils; water resources; vegetation,
agriculture, and range resources; wildlife resources;
aquatic resources; land use and recreation; cultural
and historic resources, social and economic conditions;
environmental justice; or air and noise. General mitigation measures, as described in sections 3.1 through
3.7, or avoidance associated with the trenchless installation (i.e., HDD or bore) of the proposed pipeline
are expected to mitigate adverse impacts to resources.
7.0 FEDERAL, TRIBAL, STATE, AND LOCAL
AGENCY CONSULTATION AND
COORDINATION
The following is a listing of all individuals and
agencies consulted during preparation of the EA regardless of whether a response was received. On
March 30, 2015, Dakota Access sent letters to interested parties (indicated by the Corps) requesting comments on the federal actions associated with crossing
Corps flowage easements and Corps owned and managed federal land. A sample request for comment letter sent to individuals and agencies consulted, along
with the mailing list and comments received, is in-

279a
cluded in Appendix J. Appendix K contains the Notice of Availability of the Draft EA for comment. Table 7-1 includes a summary of agency personnel consulted.

280a

281a

282a

283a

284a

285a

286a

287a
8.0 STATUS OF ENVIRONMENTAL
COMPLIANCE
Table 8-1 is a listing of environmental protection
statutes and other environmental requirements, as
well as the status of Applicant compliance with these
statutes and requirements, regarding this EA.

288a

289a

290a

291a
Table 8-2 provides a summary of the environmental mitigation measures discussed throughout this EA
that Dakota Access has committed to as part of the
Proposed Action design to avoid or minimize potential
impacts on environmental and human resources
throughout construction and operation activities.

292a

293a

294a

295a

296a

297a

298a

299a

300a

301a

302a

303a

304a

305a

306a

307a

308a

309a

310a

311a
9.0 LIST OF PREPARERS AND REVIEWERS
Dakota Access, in cooperation with the USACE
Preparers, reviewers, consultants and Federal officials include the following:
Table 9-1
List of Preparers and Reviewers
Name

Title/Office

Agency

Omaha District
Planning Staff

Environmental Resource Specialist

Corps of Engineers,
Omaha District

Omaha District
Operations
Staff

Natural Resource
Specialist, Environmental Stewardship

Corps of Engineers,
Omaha District

Garrison Project Archaeologist

Garrison Dam / Lake
Sakakawea Project

Corps of Engineers,
Omaha District

Bismarck ReguOperations Division
latory Chief

Corps of Engineers,
Omaha District

Oahe Project
Archaeologist

Oahe Dam and Lake
Project

Corps of Engineers,
Omaha District

Omaha District
Operations
Branch Chief

Operations Division

Corps of Engineers,
Omaha District

Omaha District
Project Engineer

Flood Risk and FloodCorps of Engineers,
plain Management
Omaha District
Section

Garrison Project Staff

Garrison Dam

Corps of Engineers,
Omaha District

Omaha District
Planning Chief

Planning Branch

Corps of Engineers,
Omaha District

Garrison OperaGarrison Dam / Lake
tions Project
Sakakawea Project
Manager

Corps of Engineers,
Omaha District

312a
Table 9-1
List of Preparers and Reviewers
Name

Title/Office

Agency

Omaha District
Real Estate
Branch Chief

Real Estate Division

Corps of Engineers,
Omaha District

Omaha District
Cultural Resources

Planning Branch

Corps of Engineers,
Omaha District

Oahe Project
Staff

Oahe Dam

Corps of Engineers,
Omaha District

Oahe Project
Operation Project Manager

Operations Division

Corps of Engineers,
Omaha District

Omaha District
Geotechnical
Engineers

Geotechnical Branch

Corps of Engineers,
Omaha District

Omaha District
Attorney

Office of Counsel

Corps of Engineers,
Omaha District

Omaha District
Regulatory
Staff

Operations Division

Corps of Engineers,
Omaha District

Monica Howard

Director EnvironmenDakota Access, LLC
tal Sciences

Jonathan Fredland

Environmental Specialist

Perennial Environmental Services,
LLC

Ashley Thompson

Environmental Specialist

Perennial Environmental Services,
LLC

Dennis Woods

Managing Partner

Perennial Environmental Services,
LLC

313a
10.0

ACRONYMS, INITIALS, AND
ABBREVIATIONS

ANSI

American National Standards Institute

API

American Petroleum Institute

ATWS

Additional Temporary Workspace

BMP

Best Management Practice

bpd

barrels per day

BTIS

Buford-Trenton Irrigation System

CAA

Clean Air Act

CERCLA

Comprehensive
Environmental
Response Compensation and Liability Act

CEO

Council on Environmental Quality

CFR

Code of Federal Regulations

Corps

U.S. Army Corps of Engineers

Company

Energy Transfer Company

CWA

Clean Water Act

DA

Department of the Army

dB

Decibels

Dakota Access

Dakota Access, LLC

DAPL Project

Dakota Access Pipeline

Project DOT

Department of Transportation

EA

Environmental Assessment

ECP

Environmental Construction Plan

314a
ECD

Erosion Control Device

El

Environmental Inspector

EO

Executive Order

EPA

U.S. Environmental Protection
Agency

ESA

Endangered Species Act

FEMA

Federal Emergency Management
Agency

FERC

Federal Energy Regulatory Commission

FIRM

Flood Insurance rate Maps

FRP

Facility Response Plan

FRFM

Flood Risk and Floodplain Management Section

g

gravitational acceleration

GIS

Geographic Information System

GRP

Geographical Response Plan

HDD

Horizontal Directional Drilling

MP

milepost

MSL

Mean Sea Level

NDPSC

North Dakota Public Service Commission

NDPDES

North Dakota Pollutant
charge Elimination System

NDSHPO

North Dakota State
Preservation Office

Dis-

Historic

315a
NEPA

National Environmental Preservation Act

NFIP

National Flood Insurance Program

NHPA

National
Act

NLCD

National Land Cover Dataset

NPDES

National Pollutant
Elimination System

NPS

U.S. National Park Service

NRCS

Natural Resources Conservation
Service

NRHP

National
Places

NRI

Nationwide Rivers Inventory

NSF

National Science Foundation

NWI

National Wetland Inventory

NWP

Nationwide Permit

OSHA

Occupational Safety and Health
Administration

OSRO

Oil Spill Response Organization

PA

Programmatic Agreement

PEM

Palustrine Emergent

PEO

Palustrine Forested

PHMSA

Pipeline and Hazardous Materials
Safety Administration

Historic

Register

Preservation

Discharge

of

Historic

316a
PREP

National Preparedness for Response Exercise Program

Project Area

Areas that are potentially impacted by construction and/or operation of the Proposed Action

Proposed Action

Crossing of federal flowage easements near the upper end of Lake
Sakakawea north of the Missouri
River in Williams County, North
Dakota and federally owned lands
at Lake Oahe in Morton and Emmons counties, North Dakota

RCRA

Resource Conservation and Recovery Ac

RHA

Rivers and Harbors Act

ROW

Right-of-Way

SPCC

Spill Prevention, Control and
Countermeasure Plan

SWPPP

Stormwater Pollution Prevention
Plan

THPO

Tribal Historic Preservation Office

UDP

Unanticipated Discoveries Plan
Cultural Resources, Human Remains, Paleontological Resources
and Contaminated Media

USACE

U.S. Army Corps of Engineers

USDA

U.S. Department of Agriculture

USFWS

U.S. Fish and Wildlife Service

317a
USGS

U.S. Geological Survey

WMA

Wildlife Management Area

318a
11.0 REFERENCES
Ackerman, D.J. 1980. Ground-Water Resources of
Morton County, North Dakota, North Dakota
Geological Survey Bulletin 7Z — Part III, 51
pp.
Armstrong, C.A. 1978. Ground-Water Resources of
Emmons County, North Dakota, North Dakota
Geological Survey Bulletin 66—Part III, 43 pp.
Armstrong, C.A. 1969. Geology and Ground Water
Resources, Williams County, North Dakota,
Part Ill—Hydrology, North Dakota Geological
Survey Bulletin 48, 82 pp.
Atwood, J.L., P.D. Jorgensen, R. M. Jurek, and T.D.
Manolis. 1977. California Least Tern Census
and Nesting Survey, 1977, Pages 44, California Department of Fish and Game.
Bachman, J. 2014. North Dakota’s Downside to the
Oil Boom: Traffic Deaths. Businessweek.
Available at: http://www.businessweek.com/articles/2014-06-09/north-dakotas-downside-to-the-oil-boom-traffic-deaths.
Black-footed Ferret Recovery Implementation Team.
2011. Black-footed ferret. Available at
http://www.blackfootedferret.org/.
Brown, M.B., J.G. Jorgensen, and L.R. Dinan. 2013.
2013 Interior Least Tern and Piping Plover
Monitoring, Research, Management, and Outreach Report for the Lower Platte River, Nebraska. Joint report of the Tern and Plover
Conservation Partnership and the Nongame
Bird Program of the Nebraska Game and
Parks Commission. Lincoln, NE.

319a
Carlson, C.G. 1985. Geology of McKenzie County,
North Dakota. North Dakota Geological Survey Bulletin 80—Part I. 48 pp.
Charbeneau, R. J. 2003. Models for Design of FreeProduct Recovery Systems for Petroleum Hydrocarbon Liquids. American Petroleum Institute, Publication 4729. Washington, D.C. August 2003.
Charbeneau, R. J., R. T. Johns, L. W. Lake, and M.
McAdams. 2000. Free-product recovery of petroleum liquid hydrocarbon liquids. Ground
Water Monitoring and Remediation 20(3):147158.
Clayton, L 1980. Geologic Map of North Dakota:
USGS, Scale 1:500K.
Cochrane, J.F. and P. Delphey. 2002. Status Assessment and Conservation Guidelines; Dakota
Skipper Hesperia dacotae (Skinner) (Lepidoptera: Hesperiidae); Iowa, Minnesota, North
Dakota, South Dakota, Manitoba, Saskatchewan. p.80. U.S. Fish and Wildlife Service,
Twin Cities Field Office, Minnesota.
Council on Environmental Quality. 1997. Environmental Justice: Guidance under the National
Environmental Policy Act. Executive Office of
the President, Washington, D.C.
Cowardin, L. M., V. Carter, F.C. Golet, and E.D.
LaRoe. 1979. Classification of wetlands and
deepwater habitats of the United States. U.S.
Department of the Interior, Fish and Wildlife
Service, Office of Biological Services, Washington, D.C.

320a
Croft, M.G. 1985. Ground-Water Resources of
McKenzie County, North Dakota, North Dakota Geological Survey Bulletin 80—Part III,
57 p.
Dana, R. 1997. Characterization of three Dakota
skipper sites in Minnesota. p.17. Minnesota
Department of Natural Resources, Natural
Heritage and Nongame Research Program, St.
Paul.
Dana, R. 1991. Conservation management of the
prairie skippers Hesperia dacotae and Hesperia ottoe: Basic biology and threat of mortality during prescribed burning in spring. Station Bulletin. p.63. Minnesota Agricultural
Experiment Station, University of Minnesota,
St. Paul.
Dickens, D. 2011. Behavior of Oil Spills in Ice and
Implications for Arctic Spill Response. Arctic
Technology Conference, Houston, Texas, February 7-9, 2011.
Federal Emergency Management Agency. 1987.
Flood Insurance Rate Map (3803270100A),
Unincorporated Areas, Emmons County,
North Dakota.
Florip, E. 2014. Proposed Oil Terminal Would Be
Biggest In Volume. The Columbian. Available
at: http://www.columbian.com/news/2014/nov/24/proposed-oil-terminal-biggest-volume-vancouver/.
Freeze, R. A. and J. A. Cherry. 1979. Groundwater.
Prentice Hall, Inc. Englewood Cliffs, New Jersey., 604 pp.

321a
Freers, T.F. 1970. Geology and Ground Water Resources, Williams County, North Dakota, Part
1—Geology, North Dakota Geological Survey
Bulletin 48, 54 pp.
Fritelli, J. 2014. U.S. Rail Transportation of Crude
Oil: Background and Issues for Congress.
Congressional Research Service. Available at:
http://fas.org/sgp/crs/misc/R43390.pdf.
Fuller, T. 1989. Population dynamics of wolves in
North-Central Minnesota. Wildlife Monographs 105:3-41.
GeoEngineers. 2009. Vibration Monitoring Report,
Bridgewood 22-Inch-Diameter Class Change,
Merrilville, Indiana.
GeoEngineers. 2014. Preliminary Geology and Geologic Hazards Evaluation, ETC Dakota Access
Pipeline, North Dakota, South Dakota, Iowa,
Illinois, 28 p.
Gratto-Trevor, C.L., G. Beyersbergen, H.L. Dickson,
P. Erickson, R. MacFarlane, M. Raillard, and
T. Sadler. 2001. Prairie Canada Shorebird
Conservation Plan. Prairie Habitat Joint Venture, Canadian Wildlife Service. Edmonton,
Alberta.
Hillman, M.D., S.M. Karpanty, J.D. Fraser, and A.
Derose-Wilson. 2015. Effects of Aircraft and
Recreation on Colonial Waterbird Nesting Behavior. The Journal of Wildlife Management
79(7):1192-1198.
Hoberg, T. and C. Gause. 1992. Reptiles and amphibians of North Dakota. North Dakota Outdoors 55(1):7-19. Jamestown, ND: Northern

322a
Prairie Wildlife Research Center Available at:
http://www.npwrc.usgs.gov/resource/herps/amrepnd/index.htm.
Hoganson, J.S. 2006. Prehistoric Life of North Dakota, North Dakota Geological Survey. Available at: https://www.dmr.nd.gov/ndfossil/Poster/poster.asp.
Hoganson, J.S. and J. Campbell. 2002. Paleontology
of Theodore Roosevelt National Park, North
Dakota Geological Survey North Dakota Notes
No. 9. Available at:
https://www.dmr.nd.gov/ndgs/ndnotes/ndn9_h.
htm.
Horwath, B., and C. Owings. 2014. No Keystone XL
Means More Oil By Rail, Report Says. Oil
Patch Dispatch. Available at: http://oilpatchdispatch.areavoices.com/2014/01/31/nokeystone-xl-means-more-oil-by-rail-reportsays/.
Howe, M.A. 1989. Migration of radio-marked whooping cranes from the Aransas-Wood Buffalo
population: Patterns of habitat use, behavior,
and survival. U.S. Fish and Wildlife Service,
Technical Report 21.
Kerr, J. M., H. R. Melton, S. J. McMillen, R. I. Magaw, and G. Naughton. 1999. Polyaromatic
hydrocarbon content of crude oils around the
world. In: SPE/EPS Exploration and Production Environmental Conference, SPE 52724 as
cited in O’Reilly et al. 2001.
Krause, T.D. 2015. Flood Risk and Floodplain Management Section; Memorandum for CENWO-

323a
OD-E, Executive Order 11988 and NWDR
1110-2-5 Compliance Memo for the Proposed
Dakota Access Pipeline (DAPL) Project in Williams County, North Dakota, across Flowage
and Saturation Easements.
Kringstad, J. 2016. Energy Development and Transmission Committee. North Dakota Pipeline
Authority. Available at: https://ndpipelines.files.wordpress.com/2012/04/kringstadslides-edtfeb-3-2016.pdf.
Landt, M.J. and B. McCord. 2016. Class II/III Cultural Resources Inventory of the Crossings of
Flowage Easements and Federal Lands. Alpine Archaeological Consultants, Inc and Gray
& Pape, Inc.
Larson, Thomas K., Kurt P. Schweigert, Keith H.
Dueholm, Paul H. Sanders, and Dori Penny.
1987. A Cultural Resource Inventory of the
Right Bank of Lake Oahe in Morton and Sioux
Counties, North Dakota. Larson-Tibesar Associates, Inc., Laramie, Wyoming. Submitted to
the USACE, Omaha.
Lewis, T.E., and R.D. Slack. 2008. Whooping Cranes
and Human Disturbance: An Historical Perspective and Literature Review. North American Crane Workshop Proceedings. Paper 182.
Licht, D.S. and S.H. Fritts. 1994. Gray wolf (Canis
lupus) occurrences in the Dakotas. American
Midland Naturalist 132:74-81.
Lichvar, R.W., M. Butterwick, N.C. Melvin, and W.N.
Kirchner. 2014. The National Wetland Plant

324a
List: 2014 Update of Wetland Ratings. Phytoneuron 2014-41: 1-42.
Marathon Oil. 2010. Bakken Oil Storage Tank Emission Models. Presented by Paul Peacock,
March 23, 2010. Internet website:
http://www.ndoil.org/image/cache/Peacock__March_23_2010._ppt.pdf
Marcus, J.F., J.J. Dinan, R.J. Johnson, E.E. Blankenship, and J.L. Lackey. 2007. Directing nest
site selection of Least Terns and Piping Plovers. Waterbirds 30:251-258.
McCabe, T.L. 1981. The Dakota skipper, Hesperia
dacotae (Skinner): range and biology with special reference to North Dakota. Journal of the
Lepidopterists’ Society 35(3):179-193.
Mech, L.D. 1974. Canis lupus. Mammalian Species
37:1-6.
Morton County. 2014. Morton County Zoning Map.
Available at http://tinyurl.com/mortonzoningmap.
Muller, H. 1987. Hydrocarbons in the freshwater environment. A Literature Review. Arch. Hydrobiol. Beih. Ergebn. Limnol 24:1-69.
Multi-Resolution Land Characteristics Consortium.
2011. National Land Cover Database. Available at: http://www.mr1c.gov/nIcd2011.php.
Murphy, E.C. 2006. Lignite Reserves, Williston
100K Sheet, North Dakota, North Dakota Geological Survey. Available at:
https://www.dmr.nd.gov/ndgs/Coalmaps/pdf/10
0K/wIst_100k_c.pdf.

325a
National Park Service. 2009. Nationwide Rivers Inventory. Available at
http://www.nps.gov/ncrc/programs/rtca/nri/states/nd.html.
Natural Resources Conservation Service. 2015. Web
Soil Survey. Available at
http://websoilsurvey.nrcs.usda.gov/.
Natural Resources Conservation Service. 2013.
Farmland Protection Policy Act Annual Report
for FY 2012.
Natural Resources Conservation Service. 2008. Lake
Sakakawea 10110101, 8-Digit Hydrologic Unit
Profile. Available at
http://www.nrcs.usda.gov/Internet/FSE_DOCUMENTS/nrcs141p2_001513.pd
f.
Natural Resources Conservation Service. 2006. Land
Resource Regions and Major Land Resource
Areas of the United States, the Caribbean, and
the Pacific Basin. Available at
http://www.nrcs.usda.gov/wps/portal/nrcs/detail/soils/surveyficid=nrcs142p2_053624.
Neff, J. M. and J. W. Anderson. 1981. Response of
Marine Animals to Petroleum and Specific Hydrocarbons. Applied Science Publishers, London. 177 pp.
Nixon, R. 2014. Grain Piles Up, Waiting For A Ride,
As Trains Move North Dakota Oil. New York
Times. Available at: http://www.nytimes.com/2014/08/26/us/grain-piles-up-waiting-for-a-ride-as-trains-move-north-dakotaoil.html,

326a
North Dakota Department of Agriculture. 2014a.
Noxious Weeds. Available at:
http://www.nd.gov/ndda/program/noxiousweeds.
North Dakota Department of Agriculture. 2014b.
Endangered Species Descriptions. Available
at: http://www.nd.gov/ndda/program-info/endangered-species-protection/endangered-species-descriptions.
North Dakota Energy Conversion and Transmission
Facility Siting Act, North Dakota Administrative Code 49-22-05.1 Available at:
http://www.legis.nd.gov/cencode/t49c22.pdf?20160408183906.
North Dakota Department of Health. 2015. North
Dakota 2014 Integrated Section 305(b) Water
Quality Assessment Report and Section 303(d)
List of Waters Needing Total Maximum Daily
Loads. Available at:
https://www.ndhealth.gov/wq/sw/Z7_Publications/IntegratedReports/2014_North_Dakota_Int egrated_Report_Final_20150428.pdf.
North Dakota Department of Health. 2013. North
Dakota Air Quality Monitoring Data Summary 2013. Available at
https://www.ndhealth.gov/aq/AmbientMonitoring.htm.
North Dakota Department of Mineral Resources.
2015. Oil and Gas Division, Oil and Gas ArcIMS Viewer. Available at:
https://www.dmr.nd.gov/OaGIMS/viewer.htm.

327a
North Dakota Game and Fish Department. 2012.
Black-footed Ferret. Available at:
http://gfind.gov/wildlife/fish-wildlife/id/mammals/carnivores/ferret.
North Dakota GIS Hub Data Portal. 2010. Earthquake Locations. Available at:
https://apps.nd.gov/hubdataportal/srv/en/main.home.
North Dakota Parks and Recreation Department.
2014. North Dakota Parks and Recreation Department Home Page. Available at
http://www.parkrec.nd.gov/index.html#1.
Radbruch-Hall, D.H., R.B. Colton, W.E. Davies, I.
Lucchitta, B.A. Skipp, and D.J. Varnes. 1982.
Landslide Overview Map of the Conterminous
United States, USGS Landslide Hazards Program. Available at: http://landslides.usgs.gov/hazards/nationalmap/.
Royer, R.A. and G.M. Marrone. 1992. Conservation
status of the Dakota skipper (Hesperia dacotae) in North and South Dakota. p.44. U.S.
Fish and Wildlife Service. Denver, Colorado.
Sieler, Steve. July 6, 2015. State Soil Liaison, Natural Resources Conservation Service, North Dakota. Personal Communication with Amy Williams, Staff Biologist, Perennial Environmental, LLC.
Standing Rock Sioux Tribe. 2016. Environmental
Profile. Available at:
http://standingrock.org/environmental-profile/.
Standing Rock Sioux Tribe Game & Fish Department. 2016. Dates and Fees. Available at:

328a
http://gameandfish.standingrock.org/datesand-fees/.
Standing Rock Tourism. 2016. Attractions. Available at: http://www.standingrocktourism.com/information/events.asp.The Engineering ToolBox. 2015. Ldn — Day and Night
Sound Level. Available at: http://www.engineeringtoolbox.com/sound-level-d_719.html.
Turner, Mason and Company, 2014. The North Dakota Petroleum Council Study on Bakken
Crude Properties. Prepared for the North Dakota Petroleum Council.
U.S. Army Corps of Engineers. 2014. National Levee
Database. Available at:
http://n1d.usace.army.mil/egis/f?p=471:1:.
U.S. Army Corps of Engineers. 2012. Omaha District, North Dakota Regulatory Office. Nationwide Permit Regional Conditions for North
Dakota. Available at:
http://www.nwo.usace.army.mil/Missions/RegulatoryProgram/NorthDakota.aspx.
U.S. Army Corps of Engineers. 2011. Omaha District, Garrison Dam/Lake Sakakawea Project
North Dakota Surplus Water Report. Available at: http://www.swc.nd.gov/pdfs/corps_final_surplus_storage_lake_sakakawea.pdf.
U.S. Army Corps of Engineers. 2010a. Summary of
Engineering Data — Missouri River Main
Stem System.
U.S. Army Corps of Engineers. 2010b. Regional Supplement to the Corps of Engineers Wetland
Delineation Manual: Great Plains Region

329a
(Version 2.0). ERDC/EL TR-10-1, U.S. Army
Engineer Research and Development Center,
Vicksburg, MS.
U.S. Army Corps of Engineers. 2010c. Oahe
Dam/Lake Oahe Final Master Plan. Missouri
River, South Dakota and North Dakota. Design Memorandum MO-224.
U.S. Army Corps of Engineers. 2007. Garrison
Dam/Lake Sakakawea Master Plan with Integrated Programmatic Environmental Assessment, Missouri River, North Dakota. Update
of Design Memorandum MGR-107D.
U.S. Army Corps of Engineers. 1987. Corps of Engineers Wetland Delineation Manual, Technical
Report Y-87-1, U.S. Army Engineer Waterways Experiment Station, Vicksburg, MS.
U.S. Census Bureau. 2014. American Fact Finder.
Available at: http://factfinder.census.gov/faces/nav/jsf/pages/index.xhtml.
U.S. Department of Transportation. 2015. Transportation Accidents by Mode. Office of the Assistant Secretary for Research and Technology.
Available at:
http://www.rita.dot.gov/bts/sites/rita.dot.gov.bt
s/files/publications/national_transportation_st
atistics/html/table_02_03.html.
U.S. Department of Transportation. 2014. Pocket
Guide to Large Truck and Bus Statistics. Federal Motor Carrier Safety Administration.
Available at:
http://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/fi
les/docs/FMCSA%20Pocket%20Guide%20to%2

330a
OLarge%20Truck%20and%20Bus%20Statistics%20-%202014%20-%20508C.pdf.
U.S. Environmental Protection Agency. 2015. Hazardous Waste Website. Available at:
http://www.epa.gov/osw/hazard/index.htm.
U.S. Environmental Protection Agency. 2014. Enviromapper for Envirofacts.
http://epa.gov/emefdata/em4ef.home.
U.S. Environmental Protection Agency. 2012. Environmental Justice Showcase Communities.
Available at: http://www.epa.gov/environmentaljustice/grants/ej-showcase.html.
U.S. Environmental Protection Agency. 2016.
ECOTOX User Guide: ECOTOXicology Database System. Version 4.0. Available:
http:/www.epa.gov/ecotox/
U.S. Fish and Wildlife Service (USFWS). 2007. National Bald Eagle Management Guidelines.
Arlington, VA. May 2007.
U.S. Fish and Wildlife Service. 2015. Endangered
and Threatened Wildlife and Plants; Threatened Species Status for the Northern LongEared Bat With 4(d) Rule; Final Rule and Interim Rule. 80 Federal Register 17973.
U.S. Fish and Wildlife Service. 2014a. Species profile: Whooping Crane (Grus americana). Environmental Conservation Online System.
Available at: http://ecos.fws.gov/speciesProfile/profile/speciesProfile.action?spcode=B003,

331a
U.S. Fish and Wildlife Service. 2014b. Endangered
and Threatened Wildlife and Plants; Threatened Species Status for the Rufa Red Knot; Final Rule. 79 FR 73705.
U.S. Fish and Wildlife Service. 2014c. Revised recovery plan for the Pallid sturgeon (Scaphirhynchus albus). Denver, Colorado: MountainPrairie Region, U.S. Fish and Wildlife Service.
U.S. Fish and Wildlife Service. 2014d. Species profile: Black-footed ferret (Mustela nigripes).
Environmental Conservation Online System.
Available at: http://ecos.fws.gov/speciesProfile/profile/speciesProfile?spcode=A004.
U.S. Fish and Wildlife Service. 2014e. Species profile: Gray wolf (Canis lupus). Environmental
Conservation Online System. Available at:
http://ecos.fws.gov/tess_public/SpeciesReport.do?lead=6&listingType=L.
U.S. Fish and Wildlife Service. 2014f. Revised Recovery Plan for the Pallid Sturgeon
(Scaphirhynchus albus). Available at:
http://ecos.fws.gov/docs/recovery_plan/Pallid%20Sturgeon%20Recovery%20Plan%20First%2OR evision%20signed%2Oversion%20012914_3.pdf.
U.S. Fish and Wildlife Service. 2014g. Rufa Red
Knot Background Information and Threats Assessment.Available at:
http://www.fws.gov/northeast/redknot/pdf/20141125_REKN_FL_supple
mental_doc_FINAL.pdf.

332a
U.S. Fish and Wildlife Service. 2013a. Western prairie fringed orchid (Platanthera praeclara).
Available at: http://www.fws.gov/northdakotafieldoffice/endspecies/species/western_prairie_fringed_orchi d.htm.
U.S. Fish and Wildlife Service. 2013b. North Dakota
Field Office; Least Tern (Sterna antillarum).
Available at: http://www.fws.gov/northdakotafieldoffice/endspecies/species/least_tern.htm.
U.S. Fish and Wildlife Service. 2013c. North Dakota
Field Office; Black-footed ferret (Mustela
nigripes). Available at:
http://www.fws.gov/northdakotafieldoffice/endspecies/species/black-footed_ferret.htm.
U.S. Fish and Wildlife Service. 2013d. Endangered
and Threatened Wildlife and Plants; Threatened status for Dakota skipper and Endangered Status for Poweshiek skipperling; and
Designation of critical habitat for the Dakota
skipper and Poweshiek skipperling. Proposed
Rule. 78 Federal Register 63574.
U.S. Fish and Wildlife Service. 2013e. Interior Least
Tern (Sternula antillarum) 5-Year Review:
Summary and Evaluation. Available at:
http://www.fws.gov/southeast/5yearReviews/5yearreviews/interiorLeastTern5yrReivew102413 .pdf.
U.S. Fish and Wildlife Service. 2013f. Black-footed
Ferret Draft Recovery Plan, Second Revision.
Available at: https://www.fws.gov/mountainprairie/species/mammals/blackfootedferret/2013DraftRevisedRecoveryPlan.pdf.

333a
U.S. Fish and Wildlife Service. 2012. Endangered
Species: Piping Plover. Available at:
http://www.fws.gov/mountainprairie/species/birds/pipingplover/.
U.S. Fish and Wildlife Service. 2009a. Whooping
Cranes and Wind Development — An Issue
Paper. Available at:
http://www.fws.gov/southwest/es/oklahoma/documents/te_species/wind%2Opower/whoopin
g%20crane%20and%20wind%20development%2Ofws%20issue%20paper%20-%20final%20%20april%202009.pdf
U.S. Fish and Wildlife Service. 2009b. Piping Plover
(Charadrius melodus) 5-Year Review: Summary and Evaluation. Available at:
http://www.fws.gov/northeast/endangered/PDF/Piping_Plover_five_year_review_an
d_summar y.pdf
U.S. Fish and Wildlife Service. 2007. International
Recovery Plan Whooping Crane (Grus americana), Third Revision. Available at:
http://ecos.fws.gov/docs/recovery_plan/070604_v4.pdf.
U.S. Fish and Wildlife Service. 1994. Whooping
Crane Recovery Plan. Available at:
https://www.fws.gov/southwest/es/arizona/Documents/RecoveryPlans/WhoopingCrane.pdf.
U.S. Fish and Wildlife Service, National Park Service, Bureau of Land Management, and U.S.

334a
Forest Service. 2014. National Wild and Scenic Rivers System. Available at
http://www.rivers.gov/north-dakota.php.
U.S. Geological Survey. 2014a. North Dakota 2014
Seismic Hazard Map, USGS Earthquake Hazards Program. Available at: http://earthquake.usgs.gov/earthquakes/states/north_dakota/hazards.php.
U.S. Geological Survey. 2014b. Northern Prairie
Wildlife Research Center. North Dakota Wildlife Management Area Guide - WMAs by
County. Available at
http://www.npwrc.usgs.gov/resource/wildlife/wmaguide/county.htm.
U.S. Geological Survey. 2016. National Water Information System data available on the World
Wide Web (USGS Water Data for the Nation),
accessed May 9, 2016 at http://waterdata.usgs.gov/nwis/dvstat?referred_module=sw&site_no=06330000&por_0633000
0_2=720709,00060,2,1928-10-01,1965-0731&format=html_table&stat_cds=mean_va&date_format=YYYYMMDD&rdb_compression=file&submitted_form=p
arameter_selection_list.
USGS. 2016b. National Water Information System
data available on the World Wide Web (USGS
Water Data for the Nation), accessed May 9,
2016 at http://nwis.waterdata.usgs.gov/nd/nwis/uv?cb_00060=on&for

335a
mat=gif_stats&site_no=0634250 0&period=3143&begin_date=2007-1001&end_date=2016-05-09.
Weary, D.J. and D.H. Doctor. 2014. Karst in the
United States: A Digital Map Compilation
and Database, USGS Open-File Report 20141156, 23 p.
Wilderness Institute. 2014. List of Wilderness Areas
by Location. University of Montana, College
of Forestry and Conservation. Available at
http://www.wilderness.net/NWPS/stateView?state=ND. Accessed November 2014.

336a
12.0

FIGURES

Figure 1: Project Location—Federal Lands and
Flowage Easements
Figure 2: Project Layout—Flowage Easements
Figure 3: Project Layout—Federal Lands
Figure 4: Soils—Flowage Easements
Figure 5: Soils—Federal Lands
Figure 6: Natural Resources—Flowage Easements
Figure 7: Natural Resources—Federal Lands
Figure 8: Cultural Resources—Flowage Easements
Figure 9: Cultural Resources—Federal Lands
Figure 10: Land Cover—Flowage Easements
Figure 11: Land Cover—Federal Lands
Figure 12: Route
Crosing

Alternative—Missouri

River

Figure 13: Route Alternative—Lake Oahe Crossing
Figure 14: HDD Cross
Crossing

Section—Missouri

River

Figure 15: HDD Cross Section—Lake Oahe Crossing
Figure 16: Whooping Crane—Central Flyway

337a

338a

339a

340a

341a

342a

343a

344a

345a

346a

347a

348a

349a

350a

351a

352a

353a

354a

355a

356a
APPENDIX K
Notice of Availability of Draft EA for Comment

357a
An environmental assessment (EA) has been prepared to evaluate potential environmental impacts
from construction and operation of a crude oil pipeline
across private lands encumbered by federal flowage
easements and federal land managed by the U.S.
Army Corps of Engineers.
Dakota Access, LLC proposes to construct and operate the Dakota Access Pipeline Project (Project).
The proposed Project would connect the Bakken and
Three Forks crude oil production areas in North Dakota to existing infrastructure in Illinois. In North
Dakota, the Project crosses federal flowage easements
at the Missouri River upstream of Lake Sakakawea in
Williams County and federally-owned lands at Lake
Oahe in Morton and Emmons counties. The pipeline
is 24 inches in diameter where it crosses approximately 2.83 miles of the U.S. Army Corps of Engineers’ flowage easements at the Missouri River and is
30 inches in diameter where it crosses approximately
0.21 mile of federal lands at Lake Oahe. The Omaha
District is seeking public comments on the EA for
these two project areas.
The public is encouraged to provide comments on
the draft EA which is available for viewing at
http://www.
nwo.usace.army.mil/Missions/CivilWorks/Planning/P
rojectReports.aspx. A hard copy will also be available
at the following public libraries:
Bismarck Veterans Memorial Public Library
515 N. Fifth Street
Bismarck, ND 58501

358a
Williston Community Library
1302 Davidson Dr.
Williston, ND 58801
Rawlins Municipal Library
1000 East Church Street
Pierre, SD 57501
Comments may be directed to: U.S. Army Corps
of Engineers, Omaha District; CENWO-OD-TN; Attn:
Brent Cossette; 1616 Capitol Avenue Suite 9000;
Omaha, NE 68102. Comments can also be emailed to
Brent.J.Cossette@usace.armv.mil.
Comments must be postmarked or received no
later than January 8, 2016.

359a
____________________
APPENDIX C
____________________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
STANDING ROCK SIOUX
TRIBE, et al.,
Plaintiffs,
v.

Civil Action No.
16-1534 (JEB)

U.S. ARMY CORPS OF
ENGINEERS, et al.,
Defendants.
MEMORANDUM OPINION
Designed to transport oil from the Bakken oil
fields in North Dakota to a storage hub in southern
Illinois, the Dakota Access Pipeline (DAPL) has also
borne substantial controversy in its wake. Most significant has been the opposition from Indian tribes
whose reservations lie in close proximity to the pipeline’s crossing of the Missouri River at Lake Oahe. To
block Dakota Access LLC’s construction of that last
segment and its operation of DAPL, the Standing
Rock Sioux Tribe filed this suit in July 2016, and the
Cheyenne River Sioux Tribe intervened shortly thereafter.
The Tribes have since mounted two substantial legal challenges to DAPL, neither of which yielded success. The first contended that the grading and clearing of land for the pipeline threatened sites of cultural
and historical significance, and that the U.S. Army

360a
Corps of Engineers had flouted its duty to engage in
tribal consultations pursuant to the National Historic
Preservation Act. See Standing Rock Sioux Tribe v.
U.S. Army Corps of Eng’rs (Standing Rock I), 205 F.
Supp. 3d 4, 7 (D.D.C. 2016). The second maintained
that the presence of oil in the pipeline under Lake
Oahe would desecrate sacred waters and make it impossible for the Tribes to freely exercise their religious
beliefs, thus violating the Religious Freedom Restoration Act. See Standing Rock Sioux Tribe v. U.S. Army
Corps of Eng’rs (Standing Rock II), No. 16-1534, 2017
WL 908538, at *1 (D.D.C. Mar. 7, 2017).
Now that the Court has rejected these two lines of
attack, Standing Rock and Cheyenne River here take
their third shot, this time zeroing in DAPL’s environmental impact. They seek summary judgment on several counts related to the Corps’ alleged failure to comply with the National Environmental Policy Act. In
particular, the Tribes believe that the Corps did not
sufficiently consider the pipeline’s environmental effects before granting permits to Dakota Access to construct and operate DAPL under Lake Oahe, a federally regulated waterway. This volley meets with some
degree of success. Although the Corps substantially
complied with NEPA in many areas, the Court agrees
that it did not adequately consider the impacts of an
oil spill on fishing rights, hunting rights, or environmental justice, or the degree to which the pipeline’s
effects are likely to be highly controversial.
To remedy those violations, the Corps will have to
reconsider those sections of its environmental analysis upon remand by the Court. Whether Dakota Ac-

361a
cess must cease pipeline operations during that remand presents a separate question of the appropriate
remedy, which will be the subject of further briefing.
*
I.

*

*

Background

To familiarize the reader with the background information relevant to its analysis, the Court first
briefly sets out the National Environmental Policy
Act’s statutory framework and then separately discusses the factual history and litigation to date.
A. NEPA
The National Environmental Policy Act, the statute under which the majority of the Tribes’ claims are
brought, has two aims: it “places upon an agency the
obligation to consider every significant aspect of the
environmental impact of a proposed action,” and “it
ensures that the agency will inform the public that it
has indeed considered environmental concerns in its
decisionmaking process.” Baltimore Gas & Elec. Co.
v. Natural Res. Def. Council, Inc., 462 U.S. 87, 97
(1983) (citation omitted). NEPA’s requirements are
“procedural,” requiring “agencies to imbue their decisionmaking, through the use of certain procedures,
with our country’s commitment to environmental salubrity.” Citizens Against Burlington, Inc. v. Busey,
938 F.2d 190, 193-94 (D.C. Cir. 1991). Importantly,
“NEPA does not mandate particular consequences,”
id. at 194, and courts are discouraged from substituting their own policy judgments for that of the agency.
See N. Slope Borough v. Andrus, 642 F.2d 589, 599
(D.C. Cir. 1980); see also Marsh v. Or. Nat. Res. Council, 490 U.S. 360, 378 (1989). “NEPA merely prohibits

362a
uninformed—rather than unwise—agency action.”
Robertson v. Methow Valley Citizens Council, 490
U.S. 332, 351 (1989). Agency actions with adverse environmental effects can thus be NEPA compliant
where “the agency has considered those effects and determined that competing policy values outweigh those
costs.” Ohio Valley Envtl. Coal. v. Aracoma Coal Co.,
556 F.3d 177, 191 (4th Cir. 2009) (citations omitted).
Under NEPA, an agency must prepare an Environmental Impact Statement for any proposed major
federal action “significantly affecting the quality of
the human environment.” 42 U.S.C. § 4332(2)(C). An
EIS must detail the environmental impact of the proposed action, any unavoidable adverse effects, alternatives to the proposed action, the relationship between short-term uses of the environment and longterm productivity, and any irreversible commitments
of resources. Id.
To determine whether an agency must prepare an
EIS, it first drafts an Environmental Assessment. See
40 C.F.R. § 1501.4(b). An EA is a “concise public document” that “[b]riefly provide[s] sufficient evidence
and analysis for determining whether to prepare an
environmental impact statement or a finding of no significant impact.” Id. § 1508.9(a). The EA must discuss the need for the proposal, the alternatives, the
environmental impacts of the proposed action and alternatives, and the agencies and persons consulted.
Id. § 1508.9(b). If, after preparing an EA, the agency
determines that an EIS is not necessary, it must prepare a Finding of No Significant Impact (FONSI) setting forth the reasons why the action will not have any
significant impact on the environment.
Id.
§§ 1501.4(e), 1508.13; cf. Grand Canyon Trust v. FAA,

363a
290 F.3d 339, 340 (D.C. Cir. 2002) (“If any ‘significant’
environmental impacts might result from the proposed agency action then an EIS must be prepared before agency action is taken.”) (quoting Sierra Club v.
Peterson, 717 F.2d 1409, 1415 (D.C. Cir. 1983)). If the
action will not have such impact because of the
agency’s commitment to ensure the performance of
mitigation measures, the agency prepares a Mitigated
FONSI. See Council on Environmental Quality, Appropriate Use of Mitigation and Monitoring and Clarifying the Appropriate Use of Mitigated Findings of
No Significant Impact 2, 7 (2011), https://energy.gov
/sites/prod/files/NEPA-CEQ_Mitigation_and_Monitoring
_Guidance_14Jan2011.pdf.
Mitigation includes
“[a]voiding an impact by not taking a certain action”;
“[m]inimizing an impact by limiting the degree or
magnitude of the action”; “[r]ectifying an impact by repairing, rehabilitating, or restoring the affected environment”; “[r]educing or eliminating an impact over
time, through preservation and maintenance operations”; and “[c]ompensating for an impact by replacing
or providing substitute resources or environments.”
Id. at 4-5. As will be explained below, the Corps here
prepared an EA and a Mitigated FONSI. The central
question this Opinion answers is whether that was
sufficient.
B. Factual History
As those who have followed this litigation and the
concomitant public debate well know, DAPL is a
nearly 1,200-mile pipeline designed to move more
than half a million gallons of crude oil from North Dakota to Illinois every day. Standing Rock I, 205 F.
Supp. 3d at 7. Although no government approval is
necessary for oil pipelines traversing private lands, it

364a
is required for those segments that cross federally regulated waters. Id. DAPL crosses such waterways at
hundreds of discrete places along its route, including,
most prominently, at Lake Oahe. Id.
Created by the Corps in 1958 via a dam constructed on the Missouri River, Lake Oahe is a reservoir that spans North and South Dakota and borders
the Standing Rock and Cheyenne River Sioux Reservations to the east. Id. at 13; ECF No. 172-1 (Environmental Assessment) at 35, 75; ECF No. 97-1
(CRST Second Amended Complaint), ¶ 29. DAPL
crosses the Lake 0.55 miles north of the Standing
Rock Reservation and 73 miles north of the Cheyenne
River Reservation. See Standing Rock II, 2017 WL
908538, at *1; EA at 75. For orientation purposes, the
southern border of the former Reservation also acts as
the northern border of the latter. See ECF No. 117-5
(Map of Current Sioux Reservations).
Lake Oahe holds special significance for the
Standing Rock and Cheyenne River Sioux Tribes. Its
creation necessitated the taking of approximately
56,000 acres of some of “the best land” from Standing
Rock’s Reservation, as well as 104,420 acres of Cheyenne River’s trust lands. See Act of Sept. 2, 1958, Pub.
L. No. 85-915, 72 Stat. 1762; S. Rep. No. 102-267, at
188 (1992); Standing Rock II, 2017 WL 908538, at *16
(citing South Dakota v. Bourland, 508 U.S. 679, 683
(1993)). Today, Standing Rock members rely on Lake
Oahe’s waters to service “homes, a hospital, clinics,
schools, businesses and government buildings
throughout the Reservation” and to support agriculture and industrial activities. See ECF No. 117 (SRST
MSJ) at 4. The Lake is also the primary source of water for the Cheyenne River Reservation. See CRST

365a
Second Amend. Compl., ¶ 2. Both Tribes consider the
waters to be “sacred” and “central to [their] practice of
religion.” SRST MSJ at 4; see Standing Rock II, 2017
WL 908538, at *6, 8.
Dakota Access notified the Corps of its intent to
construct a portion of DAPL under Lake Oahe in June
2014, see ECF No. 183-1 (Email from Monica Howard,
Dir. Envtl. Sci., Dakota Access, to Jason Renschler,
Project Manager, Corps, June 23, 2014), and first
sought the Corps’ approval to do so in October 2014.
See ECF No. 159-1, Exh. A (Letter from Monica Howard to Brent Cossette, Nat. Resource Specialist,
Corps, Oct. 21, 2014). Specifically, the Company
needed three authorizations from the Corps: (1) verification that its activities satisfied the terms and conditions of Nationwide Permit 12; (2) permission under
the Rivers and Harbors Act, 33 U.S.C. § 408; and (3) a
real-estate easement under the Mineral Leasing Act,
30 U.S.C. § 185. See ECF No. 172-6 (Memorandum
from John Henderson, Omaha District Commander &
Engineer, Corps, Dec. 3, 2016), ¶ 4. The Court has
previously discussed some of the details of these permitting schemes, see Standing Rock I, 205 F. Supp. 3d
at 10-12, and will not repeat them here.
In December 2015, the Corps published and
sought public comment on a Draft Environmental Assessment that evaluated the environmental effects of
DAPL’s proposed crossing of Lake Oahe and concluded that “construction of the proposed Project [was]
not expected to have any significant direct, indirect,
or cumulative impacts on the environment.” ECF No.
6-19 (Draft EA) at 1; see EA at 1. Standing Rock
promptly submitted comments touching on a range of

366a
concerns, including that the Draft EA failed to adequately address potential harm from the pipeline’s
construction and operations to the Lake’s water and
the Tribe’s rights thereto; did not acknowledge the
pipeline’s proximity to the Reservation; insufficiently
analyzed the risks of an oil spill; and did not properly
address environmental-justice considerations. See
ECF No. 159-1, Exh. C (SRST Comments on Draft EA,
Jan. 8, 2016) at 9-17; id., Exh. D (SRST Suppl. Comments on Draft EA, Mar. 24, 2016) at 2-3. The Tribe,
accordingly, asked that the Corps prepare an Environmental Impact Statement to assess the pipeline’s effects, a request it had also made prior to the Draft
EA’s release. See ECF No. 209-6 (Notes for Feb. 1819, 2016, Tribal Meeting) at 51; ECF No. 209-9 at 3334 (Letter from Waste Win Young, Tribal Historic
Preservation Officer, Standing Rock Sioux Tribe, to
Martha Chieply, Omaha District Regulatory Branch,
Corps, Feb. 25, 2015). Cheyenne River expressed similar views. See ECF No. 185-1, Exh. II (Letter from
Steve Vance, Tribal Historic Preservation Officer,
Cheyenne River Sioux Tribe, to Richard Harnois, Sr.
Field Archaeologist, Corps, May 2, 2016); ECF No.
183-19 (Letter from Steve Vance to John Henderson,
May 19, 2016); ECF No. 183-20 (Letter from Harold
Frazier, Chairman, Cheyenne River Sioux Tribe, June
3, 2016).
Other federal agencies also weighed in on the
Draft EA. Like the Tribes, the Department of the Interior requested that the Corps prepare an EIS, a step
it believed necessary given DAPL’s “potential impact
on trust resources”—i.e., 800,000 acres of land held in
trust for the Tribe by Interior, as well as waters on
which the Tribe and its members depend for drinking

367a
and other purposes—should a leak or spill occur. See
ECF No. 209-7 at 21 (Letter from Lawrence Roberts,
Acting Assistant Secretary for Indian Affairs, Dep’t of
Interior, to Brent Cossette, Mar. 29, 2016). Interior
criticized the Corps for, inter alia, “not adequately justify[ing] or otherwise support[ing] its conclusion that
there would be no significant impacts upon the surrounding environment and community” and not assigning a level of intensity to those potential adverse
impacts that were acknowledged. Id.
The Environmental Protection Agency similarly
expressed concern that the Draft EA “lack[ed] sufficient analysis of direct and indirect impacts to water
resources,” did not adequately address “the measures
that will be required to assure that impacts from construction and operation of the pipeline are not significant,” and did “not identify the related effects from the
entire project segment.” ECF No. 209-16 at 184 (Letter from Philip Strobel, Director of NEPA Compliance
& Review Program, EPA, to Brent Cossette, Jan. 8,
2016). Although the EPA did not believe that the
Draft EA “would support a FONSI,” it did not call for
the Corps to prepare an EIS; instead, it suggested that
“information and mitigation could be added to the EA
in order to support a mitigated FONSI.” Id. at 187.
After “becom[ing] aware of the proximity” of
DAPL to Standing Rock’s Reservation, the EPA supplemented its comments. See ECF No. 209-8 at 123
(Letter from Philip Strobel to Brent Cossette, Mar. 11,
2016). It recommended that the Corps revise the
Draft EA and provide a second public-comment period
“to assess potential impacts to drinking water and the
Standing Rock Sioux Tribe,” as well as “additional

368a
concerns regarding environmental justice and emergency response actions to spills/leaks.” Id. Notably,
the EPA took some issue with the Draft EA’s spill
analysis, stating that although it indicated only a
minimal spill risk associated with the project, based
on its “experience in spill response,” a break or leak
could significantly affect water resources. Id. at 124.
Given DAPL’s proposed capacity of 13,100 to 16,600
gallons per minute of crude oil and the proximity of
drinking-water intakes to the Oahe crossing, the
agency explained, “There would be very little time to
determine if a spill or leak affecting surface waters is
occurring, to notify water treatment plants and to
have treatment plant staff on site to shut down the
water intakes.” Id. at 125. Finally, the EPA urged the
Corps to expand its analysis for purposes of assessing
environmental-justice considerations from “the area
of construction disturbance” to “the impacts of the proposed project,” and to look at route alternatives. Id.
at 126; see also ECF No. 209-9 at 209 (Email “Quick
Summary of Conference Call with EPA,” Feb. 25,
2016) (“EPA concerned over the lack of Environmental
justice Tribal interests have not been addressed sufficiently.”).
On July 25, 2016, about eight months after releasing the Draft EA, the Corps published its Final EA
and a Mitigated Finding of No Significant Impact. See
EA; ECF No. 172-2 (FONSI). The Final EA—like the
Draft EA—was prepared by Dakota Access with involvement from the Corps, as is permitted, when certain conditions are met, by Council on Environmental
Quality regulations. See EA at 1; Draft EA at 1; 40
C.F.R. § 1506.5(a)-(b). The Mitigated FONSI explained that the Corps had “coordinated closely with

369a
Dakota Access to avoid, mitigate and minimize potential impacts of the Proposed Action”—largely via horizontal directional drilling (HDD) technology—and
that the Company was required to comply with a set
of mitigation measures set out in the EA. See FONSI
at 3. Given those measures and its evaluation of
DAPL’s “anticipated environmental, economic, cultural, . . . social[, and] . . . cumulative effects,” the
Corps concluded that the crossing at Lake Oahe would
not “significantly affect the quality of the human environment,” and preparation of an EIS was therefore
not required. Id. at 6. The Corps, accordingly, verified
that the pipeline activities satisfied the terms and
conditions of NWP 12 and granted permission under
Section 408 of the Rivers and Harbors Act for DAPL’s
placement at Lake Oahe. See ECF No. 209-9 at 14953 (NWP 12 Permit); ECF No. 209-10 at 54 (Section
408 Permit). The parties disagree as to whether the
Corps also at that time granted an easement pursuant
to the Mineral Leasing Act, 30 U.S.C. § 185. See ECF
Nos. 57, 66, 73. For purposes of this Opinion—and
consistent with its understanding throughout the litigation—the Court will assume that it did not. Without such easement, Dakota Access could not construct
the pipeline under the Lake.
C. Litigation
1. Filing of Suit
While factual backgrounds to lawsuits are often
considerably more involved than the litigation itself,
that is not the case here. In part, that is because this
action (as well as the 2016 election) generated significant further maneuvers. To begin, two days after the
release of the EA on July 25, 2016, Standing Rock filed

370a
this suit against the Corps for declaratory and injunctive relief pursuant to the National Historic Preservation Act, National Environmental Policy Act, Clean
Water Act, and the Rivers and Harbors Act. See ECF
No. 1 (Complaint), ¶¶ 128-212. Dakota Access successfully moved to intervene in support of the Corps
on August 5, see ECF No. 7, and the Cheyenne River
Sioux Tribe intervened as a Plaintiff on August 10.
See ECF No. 11. Cheyenne River then filed its own
Complaint, see ECF No. 11-12, which it later amended
on September 8. See ECF No. 37. Like Standing
Rock’s Complaint, Cheyenne River’s pleadings stated
claims under the NHPA, NEPA, CWA, and RHA, as
well as for breach of trust responsibility and violations
of the Flood Control Act and the Administrative Procedure Act. Id. at 38-56.
The Tribes initially sought a preliminary injunction based solely on the NHPA, contending principally
that the clearing and grading of land along the pipeline route desecrated sites sacred to them. On September 9, 2016, immediately after this Court issued
its Opinion denying that motion, see Standing Rock I,
205 F. Supp. 3d at 7, the Departments of Justice, the
Interior, and the Army issued a joint statement explaining that, because “important issues raised by the
Standing Rock Sioux Tribe and other tribal nations
and their members regarding the Dakota Access pipeline” remained, “construction of the pipeline on Army
Corps land bordering or under Lake Oahe [would] not
go forward” until the Army could determine whether
reconsideration of any of its previous decisions regarding the Lake Oahe crossing under NEPA or other federal laws was necessary. See ECF No. 42-1 at 1. More

371a
specifically, the Corps at that time refused to grant
the necessary MLA easement.
2. Further Consideration
In response to the opportunity for additional consideration, Standing Rock sent several letters to Assistant Secretary of the Army for Civil Works, Jo-Ellen Darcy, expressing its concerns regarding DAPL,
the EA’s spill-risk analysis, and the impact of a potential spill on hunting, fishing, and other Treaty rights.
See ECF Nos. 117-11 (Sept. 22, 2016), 117-12 (Oct. 28,
2016), 117-13 (Oct. 3, 2016), 117-14 (Oct. 21, 2016). It
also submitted an expert review of the EA, which concluded that it was “seriously deficient and [could not]
support the finding of no significant impact, even with
the proposed mitigations.” ECF No. 117-15 (Accufacts, Inc. Review of EA, Oct. 28, 2016).
As part of the Corps’ internal-review process, its
Chief Counsel prepared a memorandum concluding
that the agency had “adequately considered and disclosed the environmental, cultural and other potential
impacts of its actions and that its decisions were not
arbitrary or capricious,” and that “supplementation of
the EA to address any new information [was] not legally required.” ECF No. 117-24 (Memorandum from
David Cooper, Chief Counsel, Corps, Oct. 20, 2016)
(Cooper Memo) at 36. He also issued a memorandum
that listed 36 possible conditions to be included in an
easement that would “provide further protection from
any perceived risks posed by the pipeline crossing at
Lake Oahe.” ECF No. 209-3 at 55 (Memorandum from
David Cooper, Oct. 31, 2016).
On November 14, 2016, Assistant Secretary Darcy
wrote to Standing Rock and Dakota Access to inform

372a
them that the Army had completed the review called
for on September 9, “accounting for information it . . .
received from the Tribes and the pipeline company
since September,” and had “concluded that its previous decisions comported with legal requirements.”
ECF No. 56-1 (Letter from Jo-Ellen Darcy, Nov. 14,
2016). Nonetheless, in light of the United States’ history with the Great Sioux Nation, the importance of
Lake Oahe to Standing Rock, the government-to-government relationship with Standing Rock, and the
mandates of the Mineral Leasing Act regarding public
safety and the interests of those who rely on fish, wildlife, and biotic resources in the general area of a requested right-of-way, see 33 U.S.C. §§ 185(g),
(h)(2)(D), (k), “the Army determined that additional
discussion with the Standing Rock Sioux Tribe and
analysis [were] warranted.” Darcy Nov. 2016 Letter
at 2. The Army thus invited Standing Rock to engage
in discussions concerning “[p]otential conditions in an
easement for the pipeline crossing” that would reduce
spill risk “or otherwise enhance the protection of Lake
Oahe, the Tribe’s water supplies, and its treaty
rights”; the impact of those conditions on spill risk;
“whether to grant an easement for the pipeline to
cross Lake Oahe at the location currently proposed”
given those conditions; and anything else “the Tribe
believes is relevant to the proposed pipeline crossing
or easement.” Id. Darcy also wrote to Frazier to inform him of the Corps’ decision and to express the
Corps’ interest in “confer[ring] with [him] to better understand” his concerns. See ECF No. 131-4, Attach. A
(Letter from Jo-Ellen Darcy to Harold Frazier, Nov.
14, 2016); see also ECF No. 131-4 (Declaration of Harold Frazier, Feb. 22, 2017), ¶ 15. Two days later,

373a
Darcy and other Corps officials met with representatives of the Great Plains Tribal Chairpersons’ Association, including Frazier, to confirm that the November 14 letters “constituted an invitation to the [T]ribes
to provide any new information . . . relevant to the
Corps’ consideration of the easement.” Id., ¶ 16.
During this next review phase, Standing Rock offered further comments urging the Corps to deny the
easement because of the pipeline’s potential harm to
its water, hunting, fishing, and gathering rights. See
ECF No. 117-17 (Dec. 2, 2016). The Oglala Sioux
Tribe, which had brought a related case against the
Corps that has been consolidated with Standing
Rock’s action, see Minute Order of Mar. 16, 2017, submitted an expert report critiquing the EA’s spill-volume analysis. See ECF No. 117-18 (EarthFax Review
of EA, Dec. 2, 2016). The Corps’ Omaha District Commander met with representatives of Standing Rock
and Dakota Access to review the Tribe’s concerns and
discuss conditions that could be imposed on an easement to reduce the risk of spill or rupture. See ECF
No. 209-5 at 1-2 (Email from Scott Spellmon, Commanding General, NW Division, Corps, to Jo-Ellen
Darcy, Dec. 2, 2016). The day after the meeting, the
District Commander issued a memorandum recommending that the Corps grant an easement to Dakota
Access to cross Lake Oahe. See Henderson Memo.
The Corps also used this review phase to solicit
the opinion of the Department of the Interior “on the
extent to which tribal treaty rights . . . weigh in favor
of or against authorizations needed for the Lake Oahe
crossing.” ECF No. 117-6 (Memorandum from Hilary
C. Tompkins, Solicitor, Dep’t of Interior, Dec. 4, 2016)

374a
at 1. Interior’s Solicitor accordingly supplied a memorandum concluding that the Corps had “ample legal
justification to decline to issue the proposed Lake
Oahe easement on the current record,” and that it
“would be equally justified in suspending or revoking
the existing Section 408 permit as it relates to the
Lake Oahe crossing.” Id. at 4. Alternatively, the Solicitor recommended that the Corps not make a decision to issue the easement prior to engaging in government-to-government consultation with the Tribe;
preparing an EIS to “adequately evaluate[] the existence of and potential impacts to tribal rights and interests,” “consider a broader range of alternative pipeline routes,” and undertake “a catastrophic spill analysis prepared by an independent expert”; and more
comprehensively assessing “DAPL’s impact on tribal
rights, lands, and resources, including the socio-economic impacts, . . . in light of the fact that the reservation is a permanent homeland for the Tribes, as well
as other federal obligations towards the Tribes.” Id.
On December 4, the same day the Interior Solicitor issued her Opinion, Assistant Secretary Darcy issued a memorandum to the Corps’ Commander. She
explained that, to date, the Army had “not made a final decision on whether to grant the easement pursuant to [the Mineral Leasing Act].” ECF No. 172-7
(Memorandum from Jo-Ellen Darcy, Dec. 4, 2016),
¶ 6. Despite the Omaha District Commander’s recommendation that the Corps do so, Darcy stated that she
had “concluded that a decision on whether to authorize the Dakota Access Pipeline to cross Lake Oahe at
the proposed location merits additional analysis, more
rigorous exploration and evaluation of reasonable sit-

375a
ing alternatives, and greater public and tribal participation and comments.” Id., ¶ 12. “Accordingly,” she
continued, the Army would “not grant an easement to
cross Lake Oahe at the proposed location based on the
current record.” Id. She directed a “robust consideration of reasonable alternatives . . . , together with
analysis of potential spill risk and impacts, and treaty
rights,” which she thought would be “best accomplished . . . by preparing an Environmental Impact
Statement.” Id. Darcy emphasized, though, that her
“policy decision” did “not alter the Army’s position
that the Corps’ prior reviews and actions have comported with legal requirements.” Id., ¶ 15.
On January 18, 2017, Darcy followed up by publishing in the Federal Register a notice of intent to
prepare an EIS. See 82 Fed. Reg. 5,543 (Jan. 18,
2017). Cheyenne River sent a letter to her that same
day requesting that the Corps include it as a Cooperating Agency in the preparation and drafting of the
EIS given the potential for the pipeline to affect the
Tribe and its Reservation. See ECF No. 131-4, Attach.
B (Letter from Harold Frazier to Jo-Ellen Darcy, Jan.
18, 2017).
3. A New Administration
As we all know, elections have consequences, and
the government’s position on the easement shifted significantly once President Trump assumed office on
January 20, 2017. A Presidential Memorandum issued on January 24 directed the Secretary of the
Army to instruct the Assistant Secretary of the Army
for Civil Works and the Corps “to take all actions necessary and appropriate to . . . review and approve in
an expedited manner, to the extent permitted by law

376a
and as warranted, and with such conditions as are
necessary or appropriate, requests for approvals to
construct and operate the DAPL, including easements
or rights-of-way” and to “consider, to the extent permitted by law and as warranted, whether to rescind
or modify” the December 4 memorandum and the Notice of Intent to Prepare an EIS. See ECF No. 172-8,
§ 2.
The Army completed a technical and legal review
on February 3 and determined that the Final EA and
FONSI “satisfy[ied] the NEPA requirements for evaluating the easement required for the DAPL to cross
Corps-managed federal lands at Lake Oahe” and “support[ed] a decision to grant an easement.” ECF No.
172-9 (Memorandum from Todd Semonite, Lieutenant
General, Corps, Feb. 3, 2017) at 10. Based on a review
of the entire record, including the input received since
September 2016, the Corps also concluded that the Final EA did not require further supplementation, as
there were no “substantial changes in the proposed action” or “new significant circumstances or information
relevant to environmental concerns.” Id. at 11 (citing
40 C.F.R. §§ 1502.9(c)(1)(i)-(ii)). The Corps thus published in the Federal Register a notice of termination
of its intent to prepare an EIS, see ECF No. 95-3, provided notice to Congress of its intent to issue the easement, see ECF No. 172-10 (Congressional Notifications, Feb. 7, 2017), and did so on February 8. See
ECF No. 172-11 (Easement). The final easement contains 36 conditions intended to mitigate the risk of
rupture at Lake Oahe and otherwise address the
Tribe’s concerns. Id. at 37-43. To facilitate the Corps’
granting of the easement, the Acting Secretary of the
Interior withdrew the Interior Solicitor’s December 4

377a
Opinion. See ECF No. 127-15 (Memorandum from K.
Jack Haugrud, Acting Secretary, Dep’t of Interior,
Feb. 6, 2017). Having finally been given the green
light, Dakota Access, by late March, completed construction of this last segment beneath Lake Oahe and
began placing oil in the pipeline. See ECF No. 191
(DA Status Report, Mar. 27, 2017). DAPL became
fully operational on June 1, 2017. See Energy Transfer, Energy Transfer Announces the Bakken Pipeline
Is in Service Transporting Domestic Crude Oil from
the Bakken/Three Forks Production Areas, June 1,
2017,
http://ir.energytransfer.com/phoenix.zhtml?c
=106094&p=irol-newsArticle.
The day after the Corps granted Dakota Access
the easement, Cheyenne River moved for leave to file
a Second Amended Complaint, see ECF No. 97, and
also filed a motion for preliminary injunction and application for a temporary restraining order, both
based solely on the Religious Freedom Restoration
Act. See ECF Nos. 98, 99; Standing Rock II, 2017 WL
908538, at *3. Standing Rock joined the TRO application, but not the preliminary-injunction motion. See
ECF No. 107. In both filings, Cheyenne River argued
that its members “believe that the mere existence of a
crude oil pipeline under the waters of Lake Oahe will
desecrate those waters and render them unsuitable
for use in their religious sacraments,” and that DAPL
“correlates with a terrible Black Snake prophesied to
come into the Lakota homeland and cause destruction.” Standing Rock II, 2017 WL 908538, at *3 (quoting ECF No. 98 at 2-3). After orally denying the TRO,
see Minute Order of Feb. 13, 2017; ECF No. 119 (TRO
Oral Arg. Tr., Feb. 13, 2017) at 29:20-30:19, the Court
issued an Opinion similarly denying the preliminary-

378a
injunction motion, as it concluded that the extraordinary relief requested was not appropriate in light of
the equitable doctrine of laches and Cheyenne River’s
unlikelihood of success on the merits. Standing Rock
II, 2017 WL 908538, at *1.
In the midst of these proceedings, Standing
Rock—after moving for leave to amend its Complaint
to address new developments since it first filed this
case in July 2016, see ECF No. 106—filed the instant
Motion for Partial Summary Judgment on claims concerning the Corps’ decision not to prepare an EIS for
the Lake Oahe crossing; its granting of the easement;
and its permitting of the Lake Oahe crossing under
NWP 12. The Corps responded with its own CrossMotion for Partial Summary Judgment on these
causes of action, see ECF No. 172 (Corps SRST MSJ),
and Dakota Access filed briefs opposing Standing
Rock’s Motion and joining the Corps’ Cross-Motion.
See ECF Nos. 159 (DA SRST Opp.), 184 (Notice of
Joinder), 202-1 (DA SRST Reply). Cheyenne River
joined Standing Rock’s Motion, see ECF No. 131
(CRST MSJ) at 8, and filed its own Motion for Partial
Summary Judgment on claims concerning the Corps’
decisions to grant Dakota Access a permit under Section 408 of the RHA and an easement under the MLA.
The Corps and Dakota Access then cross-moved for
partial summary judgment on those claims as well.
See ECF No. 183 (Corps CRST MSJ); ECF No. 185
(DA CRST MSJ).
These Motions are now ripe. Although the Tribes
do not raise exactly the same causes of action, because
their Motions are closely related and sometimes overlap, the Court addresses both in this Opinion, turning
first to Standing Rock’s claims and then to Cheyenne

379a
River’s. For purposes of their resolution, the Court
has also today issued a Minute Order granting the
Tribes’ motions for leave to amend, such that the
claims relating to post-July 2016 events are properly
before it. After setting out the governing legal standard, the Court first addresses the relevant claims
raised by Standing Rock, see Section III, infra, and
then turns to those asserted by Cheyenne River. See
Section IV, infra.
II. Legal Standard
The parties have cross-moved for partial summary judgment on the administrative record. The
summary-judgment standard set forth in Federal
Rule of Civil Procedure 56(c), therefore, “does not apply because of the limited role of a court in reviewing
the administrative record.” Sierra Club v. Mainella,
459 F. Supp. 2d 76, 89 (D.D.C. 2006); see also Bloch v.
Powell, 227 F. Supp. 2d 25, 30 (D.D.C. 2002), aff’d, 348
F.3d 1060 (D.C. Cir. 2003). “[T]he function of the district court is to determine whether or not as a matter
of law the evidence in the administrative record permitted the agency to make the decision it did.” Sierra
Club, 459 F. Supp. 2d. at 90 (quotation marks and citation omitted). “Summary judgment is the proper
mechanism for deciding, as a matter of law, whether
an agency action is supported by the administrative
record and consistent with the [Administrative Procedure Act] standard of review.” Loma Linda Univ.
Med. Ctr. v. Sebelius, 684 F. Supp. 2d 42, 52 (D.D.C.
2010) (citation omitted), aff’d, 408 Fed. App’x 383
(D.C. Cir. 2010).
The Administrative Procedure Act “sets forth the
full extent of judicial authority to review executive

380a
agency action for procedural correctness.” FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 513 (2009). It
requires courts to “hold unlawful and set aside agency
action, findings, and conclusions” that are “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. § 706(2)(A). Agency
action is arbitrary and capricious if, for example, the
agency “entirely failed to consider an important aspect of the problem, offered an explanation for its decision that runs counter to the evidence before the
agency, or is so implausible that it could not be ascribed to a difference in view or the product of agency
expertise.” Motor Vehicle Mfrs. Ass’n of U.S., Inc. v.
State Farm Mut. Auto. Ins., 463 U.S. 29, 43 (1983).
This is a “narrow” standard of review, under
which “a court is not to substitute its judgment for
that of the agency.” Id. Rather, the Court “will defer
to the [agency’s] interpretation of what [a statute] requires so long as it is ‘rational and supported by the
record.’” Oceana, Inc. v. Locke, 670 F.3d 1238, 1240
(D.C. Cir. 2011) (quoting C & W Fishing Co. v. Fox,
931 F.2d 1556, 1562 (D.C. Cir. 1991)). In other words,
an agency is required to “examine the relevant data
and articulate a satisfactory explanation for its action
including a rational connection between the facts
found and the choice made.” State Farm, 463 U.S. at
43 (quoting Burlington Truck Lines v. United States,
371 U.S. 156, 168 (1962)). Courts, accordingly, “do not
defer to the agency’s conclusory or unsupported suppositions,” United Techs. Corp. v. Dep’t of Def., 601
F.3d 557, 562 (D.C. Cir. 2010) (quoting McDonnell
Douglas Corp. v. Dep’t of the Air Force, 375 F.3d 1182,
1187 (D.C. Cir. 2004)), and “agency ‘litigating positions’ are not entitled to deference when they are

381a
merely [agency] counsel’s ‘post hoc rationalizations’
for agency action, advanced for the first time in the
reviewing court.” Martin v. Occupational Safety &
Health Review Comm’n, 499 U.S. 144, 156 (1991).
Although a reviewing court “may not supply a reasoned basis for the agency’s action that the agency itself has not given,” a decision that is not fully explained may, nevertheless, be upheld “if the agency’s
path may reasonably be discerned.” Bowman Transp.,
Inc. v. Arkansas-Best Freight System, Inc., 419 U.S.
281, 285-86 (1974) (citation omitted).
III. Analysis of Standing Rock’s Claims
As earlier noted, Standing Rock seeks summary
judgment on three claims: (1) The Corps’ July 25,
2016, and February 8, 2017, conclusions that the
Oahe crossing did not warrant an EIS violated NEPA
because the agency did not make a convincing case
that no significant impacts would result and failed to
take a hard look at the project’s effects on Treaty
rights and environmental-justice considerations; (2)
The Corps’ February 8, 2017, decision to grant the
easement was arbitrary, capricious, and contrary to
law because the Corps reversed a prior policy without
reasoned justification and because the decision constituted a breach of trust responsibilities; and (3) The
Corps wrongfully concluded on July 25, 2016, that the
pipeline activities satisfied the terms and conditions
of NWP 12. The Court addresses each in turn.
A. Decision Not to Prepare EIS
In reviewing an agency’s decision not to issue an
EIS, the Court’s role is a “‘limited’ one, designed primarily to ensure ‘that no arguably significant consequences have been ignored.’ TOMAC, Taxpayers of

382a
Michigan Against Casinos v. Norton, 433 F.3d 852,
860 (D.C. Cir. 2006) (quoting Pub. Citizen v. Nat’l
Highway Traffic Safety Admin., 848 F.2d 256, 267
(D.C. Cir. 1988)). An agency’s decision to issue a
FONSI and thus not to prepare an EIS will be overturned only “if the decision was arbitrary, capricious,
or an abuse of discretion.” Sierra Club v. Peterson,
717 F.2d 1409, 1413 (D.C. Cir. 1983).
When examining the adequacy of the FONSI and
the EA upon which it was based, courts must determine whether the agency:
(1) has accurately identified the relevant environmental concern, (2) has taken a hard
look at the problem in preparing its [FONSI
or Environmental Assessment], (3) is able to
make a convincing case for its finding of no
significant impact, and (4) has shown that
even if there is an impact of true significance,
an EIS is unnecessary because changes or
safeguards in the project sufficiently reduce
the impact to a minimum.
Sierra Club v. Van Antwerp, 661 F.3d 1147, 1154
(D.C. Cir. 2011) (quoting TOMAC, 433 F.3d at 861)
(internal quotation marks omitted). In so doing,
courts in this circuit apply “a rule of reason to an
agency’s NEPA analysis” and decline to “‘flyspeck’ the
agency’s findings in search of ‘any deficiency no matter how minor.’” Myersville Citizens for a Rural
Cmty., Inc. v. FERC, 783 F.3d 1301, 1322-23 (D.C. Cir.
2015) (quoting Nevada v. Dep’t of Energy, 457 F.3d 78,
93 (D.C. Cir. 2006)).
Standing Rock contends that the EA for DAPL
“runs afoul of these standards.” SRST MSJ at 19. In

383a
particular, the Tribe argues that the Corps did not
take a hard look at or make a convincing case that the
Lake Oahe crossing will have no significant environmental impact, and that it did not sufficiently consider route alternatives or environmental-justice implications. Id. at 19-31. For these reasons, it asserts
that “[t]he Corps’ conclusion that the Oahe crossing
was not significant enough to warrant an EIS is arbitrary, capricious, and contrary to law.” SRST MSJ at
17; see Nevada, 457 F.3d at 87 (“[Courts] apply the
APA’s arbitrary and capricious standard to a NEPA
challenge.”). The Court begins its analysis with environmental impact and then turns to alternatives and
environmental justice.
1. Hard Look/Convincing Case
Pursuant to NEPA’s “hard look” requirement, the
agency must ensure that “the adverse environmental
effects of the proposed action are adequately identified and evaluated.” Robertson, 490 U.S. at 350. In
evaluating the significance of a proposed action’s impact, an agency is to consider, inter alia, the effect on
“public health or safety”; “[u]nique characteristics of
the geographic area such as proximity to historic or
cultural resources”; the extent to which the environmental effects “are likely to be highly controversial” or
“are highly uncertain or involve unique or unknown
risks”; “[w]hether the action is related to other actions
with individually insignificant but cumulatively significant impacts”; and the degree to which the action
“may cause loss or destruction of significant . . . cultural[] or historical resources.” 40 C.F.R. § 1508.27.

384a
The Tribe identifies several ways in which the
Corps allegedly failed to take a hard look at the environmental consequences of permitting DAPL’s construction and operation and to make a convincing case
of no significant impact. It principally argues that the
agency did not properly assess the risk of a spill under
Lake Oahe or sufficiently consider the environmental
impacts on Treaty rights of the construction of the
pipeline or of a spill. Before proceeding to address
each of the Tribe’s points, however, the Court must
dispense with a threshold issue.
a. Extent of Record
To substantiate many of its critiques of the EA’s
analysis, the Tribe relies on expert reports and other
records dated after July 25, 2016, when the Final EA
and Mitigated FONSI were published. Dakota Access
argues that the Court should not consider these reports or any evidence from the Tribe that post-dates
July 25.
“It is a widely accepted principle of administrative
law that the courts base their review of an agency’s
actions on the materials that were before the agency
at the time its decision was made.” IMS, P.C. v. Alvarez, 129 F.3d 618, 623 (D.C. Cir. 1997) (listing cases).
Here, in challenging the Corps’ decision not to prepare
an EIS, the Tribe in effect challenges authorizations
made at two different times: the RHA Section 408 authorization and NWP 12 verification on July 25, 2016,
and the easement approval on February 8, 2017. See
ECF No. 196-1 (SRST Reply) at 3. The Section 408
and NWP 12 decisions were based on the conclusion
set out in the EA and FONSI that the permissions

385a
would not have a significant impact on the environment, and the easement decision was also based on
“additional review, analysis of terms and conditions
for the easement, and on the Corps’ decision that supplementation of the EA/FONSI was not required.”
Corps SRST MSJ at 10. The Corps thus decided at
two junctures that an EIS was not required, and it
prepared an administrative record encompassing the
materials that were before it at each decision date.
Although Dakota Access is technically correct that the
expert reports and other evidence submitted after
July 25, 2016, are outside the record for the RHA Section 408 and NWP 12 decisions, that offers them little
aid. This is because the Court can review the materials before the Corps as of February 8, 2017, for purposes of evaluating the decision to grant the easement
absent an EIS. The Court, consequently, will consider
all materials dated up to February 8.
To complicate matters further, however, the Tribe
wishes the Court to also review “some uncontroversial
background materials (e.g., maps) and declarations
from its expert” that post-date February 8. See SRST
Reply at 3. It argues that such extra-record evidence
comes within the “accepted exceptions to the principle
that the court cannot consider information that falls
outside the agency record”—namely, where “the
agency failed to examine all relevant factors or to adequately explain its grounds for decision, or . . . acted
in bad faith or engaged in improper behavior in reaching its decision.” IMS, 129 F.3d at 624; SRST Reply
at 3.
On this point, the Tribe first contends that the
Corps engaged in improper behavior by withholding
confidential spill-model discussions and geographic-

386a
response plans to which its post-easement expert declarations respond. See SRST Reply at 3-4. But the
showing required “to justify supplementing the record” is a “‘strong’” one, IMS, 129 F.3d at 624 (quoting
Citizens to Preserve Overton Park v. Volpe, 401 U.S.
402, 420 (1971)), and the Court does not find that the
Tribe has made it here. The Corps has explained that
it withheld from the Tribe and the public a small number of documents supporting the EA “[b]ecause of security concerns and sensitivities.” Dec. 4 Memo, ¶ 5.
Indeed, the Court recently concluded that there was
good cause to protect from public disclosure certain information in some spill-model reports that, if released,
could endanger life or physical safety. Standing Rock
Sioux Tribe v. U.S. Army Corps of Eng’rs (Standing
Rock III), No. 16-1534, 2017 WL 1316918, at *5-6
(D.D.C. Apr. 7, 2017). Absent a showing to the contrary, the Court thus cannot permit supplementation
of the record on the ground of some withholding impropriety.
The Tribe next argues that its extra-record evidence describes how the Corps failed to examine all
relevant factors and provide adequate grounds for its
decision. But “[t]his is not a case where the agency
failed ‘to explain administrative action [so] as to frustrate effective judicial review.’” IMS, 129 F.3d at 624
(quoting Camp v. Pitts, 411 U.S. 138, 142-43 (1973)).
The EA addressed each factor for which the Tribe
marshals extra-record evidence, even if not with the
depth or ultimate conclusion the Tribe would prefer.
Compare SRST MSJ at 21 (criticizing Corps’ failure to
address “slow leaks in the HDD bore,” which, based
on Tribe-commissioned expert review, would be “‘complicated if not impossible to clean up and likely would

387a
have significant impacts on soils’ and underlying aquifers”) (quoting ECF No. 117-23 (Envy Report, Jan.
5, 2017) at 14); SRST Reply at 11 (“Landslides are a
major source of pipeline failures and a critical factor
in route selection.”) (citing ECF No. 195-4 (Corrective
Action Order, Belle Fourche Pipeline Company, Dec.
20, 2016); Accufacts, Inc. Review at 3; ECF No. 120
(Sealed Declaration of Richard Kuprewicz, Feb. 12,
2017), 1121); id. at 12 (describing EA’s failure to
acknowledge “undisputed evidence” regarding failure
rates of spill-detection systems) (citing ECF No. 2095 at 110 (Letter from Sierra Club Indigenous Environmental Network, Oct. 10, 2016); Accufacts, Inc. Review at 5); id. at 12-13 (“[T]he EA fails to acknowledge
that with a pipeline 90 feet underground, there is no
way to discover a slow leak until the oil sheen appears
on the surface of the water, at which point a massive
release will have occurred that would be nearly impossible to clean up.”) (citing Envy Report at 13-14; Oct.
28, 2016, SRST Letter at 5); id. at 13 (stating the EA’s
“startlingly optimistic times for responding to a spill
after it has been detected . . . have been the subject of
withering criticism”) (citing Accufacts, Inc. Review at
5-6; EarthFax Report at 9; Sealed Kuprewicz Decl.,
¶¶ 15-17; Envy Report at 27); id. at 13-14 (“One expert
review found numerous flaws in the Corps’ analysis of
water quality impacts of a spill, including a failure to
identify key pollutants; overstatement of flows that
dilute likely pollutant impacts; use of an inappropriate standard to determine toxicity; and reliance on the
wrong drinking water standard.”) (citing EarthFax
Report at 5-7); id. at 14 (arguing EA’s treatment of impact of winter conditions on spill risk was inadequate)
(citing EarthFax Report at 7-8; Oct. 28, 2016, SRST

388a
Letter at 5; ECF No. 196-2 (Declaration of Elliott
Ward, Mar. 25, 2017), ¶ 12) with EA at 19, 36 (borehole leaks); 26-28 (landslides); 42, 46, 90-91 (description of leak-detection system as “capable of detecting
leaks down to 1 percent or better of the pipeline flow
rate within a time span of approximately 1 hour or
less and capable of providing rupture detection within
1 to 3 minutes”); 36-49 (discussing impacts of spill to
water quality); 39, 43, 123 (discussing impact of
“[s]ub-freezing temperatures during the winter
months” and means of responding to spill in winter,
including identifying “all-weather access and collection point” downstream of Oahe crossing and undertaking “full scale winter/ice” emergency response
drills/exercises).
Disagreement with an agency’s analysis is not
enough to warrant the consideration of extra-record
evidence, which, after all, is “the exception, not the
rule.” Oceana, Inc. v. Pritzker, 126 F. Supp. 3d 110,
113 (D.D.C. 2015) (quoting Theodore Roosevelt Conservation Partnership v. Salazar, 616 F.3d 497, 514
(D.C. Cir. 2010)). As it proceeds through Standing
Rock’s arguments regarding the deficiencies in the
EA’s analysis, therefore, the Court will not engage
with those contentions that turn on evidence that
post-dates February 8, 2017. This procedural brush
now cleared away, the Court tackles the substance of
the Tribe’s no-convincing-case position, beginning
with spill risks and continuing to Treaty rights.
b. Spill-Risk Analysis
Although grouped under the “spill-risk” heading,
Standing Rock’s challenges here encompass the risk
of spills, the degree of scientific controversy, and the

389a
cumulative risk of the project, each of which is analyzed separately.
i. Risk of Spill
Standing Rock first maintains that the EA understates and does not properly assess the risk of an oil
spill under Lake Oahe. See SRST MSJ at 21 (“[T]he
Corps falls back on a rote mantra that the risk of oil
spills is low.”); id. at 22 (citing Solicitor Op. at 28-29
& n.171 (noting PHMSA data shows average of over
283 significant incidents involving gas, oil, or other
pipelines per year since 1996)). It argues that, although the EA repeats that the spill risk is “very low,”
“unlikely,” or “negligible,” see, e.g., EA at 48, 63, 87, it
does not explain what “low” means. See SRST Reply
at 9. And “to conduct a credible assessment of spill
risks,” the Corps should have addressed concerns relating to landslide risks, inadequate spill-detection
systems, underground leaks, response times, spill volumes, water-quality analysis, and winter conditions,
id. at 11-14, and looked at portions of the pipeline entering and exiting the boreholes. Id. at 15-16.
The EA, in fact, devotes several pages to discussing DAPL’s “reliability and safety.” EA at 88-94. The
relevant section first explains that, “[t]o prevent pipeline failures resulting in inadvertent releases,” DAPL
will be constructed and maintained in accordance
with “industry and governmental requirements and
standards,” including those from PHMSA, the American Society of Mechanical Engineers, the National Association for Corrosion Engineers, and the American
Petroleum Industry. Id. at 88. After its installation,
the pipeline will undergo “hydrostatic pressure testing at the crossings, checking coating integrity, and X-

390a
ray inspection of the welds.” Id. The pipeline rightof-ways will also “be patrolled and inspected by air . . .
at least every three weeks and not less than 26 times
per year[] to check for abnormal conditions or dangerous activities, such as unauthorized excavation along
the pipeline route.” Id. In addition, Dakota Access
plans to use “a supervisory control and data acquisition . . . system to provide constant remote oversight
of the pipeline facilities,” including the detection of
“rapid drops in pressure,” and pipeline-monitoring
software to identify any leaks by tracking “pipeline
pressure, flow, and temperature data” pulled every six
seconds. Id. at 89-90. The EA reports that such a system “is capable of detecting leaks down to 1 percent or
better of the pipeline flow rate within a time span of
approximately 1 hour or less and capable of providing
rupture detection within 1 to 3 minutes.” Id. at 90. If
a leak is detected, remotely operated valves are to be
triggered and closed within three minutes. Id.
Other courts, including this Circuit, have favorably viewed similar agency reliance on applicable regulatory standards when assessing impacts as part of
a NEPA-required analysis. See, e.g., EarthReports,
Inc. v. FERC, 828 F.3d 949, 957 (D.C. Cir. 2016) (holding agency fulfilled its NEPA obligations to evaluate
ballast-water impacts by, inter alia, noting requirements of applicable regulatory agencies); Sierra Club
v. Clinton, 746 F. Supp. 2d 1025, 1047 (D. Minn. 2010)
(holding agency properly considered impacts of pipeline abandonment by referencing PHMSA regulations).
The EA then proceeds to review the basis for its
conclusion that the risk of an oil spill is “low.” EA at
92. Specifically, that conclusion comes from a risk

391a
analysis conducted by Dakota Access that was derived
from criteria set out in “the W. Kent Muhlbauer Relative Index Methodology (2004), in accordance with 49
CFR 195.452 ‘Hazardous Liquid Pipelines in High
Consequence Area’, API RP 1160 ‘Managing System
Integrity for Hazardous Liquid Pipelines’, and ASME
B31.8S ‘Managing System Integrity of Gas Pipelines.’
Id. That analysis “addressed nine industry-recognized pipeline integrity threat categories”: (1) thirdparty damage; (2) external corrosion; (3) internal corrosion; (4) pipe-manufacturing defects; (5) construction-related defects; (6) incorrect operations; (7) equipment failure; (8) stress-corrosion cracking; and (9)
natural forces. Id. at 92-94.
The underlying analysis is not itself in the record,
see SRST Reply at 8, but the EA summarizes its conclusions as to each of the nine factors. Although no
explanation is provided, three of the nine factors—external corrosion, internal corrosion, and constructionrelated defects—are assessed only as to the crossing
at Lake Sakakawea; the other six are applied to both
Sakakawea and Oahe. See EA at 92-94. The EA’s explanation of its choice of methodology and subsequent
treatment of the different factors is nonetheless
enough to give substance to the Corps’ conclusion that
the risk of a spill is low. See Sierra Club v. Watkins,
808 F. Supp. 852, 868 (D.D.C. 1991) (explaining courts
should “defer to an agency’s decision to use a particular risk assessment methodology that is consistent
with general principles of science”) (citing Sierra Club
v. Dep’t of Transp., 753 F.2d 120, 128-29 (D.C. Cir.
1985)). For example, the EA explains that, at the
Oahe crossing, spill risk due to third-party damage is
low because the pipeline is positioned 92 feet below

392a
the lakebed; spill risk from manufacturing defects is
also slim because the pipeline will be “hydrostatically
strength-tested”; and spill risk from “incorrect operations (e.g., overpressure event caused by human error)” is low because the pipeline is designed to withstand twice the maximum-allowable operating pressure. See EA at 92-94. The EA thus does not simply
use “[a]n unbounded term” that “provides no objective
standard for determining what kind of differential
makes one impact more or less significant than another.” Mainella, 459 F. Supp. 2d at 101. Admittedly,
the EA does not quantify the risk of a spill with exact
numerical precision. But in setting out the specific
factors that undergirded its risk analysis and explaining their application to DAPL, the EA reasonably
gives the necessary content to its top-line conclusion
that the risk of a spill is low.
As noted above in the discussion of extra-record
evidence, moreover, the EA did not omit discussion of
borehole leaks (EA at 19, 36); landslides (EA at 26-28);
leak-detection systems (EA at 42, 46, 90-91); water
quality (EA at 36-49); or winter temperatures (EA at
39, 43, 123). To the extent the Tribes’ experts disagree
with the Corps’ technical assessments or overall conclusion, such disagreements are “a classic example of
a factual dispute the resolution of which implicates
substantial agency expertise.” Wisc. Valley Improvement Co. v. FERC, 236 F.3d 738, 746 (D.C. Cir. 2001)
(quoting Marsh, 490 U.S. at 376). In such situations,
courts “must defer to ‘the informed discretion of the
responsible federal agencies.” Id. at 747 (quoting
Marsh, 490 U.S. at 377); see also Nat’l Comm. for the
New River v. FERC, 373 F.3d 1323, 1327 (D.C. Cir.
2004) (“When an agency ‘is evaluating scientific data

393a
within its technical expertise,’ an ‘extreme degree of
deference to the agency’ is warranted.”) (quoting B&J
Oil & Gas v. FERC, 353 F.3d 71, 76 (D.C. Cir. 2004)).
ii. Highly Controversial
Although the Court cannot agree with Standing
Rock that the Corps did not adequately consider or explain its conclusion that the risk of an oil spill is low,
a related position gains more traction. As explained
above, CEQ regulations provide that one factor that
“should be considered” in evaluating the significance
of a proposed action’s impact is “[t]he degree to which
the effects on the quality of the human environment
are likely to be highly controversial.” 40 C.F.R.
§ 1508.27(b)(4). Standing Rock argues that evidence
in the record indicated that the pipeline’s effects were
highly controversial, and that the Corps therefore
should have concluded that the project would have
significant impacts on the environment. See SRST
MSJ at 20-21.
Such controversy is not measured by newsworthiness; instead, according to the Court of Appeals, “The
term ‘controversial’ refers to cases where a substantial dispute exists as to the size, nature, or effect of the
major federal action rather than to the existence of opposition to a use.” Town of Cave Creek, Arizona v.
FAA, 325 F.3d 320, 331 (D.C. Cir. 2003) (quoting
Found. for N. Am. Wild Sheep v. Dep’t of Agric., 681
F.2d 1172, 1182 (9th Cir. 1982)). Despite that explanation, however, as other courts in this district have
observed, “Just what constitutes the type of ‘controversy’ that requires a full EIS is not entirely clear.”
Nat’l Parks Conservation Ass’n v. United States, 177
F. Supp. 3d 1, 33 (D.D.C. 2016) (quoting Nat’l Wildlife

394a
Fed’n v. Norton, 332 F. Supp. 2d 170, 184 (D.D.C.
2004)). At a minimum, “something more is required
besides the fact that some people may be highly agitated and be willing to go to court over the matter.”
Id. (quoting Fund for Animals v. Frizzell, 530 F.2d
982, 988 n.15 (D.C. Cir. 1975)).
“Many courts have found ‘something more’ to be
scientific or other evidence that reveals flaws in the
methods or data relied upon by the agency in reaching
its conclusions.” Id. (citing Nat’l Parks & Conservation Assoc. v. Babbitt, 241 F.3d 722, 736-37 (9th Cir.
2001) (holding agency action was highly controversial
because “comments urg[ing] that the EA’s analysis
was incomplete, and the mitigation uncertain, . . . cast
substantial doubt on the adequacy of the Parks Service’s methodology and data,” and thus the dispute
went “beyond a disagreement of qualified experts over
the ‘reasoned conclusions’ as to what the data reveal[ed]”); Nat’l Wildlife Fed’n, 332 F. Supp. 2d at 185
(“Such a controversy exists where the Corps is presented with scientific evidence specifically evaluating
the environmental effects of the proposed project or
calling into question the adequacy of the EA.”); Fund
for Animals v. Norton, 281 F. Supp. 2d 209, 235
(D.D.C. 2003) (“While plaintiffs have identified serious gaps in defendants’ assessment of the local effects
of the proposed action, they do not appear to have
identified any scientific controversy per se as to the
extent of the effects.”); Sierra Club v. Van Antwerp,
719 F. Supp. 2d 58, 67-68 (D.D.C. 2010) (“While declarations were submitted to the Corps from numerous
experts who claimed that [the development project]
will have significant adverse impacts on Cypress
Creek and its wetlands, these declarations alone fail

395a
to rise to the level of ‘controversy’ under NEPA.”), aff’d
in part, rev’d in part on other grounds, 661 F.3d 1147
(D.C. Cir. 2011), as amended (Jan. 30, 2012)); but cf.
Humane Soc. of U.S. v. Dep’t of Commerce, 432 F.
Supp. 2d 4, 19-20 (D.D.C. 2006) (finding agencies’ decision not to prepare EIS highly controversial based
on comments from plaintiff and other agencies indicating disagreement with agencies’ conclusions).
Here, as evidence of controversy, Standing Rock
refers only generally to “the multiple critiques of the
Corps’ unexamined conclusions, expert evidence indicating greater risks, and critical comment from other
federal agencies.” SRST MSJ at 20-21. The Tribe
does not help the Court to evaluate its argument by,
for example, following these general references with
specific statements made by the Tribe, agencies, or experts critiquing the Corps’ methodology or data. In
any event, based on its review of the record, the Court
first concludes that none of the evidence before the
Corps as of July 25, 2016—including Standing Rock’s
comments, see ECF No. 159-1, Exh. C (SRST Comments on Draft EA, Jan. 8, 2016); id., Exh. D (SRST
Suppl. Comments on Draft EA, Mar. 24, 2016); ECF
No. 209-6 at 51 (Notes for Feb. 18-19, 2016, Tribal
Meeting); ECF No. 209-9 at 33 (Letter from Waste
Win Young to Martha Chieply, Feb. 25, 2015), and
submissions from the EPA and the Department of the
Interior, see ECF No. 209-7 at 21 (Letter from Lawrence Roberts to Brent Cossette, Mar. 29, 2016), ECF
No. 209-16 at 184 (Letter from Philip Strobel to Brent
Cossette, Jan. 8, 2016), ECF No. 209-8 at 123 (Letter
from Philip Strobel to Brent Cossette, Mar. 11, 2016),
ECF No. 209-9 at 209 (Email “Quick Summary of Conference Call with EPA,” Feb. 25, 2016)—suggested

396a
substantial methodological or data flaws in the Corps’
analysis.
The expert reports submitted to the Corps after
the Final EA was published but before the Corps
again decided in February 2017 that an EIS was not
required, see Semonite Memo at 14, however, do present such scientific critiques. See, e.g., EarthFax Report at 1-3 (critiquing EA for considering spill volumes
from pipelines generally, rather than from pipelines
with 16-inch or larger diameters, like DAPL); id. at 4
(suggesting EA used incorrect river-flow rates to assess spill impacts); id. at 5-7 (explaining EA used inappropriate benzene-concentration limits); id. at 9 (arguing EA should have included quantitative analysis
of risk of failure of system components); id. at 9 (contending EA wrongly relied upon premise that emergency block valves would close immediately upon leak
detection); Accufacts, Inc. Review at 7 (stating corrosion threats should be assessed based on field readings of in-line inspection runs, not assumed rates); id.
at 9-10 (arguing that complete risk analysis required,
inter alia, consideration of pipeline elevation profile,
maximum operating pressure, location of mainline
valves, location and type of “critical leak detection
monitoring devices by milepost”).
It may well be the case that the Corps reasonably
concluded that these expert reports were flawed or unreliable and thus did not actually create any substantial evidence of controversial effects. Dakota Access,
for example, offers a scathing assessment of the reports’ “material flaws.” DA SRST Opp. at 21 n.4. But
the Corps never said as much. Its February 3, 2017,
memo determining that the Final EA and FONSI sat-

397a
isfied NEPA’s requirements and supported the decision to grant the easement is devoid of any discussion
of the methodological and data flaws identified in the
reports. Indeed, it acknowledges receiving only
Standing Rock’s Accufacts, Inc. Review and wholly ignores the others. See Semonite Memo at 12. As the
agency did not demonstrate that it considered, as the
CEQ regulations require, the degree to which the project’s effects are likely to be highly controversial, despite being presented with evidence of scientific flaws,
the Court cannot conclude that the Corps made a convincing case of no significant impact or took the requisite hard look. The remedy for such violation is discussed in Section III.D, infra.
iii. Cumulative Risk
Finally, the Tribe contends that the EA “fails to
consider the cumulative risk imposed by the pipeline.”
SRST MSJ at 22 (citing 40 C.F.R. § 1508.27(b)(7)
(“Significance exists if it is reasonable to anticipate a
cumulatively significant impact on the environment.”)). “Cumulative impact is the impact on the environment which results from the incremental impact
of the action when added to other past, present, and
reasonably foreseeable future actions regardless of
what agency (Federal or non-Federal) or person undertakes such other actions.” 40 C.F.R. § 1508.7.
Such impacts “can result from individually minor but
collectively significant actions taking place over a period of time.” Id. Other pipelines cross under the Missouri River, but, the Tribe states, the EA does not analyze how the addition of DAPL compounds the overall risk of a pipeline spill in the Missouri River, nor
does it consider “the cumulative risk to Tribal resources from the rest of the pipeline outside Lake

398a
Oahe.” SRST MSJ at 23; see also id. at 23 n.12 (criticizing Corps for “unlawfully segmenting its NEPA review of one pipeline into [three] separate components”). This argument, like the Tribe’s first in this
subsection, does not succeed.
The EA devotes eleven pages to a discussion of cumulative impacts on eleven types of resources, including geology and soils, water and aquatic life, agriculture, land use, cultural and historic resources, and environmental justice. See EA at 98-107. It acknowledges at the outset that in the vicinity of the Oahe
crossing are “oil and gas development and associated
infrastructure, utility installation, and agriculture,”
and that the pipeline at the Oahe crossing is co-located with “a natural gas pipeline and a 345 kV power
line.” EA at 98. Although the EA does not expressly
state whether the presence of other pipelines increases the risk that DAPL (or those pipelines) will
rupture, it acknowledges the potential for unanticipated releases and refers back to the analysis of minimization and remediation activities to conclude that
the potential cumulative impacts on water and
aquatic resources from spills “would be minor.” Id. at
101. It also considers the benefits of co-location, such
as minimized land-use disturbance from construction.
Id. at 105. The EA therefore does not simply conclude
absent any actual analysis that cumulative impacts
would be minimal; on the contrary, there is enough to
“allow the Court to review the agency’s finding.”
Friends of the Earth, Inc. v. U.S. Army Corps of
Eng’rs, 109 F. Supp. 2d 30, 42 (D.D.C. 2000).
The Corps, moreover, was not required to consider
the impacts from the whole pipeline. See Sierra Club
v. U.S. Army Corps of Eng’rs, 803 F.3d 31, 34 (D.C.

399a
Cir. 2015) (holding that where federal easement and
CWA permitting encompassed only five percent of
pipeline’s length, “the federal government was not required to conduct NEPA analysis of the entirety of the
. . . pipeline, including portions not subject to federal
control or permitting”); Sierra Club v. Bostick, 787
F.3d 1043, 1051-54 (10th Cir. 2015) (holding Corps
was not required to prepare NEPA analysis of entire
pipeline when verifying NWPs for 485-mile oil pipeline crossing over 2,000 waterways); Winnebago Tribe
of Neb. v. Ray, 621 F.2d 269, 272-73 (8th Cir. 1980)
(same for electric utility line). That it did not address
the cumulative risk from the entire pipeline thus does
not run afoul of NEPA.
c. Impacts Analysis Re: Treaty Rights
In addition to challenging the EA’s analysis of the
risk of a spill, Standing Rock raises concerns about its
discussion of the effects of the project, including a potential spill, should one occur, on the Tribe’s Treaty
rights. According to Standing Rock, “NEPA requires
the Army Corps to disclose and assess the suite of
risks from the Lake Oahe crossing to the full range of
the Tribe’s Treaty rights, in the context of the Corps’
heightened trust responsibilities.” SRST MSJ at 24.
Here, the relevant Treaty rights are those implicating
water, hunting, and fishing. Id. at 25; Corps SRST
MSJ at 20; see also Winters v. United States, 207 U.S.
564, 576-78 (1980) (holding that when federal government creates an Indian reservation, it impliedly reserves otherwise unappropriated water to extent necessary to accomplish purposes of reservation); Fort
Laramie Treaty of 1851, art. 55, 11 Stat. 749, 1851 WL
7655 (reserving for the Sioux tribes “the privilege of
hunting, fishing, or passing over” lands described in

400a
Treaty); United States v. Dion, 476 U.S. 734, 738
(1986) (“As a general rule, Indians enjoy exclusive
treaty rights to hunt and fish on lands reserved to
them, unless such rights were clearly relinquished by
treaty or have been modified by Congress.”). The
Court first explains the manner of the Corps’ analysis
of these rights and then turns separately to the effect
of construction and the impact of a spill on such rights.
i. Manner of Analysis
Before turning to whether the Corps adequately
considered these impacts, the Court discusses how it
was required to do so. The Tribe contends that the
Corps had to address these Treaty rights qua Treaty
Rights, see SRST MSJ at 25-26; SRST Reply at 23-24,
whereas the Corps asserts that it needed only to consider the effects on the resources implicated by the
Treaty rights—i.e., water, fish, and game. See Corps
SRST MSJ at 20-21 & n.9. To explain more fully,
Standing Rock believes that the Corps’ position “misunderstands the Tribe’s Treaty rights,” which “embody the fundamental rights of a people tied to a place
since time immemorial” and thus demand a more “existential” analysis. See SRST Reply at 23-24. For example, the Tribe explains that, although “[e]cological
impacts to fish and game habitat and populations present one dimension” of the impacts of an oil spill on
aquatic resources, “[t]he impact to Tribal members of
losing the right to fish and hunt, which provides both
much-needed subsistence food to people facing extensive poverty as well as a connection to cultural practices that Tribal members have engaged in since time
immemorial, is a separate issue.” Id.

401a
Standing Rock may be right that the construction
and operation of DAPL under Lake Oahe could affect
its members in the broad and existential ways it details, but it offers no case law, statutory provisions,
regulations, or other authority to support its position
that NEPA requires such a sweeping analysis. The
Corps, conversely, points to several cases in which
courts have approved an approach consistent with its
view of its NEPA obligations—i.e., an agency may assess impacts on treaty rights by analyzing the effects
on a specific resource identified in the treaty. See
Ground Zero Ctr. for Nonviolent Action v. Dep’t of the
Navy, 918 F. Supp. 2d 1132, 1152 (W.D. Wash. 2013),
on reconsideration in part No. 12-1455, 2013 WL
357509 (W.D. Wash. Jan. 29, 2013) (assessing impact
on tribe’s treaty fishing rights by considering surveys
of fish patterns and Navy’s mitigation efforts); Nw.
Sea Farms, Inc. v. U.S. Army Corps of Eng’rs, 931 F.
Supp. 1515, 1521-22 (W.D. Wash. 1996) (explaining
Corps correctly concluded that project would impair
treaty fishing rights by considering impact on tribe’s
access to fish); No Oilport! v. Carter, 520 F. Supp. 334,
356-57 (W.D. Wash. 1981) (concluding EIS’s discussion of effect of pipeline rupture on “the fish resource,”
including via maps, adequately evaluated project’s
impact on tribe’s treaty fishing rights). Absent any
controlling or persuasive authority to the contrary,
the Court sees no basis on which to conclude that
NEPA demands the type of existential-scope analysis
the Tribe advocates. Rather, it is sufficient that the
agency adequately analyze impacts on the resource
covered by a given treaty.

402a
The next question, then, is whether the agency’s
weighing of those relevant Treaty rights here viz., water, fishing, and hunting was adequate. The Court approaches that question by looking at the Corps’ assessment of the impacts on the different Treaty rights
from (1) the construction of the pipeline, and (2) an
unanticipated oil spill. In so doing, the Court keeps in
mind the definition of “hard look” recently articulated
by the D.C. Circuit: “[A]n agency has taken a ‘hard
look’ at the environmental impacts of a proposed action if the statement contains sufficient discussion of
the relevant issues and opposing viewpoints, and the
agency’s decision is fully informed and well-considered.” Myersville Citizens for a Rural Community,
Inc. v. FERC, 783 F.3d 1301, 1324-25 (D.C. Cir. 2015).
ii. Construction
The EA discussed in several places the potential
impact of DAPL’s construction on water resources,
fish, and wildlife at Lake Oahe. See EA at 36 (acknowledging that, during HDD-construction phase,
drilling fluid could inadvertently be released “directly
or indirectly into the waterbody” and discussing mitigation measures); id. at 37 (explaining water required
for HDD construction and hydrostatic testing at Oahe
crossing would not be obtained from Lake Oahe); id.
at 38 (“No waterbody would be permanently drained
or filled as part of the DAPL Project, and effects on
waterbodies are expected to be short-term and minor.”); id. at 45 (addressing impacts of construction activities on groundwater); id. at 50 (explaining no wetlands exist within Oahe Project Area or Connected Action Area); id. at 58 (discussing “[t]emporary impacts
on wildlife” that “could occur during construction,” in-

403a
cluding displacement of “larger and more mobile animals”); id. (“No impacts to treaty fishing and hunting
rights are anticipated due to construction within the
Project Area or Connected Actions.”); id. at 69 (discussing possible adverse impacts on “fish eggs, juvenile fish survival, benthic community diversity and
health, and spawning habitat,” as well as “fish fry[]
and invertebrates inhabiting the river,” from “subsurface disturbing activities,” inadvertent release of drilling mud, and water withdrawal from Missouri River);
id. at 75 (“The recreational enjoyment of wildlife (such
as hunting or bird watching) may be temporarily affected by construction activities, depending on season
and location.”). Because the EA “clearly addressed”
these impacts and concluded that they would either
be insignificant or could be mitigated, the Court finds
that, in this respect, it was adequate. See Minisink
Residents for Envtl. Pres. & Safety v. FERC, 762 F.3d
97, 112 (D.C. Cir. 2014) (finding EA adequately examined compressor-station project’s impact on property
values where it recognized some adverse impacts
might accrue but could be mitigated).
iii. Spill Impacts
As to the second issue—namely, the spill effects—
the Tribe contends that the EA “never examined the
impacts of spills on the Tribe and its Treaty rights.”
SRST Reply at 1. The Court agrees in part.
First, it bears noting that even though a spill is
not certain to occur at Lake Oahe, the Corps still had
to consider the impacts of such an event on the environment. “[A]n agency conducting an EA generally
must examine both the probability of a given harm occurring and the consequences of that harm if it does

404a
occur.” New York v. Nuclear Regulatory Comm’n, 681
F.3d 471, 482 (D.C. Cir. 2012). “Only if the harm in
question is so ‘remote and speculative’ as to reduce the
effective probability of its occurrence to zero may the
agency dispense with the consequences portion of the
analysis.” Id. (quoting Limerick Ecology Action, Inc.
v. Nuclear Regulatory Comm’n, 869 F.2d 719, 739 (3d
Cir. 1989)). Yet, “the finding that the probability of a
given harm is nonzero does not, by itself, mandate an
EIS: after the agency examines the consequences of
the harm in proportion to the likelihood of its occurrence, the overall expected harm could still be insignificant and thus could support a FONSI.” Id.; see
also Gov’t of the Province of Manitoba v. Salazar, 691
F. Supp. 2d 37, 50 (D.D.C. 2010) (“It may be that the
risk of a breach is low given the pipeline’s construction, but that is not an excuse for Reclamation to refuse entirely to analyze the consequences. When the
degree of potential harm could be great, i.e., catastrophic, the degree of analysis and mitigation should
also be great”); Sierra Club v. Watkins, 808 F. Supp.
852, 868 (D.D.C. 1991) (holding that, given disputed
evidence concerning the possibility of severe accidents, an agency may not simply “refus[e] to include
certain low probability risks”—it must at least “admit
that such accidents are possible,” determine the probability of occurrence, and “discuss[] their potential effects”). Here, the Corps did not wholly ignore the consequences of a possible oil spill, despite its conclusion
that the risk of such an event was low. On the contrary, it adequately discussed the impacts of such “a
low risk/high consequence event,” EA at 92, on water—but not on hunting or aquatic—resources.

405a
As to water resources, the EA offered several comments. It acknowledged that, during operations,
“[d]rinking water intakes located downstream from
the Missouri River and Lake Oahe crossings could be
at risk if there was a release that reached these bodies
of water in the vicinity of the intake structures,” and
that “the Standing Rock Sioux . . . have intake structures within the river downstream of the Lake Oahe
Project area.” Id. at 38; see also id. at 42 (“In the unlikely event of a release during pipeline operations,
drinking and irrigation water intakes located downstream from the Missouri River and Lake Oahe crossings could be at risk if hydrocarbons were to reach
these bodies of water in the vicinity of the intake
structures.”); id. at 87 (“Concerns have been expressed
regarding an inadvertent release reaching intake
structures on Lake Oahe. . . . In the unlikely event of
a release, sufficient time exists to close the nearest intake valve to avoid human impact.”). Later, the EA
further explained: “Accidental releases from the pipeline system during operations could potentially affect
groundwater. . . . [C]rude oil released into soil can migrate toward water where certain constituents can
dissolve into groundwater or surface water in limited
amounts.” Id. at 45.
It then presented a model estimating the concentrations of benzene, a potentially toxic compound
found in crude oil, that could be released during a very
small, small, moderate, or large spill at the Oahe
crossing, and discussed how those results might vary
during winter months when temperatures are likely
to be colder. Id. at 46-47. Even assuming that “[t]he
entire volume of a crude oil spill was released due to
a catastrophic failure of the pipeline and reached the

406a
waterbody; [c]omplete, instanteous mixing occurred;
[and] [t]he entire benzene content of the crude oil was
solubilized into the water column,” the model concluded that under no spill scenario would the acute
toxicity threshold for aquatic organisms be exceeded,
and that under the “most probable spill volume,” benzene concentrations would not “exceed the drinking
water criteria.” Id. In addition, at the conclusion of
its discussion of the nine spill-risk factors previously
discussed, the EA, under the header “Consequences,”
stated: “In the event that a pipeline failure occurs and
product is released into the Missouri River at either
crossing, the worst case consequence scenario is
ranked high because several drinking water intake
High Consequence Areas (HCAs) and multiple ecologically sensitive HCAs could be impacted.” Id. at 94.
The EA is not similarly attentive, however, to the
impacts of a spill on fish or game, the resources implicated by the Tribe’s fishing and hunting rights. As to
aquatic resources, the EA offered only a cursory nod
to the potential effects of an oil spill, stating simply
that “[t]he primary issue related to impacts on the
aquatic environment from operation of the Proposed
Action would be related to a release from the pipeline.” Id. at 69. It never explained, though, what
those effects would be. Instead, it simply reasoned
that adherence to Dakota Access’s response plan
“would minimize potential impacts on aquatic wildlife.” Id. at 69-70; see also id. at 101. Likewise, regarding hunting, the EA only discussed the effects of
construction on “recreationally and economically important species and nongame wildlife”; it said nothing
about the effects of a spill. Id. at 57-58.

407a
Standing Rock, though, had alerted the Corps to
its fishing- and hunting-related concerns after the
agency published the Draft EA. See, e.g., ECF No.
159-1, Exh. C (SRST Comments on Draft EA, Jan. 8,
2016) at 13 (“[A] pipeline leak would threaten to damage . . . the fish and wildlife on which many Tribal
members depend for subsistence.”); ECF No. 159-1,
Exh. D (SRST Suppl. Comments on Draft EA, Mar. 24,
2016) at 15 (“The waters of Lake Oahe also provide
habitat for fish, wildlife, and plants important to the
diet . . . of the Tribe.”). The Director of Standing
Rock’s Department of Game, Fish, and Wildlife Conservation, moreover, explained that many of the
Tribe’s members rely on fishing as “an important supplemental source of food and nutrition” and that the
Tribe issued 199 family fishing permits in 2015. See
ECF No. 117-16 (Declaration of Jeff Kelly, Nov. 28,
2016), ¶ 5. An oil spill, he said, could “cause extensive
fish kills.” Id., ¶ 12. He also spelled out the ways in
which an oil spill could seriously affect game along the
Oahe shoreline, including by poisoning animals that
ingest, inhale, or are otherwise externally exposed to
oil and preventing those birds and mammals whose
feathers or fur are coated with oil from maintaining
their body temperatures. Id., ¶ 13. Although the
Corps did not have Kelly’s declaration before it when
it issued the EA in July 2016, his remarks were before
the agency when it concluded that the easement could
be issued based on the EA absent any supplementation.
Without any acknowledgment of or attention to
the impact of an oil spill on the Tribe’s fishing and
hunting rights, despite Plaintiff’s efforts to flag the issue, the EA—in this limited respect—was inadequate.

408a
The appropriate remedy for such omission is discussed in Section III.D, infra.
2. Alternatives
To comply with NEPA, an Environmental Assessment must include a ‘brief discussion[]’ of reasonable
alternatives to the proposed action.” Myersville, 783
F.3d at 1323 (quoting 40 C.F.R. § 1508.9(b)). This consideration “need not be as rigorous as the consideration of alternatives in an EIS.” Id.; compare 40 C.F.R.
§ 1508.9(b) (requiring “brief discussion[]”) with id.
§ 1502.14(a) (requiring agency to “[r]igorously explore
and objectively evaluate all reasonable alternatives”
when EIS required). “An alternative is ‘reasonable’ if
it is objectively feasible as well as ‘reasonable in light
of [the agency’s] objectives.’” Myersville, 783 F.3d at
1323 (quoting Theodore Roosevelt Conservation
P’ship v. Salazar, 661 F.3d 66, 72 (D.C. Cir. 2011)). An
agency’s “specification of the range of reasonable alternatives is entitled to deference.” Id.
Standing Rock believes that the Environmental
Assessment lacks an adequate consideration of such
alternatives. Specifically, the Tribe posits that the EA
did not appropriately examine an alternative route
that would have had the pipeline cross the Missouri
River further north. See SRST MSJ at 26, 30-31. The
Court disagrees: on this front, the EA adequately discharged the Corps’ NEPA obligations.
Before settling on the current DAPL route, Dakota Access considered routing the pipeline to cross
Lake Oahe approximately 10 miles north of Bismarck,
North Dakota—i.e., approximately 50 miles north of
its current location, which sits just 0.5 miles north of

409a
the Standing Rock Reservation. See EA at 8, 161 (Figure 13). The Company soon determined, however,
that that route was not “a viable alternative.” Id. The
EA explains why. A table therein compares the Bismarck and Oahe crossings in terms of overall route
mileage; co-location with other pipelines and powerlines; the number of existing pipelines, floodplains,
water features, and powerlines crossed; miles of agriculture, developed/low intensity, developed/open
space, and grass/pasture land crossed; whether Corpsowned land would be crossed; the number of waterbodies crossed; the number of high-consequence areas
affected; and the number of transportation crossings.
Id. at 9-10. A separate table compares the two crossings in terms of total pipeline and total HDD length,
as well as in terms of cost for road/railroad bores, installation for non-HDD areas, HDD, geotechnical investigation, above-ground facilities, right-of-way acquisition, and engineering and consulting. Id. at 11.
That data reveals that the Bismarck alternative
would have required an additional 11 miles of pipeline, “consisting of roughly 165 additional acres of impact,” 11 more floodplain crossings, 1 more powerline
crossing, and 27 more transportation crossings. Id. at
8-10. In addition, it would have “crossed through or
in close proximity to several wellhead source water
protection areas” and “crossed other populated
PHMSA high consequence areas”—i.e., “locales where
a release from a pipeline could have the most significant adverse consequences”—”not present on the [selected] route.” Id. at 8. The North Dakota Public Service Commission, moreover, requires a 500-foot residential buffer, which would have “severely constrained” the Bismarck route. Id. By contrast, on the

410a
Reservation, the residence closest to the pipeline at
Oahe is located more than 1.5 miles away. Id. at 86.
And finally, the Bismarck alternative would have cost
nearly $33 million more and been co-located with
other pipelines or utility corridors for only 3% of the
route as compared to the selected route’s 41%. Id. at
9, 11.
Standing Rock largely focuses its critique on the
EA’s reliance on a memo prepared by DAPL consultants, which it argues offers “a one-sided analysis that
considered downstream impacts for the Bismarck alternative, but not for the Oahe crossing.” SRST MSJ
at 30. But that memo, which the EA does not expressly cite, provides another reasonable basis on
which the Corps could have rejected the Bismarck
crossing in favor of Oahe. It explains that the two
closest municipal-water intakes to the Bismarck
crossing would have been at Mandan, 7.3 miles downstream and serving 19,381 people, and Bismarck, 11.6
miles downstream and serving 65,123 people. See
ECF No. 209-16 at 18 (Memorandum from Tom Siguaw, Dakota Access, & Steve Rove, HDR Engineering,
Apr. 12, 2016). The first downstream intake from the
Oahe crossing, comparatively, is 4.2 miles downstream but is non-tribal and for agricultural use. Id.
The second is 7.6 miles downstream and is used by
Standing Rock also for agricultural purposes. Id. The
third—and the first to be used for drinking water—is
11.1 miles downstream and belongs to the South Central Regional Water District, which serves 3,491 people in Emmons County, North Dakota. Id. The
fourth—and the first Standing Rock intake for public
consumption—is 26.2 miles downstream at Fort Yates
and serves 229 people in Fort Yates and up to 4,317 in

411a
Sioux County. Id. The Bismarck crossing thus would
have been much closer nearly four miles—to a drinking-water intake than the Oahe crossing. The drinking-water intakes near Bismarck also serve many
more people than the two closest to the Oahe crossing.
This difference will be even more pronounced once
construction is complete on a new water-intake structure being built to serve all communities on the Standing Rock Reservation, as that system will be located
approximately 50 miles further downstream from the
Oahe crossing than the existing structure serving the
Tribe at Fort Yates. See Cooper Memo at 19.
This is not to say that the EA’s analysis of the Bismarck alternative is without flaws. As the Cooper
Memo points out, when counting the number of wetland and water features crossed, the EA uses raw
numbers of crossings, rather than “the total [number]
of impacts measured as acreage or linear feet,” which
would have given “a more accurate comparison of the
route.” Cooper Memo at 9. And although the Bismarck route would have crossed PHMSA high-consequence areas that the Lake Oahe route does not, the
Lake Oahe route also crosses high-consequence areas.
Id.; EA at 94. Despite these issues, by identifying and
comparing several features of the two routes as described, the EA easily clears NEPA’s hurdle requiring
“brief discussion” of reasonable alternatives.
3. Environmental Justice
Standing Rock next contends that the Corps’ environmental-justice analysis was arbitrary and capricious. A 1994 Executive Order requires that, “[t]o the
greatest extent practicable and permitted by law,”
federal agencies “shall make achieving environmental

412a
justice part of [their] mission by identifying and addressing, as appropriate, disproportionately high and
adverse human health or environmental effects of
[their] programs, policies, and activities on minority
populations and low-income populations.” Exec. Order 12,898, Federal Actions to Address Environmental Justice in Minority Populations and Low-Income
Populations, 59 Fed. Reg. 7629 (Feb. 11, 1994), § 1101. The Order expressly states that it does not create
a private right to judicial review, id. § 6-609, but the
D.C. Circuit has permitted challenges to environmental-justice analyses under NEPA and the APA. See
Communities Against Runway Expansion, Inc. v.
F.A.A., 355 F.3d 678, 689 (D.C. Cir. 2004) (“The
[agency] exercised its discretion to include the environmental justice analysis in its NEPA evaluation,
and that analysis therefore is properly subject to arbitrary and capricious review under the APA.”).
As the EA acknowledges, see EA at 84, the Council on Environmental Quality developed guidance to
assist federal agencies in ensuring that environmental-justice concerns “are effectively identified and addressed.” ECF No. 117-19 (CEQ, Environmental Justice Guidance Under the National Environmental Policy Act, Dec. 10, 1997) at 1. That guidance instructs
that agencies “should consider the composition of the
affected area, to determine whether minority populations, low-income populations, or Indian tribes are
present in the area affected by the proposed action,
and if so whether there may be disproportionately
high and adverse human health or environmental effects on minority populations, low-income populations, or Indian tribes”; “should recognize the interre-

413a
lated cultural, social, occupational, historical, or economic factors that may amplify the natural and physical environmental effects of the proposed agency action”; and “should recognize that the impacts within
. . . Indian tribes may be different from impacts on the
general population due to a community’s distinct cultural practices.” Id. at 9. “Where environments of Indian tribes may be affected,” CEQ advises, “agencies
must consider pertinent treaty, statutory, or executive
order rights and consult with tribal governments in a
manner consistent with the government-to-government relationship.” Id. at 14. Finally, the “unit of geographic analysis” for the environmental-justice assessment should “be chosen so as not to artificially dilute or inflate the affected minority population.” Id.
at 26.
Here, the Corps defined the unit of geographic
analysis for its environmental-justice assessment as a
0.5-mile radius around the crossing, yielding a focus
on the two census tracts in which the HDD boreholes
would be drilled—i.e., the places on either side of Lake
Oahe at which the pipeline would enter the ground to
pass under the water. See EA at 84. Those two census
tracts were in Morton County and Emmons County;
they did not include Sioux County, where the Reservation is located. Id. at 80, 83.
To identify the impact of the project on the populations in the chosen census tracts, the Corps compared the average demographic data from the two census tracts to that of “counties in the general vicinity”
of the Oahe crossing—Emmons, Morton, and Sioux
Counties—and to that of North Dakota generally. Id.
at 84. Specifically, the Corps compared the areas by

414a
percentage of racial minorities and percentage of persons living below the poverty level. Id. at 83. That
data analysis revealed that the minority population in
the two census tracts was 2% i.e., 29% lower than the
minority population in the general-vicinity counties
and 9% lower than the minority population in North
Dakota as a whole. Id. at 83, 85. It also showed that
the percentage of persons living below the poverty
level in the two census tracts was 9%. Id. at 83. The
EA states that this figure was 3% lower than the impoverished population in the general-vicinity counties
and 50% higher than in North Dakota as a whole. Id.
Based on these comparisons, the EA concluded that
“there is no concern regarding environmental justice
to minority populations at the Proposed Action Area
at . . . Lake Oahe.” Id. at 85. In actuality, some of the
EA’s calculations are incorrect. See Cooper Memo at
24 (identifying one of two errors). Using the correct
figures, the percentage of persons living below the
poverty line in the two census tracts was 11% lower
than in the general-vicinity counties and 3% lower
than in North Dakota as a whole. Id. at 83; Cooper
Memo at 24. (As will be seen, the calculation errors
play no significant role in the outcome on this issue.)
The Tribe challenges the Corps’ decision to use a
0.5-mile buffer and the resulting analysis as arbitrary
and capricious gerrymandering. See SRST MSJ at 28.
The Standing Rock Reservation is 0.55 miles—or 80
yards beyond the 0.5-mile limit—downstream of the
HDD site, and the Tribe contends that there was no
principled basis on which to narrowly exclude it from
the bounds of the Corps’ analysis. Id. at 29. It also
notes that the two census tracts selected as the “affected area” are “mostly upstream of the crossing site”

415a
with a 98% white population. Id. By comparing these
tracts to a baseline of three counties that included
Sioux County, Standing Rock argues, the EA “compar[ed] an area that will be almost entirely unaffected
by a spill from the pipeline, and where few Tribal
members live, against a baseline that included a significant portion of the Reservation.” Id. “Unsurprisingly,” the Tribe observes, the “‘affected area’ did not
have a higher population of minority and low-income
people than the claimed baseline, allowing the Corps
to dismiss environmental justice concerns.” Id.
The Corps and Dakota Access defend the reliance
on a 0.5-mile buffer by repeating the justification
given in the EA: “Transportation projects, such as under the Federal Transit Administration, and natural
gas pipeline projects under the Federal Energy Regulatory Commission . . . typically use a 0.5 mile buffer
area to examine Environmental Justice effects.” EA
at 84; see also id. at 87 (“As stated above, linear projects typically use a 0.5 mile buffer area to examine
Environmental Justice effects.”); DA SRST Opp. at 29;
Corps SRST MSJ at 27.
Although “[t]he ‘identification of the geographic
area’ within which a project’s impacts on the environmental resources may occur ‘is a task assigned to the
special competency of the appropriate agencies,’” Powder River Basin Res. Council v. BLM, 37 F. Supp. 3d
59, 75 (D.D.C. 2014) (quoting Tri-Valley CAREs v.
Dep’t of Energy, 671 F.3d 113, 1127 (9th Cir. 2012))
(quoting Kleppe v. Sierra Club, 427 U.S. 390, 414
(1976)), the Court is hard pressed to conclude that the
Corps’ selection of a 0.5-mile buffer was reasonable.
DAPL is neither a transportation project nor a natural-gas pipeline; it is a crude-oil pipeline. The EA does

416a
not identify any project involving a crude-oil pipeline
for which a 0.5-mile buffer was employed. The Corps,
likewise, points only to other types of infrastructure
projects. See Corps SRST MSJ at 27 (citing Coal. for
Healthy Ports v. Coast Guard, No. 13-5347, 2015 WL
7460018, at *25 (S.D.N.Y. Nov. 24, 2015) (project to
raise height of bridge); Bitters v. Fed. Highway Admin., No. 14-1646, 2016 WL 159216, at *14 (E.D. Cal.
Jan. 13, 2016) (project to reintroduce vehicle traffic
lanes to particular streets)).
The Corps nonetheless rejoins that there is no
meaningful distinction between those projects and
DAPL. Id. (“Analysis of a half-mile buffer, which is
appropriate for bridges or other construction projects
with street-level noise, traffic or other impacts, is certainly appropriate for the Lake Oahe crossing, where
the construction is deep under the bed of Lake Oahe
and is staged on private lands.”); Corps SRST Reply
at 13 n.3 (“[A] bridge that carries rail cars or truck
traffic transporting oil or hazardous substances which
could just as easily suffer low probability accidents resulting in releases to the waterways underneath the
bridges.”). The problem with the Corps’ argument,
however, is that the cases it cites did not consider an
oil spill when evaluating impacts; if they had, perhaps
a different geographic scope may have been selected.
Standing Rock, conversely, points to two oil-pipeline
projects for which a much larger affected area was
used to assess environmental-justice impacts. See
SRST MSJ at 30 n.16 (citing ECF No. 117-22 (Final
Supplemental Environmental Impact Statement,
Keystone XL Project) at 3.10-3) (assessing environmental-justice impacts 14 miles downstream of crossings)); SRST Reply at 25 n.23 (citing ECF No. 195-6

417a
(Draft Supplemental Environmental Impact Statement for Line 67 Expansion, Jan. 2017) at 3.0-2 (looking at spill impacts up to 40 river-miles downstream)).
Standing Rock is not the only entity to criticize the
0.5-mile-buffer choice. In its comments on the Draft
EA, the EPA advised the Corps that “the area of analysis to assess potential impacts to EJ communities
should correspond to the impacts of the proposed project instead of only the area of construction disturbance.” ECF No. 209-8 at 126 (Letter from Philip
Strobel to Brent Cossette, Mar. 11, 2016). “For oil
pipeline projects, potential impacts to EJ communities
would include the effects of leaks and spills to downstream water supplies (both drinking water quality,
agricultural uses, and costs) and aquatic resources
such as fish and riparian vegetation used by EJ populations.” Id. Even the Corps’ Chief Counsel expressed
concern about the agency’s geographic selection when
reviewing the EA’s legal sufficiency:
The Corps’ determination of the affected environment . . . can be questioned here. . . .
Sioux County is just outside the 0.5-mile
pipeline buffer. While the equally sized
buffer on both sides of the pipeline seems reasonable along land areas, it is arguably less
so at water areas because of the potential for
water currents to carry a spill downstream.
Sioux County is located just south and downstream of the pipeline. Thus, the SRST population present immediately outside of the
proposed area or affected environment and
downstream reasonably could have been
within the area identified as the affected en-

418a
vironment in the EA. If that area was included, the EA would then determine
whether there might a disproportionately
high and adverse human health or environmental effect on the SRST.
Cooper Memo at 25-26.
The Corps argues that the Court need not confine
its analysis to the use of a 0.5-mile buffer, however,
because the EA also devoted a separate section to environmental-justice impacts on the Standing Rock
Sioux Reservation. See EA at 85-87. That additional
section, as it turns out, does not yield the Corps a full
reprieve. The Standing Rock-focused environmental-justice section begins with the “recogni[tion] that
the Standing Rock Sioux Tribe is downstream of the
Lake Oahe Crossing” and “has a high population of
minorities and low-income residents.” Id. at 85. It
first discusses impacts from the project’s construction
and anticipated operation, and it explains that: the
crossing will be installed via HDD on private lands
adjacent to Corps-owned land, HDD drilling has no
anticipated environmental effects, the pipeline’s route
“maintain[s] a minimum distance of 0.5 mile[s] from
Tribal land,” and the closest residence on the Reservation to the Oahe crossing is more than 1.5 miles
away. Id. at 85-86. “As a result of this routing criteria, the nature of the action (construction associated
with laying an underground oil pipeline), the short
term duration of effects, construction and operation on
private lands, the concurrent reclamation activities,
state of the art construction techniques, [and] use of
high quality materials and standards that meet or exceed federal standards,” the EA concludes, “there will
be no direct or indirect effects to the Standing Rock

419a
Sioux Tribe. This includes a lack of impact to its
lands, cultural artifacts, water quality or quantity,
treaty hunting and fishing rights, environmental
quality, or socio-economic status.” Id. at 86. Given
the absence of impacts, it continues, “there is no resulting adverse or disproportionate impacts of the
Proposed Action with respect to Environmental Justice considerations.” Id.
The problem here, as the Tribe points out, is that
this analysis covers only construction impacts, not
spill impacts. See SRST Reply at 26. As to the effects
from a spill (as distinct from the risk of a spill occurring), the EA’s discussion is minimal:
Concerns have been expressed regarding an
inadvertent release reaching intake structures on Lake Oahe. Given the engineering
design, proposed installation methodology,
quality of material selected, operations
measures and response plans[,] the risk of an
inadvertent release in, or reaching, Lake
Oahe is extremely low. While the locations of
water intakes is not public information for
disclosure in this document, there are private
and/or non-tribal intakes closer to the Lake
Oahe crossing than any intakes owned by the
tribe; further demonstrating the lack of disproportionate impacts of an inadvertent release to the Tribe and the reservation. We
understand that due to the rural nature of
this area, tribal drinking water supplies are
obtained from a combination of wells and surface area. The siting and construction of oil
pipelines upstream of drinking water intakes
is not uncommon throughout the United

420a
States and is not considered an Environmental Justice issue. In the unlikely event of a
release, sufficient time exists to close the
nearest intake valve to avoid human impact.
EA at 87. This limited analysis, the Court believes, is
not enough to discharge the Corps’ environmental-justice responsibilities under NEPA.
“The purpose of an environmental justice analysis
is to determine whether a project will have a disproportionately adverse effect on minority and low income populations.” Allen v. Nat’l Institutes of Health,
974 F. Supp. 2d 18, 47 (D. Mass. 2013) (quoting Mid
States Coal. for Progress v. Surface Transp. Bd., 345
F.3d 520, 541 (8th Cir. 2003)). The EA takes some
steps toward satisfying this purpose. It acknowledges
that Standing Rock, a community with a high percentage of minorities and low-income individuals, is based
downstream of the Oahe crossing and could be affected by an oil spill, and it observes—without providing any specifics—that a non-tribal community’s
drinking-water intake is closer to the Oahe crossing
than is Standing Rock’s. But these statements are not
enough to reasonably support the conclusion that the
Tribe will not be disproportionately affected by an oil
spill in terms of adverse human health or environmental effects. See CEQ Guidance at 9.
The EA is silent, for instance, on the distinct cultural practices of the Tribe and the social and economic factors that might amplify its experience of the
environmental effects of an oil spill. Id. at 9, 14.
Standing Rock provides one such example in its briefing: many of its members fish, hunt, and gather for
subsistence. See SRST MSJ at 41. Losing the ability

421a
to do so could seriously and disproportionately harm
those individuals relative to those in nearby nontribal communities.
The Corps need not necessarily have addressed
that particular issue, but it needed to offer more than
a bare-bones conclusion that Standing Rock would not
be disproportionately harmed by a spill. Given the
cursory nature of this aspect of the EA’s analysis, the
Court agrees with the Tribe that the Corps did not
properly consider the environmental-justice implications of the project and thus failed to take a hard look
at its environmental consequences. Once again, the
remedy for such omission is considered in Section
III.D, infra.
B. Decision to Grant the Easement
The Tribe’s second set of arguments centers
around the Corps’ February 8, 2017, decision to grant
an easement to Dakota Access to construct and operate DAPL under Lake Oahe. As a reminder, the Corps
had previously said, in a memo issued on December 4,
2016, that it would not grant such an easement based
on the current record and would undertake additional
analysis before making a final decision. Standing
Rock first contends that the Corps’ February 2017
easement decision was an arbitrary and capricious reversal of its previous position. It also asserts that the
decision was in conflict with the Corps’ trust-responsibility obligations. The Court addresses each in turn.
1. Policy Change
When an agency action changes or reverses a prior
policy. it must “display awareness that it is changing
position”; it may not. e.g., “depart from a prior policy

422a
sub silentio.” FCC v. Fox Television Stations, Inc., 556
U.S. 502, 515 (2009). It also “must show that there
are good reasons for the new policy.” Id. Generally,
however, those reasons need not he better than the
reasons for die old policy. To satisfy the APA’ s procedural-correctness requirements, it is sufficient “that
the new policy is permissible under the statute, that
there are good reasons for it, and that the agency believes it to he better, which the conscious change of
course adequately indicates.” Id. Sometimes, though,
more is required. If the “new policy rests upon factual
findings that contradict those which underlay its prior
policy,” the agency must “provide a more detailed justification than what would suffice for a new policy created on a blank slate,” for “[i]t would be arbitrary and
capricious to ignore such matters.” Id.; see also id. at
537 (Kennedy, J., concurring) (“[A]n agency’s decision
to change course may be arbitrary and capricious if
the agency ignores or countermands its earlier factual
findings without reasoned explanation for doing so.
An agency cannot simply disregard contrary or inconvenient factual determinations that it made in the
past, any mom than it can ignore inconvenient facts
when it writes on a blank slate.”). The agency need
not, though. “refute the factual underpinnings of its
prior policy with new factual data.” United States
Sugar Corp. v. Envtl. Prot. Agencv, 830 F.3d 579, 626
(D.C. Cir. 2016), on reh’g en banc in part No. 11-1108,
2016 WL 7427434 (D.C:. Cir. Dec. 23, 2016), and on
reh’g en banc, 2016 WL 7427453 (D.C. Cir. Dec. 23,
2016). It is enough that it offer a “reasoned explanation . . . for disregarding facts and circumstances that
underlay . . . the prior policy.” Fox, 556 U.S. at 516.

423a
Standing Rock argues that the Corps’ decision to
grant the easement on February 8, 2017, was a reversal of the decision announced in the December 4, 2016,
memorandum. Because the Corps “failed to address,
let alone provide a reasoned explanation for, abandoning the determinations undergirding its December 4
decision to require an EIS,” the Tribe contends, its action was arbitrary and capricious. See SRST MSJ at
36.
In response, the Corps and Dakota Access first argue that Fox simply does not apply: the decision to
grant the easement was not a change in policy because
the Corps had never denied the easement in the first
place. See Corps SRST MSJ at 34; DA SRST Opp. at
32. That position, however, mischaracterizes the
Tribe’s argument. Standing Rock does not assert that
the Corps previously denied the easement; indeed, it
could not plausibly do so. Assistant Secretary Darcy
clearly stated in her December 4 memo: “To date, the
Army has not made a final decision on whether to
grant the easement.” Dec. 4 Memo, ¶ 6. Instead,
Standing Rock’s argument is that the Corps announced on December 4 that it would “not grant an
easement to cross Lake Oahe at the proposed location
based on the current record”—as “additional analysis,
more rigorous exploration and evaluation of reasonable siting alternatives, and greater public and tribal
participation and comments” were merited, id., ¶ 12
(emphases added)—but nonetheless granted the easement on February 8 without having undertaken such
additional analysis. The reversal, then, is the decision
to grant the easement on the current record—i.e., as
it stood on December 4—when the Corps had previously said it would not do so. This, the Tribe believes,

424a
was arbitrary and capricious. Standing Rock does not,
it clarifies in its Reply, assail the withdrawal of the
notice of intent to prepare an EIS. See SRST Reply at
30 n.24.
The Corps’ reversal plainly constituted a change
in “official policy.” See, e.g., Alaska Oil & Gas Ass’n
v. Pritzker, 840 F.3d 671, 682 (9th Cir. 2016) (applying Fox to policy change in agency’s approach to assessing foreseeable threats to endangered species triggered by internal agency memorandum); Sierra Club
v. Bureau of Land Management, 786 F.3d 1219, 1226
(9th Cir. 2015) (explaining Fox did not apply to an
agency’s “evolving analysis” that “was not a change in
a published regulation or official policy”); Loving v.
I.R.S., 742 F.3d 1013, 1021 (D.C. Cir. 2014) (suggesting Fox applies where initial policy was articulated
via testimony to Congress and guidance document—
i.e., not final agency actions—and policy change was
accomplished via rulemaking). As the decision to
grant the easement on the record as of December 4 did
not rest on new factual findings not relied upon by
Darcy or ignore or countermand prior factual findings
absent reasoned explanation, the Corps need only
have shown good reasons for its new policy. Taking
Fox’s framework into account, the Court concludes
that the Corps here satisfied its dictates.
First, the Corps displayed “awareness that it
[was] changing position.” Fox, 556 U.S. at 515. The
February 3, 2017, memo from the Corps’ Lieutenant
General that recommended granting the easement
acknowledged that Darcy had previously “directed the
Corps to engage in additional review and analysis concerning” alternative locations, the potential risk of an
oil spill and potential impacts to the Tribe, and the

425a
Tribe’s treaty rights, but explained that, “[a]fter reviewing the record in its entirety and giving further
consideration to the input received over the past four
months, including additional review and analyses of
the subjects identified by [Darcy], other federal executive offices, and the SRST, the Corps finds that the
Final EA concerning the crossing of the DAPL at Lake
Oahe is sufficient and does not need further supplementation.” Semonite Memo at 9, 11.
Second, the Corps provided a reasoned explanation for its new policy. Darcy’s memo affirmed that
“the Corps’ prior reviews and actions”—including the
EA and FONSI “comported with legal requirements.”
Dec. 4 Memo, ¶ 15. Her “policy decision” that “a more
robust analysis of alternatives [could] be done and
should be done” was “based on the totality of the circumstances”—namely, “the specific mandates of the
Mineral Leasing Act (30 U.S.C. § 185), the involvement of historic tribal homelands, the close proximity
to reservation lands that extend into the potentially
affected waters, and the potential impacts on treaty
hunting and fishing rights.” Id. In reversing course,
the Corps started from the same premise as Darcy
viz., that the EA and FONSI satisfied NEPA’s requirements. See Semonite Memo at 10. It then explained
that the EA “fully informed . . . the decision on
whether to grant an easement under the Mineral
Leasing Act.” Id. Supplementation of an EA or EIS,
it noted, is required by CEQ NEPA regulations only
when there are “substantial changes in the proposed
action that are relevant to environmental concerns” or
when “significant new circumstances or information
relevant to environmental concerns” emerge after an

426a
EA or EIS is final. Id. at 11 (quoting 40 C.F.R.
§§ 1502.9(c)(1)(i), (ii)).
Here, the proposed action described in the EA did
not change between July 2016 and February 2017. Id.
The Corps also concluded that no new significant circumstances or information relevant to environmental
concerns, including the federal government’s trust relationship to the Tribe, the Corps’ analysis of alternatives, risks from oil spills, and the impact of a spill on
the Tribe’s Treaty rights and water intakes, had
emerged since the EA was finalized. It did so by comparing the various letters received from the Tribe after the EA was issued, including its expert report,
with comments the Tribe previously submitted on the
Draft EA, as well as by looking at the Corps’ analysis
in the Final EA, the subsequent review memos, and
the 36 special conditions imposed on the easement.
Id. at 11-13. In response to the Interior Solicitor’s
memo “address[ing] a series of issues rooted in the
perceived risk that the DAPL would leak into Lake
Oahe,” the Corps explained that, as set out in the EA
and Cooper Memo, the risk of a spill was low and was
further mitigated by the easement conditions. Id. at
13.
By explaining why it was not compelled by the
Tribe’s letters, the Interior Solicitor’s Opinion, or the
Corps’ post-EA reviews to supplement the EA—which
Darcy did not dispute was legally sound—the Corps
did enough to satisfy the APA’s requirements regarding policy reversals.
2. Trust Responsibilities
In addition to challenging the decision to grant the
easement as an arbitrary-and-capricious reversal of

427a
prior agency policy, Standing Rock contends that this
and other authorizations to cross Lake Oahe violate
the Corps’ trust responsibility to protect the Tribe’s
Treaty rights. This trust responsibility, the Tribe argues, is “even higher than the one imposed by NEPA.”
SRST MSJ at 39. In other words, “compliance with
general environmental statutes” is not sufficient “to
discharge [the Corps’] trust duty”; a greater fiduciary
duty is required. See SRST Reply at 34.
As best the Court can tell from the briefing, the
Tribe argues that the Corps’ failure to act in accordance with its trust-responsibility obligations renders
the granting of the easement arbitrary and capricious
under the APA. See SRST MSJ at 35-43 (situating
discussion of Treaty rights under heading stating
“The Granting of the Easement and Other Corps Authorizations is Arbitrary, Capricious, and Contrary to
Law”); SRST Reply at 30-34 (similar). Whether that
is so or Plaintiff intends to also state a separate
breach-of-trust action, see ECF No. 106-1 (SRST First
Amended Complaint), ¶¶ 266-285 (stating separate
claims for relief for breach of trust responsibility and
violation of APA), Standing Rock’s position comes up
short for the same reason.
According to the Tribe, to fulfill its trustee duties,
the Corps needed to “have before it a full and comprehensive understanding of how the project impacts
treaty rights and tribes.” SRST MSJ at 40. It did not
so have here, the Tribe asserts, because it “assumed
oil spills will never happen and on that basis refused
to consider the impacts of an oil spill on the Tribe’s
Treaty rights and resources.” Id. Standing Rock further argues that the Corps did not fulfill its fiduciary
obligation to share information about the project, as it

428a
withheld from the Tribe the spill assessment, spill-response plans, and environmental-justice and route
analyses. Id. at 41-42.
The problem for Standing Rock, however, is that
“[t]he trust obligations of the United States to the Indian tribes are established and governed by statute
rather than the common law.” United States v.
Jicarilla Apache Nation, 564 U.S. 162, 165 (2011). To
bring a breach-of-trust claim, the Tribe “must identify
a substantive source of law that establishes specific
fiduciary or other duties, and allege that the Government has failed faithfully to perform those duties.”
United States v. Navajo Nation, 537 U.S. 488, 506
(2003). Standing Rock asserts that “[t]he federal government has a duty, arising from the Treaties and the
federal trust responsibility, and reinforced in the
MLA and other statutes, to protect treaty rights and
resources,” but it does not point in its Motion to a specific statute, treaty, executive order, or other provision
that gives rise to specific fiduciary duties. See SRST
MSJ at 39. In its Reply, the Tribe cites Section
185(h)(2)(D) of the Mineral Leasing Act, which provides that the Corps, “prior to granting a right-of-way
or permit . . . for a new project which may have a significant impact on the environment,” shall impose “requirements to protect the interests of individuals living in the general area of the right-of-way or permit
who rely on the fish, wildlife, and biotic resources of
the area for subsistence purposes.”
30 U.S.C.
§ 185(h)(2)(D); see SRST Reply at 36. Yet that provision does not contain any trust or fiduciary language,
and, in any case, the Corps imposed such conditions
on the easement . See Easement at 37-43. “Without
an unambiguous provision by Congress that clearly

429a
outlines a federal trust responsibility, courts must appreciate that whatever fiduciary obligation otherwise
exists, it is a limited one only.” N. Slope Borough v.
Andrus, 642 F.2d 589, 612 (D.C. Cir. 1980). “Thus,
although the United States does owe a general trust
responsibility to Indian tribes, unless there is a specific duty that has been placed on the government
with respect to Indians, this responsibility is discharged by the agency’s compliance with general regulations and statutes not specifically aimed at protecting Indian tribes.” Morongo Band of Mission Indians
v. FAA, 161 F.3d 569, 574 (9th Cir. 1998).
Standing Rock argues that the line of cases requiring a showing that the government owes a specific
statutory fiduciary duty is limited to damages actions
brought under the Indian Tucker Act, 28 U.S.C.
§ 1505, which waives sovereign immunity for certain
claims brought by a tribe against the United States.
That statute, it contends, does not apply here because
“the APA establishes both the cause of action and
waiver of sovereign immunity.” SRST Reply at 36.
Recent Circuit precedent, however, undermines such
a position.
In El Paso Natural Gas Company v. United
States, 750 F.3d 863 (D.C. Cir. 2014), the D.C. Circuit
considered, inter alia, claims by the Navajo Nation
concerning environmental hazards at uranium,
waste, and dump sites. As to the Tribe’s breach-oftrust cause of action, the court held that it had failed
to state a claim for relief because it “ha[d] not identified a substantive source of law establishing specific
fiduciary duties, a failure which [was] fatal to its trust
claim regardless of whether [the court] read the claim
as brought under the APA or under a cause of action

430a
implied by the nature of the fiduciary relationship itself.” Id. at 892. The Navajo Nation had argued that
its breach-of-trust claim could “be maintained either
(1) under the APA or (2) under a cause of action inferred from the fiduciary responsibilities undertaken
by the Government.” Id. The D.C. Circuit concluded
that, “[o]n either conception of the claim,” its inquiry
would be “largely the same because, under controlling
precedent, a cause of action will be inferred from a fiduciary relationship only where a plaintiff can identify specific trust duties in a statute, regulation, or
treaty. And [that] analysis overlaps with the APA’s
requirement that a plaintiff allege ‘that an agency
failed to take a discrete agency action that it is required to take.’” Id. (quoting Norton v. S. Utah Wilderness Alliance, 542 U.S. 55, 64 (2004)).
To explain that conclusion, the court addressed
the Supreme Court’s case law concerning Indian trust
claims and the law of the circuit. It stated, as this
Court has above, “The existence of a general trust relationship between the Government and Indian tribes
is long established. But this general trust relationship alone does not afford an Indian tribe with a cause
of action against the Government . . . . Something
more is needed.” Id. (citations omitted). It then explained, “[W]e apply these same principles” derived
from “Indian trust claims arising in the context of the
Indian Tucker Act” to “trust claims brought under the
APA.” Id. at 892-93; see also id. at 895 (“These principles control here, even though the claim is for equitable relief (not money damages) and even though sovereign immunity is waived under § 702 of the APA
(and not the Indian Tucker Act).” Indeed, it noted, the

431a
D.C. Circuit has “consistently relied on principles announced in Indian Tucker Act cases in trust cases not
arising under the Act.” Id. at 895 (citing, e.g., Andrus,
642 F.2d at 611 (“[T]rust responsibility can only arise
from a statute, treaty, or executive order.”); Cobell v.
Norton, 240 F.3d 1081, 1099 (D.C. Cir. 2001) (reiterating that fiduciary relationship depends on substantive laws and stating that “the government’s obligations are rooted in and outlined by the relevant statutes and treaties”).
This Court is bound by El Paso. It thus cannot
accept the Tribe’s position that “[t]he Tucker Act line
of cases has no bearing on the existence of a claim
here,” SRST Reply at 36, or that of amici curiae that
the APA affords broader trust enforcement than the
statute. See ECF No. 137 (Amicus Brief of Assoc. of
American Indian Affairs, et al.) at 8. Because Standing Rock has not identified a specific provision creating fiduciary or trust duties that the Corps violated,
its breach-of-trust argument—whether considered a
separate count or part of its larger APA cause of action—cannot survive.
C. NWP 12
Standing Rock’s final claim is that the Corps’ decision to issue a verification that the project complied
with the terms of Nationwide Permit 12 was arbitrary
and capricious. As the Court explained in a previous
Opinion, the Rivers and Harbors Act forbids certain
construction activities within the “navigable water of
the United States” absent permission from the Corps.
See Standing Rock I, 205 F. Supp. 3d at 12 (quoting
33 U.S.C. § 403). Because DAPL is, in part, a “structure . . . under . . . a navigable water of the United

432a
States,” 33 C.F.R. § 322.3(a), Dakota Access required
a permit under Section 10 of the RHA. The Corps often authorizes such activities through a general, nationwide permit. Standing Rock I, 205 F. Supp. 3d at
10. Nationwide Permit 12, the general permit at issue
here, authorizes “[a]ctivities required for the construction, maintenance, repair, and removal of utility lines
and associated facilities in waters of the United
States, provided the activity does not result in the loss
of greater than 1/2-acre of waters of the United States
for each single and complete project.” Reissuance of
Nationwide Permits, 77 Fed. Reg. 10,184, 10,271 (Feb.
21, 2012). On July 25, 2016, the Corps verified that
the Oahe crossing would satisfy the terms and conditions of NWP 12.
To qualify for NWP authorization, a permittee
must comply with certain General Conditions. General Condition 17, for example, provides that “[n]o activity or its operation may impair reserved tribal
rights, including, but not limited to, reserved water
rights and treaty fishing and hunting rights.” 77 Fed.
Reg. at 10,283. General Condition 7 states, moreover,
that “[n]o activity may occur in the proximity of a public water supply intake, except where the activity is
for the repair or improvement of public water supply
intake structures or adjacent bank stabilization.” Id.
The Tribe argues that because the Oahe crossing does
not comply with these conditions, it does not qualify
for NWP 12. See SRST MSJ at 43-44.
The Court, however, is already remanding on certain of these issues—e.g., Treaty rights and environmental-justice considerations—and the Tribe offers
no other basis for concluding that the project does not
comply with GCs 7 and 17.

433a
The Corps, furthermore, asserts that it was not
obligated to evaluate whether these General Conditions were satisfied prior to verifying that the project
was authorized under NWP 12. See Corps SRST MSJ
at 45 (citing Snoqualmie Valley Preservation Alliance
v. U.S. Army Corps of Eng’rs, 683 F.3d 1155, 1164 (9th
Cir. 2012) (“The nationwide permit system is designed
to streamline the permitting process. We decline to
impose a new requirement of a full and thorough analysis of each general condition based on documentation
the Corps may or may not have.”)). Instead, it explains, “[A] permittee must adhere to the General
Conditions to maintain eligibility for a Nationwide
Permit.” Id. (citing 77 Fed. Reg. at 10,282). Standing
Rock insists that it is not asking the Court to require
the Corps to undertake an in-depth analysis of each
General Condition prior to issuing an NWP 12 verification, but rather is simply demanding that the Corps
give GCs some attention when faced with “abundant
information.” SRST Reply at 43; see also id. (“While
it need not necessarily conduct a ‘full and thorough’
analysis of each and every GC, it must deal with the
information in front of it.”).
The Tribe, however, offers no case law to support
its position. Other district courts in this circuit, moreover, have articulated the Corps’ obligations as it presents them here. See Sierra Club v. U.S. Army Corps
of Eng’rs, 990 F. Supp. 2d 9, 27 (D.D.C. 2013) (“When
a prospective permittee files a pre-clearance notice
[under the general permit process], the only thing left
to be done is for the Corps’s district engineers to verify
that the planned project does, in fact, fit within the
category of activities that the Corps has already authorized.”). Given the streamlining and efficiency

434a
goals behind the nationwide-permit program, this
view makes sense:
[F]orcing the Corps to perform an extensive
environmental review in the verification context under NWP 12 would (i) duplicate work
already performed at the nationwide permit
stage in pre-clearing this category of activities; (ii) contravene the purpose of the nationwide permit process; (iii) increase exponentially the documentation a permittee must
submit to the Corps, including numerous
items not specifically delineated as required
documentation in the General Conditions;
and (iv) multiply the delay and expense associated with verifications so as to render them
functionally indistinguishable from individual permit decisions, thus collapsing two conceptually distinct regulatory processes into
one.
Mobile Baykeeper, Inc. v. U.S. Army Corps of Eng’rs,
No. 14-32, 2014 WL 5307850, at *15 (S.D. Ala. Oct. 16,
2014); see also id. at *16 (“[T]he Corps was not required to study compliance with General Condition 7
before issuing NWP 12 verifications.”).
The Court thus agrees that the Corps need not
have investigated compliance with General Conditions 7 and 17 before issuing NWP verifications on the
DAPL crossing at Lake Oahe, and that its permitting
decision was not arbitrary and capricious. This conclusion, however, does not forever insulate the NWP
12 permitting decision from challenge. Dakota Access
has a duty to comply with these conditions if it wishes
to maintain its eligibility for a Nationwide Permit.

435a
*

*

*

To summarize its conclusions on Standing Rock’s
claims, therefore, the Court finds that the Corps’ decision on July 25, 2016, and February 3, 2017, not to
issue an EIS largely complied with NEPA. Yet there
are substantial exceptions: the agency failed to adequately consider the impacts of an oil spill on Standing Rock’s fishing and hunting rights and on environmental justice, and in February 2017, it did not sufficiently weigh the degree to which the project’s effects
are likely to be highly controversial in light of critiques of its scientific methods and data.
D. Remedy
So where does that leave us? The Court turns now
to the question of remedy. The cure for the Corps’
NEPA violation is governed by the APA, which provides that the reviewing court shall “hold unlawful
and set aside agency action, findings, and conclusions
found to be . . . arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.”
5 U.S.C. § 706(2)(A). In this Circuit, vacatur is the
“standard remedy” for a NEPA violation. Pub. Employees for Envtl. Responsibility v. U.S. Fish & Wildlife Serv., 189 F. Supp. 3d 1, 2 (D.D.C. 2016) (quoting
Humane Soc’y of U.S. v. Johanns, 520 F. Supp. 2d 8,
37 (D.D.C. 2007)); see also Realty Income Tr. v. Eckerd, 564 F.2d 447, 456 (D.C. Cir. 1977) (“[W]hen an
action is being undertaken in violation of NEPA, there
is a presumption that injunctive relief should be
granted against continuation of the action until the
agency brings itself into compliance.”). In other
words, the Court would vacate DAPL’s permits and
easement, thus forcing it to cease operations until the

436a
Corps fully complied with the aforementioned NEPA
requirements.
Such a move, of course, would carry serious consequences that a court should not lightly impose. In
fact, courts have discretion to depart from that presumptive remedy and decide not to vacate an EA,
FONSI, and corresponding authorizations pending
NEPA compliance. Allied-Signal, Inc. v. U.S. Nuclear
Regulatory Comm’n, 988 F.2d 146, 150-51 (D.C. Cir.
1993). “The decision whether to vacate depends on ‘the
seriousness of the order’s deficiencies (and thus the
extent of doubt whether the agency chose correctly)
and the disruptive consequences of an interim change
that may itself be changed.’” Id. (quoting Int’l Union,
United Mine Workers of Am. v. Fed. Mine Safety &
Health Admin., 920 F.2d 960, 967 (D.C. Cir. 1990)).
“[A] serious possibility that the [agency] will be able
to substantiate its decision on remand” cautions in favor of remanding rather than vacating. Id. at 151.
Here, Standing Rock argues that “[v]acatur is the
appropriate remedy,” SRST MSJ at 45, whereas Dakota Access counters that the Allied-Signal factors require remand without vacatur. See DA SRST Opp. at
44-45. These discussions, however, are quite brief,
and the Corps never even addresses the issue. This is
not surprising—absent knowledge of whether or to
what extent the Court would remand, the parties were
unable to fully address the Allied-Signal factors in
their summary-judgment briefs. That mystery now
solved, the Court will order the litigants to submit
briefing on whether remand with or without vacatur
is appropriate in light of the deficiencies herein identified and any disruptive consequences that would result given the current stage of the pipeline’s operation.

437a
As is set out in a contemporaneous Order, the Court
will discuss the schedule of that briefing and the remand at an upcoming status conference to be held
next week.
IV. Analysis of Cheyenne River’s Claims
The Standing Rock Sioux are not the only Tribe at
the table. The Court thus now turns to Cheyenne
River’s Motion for Partial Summary Judgment and
the Corps’ and Dakota Access’s Cross-Motions. Cheyenne River seeks summary judgment on four claims:
(1) The Corps’ issuance of the Section 408 permit was
arbitrary, capricious, and unlawful; (2) The Corps’ issuance of the MLA easement was arbitrary, capricious, and unlawful; (3) The Corps’ issuance of both
constituted a breach of trust responsibility; and
(4) The Corps issued both in violation of its pre-decisional consultation duty.
Before addressing each of these separately, a few
preliminaries: First, certain aspects of these claims
have been addressed in the Standing Rock analysis
above—namely, the sufficiency of the EA’s spill-risk
analysis and the nature of the Corps’ trust responsibilities and the Court will refer back to those conclusions rather than repeat them here. Second, in light
of the principles regarding extra-record evidence in
administrative-law cases discussed in Section
III.A.1.a, supra, the Court will consider only documents created on or before July 25, 2016, when evaluating the Corps’ Section 408 decision and only documents created on or before February 8, 2017, when assessing the Corps’ easement decision.

438a
A. Section 408 Decision
Section 408 of the Rivers and Harbors Act makes
it unlawful for a person to “take possession of or make
use of for any purpose, or build upon, alter, deface, destroy, move, injure, . . . or in any manner whatever impair the usefulness of any . . . work built by the United
States, . . . in whole or in part, for the preservation
and improvement of any of its navigable waters or to
prevent floods.” 33 U.S.C. § 408(a). The Corps “may,”
however, permit the alteration, permanent occupation, or use of such public works when, in its judgment, such activity (1) “will not impair the usefulness
of such work” and (2) “will not be injurious to the public interest.” Id. The Corps so concluded here. See
ECF No. 183-9 (Section 408 Decision Package) at 6.
Cheyenne River contends that those conclusions were
arbitrary, capricious, and contrary to law. In evaluating that argument, the Court considers the two Section 408 factors separately.
1. Impairment
As to the first prong, the Corps’ objective “is to ensure that the proposed alteration will not limit the
ability of the project to function as authorized and will
not compromise or change any authorized project conditions, purposes or outputs.” ECF No. 73-15 (Policy
and Procedural Guidance for Processing Requests to
Alter US Army Corps of Eng’rs Civil Works Projects
Pursuant to 33 USC 408, Engineering Circular 11652-216 ¶ 7.c.(4)(b)i. (2015)). To do so, “[a]ll appropriate
technical analyses including geotechnical, structural,
hydraulic and hydrologic, real estate, and operations
and maintenance requirements, must be conducted

439a
and the technical adequacy of the design must be reviewed.” Id. If the Corps concludes “at any time . . .
that the usefulness of the authorized project will be
negatively impacted,” its inquiry ends. Id.
To challenge the Corps’ decision that DAPL would
not impair the ability of the Lake Oahe project to function as authorized and would not compromise or
change any of its conditions, purposes, or outputs, the
Tribe first points to 33 U.S.C. § 701-1(b), a provision
of the Flood Control Act of 1944. Cheyenne River
reads § 701-1(b) to establish that consumptive uses of
Lake Oahe’s waters “may not be subrogated . . . to
non-consumptive uses,” and that no activity with the
potential to have an adverse effect on the water’s
use—e.g., an oil pipeline with some potential to leak—
may be lawfully authorized. See CRST MSJ at 11-12.
Section 701-1(b), however, does not apply here.
That provision provides:
The use for navigation, in connection with
the operation and maintenance of such works
herein authorized for construction, of waters
arising in States lying wholly or partly west
of the ninety-eighth meridian shall be only
such use as does not conflict with any beneficial consumptive use, present or future, in
States lying wholly or partly west of the
ninety-eighth meridian, of such waters for
domestic municipal, stock water, irrigation,
mining, or industrial purposes.
33 U.S.C. § 701-1(b) (emphasis added). As is clear
from the statutory language, the provision applies to
navigational uses of water, which DAPL is not. See
also 33 U.S.C. § 701-1 (stating federal policy is to

440a
“limit the authorization and construction of navigation works to those in which a substantial benefit to
navigation will be realized therefrom and which can
be operated consistently with appropriate and economic use of the waters of such rivers by other users”)
(emphasis added).
The Tribe next maintains that the Corps did not
adequately consider the risk of an oil spill or the environmental impacts of the pipeline; as a result, it could
not reasonably have concluded that DAPL would not
impair the purposes of the Lake Oahe project. Cheyenne River asserts, for example, that the Corps failed
to assess the risk of landslides after mitigation efforts,
the effects of a landslide or earthquake, or the impacts
of a spill on vegetation, recreation, water quality, or
the Tribe’s water intake. See CRST MSJ at 16-18. It
also points to the Missouri River Mainstem Reservoir
System Master Water Control Manual, which explains that Congress “authorized the System to be operated for the purposes of flood control, navigation, irrigation, power, water supply, water quality control,
recreation, and fish and wildlife.” Missouri River
Mainstem Reservoir System Master Water Control
Manual, U.S. Army Corps of Engineers (March 2006),
§ 1-02, http://www.nwd-mr.usace.army.mil/rcc/reports
/mmanual/MasterManual.pdf. Cheyenne River interprets the Manual to “make[] clear that the Corps lacks
authority to approve an oil pipeline crossing of the
Missouri River that could impair the beneficial consumptive uses of the river both present and future.”
CRST MSJ at 12; see also id. at 14 (“The Master Manual does not provide any authorization to the Corps to
permit the use of the Mainstem System for oil pipeline

441a
rights-of-way when they place any of the authorized
purposes at risk.”).
As the Court explained in Section III.A.1.b, supra,
however, considering the record as of July 25, 2016,
when the Corps issued the Section 408 permit, it had
taken a hard look at the risk of an oil spill and provided sufficient explanation to support its conclusion
that such a risk was low. The Corps’ July 2016 determination that the Lake Oahe project’s purposes would
not be impaired by DAPL’s construction and operation
was therefore not arbitrary or capricious. Nothing in
the Manual mandates a different result.
2. Injurious to Public Interest
As to the second prong, the Corps must compare
“[t]he benefits that reasonably may be expected to accrue from” a proposed alteration or use of the federal
project “against its reasonably foreseeable detriments.” Engineering Circular 1165-2-216 ¶ 7.c.(4)(b)ii.
“If the potential detriments are found to outweigh the
potential benefits, then it may be determined that the
proposed alteration is injurious to the public interest.”
Id. In making that evaluation, the Corps may consider factors such as “conservation, economic development, historic properties, cultural resources, environmental impacts, water supply, water quality, flood
hazards, floodplains, residual risk, induced damages,
navigation, shore erosion or accretion, and recreation.” Id.
Cheyenne River raises two challenges to the
Corps’ determination that permitting DAPL to cross
under Lake Oahe would not be injurious to the public
interest. First, the Tribe contends that it was improper for the Corps to consider “benefits to Dakota

442a
Access, the oil industry, and the economy generally”
in assessing the public interest. See CRST MSJ at 2021 (citing EA at 105-06 (stating that DAPL’s construction “would contribute more than $1 billion in direct
spending” on materials and “$195 million in easement
payments to landowners” with property crossed by the
pipeline, and “would provide a benefit to local merchants and vendors” and “temporary employment opportunities to the local workforce”)). This argument
fares poorly. The Corps’ Policy and Procedural Guidance on Section 408 expressly permits consideration
of “economic development” in determining a proposed
project’s benefits. See Engineering Circular 1165-2216 ¶ 7.c.(4)(b)ii.
Second, the Tribe argues that the Corps did not
explain how it “weighed the risks against the claimed
benefit,” CRST Reply at 17, failed to consider the consequences from an oil spill, see CRST MSJ at 18-19,
did not adequately consider landslide risk or the impacts of a spill on vegetation or recreation, id. at 1617, and never considered effects on Cheyenne River or
its water intake. See CRST Reply at 18-19. This argument gains more traction because, as the Court previously explained, see Sections III.A.1.c, III.A.2.b., supra, the Corps’ assessment of the impacts of a spill,
although largely adequate, fell short as to fishing
rights, hunting rights, and environmental justice. Because the Corps must submit its assessment of those
impacts upon remand, see Section III.D, supra, the
Court will await receipt of such information to decide
whether the agency’s conclusion that DAPL will not
be injurious to the public interest was arbitrary and
capricious.

443a
3. Other Arguments
Finally, in addition to its arguments regarding the
impairment and public-injury prongs, Cheyenne
River asserts that the Corps’ spill-risk and spill-impact conclusions were cursory, that the permit should
not have been granted absent an EIS, and that the
Corps did not satisfy its obligation to independently
review the EA. See CRST MSJ at 2, 10, 18-21. The
Court has already addressed the first two of these
points. See Sections III.A.1, III.A.2, III.B.1, supra. As
to the third, it is not persuaded.
CEQ regulations permit an applicant—here, Dakota Access—to prepare the EA as long as the agency
independently evaluates the information submitted,
“make[s] its own evaluation of the environmental issues[,] and take[s] responsibility for the scope and
content of the environmental assessment,” including
its accuracy. See 40 C.F.R. § 1506.5(a)-(b). Here, the
EA states that it was “prepared in accordance with”
those regulations, and that the Corps “independently
evaluated and verified the information and analysis
undertaken in this EA and takes full responsibility for
the scope and content contained herein.” EA at 1. The
record supports this assertion.
First, the Corps provided ample input to Dakota
Access on the proper EA drafting procedure and on its
substance. See ECF No. 183-3 (Email from Brent Cossette to Corps & Dakota Access Personnel, Mar. 5,
2015) (announcing start of “routine bi-weekly meetings to discuss the status of the Dakota Access Pipeline project”) at 2; ECF No. 183-4 (Email from Brent
Cossette to Monica Howard, Apr. 24, 2015) at 2 (advising Dakota Access that public and tribes had 30

444a
days to submit comments, company had to address
Corps’ comments, Corps could not grant Section 408
permit absent certain geotech investigation, and
Corps could not issue decision regarding historical
properties absent concurrence of North Dakota State
Historic Preservation Office); ECF No. 183-5 (Email
from Brent Cossette, Sept. 18, 2015) (soliciting comments from twenty-two Corps employees on Draft EA
and associated plans); ECF No. 183-12 (Email from
Brent Cossette to Larry Janis, Corps, Recreation &
Natural Resources Branch, May 6, 2016) (summarizing meeting with Dakota Access where Corps pushed
company to use different spill-model data and disagreed with its assessment that potential impact to water intakes did not need to be in EA); ECF No. 183-11
(Email from Brent Cossette to Tom Sigauw & William
Harlon, Dakota Access, May 11, 2016) (discussing
need for sufficient information “to ensure no negative
impacts on irrigation and water supply”); ECF No.
212-2 (ProjNet: Environmental Review of DAPL) (record of 178 comments from Corps); ECF No. 209-16 at
147-56 (EA Comment Matrix) (spreadsheet of Corps’
comments on Draft EA and Dakota Access’s responses); Section 408 Decision Package at 23 (confirming Dakota Access satisfactorily addressed geotechnical comments from Corps reviewers); ECF No.
183-10 (Geotechnical Investigation Package) at 13-16.
To illustrate the meaningful back-and-forth engagement between the Corps and Dakota Access
about the EA’s content, the Court highlights one comment on the draft EA from the Corps and the exchange it sparked. In June 2015, a Corps official
noted, “I did not see reference of a risk analysis for
pipeline spills in the EA. Recommend inclusion of

445a
such analysis into the EA due to the size and scope of
this transportation pipeline.” ECF No. 183-6 at 24
(Comment 6139320). After Dakota Access supplied
the spill model for Lake Oahe, the Corps asked the
company to “include booming strategies and collection
points for worst case scenario discharges” and “where
[it] would gain access via water for response.” Id. It
also asked Dakota Access to show how spill volume
and response times were calculated and to explain its
plans for “cultural up front inspections/clearances at
the control points.” Id. at 25. Several more comments,
document submissions by Dakota Access, and telephone calls between the company and the Corps followed. Id. at 25-26. The Corps only considered the
initial comment in May 2016, nearly a year later, after
Dakota Access agreed to insert the requested risk
analysis into the EA and to adopt certain mitigation
measures. Id. at 27.
Ultimately, seventeen different Corps officers are
listed as having been involved in the EA’s review, see
EA at 126, and a range of Corps personnel reviewed
the Section 408 application and certified that DAPL
would not be injurious to Lake Oahe or the public interest. See Section 408 Decision Package at 2, 5. On
this record, the Court concludes that the Corps met its
responsibility to make its own evaluation of the environmental issues and take responsibility for the scope
and content of the EA. See City of Roseville v. Norton,
219 F. Supp. 2d 130, 165-66 (D.D.C. 2002) (holding
agency satisfied 40 C.F.R. § 1506.5(a)-(b) where record showed contractor worked with agency employees
on EA and included “extensive copies of email communications between the agency staff discussing their
comments on, and edits of, the EA”).

446a
B. Easement Decision
Cheyenne River’s next claim is that the Corps’ issuance of the easement was arbitrary, capricious, and
inconsistent with the requirements of the Mineral
Leasing Act, 30 U.S.C. § 185. This stance makes minimal headway.
The Mineral Leasing Act was enacted by Congress
in 1920 “to promote wise development of [the nation’s]
natural resources and to obtain for the public a reasonable financial return on assets that ‘belong’ to the
public.” Devon Energy Corp. v. Kempthorne, 551 F.3d
1030, 1033 (D. C. Cir. 2008) (quoting California Co. v.
Udall, 296 F.2d 384, 388 (D.C. Cir. 1961)). It permits
“appropriate agency head[s]” to grant “Nights-of-way
through any Federal lands . . . for pipeline purposes
for the transportation of oil . . . to any applicant possessing” the requisite statutory qualifications. See 30
U.S.C. § 185(a).
The Tribe challenges the Corps’ decision to grant
Dakota Access a right-of-way to cross Lake Oahe on
the basis of three provisions in the MLA: (1) The Corps
did not adequately analyze whether the easement
would be “inconsistent with the purposes of the reservation,” as required by 30 U.S.C. § 185(b)(1), and instead simply cross-referenced its Section 408 approval; (2) The Corps failed to impose stipulations protecting the “interests of individuals living in the general area . . . who rely on the fish, wildlife, and biotic
resources of the area for subsistence purposes,” as required by 30 U.S.C. § 185(h)(2); and (3) The Corps did
not impose sufficient liability on Dakota Access, as required by 30 U.S.C. § 185(x). See CRST MSJ at 37-

447a
44; CRST Reply at 20-22. Each is discussed separately.
1. Section 185(b)(1)
Section 185(b)(1) of the MLA provides that “[a]
right-of-way through a Federal reservation”—i.e., federally owned or managed land, rather than a federal
Indian reservation “shall not be granted if the Secretary or agency head determines that it would be inconsistent with the purposes of the reservation.” 30
U.S.C. § 185(b)(1); see also Corps CRST MSJ at 22
n.11. Here, the reservation is the Lake Oahe project,
and its “Congressionally-authorized purposes . . . include flood control, navigation, hydropower, recreation, water supply, and water quality.” Henderson
Memo at 3.
The Tribe contends that the Corps ran afoul of
Section 185(b)(1) because it did not “articulate any rationale” for its conclusion that DAPL was consistent
with the purposes of the Lake Oahe project and improperly relied on the documents and analysis from its
Section 408 determination in undertaking its easement decision. See CRST MSJ at 40; Henderson
Memo at 3 (explaining Corps’ easement decision was
“supported by the Final EA . . . and various memoranda supporting the District Commander’s Section
408 approval”). But Cheyenne River cites no authority for the proposition that the Corps could not rely on
its Section 408 decision in making its easement decision, and the Court can think of no reason why that
would be so. While the approval procedures set out in
the RHA and the MLA are not identical, compare 33
U.S.C. § 408 with 30 U.S.C. § 185—a point acknowledged by the Corps in its briefing on Dakota Access’s

448a
now-dismissed cross-claim, see ECF No. 73 at 15-16,
21-22—the inquiry concerning project impairment, injury to the public interest, and inconsistency with project purpose are certainly related and largely overlapping.
Cheyenne River also contends that any pipeline
for which a right-of-way is sought that has the potential to have a high negative impact necessarily “is not
‘consistent’ with the authorized purposes” and cannot
satisfy Section 185(b)(1). See CRST MSJ at 40. In
other words, the MLA requires the Corps to reject
every right-of-way application that poses any level of
risk of serious harm because such risk renders the
right-of-way inconsistent with the purposes of the federal project. The Court cannot accept this view, which
is in direct tension with the text and purpose of the
statute. The MLA expressly contemplates that agencies may grant rights-of-way through federal lands for
pipelines used to transport “oil, natural gas, synthetic
liquid or gaseous fuels, or any refined product produced therefrom.” 30 U.S.C. § 185(a). Such pipelines
necessarily involve some level of risk; no reasonable
engineer, scientist, or agency official could assert that
a pipeline project—or any construction or transportation project, for that matter involves absolutely zero
risk. It would be nonsensical for Congress to have created a mechanism for granting rights-of-way for oil
pipelines if that mechanism could never be used.
Last, in arguing that DAPL specifically is inconsistent with the purposes of the Lake Oahe project,
the Tribe relies on its already-discussed position that
the Corps failed to consider impacts on most of the
Lake’s authorized purposes and underestimated the
risks posed by the pipeline. Because the Corps did not

449a
adequately consider certain effects of a spill should
one occur and because it did not, as of February 8,
2017, when it granted the easement, demonstrate
that it had considered the degree to which DAPL’s effects are likely to be highly controversial, see Sections
III.A.1.c, III.A.2.b, supra, the Court will reserve its ultimate conclusion on this issue until the Corps submits its additional analysis after remand.
2. Section 185(h)(2)
The Tribe next turns to Section 185(h)(2), which
instructs that the agency in charge of granting the
right-of-way
shall issue regulations or impose stipulations
which shall include, but shall not be limited
to: (A) requirements for restoration, revegetation, and curtailment of erosion of the surface of the land; (B) requirements to insure
that activities in connection with the right-ofway or permit will not violate applicable air
and water quality standards nor related facility siting standards established by or pursuant to law; (C) requirements designed to
control or prevent (i) damage to the environment (including damage to fish and wildlife
habitat), (ii) damage to public or private
property, and (iii) hazards to public health
and safety; and (D) requirements to protect
the interests of individuals living in the general area of the right-of-way or permit who
rely on the fish, wildlife, and biotic resources
of the area for subsistence purposes.
30 U.S.C. § 185(h)(2). According to Cheyenne River,
the Corps “ignore[d] the requirement to protect the

450a
‘interests of individuals living in the general area . . .
who rely on the fish, wildlife, and biotic resources of
the area for subsistence purposes’ because the EA
does not address impacts of an oil spill on vegetation,
recreational fishing, or land-based wildlife. See CRST
MSJ at 42 (quoting 30 U.S.C. § 185(h)(2)(D)); CRST
Reply at 21.
The Corps, however, imposed several stipulations
on the easement granted to Dakota Access. See Easement, Exh. D (listing 36 special conditions). Those
conditions relate to the construction, operation, and
maintenance of the pipeline in order to minimize the
risk of a spill and the effects from any spill that might
occur. Id. For example, the Corps has required Dakota Access to perform certain girth-weld and pressure-level tests; use specific pipe and field-joint coatings; install mainline valves to be remotely controllable and equipped with automatic-shutdown capabilities; install adequate pressure sensors; implement
particular mitigation measures to avoid impacts on
soils; protect against overpressure in the pipeline; install a cathodic protection system within six months;
perform interference and corrosion surveys within six
months of DAPL’s entry into operation; patrol the
pipeline at least twenty-six times per year; undertake
specific training exercises; establish a storage facility
for spill-response equipment; keep records of spill-response plans; and adopt all mitigation measures set
out in the EA. Id.
By aiming to reduce the likelihood of an oil spill
and to mitigate the impacts of a spill should one occur,
these requirements clearly constitute “requirements
designed to control or prevent . . . damage to the envi-

451a
ronment (including damage to fish and wildlife habitat)” and “to protect the interests of individuals living
in the general area . . . who rely on the fish, wildlife,
and biotic resources of the area for subsistence purposes.” 30 U.S.C. § 185(h)(2)(C)(i), (D). The Corps
thus satisfied its responsibilities under 30 U.S.C.
§ 185(h)(2).
3. Section 185(a)
Finally, the Tribe takes issue with the liability
provisions set out in the easement. The easement provides that Dakota Access “shall be strictly liable to the
United States for damage or injury which may arise
from or be incident to” its activities under the easement, and it limits strict-liability damages to $10 million per incident. See Easement, ¶ 12(a), (b). Liability
for damages in excess of $10 million is to be determined according to “ordinary rules of negligence.” Id.,
¶ 12(b). The easement also contemplates liability to
third parties—e.g., Standing Rock and Cheyenne
River. It states: “The Grantee does hereby accept liability, if any, imposed by Federal and state statutes to
third parties for injuries incurred in connection with
the use and occupancy of the pipeline right-of-way.”
Id., ¶ 12(c). Cheyenne River contends that these liability provisions are “an abdication of [the Corps’] fiduciary responsibility to protect the resources it pervasively regulates and controls,” CRST MSJ at 44,
and inconsistent with the requirements of 30 U.S.C.
§ 185(x). See CRST Reply at 22.
Setting aside the fiduciary-duty question, which
the Court deals with in Section IV.C, infra, the Tribe
is mistaken in believing that the Corps has run afoul
of 30 U.S.C. § 185(x). That provision permits the

452a
Corps to “impose stipulations specifying the extent to
which holders of rights-of-way and permits under [the
MLA] shall be liable to the United States for damage
or injury incurred by the United States in connection
with the right-of-way or permit.”
30 U.S.C.
§ 185(x)(1). It further permits the Corps to “impose a
standard of strict liability” and requires that if it does
so, it must “include a maximum limitation on damages commensurate with the foreseeable risks or hazards presented.” Id. § 185(x)(2), (4).
The Corps has complied with these requirements.
Although the Tribe asserts that “Dakota Access’[s]
statistics on the cost of cleanup of oil spills in the Environmental Justice Considerations Memo to the
Corps demonstrates that $10 million will not begin to
cover the cost of a cleanup,” CRST Reply at 22 (citing
ECF No. 203-1, Exh. BBB (Incident Rate Documents)
at 3), that memo demonstrates just the opposite. It
includes a table of PHMSA pipeline incidents between
1996 and 2015 in terms of number, fatalities, injuries,
total cost in current-year dollars, barrels spilled, and
net barrels lost. Between 1996 and 2015, there were
1,191 incidents with a total cost of $2,640,408,583,
making the average cost per incident $2,216,968—i.e.,
far less than $10 million. The $10 million strict-liability-per-incident figure, then, is certainly commensurate with the foreseeable risks or hazards presented
by an oil pipeline running under Lake Oahe.
C. Trust Responsibilities
Cheyenne River’s next claim is virtually identical
to one pursued by Standing Rock: the Corps’ issuance
of the Section 408 permit and the easement violated
its trust responsibility to protect the Tribe’s treaty

453a
rights. Cheyenne River contends that several sources
give rise to such a fiduciary obligation: the 1851 and
1868 Fort Laramie Treaties; the Oahe Taking Act,
Pub. L. 83-776, 68 Stat. 1191-1193 (1954); Winters v.
United States, 207 U.S. 564 (1908); the Master Water
Control Manual, § 7-01.1 (explaining one of four objectives behind development of Missouri River Mainstem
Reservoir System Water Control Plan was “to fulfill
the Corps’ responsibilities to Federally recognized
Tribes”); the Corps’ “pervasive[] and exclusive control
over the Missouri River . . . and the entire project
area”; 25 U.S.C. § 1632(a)(5) (“The Congress hereby
finds and declares that . . . it is in the interest of the
United States, and it is the policy of the United States,
that all Indian communities and Indian homes, new
and existing, be provided with safe and adequate water supply systems and sanitary sewage waste disposal systems as soon as possible.”); and 30 U.S.C.
§ 185(x)(1) (permitting federal agencies to impose
stipulations specifying permit holder’s liability to
United States for damage or injury incurred in connection with permit). See CRST MSJ at 5, 31-33, 35.
None of these sources, however, establishes specific fiduciary or other duties. Cheyenne River’s breach-oftrust cause of action thus meets the same fate as
Standing Rock’s. See Section III.B.2., supra.
D. Consultation
Last, Cheyenne River argues that the Corps violated various duties when it granted the Section 408
permit and easement absent the requisite pre-decisional tribal consultation. See CRST MSJ at 22-30.
Whereas Standing Rock—joined by Cheyenne River—
brought a failure-to-consult claim in its preliminaryinjunction motion under Section 106 of the National

454a
Historic Preservation Act, which requires a federal
agency to consult with Indian tribes that attach cultural or religious significance to property affected by
the agency’s “undertakings,” Standing Rock I, 205 F.
Supp. 3d at 7-8, Cheyenne River here takes a different
tack. Instead of relying on the NHPA, it invokes Department of Defense Instruction 4710.02 and NEPA’s
implementing regulations.
The Defense Instruction sets out “procedures for
DoD interactions with federally-recognized tribes”
and requires all organizational entities in the Department—e.g., the Corps to “involve tribal governments
early in the planning process for proposed actions that
may have the potential to affect protected tribal
rights, land, or resources.” Department of Defense Instruction 4710.02 (2006), §§ 1, 6.6, http://www.dtic.mil
/whs/directives/corres/pdf/471002p.pdf. “Early involvement,” the Instruction explains, “means that a tribal
government is given an opportunity to comment on a
proposed action in time for the tribal government to
provide meaningful comments that may affect the decision.” Id. § 6.6. If an action “ha[s] the potential to
significantly affect protected tribal resources, tribal
rights, or Indian lands,” the agency is to “[c]onsult
with federally-recognized tribal governments on a
government-to-government basis.” Id. § 5.3.4 (emphasis added); see also id. §§ 6.1-6.5. Similarly, NEPA’s
implementing regulations require agencies to “consult[] early with appropriate State and local agencies
and Indian tribes and with interested private persons
and organizations” when actions are planned by private applicants. See 40 C.F.R. § 1501.2(d)(2). Based
on the record of communication between the Corps

455a
and Cheyenne River in the lead-up to the EA’s publication in July 2016, the Court concludes that the
Corps did endeavor to consult early with the Tribe and
gave it the opportunity to offer meaningful comments
on the proposed crossing at Lake Oahe. It thus need
not address the Corps’ alternative contention that the
DoD Instruction and NEPA’s implementing regulations do not impose binding consultation duties. See
Corps CRST MSJ at 39.
The Corps first contacted Cheyenne River about
DAPL in October 2014, when it sent a letter with information about proposed soil borings and maps illustrating portions of the pipeline and nearby cultural
sites. See ECF No. 185-1, Exh. MM (Form Letter from
Corps, Oct. 24, 2014); ECF No. 185-1, Exh. NN (Letter
from Steve Vance to Richard Harnois, Aug. 17, 2015)
(acknowledging receipt of Corps’ October 2014 letter);
EA at 80. The letter invited “comments or concerns
regarding this project” within 30 days, see Form Letter, but Cheyenne River did not respond until March
23, 2015, when the Corps’ Regulatory Project Manager in the South Dakota Regulatory Office spoke
with Steve Vance, Cheyenne River’s Tribal Historic
Preservation Officer, by phone. See Standing Rock II,
2017 WL 908538, at *5; ECF No. 218-2 at 154 (Email
from Jeff Breckenridge, Regulatory Project Manager,
South Dakota Regulatory Office, to Corps Personnel,
Mar. 23, 2015). Vance stressed the Tribe’s request for
formal consultation, involvement in the NHPA Section 106 process, and ability “to review any
EA’s/NEPA documentation for the project.” Id. Several months then passed, however, without any comments submitted from Cheyenne River.

456a
Richard Harnois, the Corps’ Senior Field Archaeologist, spoke with Vance on August 17, 2015, to “express [his] concerns that [the Corps] had gotten no
comments back yet.” ECF No. 183-15 (Richard Harnois Notes, Aug. 17, 2015). Vance explained that he
had been “promoting a coordinated response from the
tribes through SRST,” but Harnois encouraged the
Tribes to respond individually, as “the way [the Corps]
see[s] it, each response is like a vote—the more the
better.” Id. Vance committed to submitting a letter
and requested an onsite meeting with “all of the interested tribal parties to inspect the crossing alignment
and initiate a discussion of the pipeline as a whole.”
Id. His letter, sent that same day, acknowledged the
“opportunity to comment [on] the proposed Dakota Access Pipeline . . . project,” asked whether Standing
Rock’s previously submitted questions and comments
had been addressed, and expressed concerns about,
inter alia, impacts of DAPL on birds, fish, and wildlife,
as well as pipeline corrosion, faulty welding, and oil
spills. ECF No. 183-14 (Letter from Steve Vance to
Richard Harnois, Aug. 17, 2015). Julie Price, Manager of the Corps’ Cultural Resource Program, later
followed up with Vance to thank him for his letter and
inform him that a copy of the Draft EA would be “distributed for Tribal . . . comments in mid-December,
2015.” ECF No. 183-17 (Letter from Julie Price, Manager, Cultural Resource Program, Corps, to Steve
Vance, Nov. 19, 2015).
Around the same time Harnois was reaching out
to Vance, Col. John Henderson, the Corps’ Omaha
District Commander, sent a letter to Harold Frazier,
Cheyenne River’s Chairman. See ECF No. 218-2 at
14-16 (Letter from John Henderson to Harold Frazier,

457a
Sept. 3, 2015). Henderson described the DAPL project
and explained that the purpose of his letter was “to
initiate Section 106 consultation and review, determine [Frazier’s] interest in consulting, . . . and to
gather information that will assist the Corps in identifying historic properties.” Id. at 14. He also noted
that DAPL was “currently working to obtain the necessary easements for crossing federal lands, as well
as” authorization under Section 408 of the RHA, and
advised Frazier that “consultation on the project has
also been initiated as part of the Corps Section 408
review process for the areas located on Corps Project
Lands.” Id. at 16. Henderson requested “engagement
and/or comments by September 30, 2015,” and supplied the contact information for three different Corps
officials. Id.
Martha Chieply, the Corps’ Regulatory Chief for
the Omaha District, sent a follow-up letter to Frazier
at the end of November 2015 to notify him of an NHPA
Section 106 consultation meeting that was to be held
on December 8-9, 2015, in Sioux Falls, South Dakota.
See ECF No. 183-18 (Letter from Martha Chieply to
Harold Frazier, Nov. 20, 2015). She also emphasized
the Corps’ interest in hearing from the Tribe about
“any culturally significant concerns that may affect”
areas within the Corps’ jurisdiction along the pipeline’s route. Id.
When the Corps released the Draft EA on December 8, 2015, it sent a notification to the Tribe and requested comments by January 8, 2016. See ECF No.
185-1, Exh. VV (Declaration of Jonathan Shelman,
Environmental Resource Specialist, Corps, Aug. 18,
2016), ¶ 8; EA at 1.

458a
Shortly thereafter, Vance attended the December
consultation meeting, at which five Corps officials and
Dakota Access personnel were present. See ECF No.
183-25 (Dakota Access Tribal Consultation Meeting
Roster, Dec. 8, 2015); ECF No. 218-1 at 108 (DAPL
Tribal Consultation Meeting Agenda); ECF No. 218-1
at 111 (Dakota Access Tribal Consultation Meeting,
Dec. 8, 2015). According to the Corps’ “[s]ummary of
meeting results,” Dakota Access agreed to provide the
Tribes with inadvertent-discovery plan drafts and “information related to spill response plans” by December 18, and the Tribes agreed to review the data
within 30 days. See ECF No. 218-1 at 112 (Email from
Joel Ames, Tribal Liaison, Corps, to Corps Personnel,
Dec. 10, 2015).
Vance then attended two more meetings—one on
January 25, 2016, and one on February 18-19, 2016,
held at Ponca Tribal Headquarters. See ECF No. 1851, Exh. DD (Declaration of Martha Chieply, Aug. 18,
2016), ¶¶ 21-22. Cheyenne River maintains that
“[t]he January and February 2016 meetings were . . .
Section 106 meetings only,” CRST Reply at 41, but the
agenda for the February meeting lists a “Section 408
and Draft EA Update” to be given by “Brent Cossette,
Omaha 408 Coordinator.” ECF No. 218-2 at 1 (DAPL
Tribal Consultation Agenda, Feb. 18-19, 2016). A
transcript from that meeting confirms that the Corps’
role under Section 408 and concerns relating to that
permit were discussed. See ECF No. 143-1 (Transcript of DAPL Meeting, Feb. 18-19, 2016) at 1, 4.
Vance also used that meeting to communicate to the
Corps the Tribe’s preference that the agency undertake an EIS rather than an EA, see ECF No. 183-26
(Tribal Consultation Meeting Notes, Feb. 18-19,

459a
2016), and its concerns about DAPL’s impact on water
quality, fish, and birds. See Transcript of DAPL Meeting at 3-4.
After that meeting, Chieply and two other Corps
personnel “agreed to meet again” with Standing Rock
and Cheyenne Rock together, as Vance and Standing
Rock’s Tribal Archaeologist “wanted to discuss specific cultural resource issues of importance to their
Tribes.” Chieply Decl, ¶ 24. As a result of concerns
Standing Rock expressed at that meeting regarding
certain tribal cultural resources, including burial
sites, at the James River crossing, the Corps successfully urged Dakota Access to move the pipeline’s route
to avoid them. Id.
In addition to those meetings, the Corps vainly
tried for several months to contact and meet with
Chairman Frazier. In response to a voicemail Frazier
left for Joel Ames, the Corps’ Tribal Liaison, on February 8, Ames left several phone messages with Frazier’s secretary, called his cell phone, sent multiple
emails, and even asked Vance and the Tribe’s Vice
Chairman for help, all to no avail. See ECF No. 18322 (Emails from Joel Ames to Harold Frazier, Feb.
22—Mar. 7, 2016) (listing five emails from Corps to
Frazier requesting phone call); ECF No. 185-1, Exh.
EE (Declaration of Joel Ames, Aug. 18, 2016), ¶¶ 2324 (describing repeated attempts to return Frazier’s
Feb. 8, 2016, voicemail), ¶ 26 (explaining how, in response to Vance’s request that the Corps consult with
Cheyenne River, he told Vance of his efforts to contact
Frazier, and Vance “agreed to help make it happen”);
ECF No. 218-1 at 292 (Emails between Julie Price and
Larry Janis, Mar. 3, 2016) (discussing Price’s commu-

460a
nications with Vance and Frazier’s secretary to arrange meeting with Frazier); ECF No. 185-1, Exh. QQ
(Email from Joel Ames to Corps Personnel, May 9,
2016) (stating Ames had recently met Cheyenne
River’s Vice Chairman and communicated that he was
trying to reach Chairman Frazier to arrange meeting). On May 6, Henderson sent an email to Frazier
explaining that the Corps had “been unsuccessful in
identifying any potential meeting dates” with the
Tribe and expressing his desire “to meet to discuss not
only the DAPL project, but any other topics you may
want to discuss.” ECF No. 183-21 (Letter from John
Henderson to Harold Frazier, May 6, 2016).
Vance sent two letters to the Corps in May that
articulated concerns about DAPL’s impact on the
Tribe’s historic sites, expressed frustrations with the
lack of consultation to date, and repeated Standing
Rock’s comments that the draft EA was “insufficient
for oil pipelines” and an EIS should be completed. See
ECF No. 185-1, Exh. II (Letter from Steve Vance to
Richard Harnois, May 2, 2016); ECF No. 183-19 (Letter from Steve Vance to John Henderson, May 19,
2016). Frazier, however, did not respond to the Corps’
repeated outreach efforts until June, when he sent a
letter stating that it had not initiated the requisite
consultation and that the draft EA insufficiently analyzed DAPL’s impact on the Tribe’s cultural resources
and historic sites and did not contain “proper environmental analysis.” ECF No. 183-20 (Letter from Harold Frazier, June 3, 2016). The Corps responded to
these letters with “recent Question and Answer summar[ies]” from recent consultation meetings that addressed, inter alia, actions the Corps was considering

461a
regarding DAPL, its expected decisionmaking timeline, and the impact of HDD on cultural resources.
See ECF No. 183-23 (Letter from Martha Chieply to
Steve Vance, June 13, 2016); ECF No. 185-1, Exh. JJ
(Letter from John Henderson to Harold Frazier, June
22, 2016).
When the Corps published the EA in July 2016, it
included an appendix with the various comments received in response to the public notice of the Draft EA.
See ECF No. 172-4 (Appendix J) at 38-58. No comments from Cheyenne River appear in the appendix,
and the EA does not list Cheyenne River as a consulting party on the EA. See EA at 111-14 (list of “all individuals and agencies consulted during preparation
of the EA”). On this point, the Court must briefly digress from its review of the communication between
the Corps and the Tribe. Cheyenne River protests its
exclusion from Appendix J “even though the Corps received comments from the Tribe” as evidence of “the
length to which the Corps went to exclude the Tribe
from its analysis.” CRST MSJ at 29. Rather than responding, as Dakota Access did, that the Tribe did not
submit any timely comments to the Draft EA, but rather sent letters much later, see DA CRST MSJ at 2,
5, the Corps puzzlingly accuses Cheyenne River of
misstating the facts. “Appendix J explicitly states
Cheyenne River provided comments and also states
those comments,” it asserts. See Corps CRST MSJ at
35 n.18. But the Corps cites to comments from Northern Cheyenne, an entirely different tribe. See CRST
Reply at 43 n.19. The Court trusts this error is simply
a clerical oversight, albeit one with unfortunate connotations regarding how distinct Tribes may be perceived.

462a
Appendix J confusion aside, the record clearly indicates that the Corps solicited Cheyenne River’s
views on the DAPL project well before publishing the
EA and issuing the Section 408 permit and easement,
and communicated regularly with Vance and Frazier
via phone calls, letters, and in-person meetings.
These actions were sufficient to satisfy the early-comment and consultation goals articulated in the Defense Department Instruction and NEPA’s implementing regulations.
Cheyenne River’s protests to the contrary do not
persuade the Court otherwise. First, the cases on
which the Tribe relies to demand a more robust consultation process rest on federal statutes governing
the Bureau of Indian Affairs’ consultation responsibilities and the NHPA’s Section 106 substantive-consultation requirements, not the DoD Instruction and
NEPA. See CRST MSJ at 23-24, 27-28 (citing Wyoming v. Dep’t of Interior, 136 F. Supp. 3d 1317, 134546 (D. Wyo. 2015), vacated and remanded sub nom.
Wyoming v. Sierra Club, No. 15-8126, 2016 WL
3853806 (10th Cir. July 13, 2016); Cheyenne River
Sioux Tribe v. Jewell, 205 F. Supp. 3d 1052, 1057-58
(D.S.D. 2016); Quechan Tribe of Fort Yuma Indian
Reservation v. Dep’t of Interior, 755 F. Supp. 2d 1104
(S.D. Cal. 2010); Yankton Sioux Tribe v. Kempthorne,
442 F. Supp. 2d 774, 784 (D.S.D. 2006)).
The Tribe also argues that many of the contacts
from the Corps were focused on the protection of cultural, religious, and historic sites implicated by Section 106 of NHPA and thus cannot “constitute consultation on the impact of DAPL on trust and treaty resources under NEPA.” CRST MSJ at 30; see also
CRST Reply at 40. The Corps, however, repeatedly

463a
invited the Tribe to share comments on the project
that went beyond Section 106 concerns. And NHPA’s
implementing regulations encourage federal agencies
“to coordinate compliance” with Section 106 and
NEPA. See 36 C.F.R. § 800.8(a)(1); see also id. (“Agencies should consider their section 106 responsibilities
as early as possible in the NEPA process, and plan
their public participation, analysis, and review in
such a way that they can meet the purposes and requirements of both statutes in a timely and efficient
manner.”); Apache Survival Coal. v. United States, 21
F.3d 895, 906 (9th Cir. 1994) (“NHPA’s implementing
regulations contemplate that NEPA and NHPA review should be integrated closely.”).
Cheyenne River further maintains that the Corps
made its decision on the Section 408 permit long before the EA was published, thus truncating the time
period for meaningful comment. See CRST MSJ at
24-25. Its support for that proposition is wanting.
The Tribe relies, for example, on a December 10, 2015,
memorandum from the Chief of the Corps’ Geotechnical Engineering and Sciences Branch that it characterizes as “sign[ing] off’ on the permit, and points to
the lack of comments from the Water Control and Water Quality Branch on the draft EA and the absence of
a “Record of Decision for the Recreation and Natural
Resource Branch.” Id. at 24-25. The cited memo, however, simply explains that the thirteen “geotechnical
comments . . . generated during the technical review”
had been “satisfactorily addressed by the Engineer-ofRecord, Dakota Access LLC and GeoEngineers” and
so “were closed out.” ECF No. 209-10 at 73. In direct
conflict with the Tribe’s early-decision claim, it states:

464a
“The comments herein pertain only to the geotechnical and flowable easement issues related [to] HDD
and Geotechnical investigations in the floodway and
do not constitute USACE approval of any permits that
may be required.” Id. (emphasis added). The Water
Quality Branch, moreover, did review the Lake Oahe
crossing. See Section 408 Decision Package at 1.
The Tribe last argues that it could not have been
adequately consulted prior to the permitting decisions
because the Corps did not provide it with the Scoping
Comments in Appendix J or the environmental-justice-considerations memo until December 2016, and it
did not release the Spill and Analysis and Facility Response Plans to the Tribe’s experts until February
2017. See CRST MSJ at 28; CRST Reply at 40. As
the Court has previously explained, however, some of
those documents were appropriately withheld from
public disclosure. Standing Rock III, 2017 WL
1316918, at *5-6. More important, Cheyenne River
does not explain how lacking access to those documents hindered its ability to meaningfully comment
and consult on the EA when it was given access to the
draft several months before the final version was published and offered repeated access to Corps personnel.
*

*

*

In sum, then, the Court reaches the same decision
on Cheyenne River’s claims as it did on Standing
Rock’s. Aside from the discrete issues that will be the
subject of remand, the Court concludes that the Corps
complied with its statutory responsibilities. In addition, it will similarly permit Cheyenne River to participate in the briefing on vacatur pending remand, as
set forth in Section III.D, supra.

465a
V. Conclusion
For the foregoing reasons, the Court will grant in
part and deny in part Standing Rock’s Motion for Partial Summary Judgment and grant in part and deny
in part the Corps’ corresponding Cross-Motion for
Partial Summary Judgment. The Court also will deny
in part Cheyenne River’s Motion for Partial Summary
Judgment and defer a decision on those claims that
may be affected by the remand ordered in response to
Standing Rock’s Motion. It accordingly grants in part
the corresponding Cross-Motions for Partial Summary Judgment from the Corps and Dakota Access. A
contemporaneous Order so stating will issue this day.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: June 14, 2017

